No. 19In the

Supreme Court of the United States
DENNIS J. MALOUF,
Petitioner,
v.
SECURITIES AND EXCHANGE COMMISSION,
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Tenth Circuit

PETITION FOR A WRIT OF CERTIORARI
Linda E. Maichl
Ulmer & Berne LLP
600 Vine Street,
Suite 2800
Cincinnati, OH 45202
(513) 698-5000

Kenneth F. Berg
Counsel of Record
A lan M. Wolper
Heidi E. VonderHeide
Ulmer & Berne LLP
500 West Madison Street,
Suite 3600
Chicago, IL 60661
(312) 658-6500
kberg@ulmer.com

Counsel for Petitioner
January 17, 2020
293361

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
Numerous federal statutes require administrative
exhaustion to preserve an issue for review by an Article
III court. The Securities Exchange Act (“SEA”), 15 U.S.C.
§ 78y(c)(1), and the Investment Advisers Act (“IAA”),
15 U.S.C. § 80b-13(a), require exhaustion but include an
express exception where there were “reasonable grounds”
for not urging the objection before the Securities and
Exchange Commission (“SEC”). In Petitioner’s case, the
Tenth Circuit’s decision, that there were no “reasonable
grounds” to excuse Petitioner’s failure to urge a valid
Appointments Clause objection before the SEC, conflicts
with decisions of the D.C. Circuit and the Sixth Circuit as
to similar statutory exceptions to exhaustion.
Other federal statutes, like the Securities Act (“SA”),
15 U.S.C. § 77i(a), require exhaustion but do not have any
express exceptions. In Petitioner’s case, the Tenth Circuit
concluded it “need not decide” if § 77i(a) is a “jurisdictional
condition” or a “claim processing” rule because either
way it lacked discretion to excuse Petitioner’s failure. No
court has decided the important and recurring questions
whether exhaustion is a “claim-processing” rule and
whether exhaustion is subject to “equitable exceptions.”
The questions presented are:
1.

What constitutes “reasonable grounds,” as used in
SEA § 78y(c)(i) and IAA § 80b-13(a), and in other
federal statutes, to excuse a failure to urge before
the SEC a valid Appointments Clause objection
to an unconstitutionally selected administrative
law judge?

ii
2.

Is an administrative exhaustion requirement like
that in SA § 77i(a) without any express exceptions,
and in other federal statutes, a “jurisdictional
condition” to review of a valid Appointments
Clause objection by an Article III court or a
“claim-processing” rule?

3.

Whether “equitable exceptions” may excuse noncompliance with the administrative exhaustion
requirement in § 77i(a) of the SA and in other
federal statutes that do not contain any express
exceptions?

iii
PARTIES TO THE PROCEEDINGS
AND RULE 29.6 STATEMENT
All parties to the proceedings are listed in the
caption. There are no parties that are nongovernmental
corporations.

iv
RELATED CASES STATEMENT
• Malouf v. Securities and Exchange Commission,
No. 16-9546, U.S. Court of Appeals for the Tenth
Circuit. Judgment entered Aug. 13, 2019. Petition
for rehearing denied Oct. 25, 2019.

v
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDINGS
AND RULE 29.6 STATEMENT . . . . . . . . . . . . . . . . . .  iii
RELATED CASES STATEMENT  . . . . . . . . . . . . . . . . iv
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . v
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . .  viii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . .  ix
CITATIONS TO OPINIONS BELOW . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONST I T U T IONA L A N D STAT U T ORY
PROVISIONS INVOLVED . . . . . . . . . . . . . . . . . . . . . 1
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 4
A. The Public Record Shows That Before
The SEC Instituted Proceedings Against
Petitioner It Had a Predetermined Position
on the A ppointments Clause Objection  . . . . . . 4

vi
Table of Contents
Page
B. The Charges Against Mr. Malouf . . . . . . . . . . . 5
C. T h e 2 015 I n i t ia l D e c isio n b y t h e
Unconstitutionally-Selected ALJ . . . . . . . . . . 7
D. The SEC’s Final Decision in Mr. Malouf’s
Case and the SEC’s Continued Rejection
of the A ppointments Clause Challenge in
Other Cases From 2014-2016  . . . . . . . . . . . . . . . 8
E. Bandimere and Lucia Change the Law as to
SEC ALJs, and Mr. Malouf Immediately
Lodged an Appointments Clause Objection
in the Court of A ppeals  . . . . . . . . . . . . . . . . . . . 9
F.

The Tenth Circuit Denied Mr. Malouf’s
Petition For Review Notwithstanding that
It was the Product of an Unconstitutional
A dministrative Tribunal . . . . . . . . . . . . . . . . . . 11

G. Mr. Malouf Filed Timely Post-Decision
Petitions  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
REASONS FOR GRANTING THE PETITION . . . . 13
A. T he L ower C ourts Need Guidance on
W hat Constitutes “Reasonable Grounds”
a n d o t h er S tat u t ory E xcep t ions t o
Excuse Non-compliance with Exhaustion
Requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

vii
Table of Contents
Page
1.

The Tenth Circuit’s Decision that there
were No “Reasonable Grounds” Conflicts
with the D.C. Circuit’s and Sixth Circuit’s
Decisions as to Similar Statutory
Exceptions in Other Statutes . . . . . . . . . . . 13

2.

The Public Record Shows there were
“Reasonable Grounds” to Excuse
Mr. Malouf’s Non-compliance with
the Exhaustion Requirement Based
on the SEC’s Litigation Conduct
From 2014-2018  . . . . . . . . . . . . . . . . . . . . . . 18

B. T he C ou rt S hou ld D ecide t h at t he
Exhaustion Requirement in the Securities
Act and in Other Similar Federal Statutes
Is a “Claims-Processing” Rule . . . . . . . . . . . . . 21
C. Whether “Equitable Exceptions” M ay
Excuse non- compliance with a ClaimP rocessing Rule is an I mportant and
R ecu rring Q u est ion t h at Wa rr a n t s
Immediate Resolution by this Court  . . . . . . . . 24
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

viii
TABLE OF APPENDICES
Page
APPENDIX A — OPINION OF THE UNITED
STATES COURT OF APPEALS FOR THE
TENTH CIRCUIT, FILED AUGUST 13, 2019  . . . 1a
APPENDIX B — ORDER OF THE UNITED
STATES SECURITIES AND EXCHANGE
COMMISSION, DATED AUGUST 22, 2018 . . . . . 44a
A PPENDI X C — FINA L DECISION OF
THE UNITED STATES SECURITIES
AND EXCHANGE COMMISSION, DATED
JULY 27, 2016 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 55a
APPENDIX D — INITIAL DECISION OF
THE UNITED STATES SECURITIES
AND EXCHANGE COMMISSION, DATED
APRIL 7, 2015  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 145a
APPENDIX E — DENIAL OF REHEARING
OF THE UNITED STATES COURT OF
APPEALS FOR THE TENTH CIRCUIT,
FILED OCTOBER 25, 2019 . . . . . . . . . . . . . . . . . . 244a
APPENDIX F — RELEVANT CONSTITUTIONAL
PROVISIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 246a
APPENDIX G — RELEVANT STATUTORY
PROVISIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 247a

ix
TABLE OF CITED AUTHORITIES
Page
CONSTITUTIONAL PROVISIONS
U.S. Const., art. II, § 2, cl. 2
(Appointments Clause)  . . . . . . . . . . . . . . . . . . . passim
CASES
Action for Children’s Television v. FCC,
564 F.2d 458 (D.C. Cir. 1977) . . . . . . . . . . . . . . . . . . . 22
Arbaugh v. Y&H Corp.,
546 U.S. 500 (2006) . . . . . . . . . . . . . . . . . . . . . . . . 22, 23
Bandimere v. SEC,
844 F.3d 1168 (10th Cir. 2016)  . .  2, 9, 10, 12, 17, 19, 20
Duka v. SEC,
2015 WL 4940057 (S.D.N.Y. Aug. 3, 2015) . . . . . . . . . 5
Freytag v. Commissioner of Internal Revenue,
501 U.S. 868 (1991)  . . . . . . . . . . . . . . . . . . .  4, 12, 17, 18
Gray Financial Group, Inc. v. SEC,
Case No. 15-CV-492, Mem. of Law In Support
of Def.’s Motion to Dismiss (Dkt #14-1)
(N.D. Ga. Apr. 20, 2015) . . . . . . . . . . . . . . . . . . . . . . . . 4
Hamer v. Neighborhood Housing Services
of Chicago,
138 S. Ct. 13 (2017)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

x
Cited Authorities
Page
Harper v Virginia Dept. of Taxation,
509 U.S. 86 (1993) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
Henderson v. Shinseki,
562 U.S. 428 (2011)  . . . . . . . . . . . . . . . . . . . . . 22, 24, 25
Hill v. SEC,
114 F. Supp. 3d 1297 (N.D. Ga. 2015),
rev’d, 825 F.3d 1236 (11th Cir. 2016) . . . . . . . . . . . . 4, 5
In re Bandimere,
Release No. 9972 (S.E.C. Release No.),
2015 WL 6575665 (Oct. 29, 2015) . . . . . . . . . . . . . . . . . 8
In re Haring Advisory LLC,
Release No. 4600 (S.E.C. Release No.),
2017 WL 66592 (Jan. 6, 2017) . . . . . . . . . . . . . . . . . . . 10
In re Hughes,
Release No. 4048 (Exchange Act Release No.),
1948 WL 29537 (Feb. 18, 1948), aff’d sub nom.
Hughes v. SEC, 174 F.2d 969 (D.C. Cir. 1949) . . . . . . 6
In re Lucia,
Release No. 4190 (S.E.C. Release No.),
2015 WL 5172953 (Sep. 3, 2015) . . . . . . . . . . . . . . . . . . 8
In re Malouf,
Release No. 766 (S.E.C. Release No.),
2015 WL 1534396 (Apr. 7, 2015)  . . . . . . . . . . . . . . . 1, 7

xi
Cited Authorities
Page
In re Malouf,
Release No. 4463 (S.E.C. Release No.),
2016 WL 4035575 (Jul. 27, 2016)  . . . . . . . . . . . . . . . 1, 8
In re Timbervest, LLC,
Release No. 4197 (S.E.C. Release No.),
2015 WL 5472520 (Sep. 17, 2015) . . . . . . . . . . . . . . . . . 8
Jones v. Secretary of Labor,
898 F.3d 669 (6th Cir. 2018) . . . . . . . . . . . . . . . . .  16, 17
Kontrick v. Ryan,
540 U.S. 443 (2004) . . . . . . . . . . . . . . . . . . . . . . . . 22, 25
Landry v. FDIC,
204 F.3d 1125 (D.C. Cir. 2000) . . . . . . . . . . . . . . . . . . . 4
Lorenzo v. SEC,
139 S. Ct. 1094 (2019)  . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Lucia v. SEC,
832 F.3d 277 (D.C. Cir. 2016), pet. reh. denied
en banc, 868 F.3d 1021 (Jun. 26, 2017)  . . . . . . . . . . 8, 9
Lucia v. SEC,
138 S. Ct. 2044 (2018) . . . . . . . . .  2, 9, 10, 12, 17, 19, 20
Malouf v. SEC,
933 F.3d 1248 (10th Cir. 2018) . . . . . . . . . . . . . . passim

xii
Cited Authorities
Page
Manrique v. United States,
137 S. Ct. 1266 (2017) . . . . . . . . . . . . . . . . . . . . . . . . . 25
NLRB v. Noel Canning,
573 U.S. 513 (2014) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
NLRB v. Relco Locomotive, Inc.,
734 F.3d 764 (8th Cir. 2013) . . . . . . . . . . . . . . . 15-16, 17
Noel Canning v. NLRB,
705 F.3d 490 (D.C. Cir. 2013), aff’d on
other grounds, 134 S. Ct. 2550 (2014) . . . . . .  15, 16, 17
Reed Elsevier, Inc. v. Muchnick,
559 U.S. 154 (2010)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
Timbervest, LLC v. SEC,
Case No. 15-CV-2106, SEC Opp. to Plaintiffs’
Motion for Preliminary Injunction (Dkt #18)
(N.D. Ga. Jun. 29, 2015)  . . . . . . . . . . . . . . . . . . . . . . . . 4
United States v. L.A. Tucker Truck Lines, Inc.,
344 U.S. 33 (1952)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
United States v. Kwai Fun Wong,
135 S. Ct. 1625 (2015) . . . . . . . . . . . . . . . . . . . . . . 22, 26
Washington Assoc. for Television and Children
v. FCC,
712 F.2d 677 (D.C. Cir. 1983) . . . . . . . . . . . . . . . . 13- 15

xiii
Cited Authorities
Page
STATUTES AND RULES
Federal Tort Claim Act, 28 U.S.C. § 2401(b)  . . . . . . . . 26
Investment Advisers Act, 15 U.S.C. § 80b-6(2)  . . . . . . . 6
Investment Advisers Act, 15 U.S.C. § 80b-13(a) . . passim
Investment Advisers Act, 15 U.S.C. §§ 206-207
and Rules 206(4)-(1)(a)(5) . . . . . . . . . . . . . . . . . . . . . . . 7
Mine Safety Act, 30 U.S.C. § 816(a)(1) . . . . . . . . . . . . . .  17
National Labor Relations Act, 29 U.S.C. § 160(e) . . . . 16
Securities Act, 15 U.S.C. § 77i(a)  . . . . . . . . . . . . . . passim
Securities Act, 15 U.S.C. §§ 17(a)(1)-(3) . . . . . . . . . . . . . . 7
Securities Exchange Act, 15 U.S.C. § 78y(a)(1)  . . . . . . . 9
Securities Exchange Act, 15 U.S.C. § 78y(c)(1) . . . passim
Securities Exchange Act, 15 U.S.C. § 10b and
Rules 10b-5(a)-(c) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Veterans Act, 38 U.S.C. § 7266(a) . . . . . . . . . . . . . . . . . . 25
ORDERS
In re Pending Administrative Proceedings,
Relea se No. 49 9 3 (SEC Relea se No.),
2018 WL 4003609 (Aug. 22, 2018) . . . . . . . . . . . . . . . 11

1
CITATIONS TO OPINIONS BELOW
The SEC administrative law judge’s Initial Decision is
located at In re Malouf, Release No. 766 (S.E.C. Release
No.), 2015 WL 1534396 (Apr. 7, 2015).
The SEC’s Final Decision is located at In re Malouf,
Release No. 4463 (S.E.C. Release No.), 2016 WL 4035575
(Jul. 27, 2016).
The Tenth Circuit Court of Appeals’ opinion is located
at Malouf v. SEC, 933 F.3d 1248 (10th Cir. 2019).
JURISDICTION
Pursuant to the Securities Act, 15 U.S.C. § 77i(a), the
Securities Exchange Act, 15 U.S.C. § 78y(a)(1), and the
Investment Advisers Act, 77 U.S.C. § 80b-13(a), Petitioner
filed a petition for review with the Tenth Circuit Court of
Appeals. The judgment of the Tenth Circuit was entered
on August 13, 2019. The timely filed petition for rehearing
was denied on October 25, 2019. The jurisdiction of this
Court is invoked under 28 U.S.C. § 1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The following constitutional and statutory provisions
cited below are found in the Appendix:
U.S. Const., art. II, § 2, cl. 2. (Appointments Clause)
Securities Act, 15 U.S.C. § 77i(a).

2
Securities Exchange Act, 15 U.S.C. § 78y(c)(1).
Investment Advisers Act, 15 U.S.C. § 80b-13(a).
INTRODUCTION
Before the SEC instituted proceedings against
Petitioner, Dennis J. Malouf, it had a publicly-declared
position that it was not violating the Appointments
Clause of the U.S. Constitution, art. II, § 2, cl. 2, by its
method of selecting administrative law judges (“ALJs’)
to adjudicate administrative enforcement proceedings.
In 2014, the SEC instituted an administrative proceeding
against Petitioner to determine if he had violated the
securities laws. Mr. Malouf concedes he did not urge an
Appointments Clause objection before the SEC because
there was no judicial support for it and the SEC was on
record opposing it. The SEC found that Petitioner violated
the securities laws and, among other sanctions, barred
him from the industry for life.
In 2016, Mr. Malouf’s petition for review of the SEC’s
Final Decision was pending before the Tenth Circuit
Court of Appeals when it decided Bandimere v. SEC,
844 F.3d 1168 (10th Cir. 2016). In Bandimere, for the first
time a court of appeals upheld an Appointments Clause
objection to SEC ALJs. Petitioner immediately lodged a
timely Appointments Clause objection before the Tenth
Circuit. In 2018, Mr. Malouf’s case was still pending on
appeal when this Court decided Lucia v. SEC, 138 S.
Ct. 2044 (2018), in accord with Bandimere. Despite his
valid Appointments Clause objection, however, the Tenth
Circuit denied Mr. Malouf’s petition for review. Malouf v.
SEC, 933 F.3d 1248 (10th Cir. 2018)(App. 1a).

3
As to the findings that Petitioner violated the SEA
and IAA, the Tenth Circuit denied the petition for review
because it concluded that there were no “reasonable
grounds” (as that term is used in SEA § 78y(c)(1) and
IAA § 80b-13(a)) to excuse Mr. Malouf’s failure to urge an
Appointments Clause objection before the agency. (App.
8a-13a) The Tenth Circuit’s reasoning and application of
the “reasonable grounds” exception conflicts with decisions
involving similar statutory exceptions to exhaustion by the
D.C. Circuit and by the Sixth Circuit. This Court should
grant this petition for a writ of certiorari to resolve this
conflict.
As to the findings that Petitioner violated the SA,
the Tenth Circuit denied the petition because SA § 77i(a)
does not contain an express exception to exhaustion. The
court of appeals concluded, therefore, it lacked discretion
to excuse Mr. Malouf’s failure to urge an Appointments
Clause objection before the agency and it “need not decide”
if § 77i(a) is a “jurisdictional condition” to appellate review
or a “claim-processing” rule. (App. 8a-9a, 14a-15a n.10)
This Court has directed the lower courts to make that
determination, however, because of its significant impact
on the outcome of litigation. This Court should grant this
petition for a writ of certiorari to decide if the exhaustion
requirement in § 77i(a), and in other statutes without any
express exceptions, is a claim-processing rule.
The Tenth Circuit also did not consider if “equitable
exceptions” may excuse Petitioner’s failure to urge a
valid Appointments Clause objection before the SEC. On
several occasions, this Court has acknowledged that there
is disagreement among the lower courts as to whether
equitable exceptions may excuse non-compliance with

4
claim-processing rules, but it reserved judgment on the
question. In at least one case this Court held that a claimprocessing rule was subject to the equitable exception of
tolling. This Court should grant this petition for certiorari
to decide if administrative exhaustion in the securities
laws (and in other federal statutes) is subject to equitable
exceptions; such as, futility, change in law, and miscarriage
of justice.
STATEMENT OF THE CASE
A. The Public Record Shows That Before The SEC
Instituted Proceedings Against Petitioner It Had
a P redetermined Position on the A ppointments
Clause Objection
Before the SEC instituted proceedings against
Petitioner, the SEC’s public position was that its ALJs
were not “inferior officers” of the United States and did
not have to be appointed according to the Appointments
Clause. The SEC’s legal opinion was that this Court’s
decision in Freytag v. Commissioner of Internal Revenue,
501 U.S. 868 (1991), holding that special tax court judges
were “inferior officers,” did not apply to SEC ALJs, and
that the D.C. Circuit’s decision in Landry v. FDIC, 204
F.3d 1125 (D.C. Cir. 2000), holding that FDIC ALJs were
not “inferior officers,” controlled at the SEC. See Hill v.
SEC, 114 F. Supp. 3d 1297, 1318 (N.D. Ga. 2015), rev’d
825 F.3d 1236 (11th Cir. 2016); Timbervest, LLC v. SEC,
Case No. 15-CV-2106, SEC’s Opp. to Plaintiffs’ Motion
for Preliminary Injunction (Dkt #18, at pp. 18-31) (N.D.
Ga. Jun. 29, 2015); Gray Financial Group, Inc. v. SEC,
Case No. 15-CV-492, Mem. of Law In Support of Def.’s
Motion to Dismiss (Dkt #14-1, at pp. 2, 18-36) (N.D. Ga.
Apr. 20, 2015).

5
The SEC made its stance known publicly in several
ways. First, the Deputy Chief Operating Officer of
the SEC, Jayne L. Seidman, publically defended the
agency’s method of selecting ALJs in her affidavit. See
Duka v. SEC, Case No. 15-CV-357(RMB)(SN), Decision
& Order (Dkt #57 at p. 5)(S.D.N.Y. Aug. 3, 2015).
Second, Appointments Clause challenges were made
in administrative proceedings but the ALJs ruled that
they lacked authority to decide the issue. See Hill, 114 F.
Supp. 3d at 1305 (“ALJ James F. Grimes found on May
14, 2015, that he did not have the authority to address
[constitutional] issues….”). Third, in federal district courts,
the SEC defended its method of selecting ALJs against
collateral attacks on the administrative proceedings.
The SEC prevailed on most of those challenges, but even
if the SEC was unsuccessful initially, it subsequently
prevailed on appeal. See, e.g., Hill v. SEC, 825 F.3d 1236
(11th Cir. 2016). All indications were the SEC would not
change its predetermined public position without judicial
intervention, which did not come until 2016.
B. The Charges Against Mr. Malouf1
Petitioner, Mr. Malouf, was an investment advisor
and the owner of a branch office of a broker-dealer. To
eliminate conflicts that might arise from those dual roles,
in 2008, Mr. Malouf sold the branch office to an independent
third party. As is typical, the sale was financed by periodic
payments from the continuing operations of the branch.
This petition for certiorari does not relate to the SEC’s
factual findings of violations of the securities laws by Mr.
Malouf. Instead, it presents issues arising out of challenges to an
unconstitutional tribunal.
1.

6
After the sale, Mr. Malouf directed execution of trades for
his advisory clients to that branch office. The purchaser
used the branch’s revenues from executing the trades to
make the periodic payments to Mr. Malouf.
On June 9, 2014, the SEC issued an order instituting
administrative enforcement proceedings against Mr.
Malouf to determine if he violated the securities laws by
not disclosing to his advisory clients on the firm’s website
and in its Form ADV alleged conflicts of interest arising
from the above transaction and the periodic payments.
(App. 149a) The payments Mr. Malouf received for the
sale of the branch office totaled $1,068,084. (App. 132a)
The SEC also alleged that Mr. Malouf did not obtain “best
execution” for his advisory clients 2 resulting in extra
charges to his clients of “roughly” $265,000 as part of
trading government bonds involving millions of dollars.
(App. 233a) There were no allegations that Mr. Malouf
misappropriated monies invested by his advisory clients or
even that his advisory clients lost money during a period
when the stock market generally declined.
In his defense, Mr. Malouf explained he was not the
“maker” or “disseminator” of the statements on the firm’s
website or its Form ADV. He had delegated responsibility
for those disclosures to the firm’s Chief Compliance Officer
(“CCO”) and he lacked actual knowledge of the specific
The duty of best execution is derived from the prohibition
against engaging in fraudulent or deceptive transactions in IAA,
15 U.S.C. § 80b-6(2). Part of an investment advisor’s duty of loyalty
includes obtaining the best price discoverable in the exercise of
reasonable diligence. In re Hughes, Release No. 4048 (Exchange
Act Release No.), 1948 WL 29537, at *5 (Feb. 18, 1948), aff’d sub
nom. Hughes v. SEC, 174 F.2d 969, (D.C. Cir. 1949).
2.

7
disclosures made. At most, Mr. Malouf “failed to correct”
the CCO’s misstatements, which was not sufficient to prove
scheme liability under SEA, 15 U.S.C. § 10b and Rules
10b-5(a) and (c) thereunder or SA, 15 U.S.C. §§ 17(a)(1) and
(3), or to prove aiding and abetting liability under IAA, 15
U.S.C. §§ 206-207 and Rules 206(4)-(1)(a)(5) thereunder. 3
Also, Mr. Malouf presented expert testimony that he
obtained “best execution” according to the accepted
industry practices at the time.
C. The 2015 Initial Decision by the UnconstitutionallySelected ALJ
Mr. Malouf’s case was assigned for fact-finding,
adjudication, and determination of sanctions to ALJ Jason
Patil. An evidentiary hearing was held in Albuquerque,
New Mexico, from November 17-25, 2014. On April 7, 2015,
the ALJ issued an Initial Decision finding Mr. Malouf in
violation of all the securities laws and imposed sanctions.
In re Malouf, Release No. 766 (S.E.C. Release No.), 2015
WL 1534396 (Apr. 7, 2015). (App. 145a)

While his case was pending on appeal before the Tenth
Circuit, this Court decided Lorenzo v. SEC, 139 S. Ct. 1094 (Mar.
28, 2019), that addressed the issue of scheme liability under the
securities laws. The Tenth Circuit’s decision in Mr. Malouf’s case
arguably extends this Court’s decision in Lorenzo because unlike
Lorenzo, Mr. Malouf was not a disseminator of misstatements—he
merely failed to correct misstatements “made” and “disseminated”
by the CCO.
3.

8
D. The SEC’s Final Decision in Mr. Malouf’s Case and
the SEC’s Continued Rejection of the Appointments
Clause Challenge in Other Cases From 2014-2016
Mr. Malouf appealed the ALJ’s Initial Decision to
the SEC. In his opening brief, filed on September 2,
2015, Mr. Malouf did not include an Appointments Clause
objection to the SEC ALJ based on the lack of judicial
support and the SEC’s already-stated public opposition
to the challenge. Indeed, the day after Mr. Malouf filed
his opening brief, the SEC denied the objection in another
enforcement case. See In re Lucia, Release No. 4190
(S.E.C. Release No.), 2015 WL 5172953 (Sep. 3, 2015), pet.
for review denied, Lucia v. SEC, 832 F. 3d 277 (D.C. Cir.
2016), pet. reh. denied en banc 868 F.3d 1021 (2017), rev’d,
Lucia v. SEC, 138 S. Ct. 2044 (2018). During the next
two months, the SEC denied the objection on at least two
more occasions. In re Timbervest, LLC, Release No. 4197
(S.E.C. Release No.), 2015 WL 5472520 (Sep. 17, 2015);
and In re Bandimere, Release No. 9972 (S.E.C. Release
No.), 2015 WL 6575665 (Oct. 29, 2015), rev’d, Bandimere
v. SEC, 844 F.3d 1168 (10th Cir. 2016).
On July 27, 2016, the SEC issued its Final Decision
based on findings by the unconstitutionally selected ALJ
without having done any additional fact-finding. The SEC
adopted all of the ALJ’s findings of fact negative to Mr.
Malouf but ignored certain findings of fact in his favor;
such as, the duty to disclose conflicts relating to the sale
of the branch office was delegated to the CCO. Except
for increasing the sanctions, the SEC adopted all of the
ALJ’s legal conclusions that Mr. Malouf violated the
securities laws. In re Malouf, Release No. 4463 (S.E.C.
Release No.), 2016 WL 4035575 (Jul. 27, 2016). (App. 55a)

9
The SEC increased a seven-year bar imposed by the ALJ
to a permanent bar from the securities industry. The
SEC increased the disgorgement imposed by the ALJ
by $562,001 on top of the $506,082 he had paid already
on behalf of the firm. The SEC approved the $75,000 civil
monetary penalty and the cease-and-desist order imposed
by the ALJ.
On August 9, 2016, in Lucia v. SEC, 832 F. 3d 277 (D.C.
Cir. 2016), pet. reh. denied en banc 868 F.3d 1021 (Jun.
26, 2017), rev’d, Lucia v. SEC, 138 S. Ct. 2044 (2018), the
D.C. Circuit ruled that the SEC ALJs were not “inferior
officers” and the SEC’s method of selecting them did not
violate the Appointment Clause.
E. Bandimere and Lucia Change the Law as to SEC
ALJs, and M r . Malouf Immediately L odged an
Appointments Clause Objection in the Court of
A ppeals
Mr. Malouf filed a petition for review of the SEC’s
Final Decision in the Tenth Circuit Court of Appeals
pursuant to § 77i(a) of the SA, § 78y(a)(1) of the SEA,
and § 80b-13(a) of the IAA. On November 22, 2016,
Mr. Malouf filed his opening brief before the Tenth Circuit
Court of Appeals on his petition for review of the SEC’s
Final Decision. Lacking any judicial support, Mr. Malouf
did not assert an Appointments Clause objection in his
opening brief.
On December 27, 2016, the Tenth Circuit issued its
decision in Bandimere v. SEC, 884 F.3d 1168 (10th Cir.
2016), reaching a conclusion directly opposite to that
reached by the D.C. Circuit in Lucia. For the first time,

10
there was judicial support for an Appointments Clause
objection.4
On January 13, 2017, shortly after Bandimere was
issued, Mr. Malouf moved to file a supplemental brief to
urge an Appointments Clause objection. With leave of
court, he filed his supplemental brief on January 27, 2017.
The SEC had a full opportunity to respond in its brief filed
on March 13, 2017. The SEC argued that the Tenth Circuit
could not consider the Appointments Clause objection
because Mr. Malouf had not urged it before the SEC.
The SEC did not argue that ALJ Patel was appointed in
accordance with the Appointments Clause. The focus of
oral argument on September 26, 2017, was on whether
the court of appeals had to ignore the unconstitutional
composition of the SEC administrative tribunal because
Mr. Malouf had not urged the Appointments Clause
objection before the SEC. On January 16, 2018, the court
of appeals sua sponte abated Mr. Malouf’s case in light of
this Court’s grant of a writ of certiorari in Lucia.
This Court issued its decision in Lucia v. SEC, 138
S. Ct. 2044 (2018), on June 21, 2018, which established
that the SEC’s method of selecting ALJs violated the
Appointment Clause not only in Mr. Lucia’s case but
also in Mr. Malouf’s case. In response to this Court’s
decision in Lucia, on August 22, 2018, the SEC granted all
respondents in administrative enforcement cases pending
before an SEC ALJ or on appeal to the SEC (about 130
Even after the decision in Bandimere, the SEC declared
it was not going to change its method of selecting ALJs and it
continued to consider the D.C. Circuit’s decision in Lucia as
controlling. In re Haring Advisory LLC, Release No. 4600 (S.E.C.
Release No.) 2017 WL 66592 (Jan. 6, 2017).
4.

11
respondents) the opportunity for a new administrative
hearing—irrespective of whether the respondent had
asserted an Appointments Clause objection. In re Pending
Administrative Proceedings, SEC Release No. 4993, 2018
WL 4003609 (Aug. 22, 2018). (App. 44a-54a) Although each
of those respondents was given an opportunity to have his
case re-heard, the Order did not apply to Mr. Malouf due
to the serendipitous fact that his case was pending before
the Tenth Circuit which had exclusive jurisdiction.
On July 24, 2018, the Tenth Circuit ordered the
parties to file supplemental briefs on the issue of whether
Mr. Malouf had forfeited an Appointments Clause
objection by not urging it before the SEC.
F. The Tenth Circuit Denied Mr. Malouf’s Petition
For R eview Notwithsta nding that It was the
Product of an Unconstitutional A dministrative
Tribunal
On August 13, 2019, the Tenth Circuit issued its
judgment. Malouf v. SEC, 933 F.3d 1248 (10th Cir. 2019).
(App. 1a) Despite the unconstitutional composition of the
SEC tribunal, and even though the Tenth Circuit expressly
ruled that Mr. Malouf’s Appointments Clause objection was
timely in the court of appeals (App. 7a-8a n.4), the Tenth
Circuit denied Mr. Malouf’s petition for review.
As to violations by Petitioner of the SEA and the
IAA, the Tenth Circuit concluded that there were no
“reasonable grounds” to excuse a failure to exhaust the
valid Appointments Clause objection before the agency
because it would not have been “clearly useless” to have
objected. (App. 10a) The Tenth Circuit’s finding was

12
based on another serendipitous fact that the first SEC
enforcement decision denying an Appointments Clause
objection happened to be issued the day after Mr. Malouf
filed his opening brief with the SEC instead of the day
before he filed it. (App. 10a and 10a-11a n.7) The court
of appeals also held that Lucia and Bandimere did not
change the law because those cases just applied Freytag
to SEC ALJs. (App. 12a-14a)
As to violations by Petitioner of the SA, the Tenth
Circuit concluded it “lack[ed] discretion to excuse the
failure to exhaust administrative remedies” because the
“Securities Act does not contain an express exception
to the exhaustion requirement ….” (App. 9a) It further
concluded that it “need not decide” whether exhaustion is a
jurisdictional condition or a claim-processing requirement
and it did not consider whether equitable exceptions might
excuse non-compliance. (App. 8a, 14a-15a n.10) The court
of appeals denied the petition for review.
G. Mr. Malouf Filed Timely Post-Decision Petitions
On September 19, 2019, Mr. Malouf filed a timely
petition for panel re-hearing and/or hearing en banc. On
October 25, 2019, the Tenth Circuit denied the petition
for rehearing and the mandate was issued on November
4, 2019. This petition for certiorari follows.

13
REASONS FOR GRANTING THE PETITION
A. T h e L ow er C ou rt s N eed G u i da nce on W h at
C onstitutes “R easonable G rounds ” and other
Statutory Exceptions to Excuse Non- compliance
with Exhaustion Requirements
1.

The Tenth Circuit’s Decision that there were
No “Reasonable Grounds” Conflicts with the
D.C. Circuit’s and Sixth Circuit’s Decisions
as to Similar Statutory Exceptions in Other
Statutes.

Section 78y(c)(1) of the SEA and § 80b-13(a) of the IAA
state “no objection to the order of the Commission shall be
considered by the court unless such objection shall have
been urged before the Commission or unless there were
reasonable grounds for failure so to do.” (Italics added.)
The Tenth Circuit held that “reasonable grounds” means
“clearly useless.” As to the findings that Petitioner violated
the SEA and the IAA, the court of appeals denied the
petition for review because “Mr. Malouf has not shown
that exhaustion of the challenge would have been clearly
useless.”5 (App. 10a)
In Washington Assoc. for Television and Children
v. FCC, 712 F.2d 677 (D.C. Cir. 1983), the D.C. Circuit
examined a number of federal statutes that require
“Clearly useless” is not the same as “reasonable
grounds.” It may be reasonable not to have asserted a defense
because of the agency’s predetermined position or a subsequent
change in law supporting the objection even though, in hindsight,
it turns out not to have been “clearly useless.”
5.

14
administrative exhaustion, some of which have an express
exception for “reasonable grounds” and others have an
express exception for “extraordinary circumstances.”
The D.C. Circuit concluded that the differences in
language were not significant because in all of the statutes
Congress intended merely to codify the judicial doctrine
of administrative exhaustion along with its exceptions.
Nu merous st atut es cont a i n a n ex pl icit
exhaustion requirement. Only some of these
statutes explicitly permit exceptions, and the
statutes that permit exceptions use different
wording to describe the scope of the exceptions,
with no apparent rhyme or reason for the
differences. Compare Securities Act of 1933,
15 U.S.C. § 77i(a) (“no objection … shall be
considered by the court unless such objection
shall have urged before the Commission.”) with
Securities Exchange Act of 1934, 15 U.S.C.
§ 78y(c)(1) (“No objection … may be considered
by the court unless it was urged before the
Commission or there was reasonable grounds
for failure to do so.”); and compare National
Labor Relations Act, 29 U.S.C. § 160(e) (“No
objection that has not been urged before the
Board … shall be considered by the court,
unless the failure … shall be excused because
of extraordinary circumstances.”) (emphasis
added) with Fair Labor Standards Act, 29
U.S.C. § 210(a) (“No objection … shall be
considered by the court unless such objection
shall have been urged before [an] industry
committee or unless there were reasonable
grounds for failure so to do.”) (emphasis added).

15
See also Public Utility Holding Company Act, 15
U.S.C. § 79x(a) (similar to Securities Exchange
Act).
The very senselessness of these differences
in language suggests that Congress meant, in
all these statutes, merely to codify the judicial
doctrine of exhaustion of administrative
remedies. That would explain Congress’
failure to give careful attention to the nuances
of language that might, in another context,
connote differences in intended meaning.
Id. at 682 n.6 (bold and italics in original, underlining
added).
Even though the differences in the language of the
express exceptions to exhaustion are “senseless,” or at
least are not significant, there is no uniformity among
the circuits as to what constitutes “reasonable grounds”
and other similar statutory exceptions. The lower
courts’ decisions advance three incompatible positions
as to when a failure to exhaust may be statutorily
excused. A lenient view holds that the seriousness of the
objection, or a constitutional infirmity of the tribunal, in
and of themselves, are “extraordinary circumstances”
irrespective of whether the objection could have been
asserted before the agency. Noel Canning v. NLRB, 705
F.3d 490 (D.C. Cir. 2013), aff’d on other grounds, 134
S. Ct. 2550 (2014). The strictest view holds that it must
have been “clearly useless” to object because the agency
was bound by a judicial decision against the objection for
there to be a statutory excuse. Malouf v. SEC, 933 F.3d
1248 (2018); NLRB v. Relco Locomotive, Inc., 734 F.3d

16
764 (8th Cir. 2013). A middle view holds that confusion
as to whether the agency can rule on the objection or the
absence of a judicial decision supporting the objection
are “extraordinary circumstances.” Jones v. Secretary
of Labor, 898 F.3d 669 (6th Cir. 2018). This thicket of
inconsistent case law has resulted in an irreconcilable
disparity of outcomes.
In Noel Canning, there was “no attempt by petitioner
to raise the threshold issues related to the recess
appointments before the [National Labor Relations]
Board.” 705 F.3d at 496. Nevertheless, the D.C. Circuit
held that the express exception for “extraordinary
circumstances” in the NLRA, 29 U.S.C. § 160(e), excused
the failure to exhaust because the Recess Appointments
objection goes “to the very power of the Board to act and
implicate[s] fundamental separation of powers concerns.”
Id. at 497. In the D.C. Circuit’s view, the seriousness of
the challenge satisfies the statutory exception irrespective
of whether the objection could have been made, there
was binding legal precedent for or against the challenge,
or the agency had a predetermined position against the
objection.6
In contrast, in Relco, the Eighth Circuit reached
the opposite result and concluded that “extraordinary
circumstances” are strictly limited to where an agency
renders a “decision ‘patently … outside the orbit’ of the
Board’s authority” or where “a new development of fact
In NLRB v. Noel Canning, 573 U.S. 513 (2014), this Court
affirmed the decision of the lower court. This Court assumed the
Recess Appointments Clause objection was reviewable without
addressing the meaning of “extraordinary circumstances.”
6.

17
or law occurs after the Board’s decision or was otherwise
unavailable to the party at the original hearing.” Id.
at 797. The Eighth Circuit held that forfeiture was not
excused because the Noel Canning case was not a “new
development of law.” The Eighth Circuit’s reasoning is the
same as the Tenth Circuit’s “clearly useless” reasoning in
Malouf as to when “reasonable grounds” exist.
Finally, in Jones, the Sixth Circuit found that
“extraordinary circumstances” excused the exhaustion
requ i rement in the Mine Sa fety Act , 30 U. S.C.
§ 816(a)(1), because of “the absence of legal authority
addressing whether the Commission could entertain the
claim….” 898 F.3d at 677. Although there was existing
case law from which an Appointments Clause objection
could have been derived, the court of appeals said the
“building blocks of today’s opinion are established and
weathered, but we know of no Supreme Court or court
of appeals case that brings them together.” Id. “We
understand why that question may have confused Jones
Brothers below….” Id.
Noel Canning, Relco/Malouf, and Jones are in
conflict and reach irreconcilable results. Applying the
D.C. Circuit’s reasoning to Mr. Malouf’s case, there
were “reasonable grounds” based on the seriousness of
an Appointments Clause objection and the constitutional
infirmity of the SEC tribunal. Applying the Sixth
Circuit’s reasoning also results in a finding that there
were “reasonable grounds” because Bandimere and
Lucia changed the law even though the “building blocks”
of an Appointments Clause objection were around since
Freytag. But, applying the Eighth and Tenth Circuits’
reasoning results in the conclusion that there were not
“reasonable grounds.” They conclude Lucia was not a

18
change because it merely applied the holding in Freytag
to a different agency’s ALJs. Further, it was not “clearly
useless” to have raised the Appointment Clause objection
or the SEC did not do something “clearly outside its orbit.”
This Court should grant this petition because the
Tenth Circuit incorrectly concluded there were no
“reasonable grounds” in Petitioner’s case and because
its decision conflicts with the D.C. Circuit’s and the Sixth
Circuit’s decisions on similar statutory exceptions. This
Court’s guidance is needed to unify the lower courts’
reasoning and incompatible results.
2.

T he P ublic R e cor d Shows ther e wer e
“ R ea sonable Grou nd s” t o Excuse M r.
Malouf’s Non-compliance with the Exhaustion
Requirement Based on the SEC’s Litigation
Conduct From 2014-2018.

When the Tenth Circuit concluded there were no
“reasonable grounds” to excuse Mr. Malouf’s failure to
urge his objection it looked at only two isolated acts by the
SEC. First, the court of appeals placed undue significance
on the serendipitous fact that it was not until the day after
Mr. Malouf filed his opening brief with the SEC that the
agency rejected an Appointments Clause challenge in an
administrative proceeding and wholly disregarded the
SEC’s public opposition to the constitutional objection in its
multiple filings in federal district courts. (App. 10a-11a n.7)
Second, the court of appeals gave controlling weight to
the fact that the SEC immediately asserted the statutory
exhaustion requirement when Mr. Malouf raised the
Appointments Clause objection on appeal. (App. 14a-15a n.10)
In assessing “reasonable grounds,” however, a court should
consider the “totality of circumstances” of both parties’

19
litigation behavior. In this case the totality of circumstances
includes the parties’ litigation behavior as documented
in the public record from 2014-2018, changes in the law
by Bandimere and Lucia, and the miscarriage of justice
arising from the SEC’s August 22, 2018 Order. (See supra
Statement of the Case, Parts A, D-E.)
Even though the SEC did not issue an administrative
enforcement decision rejecting an Appointments Clause
challenge until the day after Mr. Malouf filed his opening
brief with the SEC in September 2015, the SEC’s opposition
was declared in federal court and was public knowledge
from 2014 on—before the SEC instituted proceedings
against Mr. Malouf. At the SEC, ALJ Grimes had declined
to rule on the Appointments Clause issue and the SEC
Deputy Chief Operating Officer Jayne L. Seidman publicly
had rejected the constitutional challenge. In the district
courts, the SEC vigorously opposed collateral attacks
on Appointments Clause challenges to the SEC ALJs.
In short, when Petitioner filed his opening brief at the
SEC there was no judicial support for an objection and
all indications were that the SEC would not change its
position without judicial intervention. One more objection
by Petitioner added to the numerous objections by other
respondents would not have caused the SEC to alter its
position.
Indeed, long after Mr. Malouf filed his opening brief
at the SEC, it continued to deny Appointments Clause
objections in numerous administrative enforcement cases.
Even after there was judicial support for the objection
when Bandimere was decided in December 2016, the SEC
refused to change its position. The SEC did not change
its practices until 2018—long after jurisdiction over
Mr. Malouf’s case resided with the Tenth Circuit.

20
Contrary to the Tenth Circuit’s conclusion, it was
futile for Petitioner to object in September 2015 before
the SEC because the agency most certainly would have
denied the objection anyway. (App. 10a-12a) Mr. Malouf
never received consideration of the merits of his valid
constitutional objection by an Article III neutral court.
To require that an Article III court ignore a valid
Appointments Clause challenge just to give an errant
agency that was already on notice of the legal issue one
more chance to change its mind tilts the scales of justice
too far in the agency’s favor and against an individual’s
constitutional rights. See App. 11a-12a (to support its
holding, the Tenth Circuit cites United States v. L.A.
Tucker Truck Lines, Inc., 344 U.S. 33, 37 (1952)).
Further, Bandimere and Lucia clearly did change the
law. If they did not, there would have been no reason for
the SEC to alter its practices in response to these cases
by issuing the Order on August 22, 2018, to bring it into
compliance with Lucia. There is something amiss if the
SEC had the power to order a re-hearing of 130 pending
cases irrespective of whether an Appointments Clause
objection had been made, but an Article III court of
appeals concluded it “cannot excuse” Mr. Malouf’s failure
to urge the objection before the agency even though he
lodged a timely objection before the Tenth Circuit.
Finally, since all respondents whose cases were
still pending at the SEC were given the opportunity for
a new administrative hearing irrespective of whether
they had raised an Appointments Clause objection, it is
a miscarriage of justice to deny the same to Mr. Malouf.
To prevent just such a miscarriage of justice, this Court

21
has declared that the normal rule is for court decisions to
apply retroactively to all cases still on appeal. Harper v.
Virginia Dept. of Taxation, 509 U.S. 86 (1993). Soo, too,
this Court’s decision in Lucia should apply retroactively
to all cases still on appeal including Mr. Malouf’s case.
If the Tenth Circuit’s strict view of “reasonable
grounds” is correct, no court should ever excuse a failure
to exhaust an objection before a federal agency—contrary
to the express exceptions in § 78y(c)(1) of the SEA and
§ 80b-13(a) of the IAA, and other similar statutes. This
petition for writ of certiorari should be granted to provide
guidance to the lower courts as to express exceptions to
exhaustion in the securities laws and in other similar
statutes.
B. T he Court Should Decide that the Exhaustion
Requirement in the Securities Act and in Other
Similar Federal Statutes Is a “Claims-Processing”
Rule
Section 77i(a) of the SA states “no objection … shall be
considered by the court unless such objection shall have
been urged before the Commission.” 15 U.S.C. § 77i(a).
The SA (and other federal statutes requiring exhaustion)
does not contain any express exceptions, unlike the SEA
and the IAA.
The Tenth Circuit stated: “The Securities Act does
not contain an express exception to the exhaustion
requirement, so we cannot excuse a failure” to exhaust.7
The D.C. Circuit has reached the opposite conclusion that
a statutory exhaustion requirement is not inflexible and leaves
7.

22
(App. 9a) Concluding it had no discretion, the lower court
stated it “need not decide” if § 77i(a) is a claim-processing
rule or a jurisdictional condition. (App. 14a-15a n.10) As to
the violations of the SA by Petitioner, the Tenth Circuit
denied the petition for review.
In Arbaugh v. Y&H Corp., 546 U.S. 500 (2006), this
Court directed lower courts to determine if a requirement
is a “jurisdictional condition” or a “claim-processing” rule
because of the “critical differences” between the two. See
Kontrick v. Ryan, 540 U.S. 443, 456 (2004). If the condition
is jurisdictional, a court is “deprived of all authority” to
hear the matter “even if equitable considerations would
support” excusing non-compliance. United States v. Kwai
Fun Wong, 135 S. Ct. 1625, 1631-32 (2015). In contrast,
enforcement of a claim-processing rule may depend on a
party’s litigation conduct. Kontrick, 540 U.S. at 456.
Arbaugh provides an approach for making that
determination. The lower courts should examine the
statute’s text, the statutory context in which the condition
is found, and the legislative history. See Henderson v.
Shinseki, 562 U.S. 428, 438-39 (2011); Kwai, 135 S. Ct.
at 1632-33. The most important factor is whether the
text of the statute “clearly states” that a requirement is
jurisdictional. Arbaugh, 546 U.S at 515. If not, then the
requirement is a claim-processing rule. If “Congress
does not rank a statutory limitation on coverage as
jurisdictional, courts should treat the restriction as
nonjurisdictional in character.” Id. at 516.

room for judicial discretion. Action for Children’s Television vs.
FCC, 564 F.2d 458, 469 (D.C. Cir. 1977).

23
Applying the Arbaugh approach to the exhaustion
requirement in the SA, the only conclusion is that the
requirement is a claim-processing rule. The text of the
SA does not “clearly state” that § 77i(a) is jurisdictional.
The context in which the exhaustion requirement appears
is in a section titled “Court Review of Orders,” not in a
section on jurisdiction. Although there are no express
exceptions in § 77i(a) of the SA, the inclusion of express
exceptions to exhaustion in all the other securities
laws is compelling evidence that Congress intended
the exhaustion requirement in the SA to be subject to
exceptions as well. “It would be at least unusual to ascribe
jurisdictional significance to a condition subject to these
sorts of exceptions.” Reed Elsevier, Inc. v. Muchnick,
559 U.S. 154, 166 (2010)(holding copyright registration
requirement was not jurisdictional because it is subject
to exceptions). Similarly, it would be at least unusual to
conclude, as the Tenth Circuit did, that under the SEA in
certain circumstances an Article III court has discretion
to consider an objection even if it was forfeited, but
under the SA a reviewing court has no discretion and
may never consider the same objection—even though
the same equitable circumstances justify the litigant’s
non-compliance with the same exhaustion requirement in
both statutes. Accordingly, the exhaustion requirement in
the SA is a claim-processing rule and not a jurisdictional
condition that must be enforced by a court without any
exceptions.
Contrary to this Court’s direction in Arbaugh, the
Tenth Circuit did not decide if the exhaustion requirement
in § 77i(a) of the SA is a claim-processing rule or a
jurisdictional condition. (App. 14a-15a n.10) Without
deciding the issue, however, in effect the Tenth Circuit

24
treated § 77i(a) as a jurisdictional condition that deprives a
court of all discretion, or at the very least the lower court
failed to recognize that there are differences between
a jurisdictional condition and a claim-processing rule.
The lower court’s decision is contrary to decisions of this
Court that go to great lengths to distinguish between
the two and stress “the question is not merely semantic
but one of considerable practical importance for judges
and litigants.” Henderson, 562 U.S. at 434. The failure
to make that determination certainly was of considerable
practical importance in Mr. Malouf’s case as it deprived
him of consideration by an Article III court of a valid
Appointments Clause challenge.
The Tenth Circuit’s reasoning shows that the lower
courts need additional guidance on determining whether
a requirement is a claim-processing rule. As neither this
Court nor any other court has ruled directly on whether
the exhaustion requirement in the securities laws (and
other similar federal statutes) is a jurisdictional condition
or a claim-processing rule, and given the significant impact
this determination has on litigation outcomes, this Court
should grant certiorari to decide this important question
as to the securities laws and provide guidance as to other
federal statutes that require administrative exhaustion.
C. Whether “E quitable Exceptions ” M ay Excuse
non- compliance with a Claim-Processing Rule is an
Important and Recurring Question that Warrants
Immediate Resolution by this Court
On several occasions this Court has acknowledged
there is disagreement among the lower courts as to
whether claim-processing rules are subject to “equitable

25
exceptions.” More times than not, however, it has not
reached the issue. In Kontrick, this Court noted “[w]hether
the [Federal Bankruptcy Procedural] Rules, despite their
strict limitations, could be softened on equitable grounds is
therefore a question we do not reach.” 540 U.S. at 457. (See
also id. at 457 n.11, noting the lower courts are “divided”
on the question of whether certain Bankruptcy Rules allow
equitable exceptions.) In Henderson, this Court noted that
the “parties have not asked us to address whether the 120day deadline in 38 U.S.C. § 7266(a) is subject to equitable
tolling ….” 562 U.S. at 441 n.4. 8 More recently, in Hamer
v. Neighborhood Housing Services of Chicago, 138 S. Ct.
13 (2017), this Court said “our decision does not reach [the]
issue[]…whether equitable considerations may occasion
an exception” to the claim-processing time limit for filing
a notice of appeal in Federal Rule Appellate Procedure
4(a)(5)(C). Id. at 18. Further, “[w]e have reserved whether
mandatory claim-processing rules may be subject to
equitable exceptions.” Id. at 18 n.3.9

Significantly, in Henderson, the government did not dispute
that a non-jurisdictional time limit is subject to equitable tolling.
562 U.S. at 441 n.4.
8.

The Tenth Circuit cites Manrique v. United States, 137 S.
Ct. 1266 (2017), in support of its conclusions that it did not have
to decide if § 77i(a) is a claim-processing rule and it had a duty to
enforce the exhaustion requirement because the SEC promptly
asserted it. Significantly, however, Hamer was decided after
Manrique, yet in Hamer this Court notes that whether mandatory
claim-processing rules may be subject to equitable exceptions
is still an open question. In Manrique, petitioner did not argue
there were equitable exceptions that excused his failure to file a
second notice of appeal. He argued that filing a second notice was
not required. This Court disagreed.
9.

26
As shown above, the exhaustion requirement in
§ 77i(a) of the SA is a claim-processing rule. Even though
exhaustion is not a jurisdictional condition to appellate
review and as noted by this Court there is support for
the position that “equitable exceptions” may excuse noncompliance with claim-processing rules, the Tenth Circuit
did not consider whether Mr. Malouf’s failure to urge
a valid Appointments Clause objection was excused by
equitable exceptions. The Tenth Circuit gave controlling
weight to the fact that the SEC promptly responded
to the Appointments Clause objection by asserting the
exhaustion requirement in § 77i(a). “[T]the SEC promptly
responded that Mr. Malouf had failed to exhaust the issue
in SEC proceedings. We thus would need to enforce the
statutory exhaustion requirements regardless of whether
they are jurisdictional.” (App. 14a-15a n.10)
But, in Kwai, the government also promptly “moved to
dismiss the tort claim on the ground that it was filed late.”
138 S. Ct. at 1629. This Court held that the time limits in
the Federal Tort Claim Act, 28 U.S.C. § 2401(b), are claim
processing rules and that they are subject to equitable
exceptions for tolling. Despite the government’s prompt
response to the late-filed claims, this Court remanded for a
determination of whether petitioner’s non-compliance may
be excused by an equitable exception based on the parties’
litigation behavior. Id. at 1638. So too, contrary to the
Tenth Circuit’s ruling, an Article III court has discretion
to decide whether an equitable exception excuses a failure
to exhaust a valid Appointments Clause objection even if
the SEC promptly raises SA § 77i(a).
This Court should grant the petition for a writ of
certiorari to answer the question left open in prior cases

27
whether equitable exceptions may excuse non-compliance
with claim-processing rules and, more specifically, to
address whether the exhaustion requirement in the
securities laws is subject to equitable exceptions; such as,
futility, changes in law, and miscarriage of justice.
CONCLUSION
The petition for a writ of certiorari should be granted.
Respectfully submitted,
Linda E. Maichl
Ulmer & Berne LLP
600 Vine Street,
Suite 2800
Cincinnati, OH 45202
(513) 698-5000

Kenneth F. Berg
Counsel of Record
A lan M. Wolper
Heidi E. VonderHeide
Ulmer & Berne LLP
500 West Madison Street,
Suite 3600
Chicago, IL 60661
(312) 658-6500
kberg@ulmer.com

Counsel for Petitioner

APPENDIX

1a
APPENDIX A — Appendix
OPINIONAOF THE UNITED
STATES COURT OF APPEALS FOR THE TENTH
CIRCUIT, FILED AUGUST 13, 2019
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
No. 16-9546
DENNIS J. MALOUF,
Petitioner,
v.
SECURITIES AND EXCHANGE COMMISSION,
Respondent.
August 13, 2019, Filed
Petition for Review from an Order of the
Securities & Exchange Commission
(SEC No. 3-15918)
Kenneth F. Berg, Ulmer & Berne LLP, Chicago, Illinois
(Alan M. Wolper and Heidi E. VonderHeide with him on
the briefs), for Petitioner.
Daniel Aguilar, Attorney, Appellate Staff, Civil Division,
United States Department of Justice, Washington, D.C.
and Lisa Helvin, Senior Counsel, Securities and Exchange
Commission, Washington, D.C. (Chad A. Readler, Acting
Assistant Attorney General, Mark R. Freeman, Attorney,

2a
Appendix A
and Joshua A. Salzman, Attorney, Appellate Staff,
Civil Division, United States Department of Justice,
Washington, D.C.; Michael A. Conley, Solicitor, and
Dominick V. Freda, Assistant General Counsel, Securities
and Exchange Commission, Washington, D.C., with them
on the briefs), for Respondent.
Before BRISCOE, HARTZ, and BACHARACH, Circuit
Judges.
BACHARACH, Circuit Judge.
Mr. Dennis Malouf occupied key roles at two firms.
One of the firms (UASNM, Inc.) offered investment advice;
the other firm (a branch of Raymond James Financial
Services) served as a broker-dealer. Raymond James
viewed those dual roles as a conflict, so Mr. Malouf sold
the Raymond James branch. But the structure of the
sale perpetuated the conflict. Because Mr. Malouf did
not disclose perpetuation of the conflict, administrative
officials sought sanctions against him for violating the
federal securities laws.
An administrative law judge found that Mr. Malouf
had violated the Securities Exchange Act of 1934, the
Securities Act of 1933, the Investment Advisers Act of
1940, Rule 10b-5, and Rule 206(4)-1. Given these findings,
the judge imposed sanctions. The SEC affirmed these
findings and imposed additional sanctions, including
disgorgement of profits.
Mr. Malouf appeals the SEC’s decision, and we affirm.

3a
Appendix A
Background
I. Mr. Malouf sells the Raymond James branch and
uses that branch to execute trades for UASNM’s clients.
In 2007, Raymond James became concerned about
the conflict of interest between (1) Mr. Malouf’s role at its
branch office and (2) his role at UASNM. These concerns
led Raymond James to ask Mr. Malouf to choose between
the two roles. Mr. Malouf opted to remain at UASNM and
sold his Raymond James branch to Mr. Maurice Lamonde
for roughly $1.1 million, to be paid in installments based
on the Raymond James branch’s collection of securitiesrelated fees.1
To facilitate the installment payments, Mr. Malouf
routed bond trades on behalf of his UASNM clients
through the Raymond James branch. This way, Mr.
Lamonde would receive enough in commissions to allow
him to pay what he owed Mr. Malouf. 2
While Mr. Malouf was routing bond trades to the
Raymond James branch, he regularly failed to seek
1. The written agreement does not state a specific dollar figure
for the sale. The written agreement instead provides that Mr.
Lamonde would pay 40% of securities-related fees that the Raymond
James branch collected over a four-year period. But Mr. Malouf
testified that he and Mr. Lamonde had agreed that upon payment
of $1.1 million, they would consider the purchase price fully paid.
2. The Raymond James branch collected $1,074,454 in
commissions on UASNM bond transactions. With these commissions,
Mr. Lamonde ultimately paid Mr. Malouf $1,068,084 to buy the
Raymond James branch.

4a
Appendix A
competing bids for the trades. Mr. Malouf conceded that he
should have sought competing bids: UASNM’s compliance
procedures required firm personnel to solicit bids from
three different broker-dealers before placing a trade, and
Mr. Malouf admitted that he probably could have received
better prices for his clients through competing bids.
II. UASNM makes misstatements concerning Mr.
Malouf’s conflict of interest, and he does not
correct these misstatements.
Mr. Malouf bore responsibility for preparing
UASNM’s forms to be filed with the SEC (referred to as
“Forms ADV”)3 and ensuring the accuracy of the UASNM
website. But UASNM delegated compliance with these
responsibilities to a chief compliance officer and hired
an outside consultant to review UASNM’s compliance
procedures and Forms ADV.
Mr. Malouf later acknowledged that his financial
arrangement with Mr. Lamonde had created a conflict of
interest that should have been disclosed. But Mr. Malouf
did not disclose that arrangement to UASNM’s chief
compliance officer or the outside consultant. Because
these individuals did not know the details of the MaloufLamonde arrangement, UASNM not only failed to disclose
Mr. Malouf’s conflict of interest but also boasted that (1)
UASNM’s employees were not receiving any commissions
3. A “Form ADV” is used by investment advisers to register
with the SEC and state securities authorities. Form ADV, SEC,
https://www.sec.gov/fast-answers/answersformadvhtm.html (last
visited June 26, 2019).

5a
Appendix A
or fees from the Raymond James branch and (2) UASNM
was providing impartial advice untainted by any conflicts
of interest.
While UASNM was boasting of its impartiality, Mr.
Malouf was participating in deciding what UASNM would
disclose. He acknowledged that he had reviewed some
of the Forms ADV for what to disclose and had at least
some familiarity with the contents of the website. But he
took no steps to remedy UASNM’s misstatements or to
disclose his own conflict of interest.
III. UASNM discloses Mr. Malouf’s conflict of interest.
In June 2010, UASNM’s outside consultant learned
that Mr. Malouf had been receiving ongoing payments
from Mr. Lamonde. With this information, the consultant
told Mr. Malouf and UASNM that the payments had
created a conflict of interest that needed to be disclosed.
UASNM disclosed the conflict roughly nine months later.
IV. The SEC finds that Mr. Malouf violated the federal
securities laws.
The SEC then brought an enforcement proceeding
against Mr. Malouf. Based on the evidence introduced in
that proceeding, an administrative law judge found that
Mr. Malouf had (1) aided and abetted UASNM’s violations
of the federal securities laws and (2) committed violations
of his own. In the administrative appeal, the SEC agreed,
finding that Mr. Malouf had violated

6a
Appendix A
• § 10(b) of the Securities Exchange Act of
1934 and Rules 10b-5(a) and (c),
• §§ 17(a)(1) and 17(a)(3) of the Securities Act
of 1933, and
• §§ 206(1) and 206(2) of the Investment
Advisers Act of 1940.
The SEC also found that Mr. Malouf had aided and abetted
UASNM’s violations of §§ 206(4) and 207 of the Investment
Advisers Act and Rule 206(4)-1(a)(5).
The SEC imposed four sanctions on Mr. Malouf:
1. a lifetime bar from the securities industry,
2. an order to cease and desist violations of
federal securities laws,
3. an order to disgorge $562,001.26 plus
prejudgment interest, and
4. an order to pay a $75,000 civil penalty.
On appeal, Mr. Malouf makes four arguments:
1. The appointment of his administrative
law judge violated the Constitution’s
Appointments Clause.
2. The SEC misinterpreted the securities laws.

7a
Appendix A
3. The SEC’s findings lack substantial evidence.
4. The sanctions should be vacated.
Standard of Review
When considering these appellate arguments, we
credit the SEC’s factual findings if they are supported by
substantial evidence. Geman v. SEC, 334 F.3d 1183, 1188
(10th Cir. 2003). Substantial evidence is “such relevant
evidence as a reasonable mind might accept as adequate
to support a conclusion.” C.E. Carlson, Inc. v. SEC, 859
F.2d 1429, 1433 (10th Cir. 1988) (quoting Consol. Edison
Co. of New York v. NLRB, 305 U.S. 197, 229, 59 S.Ct. 206,
83 L.Ed. 126 (1938)).
Discussion
I.

Mr. Malouf forfeited his challenge under the
Appointments Clause.

Mr. Malouf contends that the administrative law
judge was not validly appointed under the Constitution’s
Appointments Clause. But Mr. Malouf forfeited this
contention by failing to present it in the SEC proceedings.4
4. In its response brief, the SEC argues in part that Mr. Malouf
forfeited the issue by omitting it in his opening appeal brief. We
reject this argument.
Before the SEC filed its response brief, Mr. Malouf had
requested leave to file a supplemental brief addressing the issue
under the Appointments Clause. The SEC opposed the request,
contending that Mr. Malouf should have raised the issue in his

8a
Appendix A
Given the forfeiture, we decline to reach the merits of
this challenge.
A.

Exhaustion of administrative remedies is
mandatory under the pertinent statutes.

The Constitution’s Appointments Clause authorizes
Congress to delegate the appointment of “inferior officers”
to the President, courts, and department heads. U.S.
Const. art. II § 2, cl. 2. Mr. Malouf contends that his
administrative law judge was an “inferior officer” who
had not been appointed by the President, a court, or a
department head. See Lucia v. SEC, 138 S.Ct. 2044, 201
L.Ed.2d 464 (2018). For this contention, the threshold
issue involves exhaustion of administrative remedies.
The underlying securities laws expressly require
administrative exhaustion. See 15 U.S.C. §§ 77i(a)
(Securities Act), 78y(c) (Securities Exchange Act),
80b-13(a) (Investment Advisers Act). 5 Given the statutory
opening appeal brief. A motions panel provisionally granted Mr.
Malouf’s request, leaving the final decision to the merits panel and
extending the SEC’s deadline to file a response brief. So the SEC
obtained notice and extra time to brief the issue before filing the
response brief. Given the notice and extra time, consideration of the
issue would not unfairly prejudice the SEC. In light of the absence of
prejudice, we grant the request to supplement and reject the SEC’s
argument that Mr. Malouf forfeited the issue by failing to raise it
in his opening appeal brief.

5. The exhaustion requirement encompasses constitutional
claims. See C.E. Carlson, Inc. v. SEC, 859 F.2d 1429, 1439 (10th Cir.
1988) (concluding that the SEC could have addressed the petitioners’
“constitutional concerns” and that the opportunity for administrative
review had triggered the exhaustion requirement).

9a
Appendix A
requirement, courts lack discretion to excuse the failure to
exhaust administrative remedies. Ross v. Blake, 136 S.Ct.
1850, 1856-57, 195 L.Ed.2d 117 (2016). Failure to comply
with a mandatory exhaustion requirement prevents
judicial review of the issue. United States v. L.A. Tucker
Truck Lines, Inc., 344 U.S. 33, 37, 73 S.Ct. 67, 97 L.Ed.
54 (1952).
B. Mr. Malouf lacks reasonable grounds to excuse
his failure to exhaust.
Mr. Malouf concedes that his administrative filings
did not address the Appointments Clause. We thus must
decide whether Mr. Malouf satisfies an exception to the
exhaustion requirement.
The Securities Act does not contain an express
exception to the exhaustion requirement, so we cannot
excuse a failure to satisfy the Securities Act’s exhaustion
requirement. 15 U.S.C. § 77i(a); see Ross, 136 S.Ct. at 185657. But the other two securities statutes (the Securities
Exchange Act and Investment Advisers Act) provide an
exception, allowing the claimant to avoid the exhaustion
requirement upon a showing of reasonable grounds. 15
U.S.C. §§ 78y(c)(1), 80b-13(a).
Mr. Malouf argues that he had two reasonable grounds
to skip the exhaustion requirement:
1. It would have been futile to raise this challenge in
the SEC proceedings.

10a
Appendix A
2. The law changed after the SEC had ruled.6
We reject both arguments.
1.

Raising the challenge would not have been
futile.

Mr. Malouf argues that exhausting this challenge
would have been futile because the SEC would undoubtedly
have denied relief. We reject this argument.
The failure to pursue administrative remedies may
be excused when exhaustion would have been futile.
Gilmore v. Weatherford, 694 F.3d 1160, 1169 (10th Cir.
2012). But the futility exception is available only when the
administrative process would have been “clearly useless.”
Id. (quoting McGraw v. Prudential Ins. Co. of Am., 137
F.3d 1253, 1264 (10th Cir. 1998)).
Mr. Malouf has not shown that exhaustion of this
challenge would have been clearly useless. Indeed, when
he filed his brief in the SEC (on September 2, 2015),
the SEC had not yet addressed the applicability of the
Appointments Clause to administrative law judges.7
6. In two stray sentences, Mr. Malouf also states that
enforcement of the exhaustion requirement would create a
miscarriage of justice. But Mr. Malouf provides no explanation
or support for these statements. Given the absence of explanation
or support, we regard the two stray sentences as inadequate
development of a distinct argument. United States v. Martinez, 518
F.3d 763, 768 (10th Cir. 2008).
7. The day after Mr. Malouf filed this brief, the SEC ruled for
the first time that administrative law judges need not be appointed

11a
Appendix A
Despite the absence of any prior SEC decisions on the
issue, Mr. Malouf insists that the SEC would have rejected
this challenge. He points out that attorneys for the SEC
had previously argued that its administrative law judges
were not inferior officers subject to the Appointments
Clause. But the prior arguments by SEC attorneys do
not mean that exhaustion would have been futile. See
Gilmore v. Weatherford, 694 F.3d 1160, 1169 (10th Cir.
2012) (rejecting an argument that the agency’s position
had been “predetermined” based on the agency’s position
in three earlier cases); C.E. Carlson, Inc. v. SEC, 859 F.2d
1429, 1439 (10th Cir. 1988) (“[A]lthough petitioners contend
that raising [the] argument below would have been futile
given the SEC’s past response, that alone is not a sufficient
ground for presuming futility.”).
Mr. Malouf points out that after he began his
administrative appeal, the SEC frequently rejected
challenges under the Appointments Clause. But these
decisions do not mean that the SEC necessarily would have
rejected a challenge by Mr. Malouf. See Gilmore, 694 F.3d
at 1169 (“Requiring exhaustion of [claims asserted against
agency precedent or an agency’s litigation position] allows
agencies to take into account the specific facts of each
matter, and to change course if appropriate.” (internal
citation omitted)). Had Mr. Malouf exhausted available
administrative remedies, the SEC might have changed
its position on the Appointments Clause issue; and “if it
did not, the [SEC] would at least be put on notice of the
under the Appointments Clause. In re Lucia, SEC Release No. 4190,
2015 SEC LEXIS 3628, 2015 WL 5172953 (Sept. 3, 2015).

12a
Appendix A
accumulating risk of wholesale reversals being incurred
by its persistence.” United States v. L.A. Tucker Truck
Lines, Inc., 344 U.S. 33, 37, 73 S.Ct. 67, 97 L.Ed. 54 (1952).
Because Mr. Malouf has not shown that presentation
of this challenge to the SEC would have been clearly
useless, we do not regard exhaustion as futile.
2.

No intervening change of law took place.

We also reject Mr. Malouf’s reliance on an intervening
change in the law.
For the sake of argument, we can assume that
an intervening change in the law might constitute a
reasonable ground to excuse the failure to exhaust. But
the law did not change.
Mr. Malouf bases his argument largely on Bandimere
v. SEC, 844 F.3d 1168 (10th Cir. 2016), and Lucia v.
SEC, 138 S.Ct. 2044, 201 L.Ed.2d 464 (2018). 8 In these
cases, our court and the Supreme Court held that SEC
administrative law judges are inferior officers subject
to the Appointments Clause. See Bandimere, 844 F.3d
at 1170; Lucia, 138 S.Ct. at 2049. The Courts decided
these cases after the SEC had ruled in Mr. Malouf’s case,
preventing him from relying on either opinion during
8. Mr. Malouf also points to Landry v. FDIC, 204 F.3d 1125,
340 U.S. App. D.C. 237 (D.C. Cir. 2000). But Landry dealt with the
Federal Deposit Insurance Corporation’s administrative law judges,
not the SEC’s. Landry, 204 F.3d at 1130. Moreover, the D.C. Circuit’s
opinion does not control in our circuit.

13a
Appendix A
his administrative appeal. But neither Bandimere nor
Lucia changed the law: In both cases, the Courts merely
applied the Supreme Court’s 1991 opinion in Freytag v.
Commissioner of Internal Revenue, 501 U.S. 868, 111
S.Ct. 2631, 115 L.Ed.2d 764 (1991).
In Freytag, the Supreme Court held that special
trial judges for the Tax Court were inferior officers
subject to the Appointments Clause. 501 U.S. at 881, 111
S.Ct. 2631. The Supreme Court’s decision hinged on the
extensive powers granted to special trial judges, which
were significant enough to characterize these judges as
inferior officers. See id. at 881-82, 111 S.Ct. 2631 (noting
that special trial judges “take testimony, conduct trials,
rule on the admissibility of evidence, and have the power
to enforce compliance with discovery orders”). SEC
administrative law judges are “near-carbon copies” of the
Tax Court’s special trial judges. Lucia, 138 S.Ct. at 2052.
So in Bandimere and Lucia, our court and the Supreme
Court regarded Freytag as dispositive on the status of the
SEC’s administrative law judges. Bandimere, 844 F.3d
at 1174 (“In our view, Freytag controls the result of this
case.”); Lucia, 138 S.Ct. at 2052 (concluding that Freytag’s
analysis “necessarily decides this case”).
In the SEC proceedings, Mr. Malouf could have
invoked Freytag, just as the petitioners in Bandimere
and Lucia had done. See Island Creek Coal Co. v.
Wilkerson, 910 F.3d 254, 257 (6th Cir. 2018) (stating that
no precedent would have prevented a party from bringing
an Appointments Clause challenge before Lucia, which
itself “noted that existing case law ‘sa[id] everything
necessary to decide this case’” (quoting Lucia v. SEC,

14a
Appendix A
138 S.Ct. 2044, 2053, 201 L.Ed.2d 464 (2018))).9 Thus, Mr.
Malouf cannot avoid the exhaustion requirement based
on an intervening change in the law. See Saffle v. Parks,
494 U.S. 484, 488, 110 S.Ct. 1257, 108 L.Ed.2d 415 (1990)
(stating that a rule is not new if the court “would have felt
compelled by existing precedent” to conclude that the rule
being urged “was required by the Constitution”).
***
Mr. Malouf failed to administratively exhaust his
challenge under the Appointments Clause. We thus
conclude that Mr. Malouf forfeited this challenge.10
9. In Wilkerson, the Sixth Circuit held that a party had forfeited
its Appointments Clause challenge by waiting until the reply brief
to present this challenge. 910 F.3d at 256.
10. The SEC concedes that Mr. Malouf’s failure to exhaust this
challenge does not constitute a jurisdictional defect. Despite this
concession, we would ordinarily need to decide for ourselves whether
the failure to exhaust is jurisdictional. See Hertz Corp. v. Friend,
559 U.S. 77, 94, 130 S.Ct. 1181, 175 L.Ed.2d 1029 (2010) (“Courts
have an independent obligation to determine whether subject-matter
jurisdiction exists, even when no party challenges it.”).
Even if the exhaustion requirement were not jurisdictional,
however, it would constitute a claim-processing rule. See Henderson
ex rel. Henderson v. Shinseki, 562 U.S. 428, 435, 131 S.Ct. 1197,
179 L.Ed.2d 159 (2011) (explaining that claim-processing rules are
non-jurisdictional rules “that seek to promote the orderly progress
of litigation by requiring that the parties take certain procedural
steps at certain specified times”). Unlike jurisdictional requirements,
claim-processing rules can be waived or forfeited. Muskrat v. Deer
Creek Pub. Sch., 715 F.3d 775, 783 (10th Cir. 2013).

15a
Appendix A
II. The SEC reasonably found that Mr. Malouf had
violated Rule 10b-511 and § 17(a) of the Securities
Act of 1933.
The SEC found that Mr. Malouf had failed to correct
material misstatements, violating
• Rule 10b-5(a) and (c) and
• the Securities Act of 1933 § 17(a)(1) and (3).
For purposes of this appeal, Mr. Malouf does not deny
that he failed to correct UASNM’s misstatements. But he
argues that a failure to correct UASNM’s misstatements
does not constitute a separate violation of the securities
laws. We disagree.
But the SEC has not waived or forfeited the failure to exhaust.
When Mr. Malouf first raised the Appointments Clause issue, the
SEC promptly responded that Mr. Malouf had failed to exhaust
the issue in SEC proceedings. We thus would need to enforce the
statutory exhaustion requirements regardless of whether they are
jurisdictional. See Hamer v. Neighborhood Hous. Servs. of Chicago,
138 S.Ct. 13, 17-18, 199 L.Ed.2d 249 (2017) (“If properly invoked,
mandatory claim-processing rules must be enforced, but they may be
waived or forfeited.”). Given the need to require exhaustion as either
a claim processing rule or jurisdictional requirement, we need not
decide which one applies. See Manrique v. United States, 137 S.Ct.
1266, 1271, 197 L.Ed.2d 599 (2017) (declining to decide whether the
requirement to timely file a notice of appeal is jurisdictional because
the requirement is “at least a mandatory claim-processing rule”).

11. The SEC also found that Mr. Malouf had violated the
Securities Exchange Act of 1934 § 10(b). But this provision simply
incorporates the SEC’s “rules and regulations.” 15 U.S.C. § 78j(b).
The rule invoked here is Rule 10b-5.

16a
Appendix A
A.

Rule 10b-5(a) and (c) and § 17(a)(1) and (3)
of the Securities Act of 1933 encompass the
failure to correct UASNM’s false or misleading
statements.

The relevant provisions ban two broad categories
of conduct. The first category involves the making of a
materially untrue or misleading statement. The second
category involves employment of a fraudulent or deceptive
scheme. Addressing the second category, the SEC found
that Mr. Malouf had failed to correct UASNM’s false or
misleading statements, triggering liability for employment
of a fraudulent or deceptive scheme.
Mr. Malouf contends that liability cannot be based on
his failure to correct UASNM’s misstatements because the
failure to correct is inseparable from the misstatements
themselves. In his view, the SEC “obliterate[d] the
distinction” between the two categories of prohibited
conduct. Appellant’s Opening Br. at 23. We reject this
argument based on Lorenzo v. SEC, 139 S.Ct. 1094, 203
L.Ed.2d 484 (2019).
In Lorenzo, the Supreme Court confronted the same
two categories of prohibited conduct. The first category
is enshrined in Rule 10b-5(b), which prohibits the making
of a statement that is materially false or misleading. 17
C.F.R. § 240.10b-5(b). The second category is enshrined in
• Rule 10b-5(a) and the Securities Act of 1933
§ 17(a)(1), which prohibit the employment of
a fraudulent “device, scheme, or artifice”
and

17a
Appendix A
• Rule 10b-5(c), which prohibits engagement
in an “act, practice, or course of business”
operating as a “fraud or deceit.”
15 U.S.C. § 77q(a)(1); 17 C.F.R. § 240.10b-5(a), (c).
In Lorenzo, the SEC found that the petitioner had
disseminated another’s false statement with scienter.12
Lorenzo, 139 S.Ct. at 1099. The Supreme Court granted
certiorari in Lorenzo to decide “whether someone who is
not a ‘maker’ of a misstatement under [Rule 10b-5(b)] . . .
can nevertheless be found to have violated [Rule 10b-5(a)
and (c)] and related provisions of the securities laws, when
the only conduct involved concerns a misstatement.” Id.
at 1100.
The Supreme Court answered “yes.” See id. at 1100-01.
In urging the opposite result, the petitioner argued that
the prohibitions applicable to “makers” of false statements
would be superfluous if someone could incur liability by
disseminating another person’s false statement. Id. at
1101. The Supreme Court rejected this argument based
on the prohibitions’ language, purpose, and overlap. Id. at
1102-03. Applying Lorenzo, we conclude that Mr. Malouf’s
failure to correct UASNM’s misstatements could trigger
liability.
The Court in Lorenzo applied three of the provisions
that the SEC has invoked against Mr. Malouf:
12. The Lorenzo Court assumed that the petitioner himself had
not made a false or misleading statement. Lorenzo, 139 S.Ct. at 1100.

18a
Appendix A
1. Rule 10b-5(a),
2. Rule 10b-5(c), and
3. t h e S e c u r i t i e s A c t o f 19 3 3
§ 17(a)(1).
The Court expressly held that a person could incur liability
under these provisions when the conduct involves another
person’s false or misleading statement. Id. at 1102. In
reaching this holding, the Supreme Court rejected the
same argument urged by Mr. Malouf (that the SEC’s
interpretation would render Rule 10b-5(b) superfluous).
Id. at 1101-03.
The Lorenzo Court did not address a fourth provision
involved here: the Securities Act of 1933 § 17(a)(3). But
this provision is virtually identical to Rule 10b-5(c), which
Lorenzo did address. Rule 10b-5(c) prohibits anyone using
interstate commerce from “engag[ing] in any act, practice,
or course of business which operates or would operate as
a fraud or deceit.” 17 C.F.R. § 240.10b-5(c). Similarly, the
Securities Act of 1933 § 17(a)(3) states that offerors or
sellers of securities cannot “engage in any transaction,
practice, or course of business which operates or would
operate as a fraud or deceit upon the purchaser.” 15 U.S.C.
§ 77q(a)(3).
In light of this similarity, Mr. Malouf urges us to
interpret § 17(a)(3) coextensively with Rule 10b-5(c). We
do so; Lorenzo thus controls on § 17(a)(3) as well as the
other provisions.

19a
Appendix A
B. Substantial evidence exists for the findings
that Mr. Malouf violated Rule 10b-5(a) and (c)
and the Securities Act of 1933 § 17(a)(1) and (3).
The resulting question is whether substantial evidence
supports the SEC’s findings that Mr. Malouf violated Rule
10b-5(a) and (c) and § 17(a)(1) and (3) of the Securities
Act of 1933. Mr. Malouf argues that the findings lack
substantial evidence because
• he did not engage in prohibited conduct and
• the evidence does not establish scienter.
1.

T he applic able prov isions a dd re s s
prohibited conduct and scienter.

The pertinent securities laws prohibit fraudulent
conduct. For example, Rule 10b-5(a) and the Securities
Act of 1933 § 17(a)(1) prohibit the employment of a device,
scheme, or artifice to defraud. 17 C.F.R. § 240.10b-5(a); 15
U.S.C. § 77q(a)(1). “A ‘device’ . . . is simply that which is
devised, or formed by design; a ‘scheme’ is a project, plan,
or program of something to be done; and an ‘artifice’ is
an artful stratagem or trick.” Lorenzo v. SEC, 139 S.Ct.
1094, 1101, 203 L.Ed.2d 484 (2019) (quoting Aaron v. SEC,
446 U.S. 680, 696 n.13, 100 S.Ct. 1945, 64 L.Ed.2d 611
(1980)). Rule 10b-5(c) bars a fraudulent or deceitful act,
practice, or course of business. 17 C.F.R. § 240.10b-5(c).
The Securities Act of 1933 § 17(a)(3) similarly prohibits
fraudulent or deceitful transactions, practices, or courses
of business. 17 U.S.C. § 77q(a)(3).

20a
Appendix A
In addressing these provisions, Mr. Malouf challenges
the sufficiency of the evidence on scienter, which is “a
mental state embracing intent to deceive, manipulate, or
defraud.” C.E. Carlson, Inc. v. SEC, 859 F.2d 1429, 1435
(10th Cir. 1988) (quoting Ernst & Ernst v. Hochfelder, 425
U.S. 185, 193 n.12, 96 S.Ct. 1375, 47 L.Ed.2d 668 (1976)).
This mental state can include extreme recklessness. Id.
Conduct is extremely reckless when the petitioner knows
or must have known that the conduct created a danger of
misleading investors. Id.
Scienter is required to find a violation of Rule 10b-5(a),
Rule 10b-5(c), or the Securities Act of 1933 § 17(a)(1). But
scienter is not required for a violation of the Securities
Act of 1933 § 17(a)(3). Aaron v. SEC, 446 U.S. 680, 691,
697, 100 S.Ct. 1945, 64 L.Ed.2d 611 (1980).
2.

The SEC acted reasonably in finding
improper conduct.

Given these definitions, we conclude that the SEC did
not err in finding a fraudulent device, scheme, or artifice
to defraud.
The evidence allowed the SEC to reasonably find a
conflict of interest: while working at UASNM, Mr. Malouf
maintained a financial arrangement with Mr. Lamonde,
the purchaser of the Raymond James branch. Mr. Malouf
knew not only that a conflict existed but also that UASNM
was telling its clients that he was independent. Despite
this knowledge, Mr. Malouf took no steps to correct
UASNM’s statements or to disclose his own conflict. Given

21a
Appendix A
this failure to correct misstatements or to disclose his
conflict, the SEC reasonably found the existence of
• an artful stratagem or plan devised to
defraud investors under Rule 10b-5(a) and
the Securities Act of 1933 § 17(a)(1) and
• a fraudulent or deceptive act, practice, or
course of business under Rule 10b-5(c) and
the Securities Act of 1933 § 17(a)(3).
3.

The SEC acted reasonably in finding
scienter.

Mr. Malouf also challenges the finding of scienter
on the claims involving Rules 10b-5(a) and (c) and the
Securities Act of 1933 § 17(a)(1).13 We reject this challenge.
Mr. Malouf and Mr. Lamonde had a financial
arrangement that resulted in payments to Mr. Malouf
from bond trades that he had routed through the Raymond
James branch. This arrangement gave an incentive to
Mr. Malouf to route his clients’ bond trades through the
Raymond James branch, compromising the independence
of UASNM and Mr. Malouf as investment advisers. The
SEC reasonably concluded that Mr. Malouf was aware of
the conflict and tried to exploit it, for UASNM’s outside
consultant testified that Mr. Malouf had lied and resisted
disclosure of the financial arrangement with Mr. Lamonde.
13. As noted above, § 17(a)(3) of the Securities Act of 1933 does
not require scienter. See p. 20, above.

22a
Appendix A
Mr. Malouf denies scienter, insisting that he did not
know of misstatements on the Forms ADV or the UASNM
website. For these misstatements, Mr. Malouf pins the
blame on UASNM’s chief compliance officer. For three
reasons, we reject Mr. Malouf’s arguments and conclude
that substantial evidence supports the SEC’s finding of
scienter.
First, the SEC reasonably rejected Mr. Malouf’s effort
to shift the blame. The chief compliance officer admittedly
knew that the Raymond James branch had been sold, but
he denied knowing about the arrangement for installment
payments.
Second, the evidence allowed the SEC to reasonably
find that Mr. Malouf was familiar with the contents of
UASNM’s Forms ADV and its website. For example, Mr.
Malouf admitted that he had periodically reviewed the
Forms ADV and the website. Yet for several years, Mr.
Malouf took no action to correct material misstatements
on the forms or the website.
Third, the evidence suggests that Mr. Malouf dragged
his feet even after being directed to disclose the conflict.
This directive stemmed from the outside consultant’s
discovery that Mr. Malouf had been receiving installment
payments from the buyer of the Raymond James branch.
Upon this discovery, the consultant told Mr. Malouf and
UASNM that the arrangement had created a conflict
of interest that needed to be disclosed. But about nine
months passed before UASNM disclosed the conflict. Mr.
Malouf’s contribution to that delay reasonably supports a
finding of scienter.

23a
Appendix A
***
The SEC reasonably found that Mr. Malouf had acted
with scienter to (1) employ a device, scheme, or artifice
to defraud and (2) engage in an act, practice, or course
of business that operated as a fraud or deceit. We thus
affirm the SEC’s conclusion that Mr. Malouf violated Rule
10b-5(a) and (c) and the Securities Act of 1933 § 17(a)(1)
and (3).
III. The SEC reasonably found violations of the
Investment Advisers Act of 1940 §§ 206 and 207 and
Rule 206(4)-1(a)(5).
The SEC also found that Mr. Malouf had
• violated § 206(1) and (2) of the Investment Advisers
Act and
• aided and abetted UASNM’s violations of §§ 206(4)
and 207 of the Investment Advisers Act and Rule
206(4)-1(a)(5).
We uphold these findings.
A.

The SEC reasonably found primary violations
of § 206 of the Investment Advisers Act.

Under § 206 of the Investment Advisers Act,
investment advisers cannot
• employ a device, scheme, or artifice to
defraud a client or

24a
Appendix A
• engage in a transaction, practice, or course
of business that operates as a fraud or deceit
upon a client.
15 U.S.C. § 80b-6(1)-(2). The SEC concluded that Mr.
Malouf had violated § 206(1) and (2) of the Act in three ways:
1. by failing to correct the misstatements on
UASNM’s Forms ADV and website,
2. by failing to disclose his conflict of interest
to his clients, and
3. by failing to seek best execution for his
clients’ bond trades.
Mr. Malouf argues that the SEC erred in concluding
that he violated § 206(1) and (2) because
• the failure to correct UASNM’s
misstatements cannot support
liability,
• the finding of scienter (when failing
to disclose the conflict of interest)
is not supported by substantial
evidence, and
• he owed no duty of best execution
and the finding of a violation is
unsupported by the evidence.

25a
Appendix A
We reject Mr. Malouf’s arguments.
1.

A violation could be based on Mr. Malouf’s
failure to correct UASNM’s misstatements.

Mr. Malouf argues that he cannot incur liability
under § 206(1) and (2) simply because he failed to correct
UASNM’s misstatements. In Part II, we addressed the
same issue under
• the Securities Act of 1933 § 17(a)
(1) and (3) and
• Rule 10b-5(a) and (c).
See Discussion-Part II(A), above. The language in these
provisions is virtually identical to the language in the
Investment Advisers Act § 206(1) and (2).14 Given the
14. The Investment Advisers Act § 206(1) states that an
investment adviser cannot “employ any device, scheme, or artifice
to defraud any client or prospective client.” 15 U.S.C. § 80b-6(1).
Similarly, the Securities Act of 1933 § 17(a)(1) states that an offeror
or seller of securities cannot “employ any device, scheme, or artifice
to defraud.” 15 U.S.C. § 77q(a)(1). And Rule 10b-5(a) states that no
one can use interstate commerce “[t]o employ any device, scheme,
or artifice to defraud.” 17 C.F.R. § 240.10b-5(a).
The Investment Advisers Act § 206(2) prohibits investment
advisers from “engag[ing] in any transaction, practice, or course
of business which operates as a fraud or deceit upon any client or
prospective client.” 15 U.S.C. § 80b-6(2). The Securities Act of 1933
§ 17(a)(3) similarly states that offerors or sellers of securities cannot
“engage in any transaction, practice, or course of business which
operates or would operate as a fraud or deceit upon the purchaser.”

26a
Appendix A
virtually identical wording, Mr. Malouf urges us to
interpret the Investment Advisers Act in the same way
that we interpret Rule 10b-5(a) and (c) and the Securities
Act of 1933 § 17(a)(1) and (3). We do so in light of the
virtually identical language in these provisions. See SEC
v. Steadman, 967 F.2d 636, 641 n.3, 296 U.S. App. D.C.
269 (D.C. Cir. 1992) (interpreting the Investment Advisers
Act § 206(1) in the same way that the Supreme Court
interpreted the Securities Act of 1933 § 17(a)(1) because
the statutory language is virtually identical). Given this
interpretation, we conclude that Mr. Malouf’s failure to
correct UASNM’s misstatements could create liability
under the Investment Advisers Act § 206(1) and (2).
2.

Substantial evidence exists for the finding
of scienter based on Mr. Malouf’s failure
to disclose his conflict of interest.

Liability under the Investment Advisers Act § 206(1)
requires proof of scienter; liability under § 206(2) requires
only simple negligence. Robare Grp., Ltd. v. SEC, 922 F.3d
468, 472 (D.C. Cir. 2019). Scienter can encompass extreme
recklessness. See p. 20, above.
The SEC found scienter in Mr. Malouf’s failure to
disclose his conflict. Mr. Malouf challenges this finding
on grounds that he
• was “set-up” by UASNM’s chief compliance
officer and
15 U.S.C. § 77q(a)(3). And Rule 10b-5(c) prohibits the use of interstate
commerce “[t]o engage in any act, practice, or course of business which
operates or would operate as a fraud or deceit.” 17 C.F.R. § 240.10b-5(c).

27a
Appendix A
• believed that the chief compliance officer
had been disclosing the conflict.
But the SEC reasonably credited the chief compliance
officer’s testimony that he had not known about Mr.
Malouf’s conflict. See p. 22, above. We thus reject Mr.
Malouf’s challenge to the SEC’s finding of scienter on
the claim under § 206(1) of the Investment Advisers Act.
3.

Mr. Malouf owed a duty of best execution,
and the SEC’s finding of a violation is
supported by substantial evidence.

The duty of best execution requires a broker-dealer to
seek the best terms reasonably available for customer
orders. Newton v. Merrill, Lynch, Pierce, Fenner &
Smith, Inc., 135 F.3d 266, 270 (3d Cir. 1998) (en banc). Mr.
Malouf argues that
• the SEC erred by finding that he owed this
duty and
• the evidence was insufficient to find a
violation of this duty.15
We reject both arguments, concluding that (1) Mr. Malouf
owed a duty of best execution to his clients and (2)
substantial evidence supports the finding of a violation.
15. Mr. Malouf also suggests that the SEC erroneously ignored
the administrative law judge’s conclusions of law. This suggestion
assumes that the administrative law judge’s conclusions of law bound
the SEC when it reviewed the judge’s decision. Mr. Malouf supplies
no authority for this assumption.

28a
Appendix A
Under the duty of best execution, a fiduciary bears an
obligation to seek “the most favorable terms reasonably
available under the circumstances.” Geman v. SEC, 334
F.3d 1183, 1186 (10th Cir. 2003) (quoting Newton, 135
F.3d at 270). This obligation requires investment advisers
to seek the lowest price reasonably available for a client
unless the more expensive option results in better service.
See Newton, 135 F.3d at 270 n.2; Securities; Brokerage
and Research Services, SEC Release No. 23170, 1986
WL 630442, at *11 (Apr. 23, 1986).16 When an investment
adviser is affiliated with the brokerage firm executing
the transaction, the adviser must make a good-faith
judgment that the commission charged “is at least as
favorable to the [client] as that charged by other qualified
brokers.” Applicability of Comm.’s Policy Statement on
the Future Structure of Securities Markets to Selection of
Brokers and Payment of Commissions by Institutional
Managers, SEC Release No. 318, 1972 WL 121270, at *2
(May 17, 1972). In cases of self-dealing, the investment
adviser bears a “particularly heavy” burden to justify a
commission rate exceeding the lowest available rate. Id.
16. We defer to the SEC’s reasonable interpretations of
ambiguous statutory provisions in federal securities laws when the
interpretations carry the “force of law.” Thomas v. Metropolitan Life
Ins. Co., 631 F.3d 1153, 1162 (10th Cir. 2011); see SEC v. Zandford, 535
U.S. 813, 819-20, 122 S.Ct. 1899, 153 L.Ed.2d 1 (2002) (stating that
the SEC’s reasonable interpretation of an ambiguous provision of the
Securities Exchange Act, issued in a formal adjudication, is entitled
to deference). We otherwise consider the SEC’s interpretations only
for their persuasive value. Thomas, 631 F.3d. at 1162-63.
In citing the SEC releases, we use them only for their persuasive
value. We need not decide whether the SEC releases are subject to
deference.

29a
Appendix A
Mr. Malouf concedes that the duty of best execution
requires reasonable diligence to ensure the best price
reasonably available. But Mr. Malouf argues that the
duty of best execution is owed by the investment firm as
a whole, not by him individually. For this argument, Mr.
Malouf relies on Regulatory Notice 15-46 of the Financial
Industry Regulatory Authority. This notice refers to
a “firm’s best execution obligation.” Guidance on Best
Execution Obligations in Equity, Options and Fixed
Income Markets, FINRA Regulatory Notice 15-46, at 4
(Nov. 2015). Mr. Malouf seizes on this language in denying
that the obligation applies to individual brokers like
himself. We reject Mr. Malouf’s argument for two reasons:
1.

The duty of best execution comes from the
Investment Advisers Act, not Regulatory Notice
15-46.

2.

Mr. Malouf has misinterpreted Regulatory
Notice 15-46.

First, the duty of best execution originated in the
Investment Advisers Act rather than Notice 15-46. See
Kurz v. Fidelity Mgmt. & Research Co., 556 F.3d 639, 640
(7th Cir. 2009) (stating that the duty of best execution is
“widely understood as a subject of regulation” under the
federal securities laws, including the Investment Advisers
Act). The Act prohibits investment advisers from engaging
in a fraudulent or deceptive transaction, practice, or course
of business. Investment Advisers Act, 15 U.S.C. § 80b-6(2).
This prohibition imposes a fiduciary duty of loyalty on
investment advisors, and the duty of loyalty subsumes the

30a
Appendix A
duty of best execution. See SEC v. Capital Gains Research
Bureau, 375 U.S. 180, 191-92, 84 S.Ct. 275, 11 L.Ed.2d
237 (1963) (recognizing that the Investment Advisers Act
obligates investment advisers to provide “disinterested”
advice); In re Hughes, Exchange Act Release No. 4048, 1948
SEC LEXIS 20, 1948 WL 29537, at *5 (Feb. 18, 1948) (“A
corollary of the fiduciary’s duty of loyalty to his principal
is his duty to obtain . . . the best price discoverable in the
exercise of reasonable diligence.”), aff’d sub nom. Hughes
v. SEC, 174 F.2d 969, 85 U.S. App. D.C. 56 (D.C. Cir. 1949).
Thus, the Act ultimately imposes a duty of best execution on
investment advisers (not just their firms). See In re DeSano,
Advisers Act Release No. 2815, 2008 WL 5189512, at *4
(Dec. 11, 2008) (“Under Section 206 of the [Investment]
Advisers Act, an investment adviser has a fiduciary duty to
seek best execution for its clients’ security transactions.”).
Second, Mr. Malouf has misinterpreted Notice 1546. This notice points out that the Financial Industry
Regulatory Authority has codified the duty of best
execution in Rule 5310 of the Financial Industry Regulatory
Authority Manual. Rule 5310 provides:
In any transaction for or with a customer or a
customer of another broker-dealer, a member
and persons associated with a member shall
use reasonable diligence to ascertain the best
market for the subject security and buy or sell
in such market so that the resultant price to
the customer is as favorable as possible under
prevailing market conditions.
Financial Industry Regulatory Authority Manual, Rule
5310(a)(1).

31a
Appendix A
Rule 5310 does not confine the duty of best execution to
firms: it applies to “a member and persons associated with
a member.” The rule’s definition of the term “member”
includes “any individual, partnership, corporation or other
legal entity admitted to membership” in the Financial
Industry Regulatory Authority, and the term “person”
includes “any natural person.” Id., Rule 160(b)(10) & (12).
Thus, Mr. Malouf’s argument is based on a misreading
of Rule 5310.
But Mr. Malouf also argues that even if he owed the
duty of best execution, he would avoid liability because he
delegated compliance to the chief compliance officer. For
this argument, Mr. Malouf identifies the administrative
law judge’s conclusions of law that the chief compliance
officer’s duties included
• review of UASNM’s trade tickets to ensure
that the commissions were reasonable
and that the investment advisers were
complying with UASNM’s best-execution
policy and
• review to ensure compliance with UASNM’s
compliance manual.
But Mr. Malouf does not identify any evidence that he
delegated his own compliance with the best-execution
policy.17
17. Even if Mr. Malouf had delegated his own compliance with
the duty of best execution, he would remain liable. See Geddes v.
United Staffing Alliance Emp. Med. Plan, 469 F.3d 919, 926 (10th
Cir. 2006) (stating that when a fiduciary delegates tasks to others, the
fiduciary remains “responsible for actions performed in his name”).

32a
Appendix A
He instead points to conclusions of law stating that
the chief compliance officer’s duties included policing of
UASNM employees for adherence to the firm’s manual. But
these conclusions of law do not undermine the obligation
of investment advisers (like Mr. Malouf) to comply with
their own fiduciary duties to their clients. See Commission
Guidance Regarding Client Commission Practices Under
Section 28(E) of the Securities Exchange Act of 1934,
Exchange Act Release, No. 54165, 2005 WL 4843294, at
*2 & n.3 (July 18, 2006) (stating that investment advisers
bear duties to act in their clients’ best interests).
Mr. Malouf also argues that
• there is no evidence that he could have
executed trades for better prices and
• he was not obligated to seek competing bids
from brokers before executing bond trades.
We reject both arguments.
First, Mr. Malouf denies that he could have executed
bond trades for better prices than those offered by the
Raymond James branch. But the SEC could reasonably
arrive at a contrary finding based on (1) the testimony of
an expert witness and (2) Mr. Malouf’s own testimony.
An expert witness opined that Mr. Malouf’s trades had
resulted in commissions to the Raymond James branch
substantially exceeding the industry’s standard commissions.
In reaching this opinion, the expert witness assumed that
standard commissions range from 0.10 to 0.75 percent of the
total amount of the bond transaction. He based this range

33a
Appendix A
on personal experience, industry research, and consultation
with other experts in the field. With this assumption, the
expert witness studied the bond trades that Mr. Malouf had
routed through the Raymond James branch and determined
that his clients had paid commissions between $442,106 and
$693,804 above the standard rate.
The expert witness presented two diagrams showing
the differences between the actual commissions paid on
Mr. Malouf’s trades and standard commissions18:

18. We have slightly edited the diagrams for clarity.

34a
Appendix A
The SEC credited
• the expert witness’s lower figure of total
excess commissions paid by Mr. Malouf’s
clients to the Raymond James branch
($442,106) and
• Mr. Malouf ’s own testimony about the
percentage of UASNM bond trades that he
had conducted (60%).
Based on its findings, the SEC concluded that Mr. Malouf
was responsible for $265,263.60 in excess commissions
paid by UASNM clients. In light of the expert witness’s
testimony, we conclude that the SEC reasonably found that
Mr. Malouf could have executed trades for better prices.
Second, Mr. Malouf contends that the duty of best
execution did not obligate him to seek multiple bids.
Even without this obligation, the SEC concluded that Mr.
Malouf’s failure to seek multiple bids supported a finding of
scienter. This conclusion was based on substantial evidence.
The expert witness testified that multiple bids provide
the ideal way to satisfy the duty of best execution. Mr.
Malouf agreed with this testimony and conceded that he
had routinely failed to seek competing bids before routing
trades through the Raymond James branch, with which he
had an undisclosed financial relationship. The SEC thus
reasonably found that Mr. Malouf had routed trades to
the Raymond James branch in order to benefit himself to
the detriment of his clients.

35a
Appendix A
***
We conclude that the SEC reasonably found that Mr.
Malouf had violated the Investment Advisers Act § 206(1)
and (2) by failing to
• correct UASNM’s misstatements,
• disclose a conflict of interest, and
• seek best execution.
B. The SEC also reasonably found that Mr. Malouf
had aided and abetted UASNM’s violations of
§§ 206 and 207 of the Investment Advisers Act
and Rule 206(4)-1(a)(5).
Section 206 of the Investment Advisers Act bans
practices that are fraudulent, deceptive, or manipulative.
15 U.S.C. § 80b-6(4). For example, it is fraudulent,
deceptive, or manipulative to publish an advertisement
containing an untrue statement of material fact. 17
C.F.R. § 275.206(4)-1(a)(5). And under § 207 of the Act, an
investment adviser cannot omit material facts in an SEC
report (like a Form ADV). 15 U.S.C. § 80b-7.
Applying these prohibitions, the SEC found that Mr.
Malouf had aided and abetted UASNM’s violations of the
Investment Advisers Act and Rule 206(4)-1(a)(5). According
to the SEC, UASNM violated these provisions by
• stating in the Forms ADV and
on the company’s website that

36a
Appendix A
the employees had no conflicts of
interest and
• failing to disclose Mr. Malouf’s
conflict of interest.
The SEC also found that Mr. Malouf had aided and abetted
these violations by recklessly failing to tell UASNM that
he had a conflict of interest.
Mr. Malouf does not contest UASNM’s commission of
a primary violation. He instead argues that the SEC lacks
substantial evidence for its finding that he had aided and
abetted UASNM’s violations. According to Mr. Malouf,
evidence was lacking on
• scienter and
• substantial assistance of UASNM’s violations.
Mr. Malouf also argues that by declining to charge him
with aiding and abetting a violation of Rule 10b-5(b), the
SEC undermined its finding that he had aided and abetted
a violation of the Investment Advisers Act. We reject Mr.
Malouf’s arguments.
First, Mr. Malouf contests the SEC’s finding of
scienter. As Mr. Malouf suggests, scienter is an essential
element of aiding and abetting a violation of the securities
law. See Howard v. SEC, 376 F.3d 1136, 1143, 363 U.S. App.
D.C. 100 (D.C. Cir. 2004) (stating that liability for aiding
and abetting requires scienter). But we have already
concluded that the SEC had reasonably found scienter

37a
Appendix A
based on Mr. Malouf’s failure to correct UASNM’s
misstatements about the absence of a conflict of interest.
See pp. 21-23, above.19
Second, Mr. Malouf contests the finding on substantial
assistance, stating that his failure to correct UASNM’s
misstatements did not facilitate its fraudulent scheme. But
in finding substantial assistance, the SEC did not rely on a
failure to correct UASNM’s misstatements; the SEC instead
relied on Mr. Malouf’s failure to disclose his conflict of interest
arising from Mr. Lamonde’s ongoing payments. UASNM’s
failure to disclose this conflict of interest stemmed largely
from Mr. Malouf’s failure to tell other UASNM officers
about the ongoing payments from Mr. Lamonde. Without
this information, the other UASNM officers had no way of
knowing that Mr. Malouf was personally benefiting from
bond trades routed through the Raymond James branch.
19. Mr. Malouf argues that scienter cannot be based on his
failure to detect another’s misconduct. To support this argument,
he cites Howard v. SEC, 376 F.3d 1136, 363 U.S. App. D.C. 100 (D.C.
Cir. 2004). There the D.C. Circuit held that the defendant had not
acted with scienter when the only evidence of his intent was that he
should have known about another’s wrongdoing. 376 F.3d at 1143.
Howard is not analogous. The SEC reasonably found that Mr.
Malouf had recognized a conflict of interest, known that he needed
to disclose it, and known that he had not disclosed to UASNM that
his conflict was ongoing. Given this knowledge, Mr. Malouf knew or
must have known that UASNM could not fully disclose the conflict.
At a minimum, the SEC had substantial evidence for its finding that
Mr. Malouf had acted with extreme recklessness by facilitating
UASNM’s failure to disclose the conflict. See Geman v. SEC, 334 F.3d
1183, 1195 (10th Cir. 2003) (holding that an individual had acted with
extreme recklessness when he was aware of undisclosed information
and “surely knew” that it had not been adequately reported).

38a
Appendix A
Finally, Mr. Malouf points to the SEC’s decision not
to charge him with aiding and abetting UASNM’s making
of a material misstatement in violation of Rule 10b-5(b).
According to Mr. Malouf, the absence of such a charge
must mean that the SEC did not believe that he had aided
and abetted UASNM’s violations. But Mr. Malouf does not
provide any authority for this leap. “[A]n agency decision
not to enforce often involves a complicated balancing
of a number of factors which are peculiarly within its
expertise. So the agency must not only assess whether
a violation has occurred, but whether agency resources
are best spent on this violation or another . . . .” Heckler
v. Chaney, 470 U.S. 821, 831, 105 S.Ct. 1649, 84 L.Ed.2d
714 (1985). The SEC’s decision not to bring an aiding or
abetting charge under Rule 10b-5(b) does not affect the
existence of substantial evidence, so we decline to disturb
the SEC’s findings on this basis.
IV. The SEC did not err in deciding on the sanctions
to impose.
Based on Mr. Malouf’s violation of the securities laws
and related rules, the administrative law judge imposed
three sanctions:
1. a 7-1/2 year bar from the securities industry,
2. an order to cease and desist violations of the
federal securities laws, and
3. a civil penalty of $75,000.

39a
Appendix A
The SEC extended the bar from 7-1/2 years to life, ordered
Mr. Malouf to disgorge $562,001.26 plus prejudgment
interest, and adopted the administrative law judge’s other
sanctions. Mr. Malouf asks us to vacate the SEC’s lifetime
ban and disgorgement order. 20
We do not disturb sanctions imposed by the SEC
unless they are “beyond the law, devoid of factual support,
or are ‘so lacking in reasonableness as to constitute an
abuse of discretion.’” C.E. Carlson, Inc. v. SEC, 859 F.2d
1429, 1438 (10th Cir. 1988) (quoting Am. Power & Light
Co. v. SEC, 329 U.S. 90, 115, 67 S.Ct. 133, 91 L.Ed. 103
(1946)). In our view, the SEC did not abuse its discretion
in imposing the lifetime bar or in ordering Mr. Malouf to
disgorge $562,001.26 plus prejudgment interest.
A.

The SEC did not abuse its discretion in ordering
a lifetime bar from the securities industry.

Under the Investment Advisers Act, the SEC may bar
advisers from associating with the securities industry if
• they “willfully violated” or “willfully aided
[and] abetted . . . the violation” of federal
securities law and
20. In his reply brief, Mr. Malouf also contends that his
sanctions were disproportionate to the sanctions imposed in other
cases. But Mr. Malouf did not present this contention in his opening
appeal brief. Raising the issue in his reply brief was too late. See,
e.g., WildEarth Guardians v. EPA, 770 F.3d 919, 933 (10th Cir.
2014) (stating that it “was too late” to present a new issue in the
petitioners’ reply brief).

40a
Appendix A
• the bar is in the public interest.
15 U.S.C. § 80b-3(e)(5)-(6) & (f). The SEC concluded that
both conditions had been met.
Mr. Malouf argues that
• he did not act willfully,
• the SEC penalized him for defending
himself, and
• the public interest did not support a lifetime
bar in light of his disclosures preceding
the SEC investigation and his payment of
restitution and civil penalties.
We reject these arguments.
First, according to Mr. Malouf, the SEC’s finding
of willfulness must have been based on his failure to
require disclosure from others. For this argument, Mr.
Malouf insists that he delegated the duty of disclosure. We
disagree. Mr. Malouf blames the chief compliance officer,
but this officer could not have been expected to disclose
a conflict of interest that he had not known about. See pp.
22, 26-27, above. The SEC thus did not abuse its discretion
in determining that Mr. Malouf had acted willfully.
Second, Mr. Malouf contends that the SEC penalized
him for defending himself. We disagree. The SEC
reasonably considered Mr. Malouf’s failure to recognize

41a
Appendix A
his own wrongdoing. See Steadman v. SEC, 603 F.2d 1126,
1140 (5th Cir. 1979) (noting that a defendant’s admission
of wrongful conduct (or lack of an admission thereof) is a
factor “that [has] been deemed relevant to the issuance of
an injunction” from the securities industry), aff’d, 450 U.S.
91, 101 S.Ct. 999, 67 L.Ed.2d 69 (1981); ZPR Inv. Mgmt.
Inc. v. SEC, 861 F.3d 1239, 1255 (11th Cir. 2017) (upholding
a bar on continued work in an industry when the SEC
found that the petitioner had not genuinely acknowledged
his wrongdoing). Consideration of one’s acceptance of
responsibility constitutes “a routine and unexceptionable
feature . . . of criminal, let alone civil, punishment.” SEC v.
Lipson, 278 F.3d 656, 664 (7th Cir. 2002). And the agency
record is replete with examples of Mr. Malouf’s refusal to
accept responsibility for his actions. The SEC thus did not
abuse its discretion in considering Mr. Malouf’s failure to
accept responsibility.
Finally, Mr. Malouf stresses his (1) disclosures
preceding the SEC’s investigation and (2) prior payment
of huge sums in restitution and civil penalties. But his
earlier disclosures and payments do not render a lifetime
bar unreasonable. Mr. Malouf waited roughly three years
before making the disclosures. And for about nine months
of that period, Mr. Malouf ignored an outside consultant’s
directions to make the disclosures. The SEC considered
Mr. Malouf’s delay together with his payments toward
restitution and civil penalties, concluding that a lifetime
bar from the securities industry was justified. The SEC’s
reasoning is rational and supported by the evidence.

42a
Appendix A
B. The SEC did not abuse its discretion in ordering
disgorgement of $562,001.26 plus prejudgment
interest.
Mr. Malouf also asks us to vacate the SEC’s order
that he disgorge $562,001.26 plus prejudgment interest,
arguing that he did not commit fraud or violate the law.
For this argument, he again casts blame on the chief
compliance officer for failing to disclose the financial
arrangement that created a conflict of interest. But we
have elsewhere rejected Mr. Malouf’s effort to pin the
blame on the chief compliance officer. See pp. 22, 26-27,
40, above.
Mr. Malouf also suggests that the SEC abused its
discretion by ordering him to disgorge the funds that
he had received from Mr. Lamonde. The administrative
law judge had regarded those funds as legal profits
that Mr. Malouf did not need to disgorge. The SEC
disagreed, concluding that the payments had resulted
from Mr. Malouf’s violations of the securities laws. Mr.
Malouf suggests that the SEC should have followed
the administrative law judge’s characterization of the
payments.
The SEC did not abuse its discretion. Mr. Malouf
knew that he was profiting when he and others at UASNM
routed bond transactions through the Raymond James
branch. See Appellant’s App’x, vol. 4, at 941-42 (testimony
of Mr. Malouf) (admitting that he traded through the
Raymond James branch in part to get paid). Yet Mr.
Malouf waited years to tell others at UASNM about his

43a
Appendix A
ongoing payments from Mr. Lamonde. Given this delay
in disclosing the conflict, the SEC reasonably concluded
that all of the payments to Mr. Malouf were traceable
to his misconduct and needed to be disgorged. See SEC.
v. Maxxon, Inc., 465 F.3d 1174, 1179 (10th Cir. 2006)
(recognizing that the amount to be disgorged need only be
a “‘reasonable approximation’ of illegal profits”). We thus
reject Mr. Malouf’s challenge to the disgorgement order.
Affirmed.

44a
B THE UNITED
APPENDIX B —Appendix
ORDER OF
STATES SECURITIES AND EXCHANGE
COMMISSION, DATED AUGUST 22, 2018
UNITED STATES OF AMERICA
before the
SECURITIES AND EXCHANGE COMMISSION
SECURITIES ACT OF 1933
Release No. 10536 / August 22, 2018
SECURITIES EXCHANGE ACT OF 1934
Release No. 83907 / August 22, 2018
INVESTMENT ADVISERS ACT OF 1940
Release No. 4993 / August 22, 2018
INVESTMENT COMPANY ACT OF 1940
Release No. 33211 / August 22, 2018
In re:
PENDING ADMINISTRATIVE PROCEEDINGS
ORDER
On November 30, 2017, we ratified the appointments
of Chief Administrative Law Judge Brenda Murray and
Administrative Law Judges Carol Fox Foelak, Cameron
Elliot, James E. Grimes, and Jason S. Patil to the
office of administrative law judge in the Securities and
Exchange Commission.1 In an abundance of caution and
1. Order, Exchange Act Release No. 82178, 2017 WL 5969234
(Nov. 30, 2017); see also SEC Ratifies Appointment of Administrative
Law Judges, https://www.sec.gov/news/press-release/2017-215 (Nov.
30, 2017).

45a
Appendix B
for avoidance of doubt, we today reiterate our approval
of their appointments as our own under the Constitution.
In light of the Supreme Court’s decision in Lucia v.
SEC, 2 we previously stayed any pending administrative
proceeding initiated by an order instituting proceedings
that commenced the proceeding and set it for hearing
before an ALJ, including any such proceeding currently
pending before the Commission. 3 We now find it prudent
to allow the stay to expire effective today, August 22, 2018.
With respect to any such proceeding currently
pending before an ALJ or the Commission, we order
that respondents be provided with the opportunity for
a new hearing before an ALJ who did not previously
participate in the matter. We remand all proceedings
currently pending before the Commission to the Office of
Administrative Law Judges for this purpose and vacate
any prior opinion we have issued in the matter. A list of
matters is attached as Exhibit A. In these matters, as
well as the matters currently pending before an ALJ,
we direct the conduct of further proceedings consistent
with this order and the Court’s decision in Lucia v. SEC.
The ALJs are directed to notify the parties in the cases
pending before them of this order.

2. 138 S. Ct. 2044 (2018).
3. Order, Exchange Act Release No. 83675, 2018 WL 3494802
(July 20, 2018); Order, Exchange Act Release No. 83495, 2018 WL
3193858 (June 21, 2018).

46a
Appendix B
Any pending deadlines in each administrative
proceeding currently pending before an ALJ or remanded
to the Office of Administrative Law Judges, as described
above, are hereby vacated and superseded by the
procedures and deadlines set forth in this order. In each
such proceeding, absent express agreement by the parties
regarding alternative procedures, the Chief Administrative
Law Judge shall by rotation to the extent practicable
designate an ALJ who did not previously participate in the
matter to be the presiding hearing officer.4 Any agreement
by the parties regarding alternative procedures shall
be submitted to the Chief Administrative Law Judge by
September 7, 2018. In all cases, assignments shall be made
no later than September 21, 2018.
The assigned ALJ shall exercise the full powers
conferred by the Commission’s Rules of Practice and the
Administrative Procedure Act and shall not give weight
to or otherwise presume the correctness of any prior
opinions, orders, or rulings issued in the matter. 5 Within
21 days of being assigned to the proceeding, the ALJ shall
issue an order directing the parties to submit proposals
for the conduct of further proceedings. After considering
the parties’ submissions, the ALJ shall hold a new hearing
and prepare an initial decision; but if a party fails to
submit a proposal, the ALJ may enter a default against
that party pursuant to Rule of Practice 155 or impose
another appropriate sanction under Rule of Practice 180.6
4. 17 C.F.R. § 200.30-10(a)(2).
5. E.g., Rule of Practice 111, 17 C.F.R. § 201.111; 5 U.S.C.
§ 556.
6. 17 C.F.R. §§ 201.155, .180.

47a
Appendix B
The Rules of Practice as amended on July 13, 2016
shall govern all pending proceedings,7 unless the presiding
ALJ determines, after giving the parties notice and an
opportunity to be heard, that application of a particular
amended rule in a proceeding instituted prior to their
effective date would not be just and practicable or
otherwise would work a manifest injustice under the
circumstances of that case, in which case the former rule
applies.
This order does not preclude the Commission from
assigning any proceeding to the Commission itself or to
any member of the Commission at any time.

7. In proceedings instituted before the effective date of the
amended Rules of Practice, the Commission directed the ALJ to
issue an initial decision within 120, 210, or 300 days of service of
the OIP; for purposes of applying the amended Rules of Practice
to such proceedings, they shall be deemed proceedings under the
30-, 75-, or 120-day timeframes, respectively, as specified in Rule
of Practice 360(a)(2). In all proceedings, the ALJ shall compute
the deadlines for scheduling a hearing and issuing an initial
decision as specified in amended Rule of Practice 360(a)(2) from
the date the proceeding is assigned to a hearing officer pursuant
to this order, rather than the date of service of the relevant order
instituting proceedings. The deadlines stated in this order confer
no procedural or substantive rights on any party, and the presiding
ALJ may, for good cause shown, modify any of them, including
the date by which the initial decision must be issued. This grant
of authority allowing the presiding ALJ to modify the deadlines
stated in this order supersedes the provisions in Rule of Practice
360(a)(3)(i) and (ii) governing the circumstances under which the
deadlines to issue initial decisions may be extended.

48a
Appendix B
By the Commission.
Brent J. Fields
Secretary

49a
Appendix B
EXHIBIT A
A.C. Simmonds, et al., File No. 3-17999
Accelerated Acquisition XVII, et al., File No. 3-18146
Aervision Holdings, Inc., et al., File No. 3-18199
Affirmative Insurance Holdings, Inc., Armada Oil, Inc.,
and Chuma Holdings, Inc., File No. 3-18378
AFN, Inc., et al., File No. 3-17743
Alexandre S. Clug, File No. 3-16318
Altovida Inc., et al., File No. 3-18104
American Magna Corp., et al., File No. 3-18105
American-Swiss Capital, Inc., et al., File No. 3-18156
Andrew Stitt, File No. 3-17621
Anthony C. Zufelt, File No. 3-17907
ARX Gold Corporation, File No. 3-18185
Atomic Paintball, Inc., et al., File No. 3-17991
Aurios, Inc., et al., File No. 3-18092
Axesstel, Inc., File No. 3-17941
Axiom Oil & Gas Corp., et al., File No. 3-18096
Balqon Corporation, et al., File No. 3-18095
Baltia Air Lines, Inc., Graphite Corp., and 24Holdings,
Inc., File No. 3-18472
Barbara Duka, File No. 3-16349
Bioelectronics Corp., Ibex, LLC, St. John’s, LLC, Andrew
J. Whelan, and Kelly A. Whelan, File No. 3-17104
BioPharma Manufacturing Solutions Inc., et al., File No.
3-18148
Biovest International, Inc., et al., File No. 3-17935
Bluforest, Inc., File No. 3-17558
Bohai Pharmaceuticals Group Inc., File No. 3-18151
BOLDFACE Group, Inc., et al., File No. 3-18103
Brian Michael Berger, File No. 3-18129

50a
Appendix B
Canso Enterprises Ltd., et al., File Nos. 3-17984, 17985,
17986, 17987, 17988, 17989
CellCyte Genetics Corp., File No. 3-18141
Century Acquisition Corp. and Eastern Acquisition Corp.,
File No. 3-18162
Chile Mining Technologies Inc., File No. 3-18174
China Du Kang Co., Ltd., File No. 3-18106
China Fruits Corp., et al., File No. 3-18017
China Greenstar Corporation, et al., File No. 3-18097
China Hefeng Rescue Equipment, Inc., et al., File No.
3-18179
Christopher M. Gibson, File No. 3-17184
Cibolan Gold Corporation, File No. 3-18077
Ci rcle Star Energ y Cor p. and Energ y Holdings
International, Inc., File No. 3-18142
CNK Global, Inc. (a/k/a American Life Holding Co., Inc.),
File No. 3-18082
Cono Italiano, Inc., et al., File No. 3-18177
Core Resource Management, Inc., et al., File No. 3-18079
Creator Capital Ltd., File No. 3-18189
David F. Bandimere, File No. 3-15124
Dearborn Bancorp, Inc., File No. 3-18223
dELiA*s Inc. and Global Energy, Inc., File No. 3-18037
Demitrios Hallas, File No. 3-18229
Diane Dalmy, File No. 3-16339
Digital Brand Media & Marketing Group, Inc., File No.
3-17990
e.Digital Corp., and Liberty Coal Energy Corp., File No.
3-18475
Edward M. Daspin, File No. 3-16509
Energy Edge Technologies Corp. and Focus Gold Corp.,
File No. 3-18038

51a
Appendix B
Engage Eco Solutions, Inc., et al., File No. 3-18191
Evolucia, Inc. and OSL Holdings, Inc., File No. 3-18014
E-Waste Systems, Inc., File No. 3-18107
Frank Chiappone, Andrew G. Guzzetti, William F. Lex,
Thomas E. Livingston, Brian T. Mayer, and Philip S.
Rabinovich, File No. 3-15514
Fu Lu Cai Productions Ltd. and Heavy Earth Resources,
Inc., File No. 3-18173
Gamzio Mobile, Inc., File No. 3-18170
Gary C. Snisky, File No. 3-17645
GC China Turbine Corp., File No. 3-16604
Geoglobal Resources, Inc. and USA Synthetic Fuel Corp.,
File No. 3-18153
Gerardo E. Reyes, File No. 3-18126
GL Capital Partners, LLC and GL Investment Services,
LLC, File No. 3-17818 and 17819
GO EZ Corporation, et al., File No. 3-18204
Gregory Reyftmann, File No. 3-17959
GS Enviroservices, Inc., et al., File No. 3-17977
Guardian 8 Holdings, et al., File No. 3-18221
Hall Tees, Inc., et al., File No. 3-18155
Hampshire Group, Limited, File No. 3-18201
Hedgebrook, JayHawk Energy, Inc., and Rubicon
Financial, Inc., File No. 3-18484
Hui Feng and Law Offices of Feng & Associates, P.C.,
File No. 3-18209
Hydrogen Future Corporation, et al., File No. 3-18220
HydroPhi Technologies Group, Inc., et al., File No. 3-18208
Ibex Advanced Mortgage Technology, Inc., File No.
3-18047
Icon Vapor, Inc., et al., File No. 3-18210
IMK GROUP, INC., et al., File No. 3-18203

52a
Appendix B
Immunoclin Corp. et al., File No. 3-18190
Infinity Real Estate Holdings Corporation, et al., File
No. 3-18217
Intellicell Biosciences, Inc., File No. 3-17990
J.S. Oliver Capital Management, L.P., File No. 3-15446
James A. Winkelmann and Blue Ocean Portfolios, File
No. 3-17253
James E. Cohen and Joseph A. Corazzi, File No. 3-15974
James P. Griffin, File No. 3-17848
Jeffrey D. Smith, Joseph Carswell, and Michael W.
Fullard, File No. 3-18271
Jeffrey Gainer, File No. 3-18130
Joe Lawler, File No. 3-17650
John Austin Gibson, Jr., File No. 3-17856
John J. Aesoph, CPA and Darren M. Bennett, CPA, File
No. 3-15168
John Thomas Capital Management, L.P., and George R.
Jarkesy, Jr., File No. 3-15255
Joseph J. Fox, File No. 3-16795
Joseph Vitale, File No. 3-18252
JuQun, Inc., et al., File No. 3-18193
KollagenX Corp., et al., File No. 3-18207
Kun De International Holdings, Inc., and Sutor Technology
Group Limited, File No. 3-18169
Kung Fu Dragon Group Limited, File No. 3-18091
Laurie Bebo, File No. 3-16293
Lawrence E. Penn, III, File No. 3-18288
Louis V. Schooler, File No. 3-17115
Mackenzie Taylor Minerals, Inc., et al., File No. 3-18149
MarilynJean Interactive Inc., File No. 3-18445
Mark Megalli, File No. 3-18250
Medicus Homecare Inc., File No. 3-18081

53a
Appendix B
Michelle L. Helterbran Cochran, CPA, File No. 3-17228
Montalvo Spirits, Inc., et al., File No. 3-18078
Neurologix, Inc., et al., File No. 3-18180
New Media Insight Group, Inc. and Pacific Sands, Inc., et
al., File No. 3-18206
New Western Energy Corp. and Primco Management,
Inc., File No. 3-18007
New York Sub Co., File No. 3-18038
Next Galaxy Corp. and Novamex Energy, Inc., File No.
3-18219
Patric Ken Baccam a/k/a Khanh Sengpraseuth, File No.
3-18276
Paul Edward (“Ed”) Lloyd, Jr., CPA, File No. 3-16182
Penny Auction Solutions, Inc., et al., File No. 3-18202
Raymond J. Lucia Companies, Inc. and Raymond J. Lucia,
Sr., File No. 3-15006
Retirement Surety LLC, Crescendo Financial LLC,
Thomas Rose, David Leeman, and David Featherstone,
File No. 3-18061
Rosalind Herman, File No. 3-17828
Roy Dekel, File No. 3-17751
Saving2Retire, LLC and Marian P. Young, File No.
3-17352
Sean P. Finn and M. Dwyer LLC, File No. 3-17693
Shervin Neman and Neman Financial, Inc., File No.
3-17699
Spring Hill Capital Markets, LLC, Spring Hill Capital
Partners, LLC, Spring Hill Capital Holdings, LLC, and
Kevin D. White, File No. 3-16353
StationDigital Corp., File No. 3-18004
Talman Harris and Victor Alfaya, File No. 3-17874
Timothy W. Carnahan and CYIOS Corporation, File No.
3-16386

54a
Appendix B
Tintic Gold Mining Company, File No. 3-18157
Tod A. Ditommaso, File No. 3-17550
Vortronnix Technologies, Inc., File No. 3-18023
Warren D. Nadel, File No. 3-17883
William D. Bucci, File No. 3-17888

55a
C
APPENDIX C — Appendix
FINAL DECISION
OF THE
UNITED STATES SECURITIES AND EXCHANGE
COMMISSION, DATED JULY 27, 2016
SECURITIES AND EXCHANGE COMMISSION
Washington, D.C.
SECURITIES ACT OF 1933
Release No. 10115 / July 27, 2016
SECURITIES EXCHANGE ACT OF 1934
Release No. 78429 / July 27, 2016
INVESTMENT ADVISERS ACT OF 1940
Release No. 4463 / July 27, 2016
INVESTMENT COMPANY ACT OF 1940
Release No. 32194 / July 27, 2016
Admin. Proc. File No. 3-15918
In the Matter of
DENNIS J. MALOUF
OPINION OF THE COMMISSION
SECURITIES ACT PROCEEDING
EXCHANGE ACT PROCEEDING
ADVISERS ACT PROCEEDING
INVESTMENT COMPANY ACT PROCEEDING

56a
Appendix C
CEASE-AND-DESIST PROCEEDING
Grounds for Remedial Action
		

Fraud

		

Aiding and Abetting and Causing Fraud

		

Failure to Seek Best Execution

Respondent, the former president and majority owner
of a registered investment adviser, violated the antifraud
provisions of the federal securities laws when he failed
to disclose conflicts and correct misleading statements
concerning ongoing payments that he received from the
owner of a branch office of a broker-dealer that he had once
owned. Respondent directed clients’ highly liquid, AAArated Treasury and agency bond purchase transactions
to his former broker-dealer, despite claims in registered
investment adviser’s Forms ADV and website that its
investment advice and choice of broker-dealers were
impartial and conflict-free. Respondent also failed to seek
best execution for advisory clients’ Treasury and agency
bond trades by directing trades to his former brokerdealer without first seeking multiple competing bids,
resulting in clients’ payment of excessive commissions.
Respondent aided and abetted and caused investment
adviser’s related violations. Held, it is in the public interest
to bar the respondent from associating with a broker,
dealer, investment adviser, municipal securities dealer,
municipal advisor, transfer agent, or nationally recognized
statistical rating organization; prohibit respondent from

57a
Appendix C
serving or acting as an employee, officer, director, member
of an advisory board, investment adviser or depositor
of, or principal underwriter for, a registered investment
company or affiliated person of such investment adviser,
depositor, or principal underwriter; order the respondent
to cease and desist from committing or causing any
violations or future violations of the provisions violated;
order disgorgement of $562,001.26, plus prejudgment
interest; and assess a civil money penalty of $75,000.
APPEARANCES:
Alan M. Wolper and Heidi VonderHeide, Ulmer &
Berne LLP, Chicago, IL, for Dennis J. Malouf.
Stephen C. McKenna, Dugan Bliss, and John H.
Mulhern, for the Division of Enforcement.
Appeal filed: April 27, 2015
Last brief received: October 29, 2015
Dennis J. Malouf (“Malouf”), an investment adviser,
appeals from an initial decision finding that from January
2008 to March 2011, he violated, and aided and abetted
and caused UASNM, Inc.’s (“UASNM”) violations of, the
antifraud provisions of the federal securities laws when
he failed to disclose a conflict of interest to his investment
adviser clients concerning his order flow to, and receipt
of payments from, a broker-dealer branch that he once
owned; and failed to seek best execution for clients’
bond transactions that he directed to the broker-dealer

58a
Appendix C
branch.1 The ALJ barred Malouf from association with a
broker, dealer, investment adviser, municipal securities
dealer, municipal advisor, transfer agent, or nationally
recognized statistical rating organization for a period
of seven-and-a-half years; prohibited him from serving
or acting as an employee, officer, director, member of
an advisory board, investment adviser or depositor of,
or principal underwriter for, a registered investment
company or affiliated person of such investment adviser,
depositor, or principal underwriter for a period of sevenand-a-half years; imposed a civil money penalty of $75,000;
and ordered him to cease and desist from committing or
causing violations of the provisions in question. The ALJ
declined to order disgorgement, finding instead that the
$1,068,084 Malouf received from the owner of the brokerdealer branch is “clearly identifiable as legal profits and
should not be the subject of disgorgement.” 2
The Division of Enforcement appeals the ALJ’s
imposition of a seven-and-a-half-year industry bar against
Malouf, contending that a permanent bar is a more
1. Dennis J Malouf, Initial Decision Release No. 766, 2015
WL 1534396 (Apr. 7, 2015).
2. In addition to the violations the ALJ found, the OIP in
this matter charged Malouf with acting as an unregistered broker,
alleging primarily that Malouf received selling compensation in
the form of commissions from the broker-dealer when he was not
associated with a registered broker-dealer, in violation of Exchange
Act Sections 15 and 15C. 15 U.S.C. §§ 78o, 78o-5. The ALJ found that
a preponderance of the evidence did not support these charges. The
Division did not appeal this aspect of the ALJ’s decision, and we do
not review this finding on appeal.

59a
Appendix C
appropriate sanction. The Division also argues that Malouf
should be ordered to pay disgorgement. Malouf appeals
both the ALJ’s findings of violation and sanctions.
We base our findings on an independent review
of the record. We find that Malouf violated Sections
17(a)(1) and 17(a)(3) of the Securities Act; Section 10(b) of
the Exchange Act and Rules 10b-5(a) and (c) thereunder;
and Sections 206(1) and 206(2) of the Advisers Act. 3 We
also find that Malouf aided and abetted and caused his
firm’s violations of Sections 206(4) and 207 of the Advisers
Act and Rule 206(4)-1(a)(5) thereunder.4 Based on our
findings of violations and public interest determination,
we impose bars without a right to reapply, order Malouf
to cease and desist from committing or causing violations
of the provisions listed above, and order him to pay
disgorgement of $562,001.26 and a $75,000 civil penalty.
I. FACTS
A. Malouf’s Ownership Interest in the Broker-Dealer
and Investment Adviser Firms
Malouf purchased a branch of Raymond James
Financial Ser vices, Inc. (“RJ”) in approximately
February 1999 and was a registered representative and
owner of the branch until the end of 2007. In September
3. 15 U.S.C. §§ 77q(a)(1) and 77q(a)(3); 78j(b); 80b-6(1) and (2);
and 17 C.F.R. § 240.10b-5(a) and (c).
4. 15 U. S.C. §§ 8 0b - 6(4) and 8 0b -7; and 17 C.F.R .
§ 206(4)-1(a)(5).

60a
Appendix C
2004, Malouf and Kirk Hudson (“Hudson”), a fellow RJ
registered representative, purchased UASNM from
Joseph Kopczynski (“Kopczynski”), who was then Malouf’s
father-in-law. 5 For the next three years, Malouf owned
both UASNM and the RJ branch office, and the two shared
the same office space, with RJ renting a few cubicles. From
2004 to 2007, UASNM’s Forms ADV disclosed Malouf’s
ownership of the RJ branch and noted that he might
receive compensation for UASNM clients’ transactions
executed through the RJ branch.
B. Malouf’s Sale of the RJ Branch and Receipt of
Payments
In 2007, RJ became concerned about potential
conflicts of interest and supervision risks resulting from
Malouf’s ownership of both UASNM and the RJ branch
and requested that Malouf choose whether he wished
to continue to associate with UASNM or RJ. Malouf
decided to discontinue his association as a registered
representative with RJ and, in January 2008, sold the RJ
branch to Maurice Lamonde (“Lamonde”), a friend and
5. After the purchase, Malouf was the 59.5 percent owner,
CEO, and president, and Hudson was the 39.5 percent owner, CFO,
and Chief Investment Officer. Kopczynski maintained a one percent
ownership interest and was UASNM’s Chief Compliance Officer
until the end of 2010. Malouf served as UASNM’s CCO from January
through May 2011.
Malouf and Hudson registered UASNM with the Commission
on September 4, 2004. Its March 2014 Form ADV, the most recent
Form ADV in the record, reported that UASNM held approximately
$275 million in assets under management.

61a
Appendix C
former RJ co-worker of Malouf.6 Despite the sale, the RJ
branch continued to be located in UASNM’s office space.
Malouf and Lamonde ag reed that Lamonde’s
purchase price for the RJ branch would be two times
the branch’s trailing revenue, for a total purchase price
of approximately $1.1 million. Pursuant to the Purchase
of Practice Agreement (“PPA”) between Malouf and
Lamonde,7 Lamonde was to make monthly payments to
Malouf over a four-year period, totaling approximately 40
percent of the branch’s revenue. However, Lamonde did
not make monthly payments to Malouf; instead, payments
were made sporadically on no set schedule with no specific
correlation to the branch’s revenue, and sometimes
Lamonde made more than one payment in a given month,
a practice Malouf described as “prepayment.” Malouf
6. Lamonde was an RJ registered representative from March
2000 until August 2011. He died in April 2014, but the ALJ admitted
into the record portions of his earlier investigative testimony.
7. Although Malouf and Lamonde testified that they executed
a PPA in January 2008, no witness other than Malouf and Lamonde
testified to seeing the PPA until June 2010. Throughout 2009, an RJ
Regional Director repeatedly pressed Lamonde for a copy of the
PPA, but Lamonde failed to provide one. Lamonde finally produced
a PPA in June 2010, dated January 2, 2008, but the signature page
was not notarized until June 11, 2010. The RJ Regional Director
testified that he felt this situation was “inappropriate.” While it
appears that there may, in fact, have been no executed agreement
prior to June 2010, neither Malouf nor the Division disputes the
general terms of the RJ branch sale (including that Lamonde was
to make periodic payments to Malouf or the total amount of money
that Lamonde owed Malouf).

62a
Appendix C
frequently pressed Lamonde to make payments. Malouf
stipulated that, on several occasions in the UASNM/RJ
branch office space, he asked Lamonde “where’s my check
[for the RJ branch]” in the presence of other employees.
And Lamonde testified that Malouf, at times, requested
immediate cash payments from Lamonde, even though
the PPA envisioned monthly payments. To pay Malouf,
in addition to using funds from the branch’s operations,
Lamonde testified that he took twelve cash advances from
RJ, borrowed against a personal life insurance policy, took
money from his father-in-law, and took on credit card debt.
C. Malouf’s Routing of Transactions to the RJ Branch
From January 2008 through March 2011, Malouf
directed a substantial majority of UASNM clients’
bond trades to the RJ branch for execution. Malouf had
primary responsibility for UASNM’s clients’ bond trades
(especially large-dollar-amount trades in excess of $1
million) and was considered the firm’s bond expert. From
2008 to 2011, UASNM placed over 200 bond trades with
the RJ branch, representing approximately 90 percent of
its total bond trading. While various hearing witnesses
estimated that Malouf personally placed anywhere
between 60-95 percent of UASNM’s total bond trades, 8
Malouf said he placed between 60-70 percent of the trades.
8. Hudson, who was in litigation against Malouf when he
testified, stated that Malouf was responsible for “90-plus % of the
[UASNM] bond trades,” based on his review of all UASNM bond
trades for the 2008-2011 period. Matthew Keller (“Keller”), a
fellow UASNM representative, testified that Malouf was primarily
responsible for all bond trading at the firm and that Malouf “executed
80-90% of [UASNM’s bond] trades on a long-term basis.”

63a
Appendix C
Malouf stipulated that Hudson reviewed UASNM’s clients’
bond trades with broker-dealers other than RJ (roughly
10 percent of the total UASNM bond trades during this
period) and determined that those trades were executed
mostly by UASNM advisers other than Malouf, which
demonstrates that Malouf placed few bond trades with
non-RJ broker-dealers.
The transactions that Malouf directed to the RJ
branch produced significant commissions for the RJ
branch, which Lamonde used to pay Malouf pursuant to
the PPA. According to Lamonde, he “passed along all or
almost all of the commissions . . . from bond trading on
behalf of UASNM back to Malouf.” As Malouf agreed, he
traded through the RJ branch “because then he got paid.”9
Lamonde made payments to Malouf toward his purchase
of the RJ branch totaling $1,068,084, an amount almost
equal to the total commissions ($1,074,454) the RJ branch
earned on UASNM clients’ bond trades.
9. Malouf continued to run UASNM until May 2011, when he
was terminated based on the charges that are the subject of this
proceeding. Thereafter, Kopczynski and Hudson took control of
UASNM, and UASNM sued Malouf in state court in New Mexico
(“State Court Litigation”). As part of the settlement of the State
Court Litigation, Malouf received $1.1 million for his majority
ownership of UASNM. Of that amount, Malouf agreed to pay
$506,083.74 to UASNM clients and another $100,000 to pay a civil
penalty we imposed against UASNM in a settled enforcement
action. UASNM, Inc., Advisers Act Release No. 3846, 2014 WL
2568398 (June 9, 2014). Malouf currently owns New Mexico Wealth
Management, LLC, an investment adviser registered with the state
of New Mexico.

64a
Appendix C
D. Lack of Disclosure and Assurances in UASNM’s
Forms ADV and Website
UASNM’s Forms ADV from February 2008 through
March 2011, filed with the Commission and distributed
to UASNM’s clients, failed to disclose Malouf’s receipt of
payments from Lamonde. These forms also did not contain
the prior disclosures that had been included in the 20042007 Forms ADV regarding Malouf’s ownership of the
RJ branch and potential for compensation or the payment
arrangement between Malouf and Lamonde. Instead,
UASNM’s Forms ADV from 2008 through 2011 stated that
UASNM’s selection of an executing broker was not based
“upon any arrangement between the recommended broker
and UAS[NM.]” UASNM’s April 2010 Form ADV said that
“employees of UASNM are not registered representatives
of ... RJ ... and do not receive any commissions or fees from
recommending these services.”
UA SNM’s websit e a lso d id not d isclose the
arrangement between Malouf and Lamonde, and asserted
that UASNM provided impartial investment advice and
that its brokerage recommendations were not “based upon
any arrangement between the recommended broker and
UASNM” and that UASNM “vigorously maintain[s its]
independence to ensure absolute objectivity drives [its]
decisions in managing [its] clients’ portfolios.” The website
promised that UASNM’s advice was “void of conflicts of
interest.”
Malouf delegated to Kopczynski the primary
responsibility for preparing and filing UASNM’s Forms

65a
Appendix C
ADV and for ensuring that its marketing materials,
including its website, were accurate and complied with
applicable regulations. He nonetheless had significant
involvement with the Forms ADV, the website, and their
contents. Although Kopczynski was the CCO of UASNM
and Hudson had certain compliance responsibilities
(including signing the Forms ADV on the firm’s behalf),
Malouf was—in his own estimation—the “top dog.”
Malouf acknowledged that, as CEO of the firm, he
was at least “partially responsible” for UASNM’s Forms
ADV and website. To that end, Malouf reviewed some
of the Forms ADV between 2008 and 2011 “focusing on
disclosures relating to himself and [the RJ branch].”
Malouf acknowledged that he played a key role in the
“creative part of [the website].” He admitted that “[w]hile
he may not have read every word of UASNM’s website,
he was familiar with its contents” and that he “probably
read” the statements on the website in 2008 that UASNM
provided independent advice and had no arrangements
with broker-dealers.
Malouf and UASNM also employed the services of
an outside compliance consultant, Adviser Compliance
Associates, LLC (“ACA”), whose lead consultant on
UASNM’s account was Michael Ciambor. ACA and
Ciambor reviewed UASNM’s compliance procedures and
Forms ADV, and it performed annual reviews in which
it identified compliance deficiencies and provided advice
regarding ways that the firm could improve compliance.

66a
Appendix C
E. Others involved in UASNM’s compliance procedures
were not aware of the payments.
Malouf acknowledged that his financial arrangement
with Lamonde created a conflict of interest that should
have been disclosed, but thought Kopczynski, Hudson, and
ACA were responsible for making such disclosures. But
while Kopczynski and Hudson were aware that Malouf
had sold the RJ branch to Lamonde and had at least
some general awareness that Malouf received periodic
payments from Lamonde, they testified they did not know
the specific timing and amounts of the payments made,
which was why they did not insist on disclosures of those
payments.
And it is undisputed—and Malouf admitted—that
ACA was not aware that Malouf had received any
payments from Lamonde until June 2010, 2.5 years after
the payments began. Ciambor testified, and Malouf does
not dispute, that Malouf told him in May or June 2008
that Malouf’s “relationship from that point forward with
Raymond James had been effectively severed.” Ciambor
also testified that, when he interviewed Malouf in June
2009 as part of ACA’s compliance review, Malouf did not
disclose to him that he had already received over $500,000
in payments from Lamonde. Immediately after receiving
that information, ACA informed UASNM that it needed
to make disclosures of the arrangement in its Forms ADV
and on its website. UASNM finally made such a disclosure
for the first time, in its March 2011 Form ADV, at Malouf’s
request (as CCO) after receiving the instructions from
ACA.

67a
Appendix C
F. Malouf did not seek multiple competing bids for the
clients’ bond transactions before he directed them
to the RJ branch.
UASNM’s compliance procedures required the firm to
attempt to obtain three bids from different broker-dealers
prior to placing a trade. UASNM registered representative
Matthew Keller (“Keller”) regularly followed this policy
with respect to his clients’ bond trades. Malouf, however,
conceded that he regularly failed to seek multiple bids for
UASNM clients’ highly-liquid, AAA-rated treasury and
agency bond trades or from brokers other than RJ, and
that he should have done so. He admitted that he likely
could have received better prices for his clients if he had
followed UASNM’s policy.10
Malouf testified that an appropriate commission for a
$1 million U.S. Treasury bond would be one percent, and
for larger trades commissions should drop to 0.5 percent
or even lower. Malouf and Lamonde orally agreed that
one percent was the maximum commission rate RJ would
charge UASNM for Treasury and agency bond trades.
However, many of the large-dollar-amount trades for
UASNM clients, which were primarily handled by Malouf,
10. ACA relied on interviews with UASNM personnel and
documentation the firm provided to determine that UASNM followed
a policy of seeking multiple competing bids before placing bond
trades with a broker-dealer. UASNM did not, however, provide ACA
with trade blotters that reflected the specific commission amounts
of any trades, and Ciambor understood that UASNM maintained
documentation supporting its multi-bid process for only a limited
number of its total trades.

68a
Appendix C
had commissions above one percent, with some exceeding
that rate by 50 percent.11 Numerous bond trades executed
by RJ had commissions exceeding the one percent level.
II. VIOLATIONS
Based on the conduct described above, Malouf is
charged with violating Sections 17(a)(1) and 17(a)(3) of the
Securities Act, Section 10(b) of the Exchange Act and Rule
10b-5(a) and 10b-5(c) thereunder, and Sections 206(1) and
206(2) of the Advisers Act. Specifically, the OIP alleges
that Malouf failed to disclose the conflict that arose as a
result of his “secret commission arrangement” and that,
as a result, UASNM made misleading disclosures in its
Forms ADV and on its website. Malouf is not charged
with violating Rule 10b-5(b), which prohibits “making” a
misstatement of material fact, or Section 17(a)(2), which
prohibits “obtain[ing] money or property by means of”
a misstatement. Malouf argues that “to prove its claims
under Securities Act Section 17(a)(1) and (3), Exchange
Act Section 10(b) and Rules 10b-5(a) and (c) and Advisers
Act Sections 206(1) . . the Division was required to
establish that [he] made a material misrepresentation or
omission.” (emphasis added). His argument and this case
thus presents the following legal question: When may a
respondent be held primarily liable for his conduct as part
11. Hudson testified that Malouf complained to Kopczynski
and other members of the UASNM investment committee about RJ’s
decision to reduce the commission on a $3.8 million UASNM client
bond trade from 1% to 0.5%, which Hudson believed was strange
since he understood these commissions were being paid to RJ and
Lamonde, not to Malouf.

69a
Appendix C
of a fraud involving misstatements, when the respondent
did not himself “make” the misstatements for purposes
of Rule 10b-5(b)? We set out below our analysis of this
question.12
A. Primary Liability Under Section 10(b) of the
Exchange Act and Exchange Act Rule 10b-5,
Section 17(a) of the Securities Act, and Section 206
of the Advisers Act.
Lower courts have adopted varying approaches
to liability under Exchange Act Rule 10b-5 (which
implements Exchange Act Section 10(b)) and Section
17(a) of the Securities Act. The Supreme Court’s recent
decision in Janus Capital Group v. First Derivative
Traders resolved some of the differences among the lower
courts, as it clarified—and limited—the scope of liability
under Rule 10b-5(b).13 The decision was silent, however,
as to Rule 10b-5(a) and (c) and Section 17(a), each of which
Malouf is charged with violating.14 The decision also did
12. The Commission previously outlined this analysis in John
P. Flannery, Exchange Act Release No. 73840, 2014 WL 7145625,
at *9-19 (Dec. 15, 2014), vacated on other grounds 810 F.3d 1 (1st
Cir. 2015).
13. 131 S. Ct. 2296 (2011).
14. There is a divergence of views on the scope of these
provisions among federal district courts. Compare, e.g., SEC v.
Monterosso, 768 F. Supp. 2d 1244, 1269 (S.D. Fla. 2011) (stating that
“to be primarily liable for Rule 10b-5(a)’s prohibition of employment
of a device, scheme, or artifice to defraud, one ‘need only have made
an intentionally deceptive contribution to an overall fraudulent

70a
Appendix C
not address Section 206 of the Advisers Act (which Malouf
is also charged with violating).
1.

Primary Liability Under Section 10(b) of the
Exchange Act and Exchange Act Rule 10b-5(a)
and (c)
a.

Section 10(b) covers conduct that is
manipulative or deceptive.

Our analysis begins with the scope of Section 10(b),
which prohibits the use or employment, in connection with
the purchase or sale of any security, of “any manipulative
or deceptive device or contrivance in contravention of
Commission rules.15 “Manipulative,” the Supreme Court
has explained, is “a term of art when used in connection
with securities markets,” referring to practices “such as
wash sales, matched orders, or rigged prices, that are
intended to mislead investors by artificially affecting
market activity.”16 Although the Court has not made a
similar pronouncement on the meaning of “deceptive,”
scheme”) (citation omitted) with SEC v. Laneord, No. 8:12CV344,
2013 WL 1943484, at *8 (D. Neb. May 9, 2013) (stating that Rule
10b-5(a) and (c) may be used only to charge conduct that is “beyond”
or “distinct from” any “alleged misrepresentation or omission”) and
SEC v. Kelly, 817 F. Supp. 2d 340, 345 (S.D.N.Y. 2010) (stating that,
in misstatement cases, as long as the defendant did not “make” the
misstatement, even conduct “beyond” the misstatement cannot be
charged under Rule 10b-5(a) or (c)).

15. 15 U.S.C. § 78j(b).
16. Santa Fe Indus., Inc. v. Green, 430 U.S. 462, 476 (1977).

71a
Appendix C
it has consulted dictionaries in use in the 1930s to define
other terms in Section 10(b);17 those dictionaries define
“deceptive” as “having power to mislead” or “[t]ending
to deceive,” and define “deceive” as “to impose upon;
deal treacherously with; cheat” or “[t]o cause to believe
the false or to disbelieve the true.”18 These definitions led
one federal appeals court to conclude that “deceptive”
encompasses “a wide spectrum of conduct involving
cheating or trading in falsehoods.”19 Informed by these
precedents, we conclude that to employ a “deceptive”
device or to commit a “deceptive” act is to engage in
conduct that produces a false impression. 20 Such conduct
encompasses “making” a misrepresentation; it also
encompasses, among other things, drafting or devising a
misrepresentation.
17. See, e.g., Ernst & Ernst v. Hochfelder, 425 U.S. 185, 199 nn.
20, 21 (1976) (consulting the 1934 edition of Webster’s International
Dictionary to define other terms in Section 10(b)).
18. Webster’s International Dictionary 679 (2d ed. 1934).
19. SEC v. Dorozkho, 574 F.3d 42, 50 (2d Cir. 2009) (consulting
the 1934 edition of Webster’s International Dictionary for the
meaning of “deceptive”).
20. See Stewart v. Wyoming Cattle-Ranche Co., 128 U.S.
383, 388 (1888) (“The gist of the action [for deceit] is fraudulently
producing a false impression upon the mind of the other party.”);
United States v. Finnerty, 533 F.3d 143, 148 (2d Cir. 2008) (“Broad
as the concept of ‘deception’ may be, it irreducibly entails some act
that gives the victim a false impression.”); see also Clark v. Capital
Credit & Collection Services, Inc., 460 F.3d 1162, 1174 n.10 (9th Cir.
2006) (“Something is deceptive if it tends or has the power to ‘give
a false impression.’”).

72a
Appendix C
This view comports with the notion that the reach of
Section 10(b) should be construed in a manner at least as
protective as the common law. The Supreme Court itself
has recognized that Section 10(b) was “in part designed to
add to the protections provided investors by the common
law.” 21 The courts have therefore held that it would be
“highly inappropriate” to construe Section 10(b) “to be
more restrictive in substantive scope than its common
law analogs.” 22
We find particularly persuasive case law regarding
the common law offense of obtaining property by false
21. Basic Inc. v. Levinson, 485 U.S. 224, 244 n.22 (1988) (citing
Herman & MacLean v. Huddleston, 459 U.S. 375, 388-389 (1983))
(“[T]he antifraud provisions of the securities laws are not coextensive
with common law doctrines of fraud. Indeed, an important purpose of
the federal securities statutes was to rectify- perceived deficiencies
in the available common law protections by establishing higher
standards of conduct in the securities industry.”)).
22. Sundstrand Corp. v. Sun Chemical Corp., 553 F.2d 1033,
1044 (7th Cir. 1977); see also Harris v. American Inv. Co., 523 F.2d
220, 224 (8th Cir. 1975) (internal citation omitted) (“Although the
federal securities laws in several instances offer greater protection to
buyers and sellers of securities than do common law fraud concepts,
common law fraud concepts underlie the securities laws and provide
guidance as to their reach and application.”); Louis Loss and Joel
Seligman, Fundamentals of Securities Regulation 910-13 (4th ed.
2004) (noting that although “courts have repeatedly held that the
fraud provisions in the SEC Acts . . . are not limited to circumstances
that would give rise to a common law action for deceit,” in light of
“the legislative background it seems reasonable to assume at the
very least that the most liberal common law views on these questions
should govern under the statutes.”).

73a
Appendix C
pretenses. 23 The offense dates back to an English statute
of 1757, on which many state-law criminal statutes were
modeled. 24 A false representation in violation of these
criminal provisions could “assume any form: [it] may be
oral or written . . . or it may be implied from conduct.” 25
As the Massachusetts Supreme Judicial Court explained
in 1844, a person commits the offense even where he
convinces someone else to act on his behalf: “[A]ll that
is necessary to be proved is, that he is at the time acting
in concert with [the person who ultimately delivers
the misstatement] and aiding in putting forth the false
pretenses . . . with his knowledge, concurrence, and
direction” 26 A century later, the same court confirmed
23. See Frazier v. Commonwealth, 165 S.W.2d 33, 34 (Ky. 1942)
(“The gist of the offense of obtaining money or property of another
by false pretenses is the fraud and deception of the perpetrator.”);
accord People v. Harrington, 267 P. 942, 945 (Cal. Dist. Ct. App.
1928); Hicks v. State, 215 S.W. 685, 686 (Ark. 1919); Burney v. State,
59 So. 306, 307 (Ala. Ct. App. 1912); see also State v. Matthews, 28
S.E. 469, 469 (N.C. 1897) (stating that the false pretense statutes
proscribe “induc[ing] another person to believe a fact is really in
existence, when it is not”).
24. 30 Geo. II, c. 24 (1757); LaFave, 3 Subst. Crim. L. §§ 19.7
(2d ed.); LaFave, 3 Subst. Crim. L. §§ 19.7, 19.8; 3 Charles E. Torcia,
Wharton’s Criminal Law §410, at 517 (15th ed. 1993). The Model
Penal Code renamed these offenses theft by deception. American
Law Institute, Model Penal Code and Commentaries 180-181 (1980).
25. Wharton’s Criminal Law §413, at 527; accord Rollin M.
Perkins, Criminal Law 299 & n.19 (2d ed. 1969).
26. Commonwealth v. Harley, 48 Mass. (7 Met.) 462, 465-466
(1844) (stating that “if A procures B to go to C” with a false pretense
and thereby obtain the goods of C then “A is guilty in the matter

74a
Appendix C
that a defendant may be held liable even if there are “no
false statements attributable to” the defendant, so long
as the misrepresentations to the defrauded parties “are
based upon and substantiated by [the defendant’s] false
statements.” 27 Thus, as these cases and others make
clear, false-pretenses liability does not require “that the
defendant himself make the false representation.” 28 In
of obtaining these goods by false pretenses”); see also Cowen v.
People, 14 Ill. 348, 352 (1853) (“[I]f the false representations were
made in pursuance of a mutual agreement between the defendants,
it was immaterial which actually made them; both were equally
liable.”); cf. Commonwealth v. Call, 38 Mass. (21 Pick.) 515, 523
(1839) (“A false representation, made to the agent of Parker and
by him communicated to Parker upon which he acted was, in legal
contemplation, a false representation made to Parker himself.
It was designed to influence him, and whether communicated to
him directly, or through the intervention of an agent, can make no
difference. It was intended to reach and operate upon his mind. It did
reach it and produced the desired effect upon it, viz. the payment of
the money. And it is immaterial whether it passed through a direct
or circuitous channel.”).

27. Commonwealth v. Hamblen, 225 N.E.2d 911, 915 (Mass.
1967) (involving fraud on a corporation).
2 8 . W ha r t on’s Cr i m i na l Law §415 , at 5 3 0; see al so
Commonwealth v. Camelio, 295 N.E.2d 902, 905 (Mass. App. Ct.
1973) (“[T]he “paradigm of a number of cases resulting in conviction”
for false pretenses is a “joint venture to defraud in which the
defendant furnished his accomplice with false reports, the accomplice
submitted them to the [defrauded parties,] and the defendant
received moneys as a result.”); cf. e.g., Brackett v. Griswold, 20 N.E.
376, 379 (N.Y. 1889) (stating that to maintain an common law action
for fraud or deceit based on false pretenses it is “not necessary that
the false representation should have been made by the defendant

75a
Appendix C
our view, a modern understanding of what conduct may
be deemed “deceptive” should not be any narrower than
this historical approach. 29
b.

Rule 10b-5(a) and (c) proscribe employing
any manipulative or deceptive device,
scheme, or artifice to defraud or engaging
in any manipulative or deceptive act,
practice, or course of business.

Rule 10b-5 implements the Commission’s authority
under Section 10(b). 30 Rule 10b-5(a) prohibits “employ[ing]
any device, scheme, or artifice to defraud.”31 Rule 10b-5(b)
prohibits “mak[ing] any untrue statement of a material
fact or [omitting] to state a material fact necessary in order
to make the statements made, in light of the circumstances
under which they were made, not misleading.” 32 And
Rule 10b-5(c) prohibits “engag[ing] in any act, practice,
or course of business which operates or would operate as
personally” and that if “he authorized and caused it to be made, it
is the same as though he made it himself”).

29. See Cady, Roberts & Co., 40 S.E.C. 907, 1961 WL 60638, at
*3 (Nov. 8, 1961) (recognizing that Section 10(b) and Rule 10b-5 “are
broad remedial provisions aimed at reaching misleading or deceptive
activities, whether or not they are precisely and technically sufficient
to sustain a common law action for fraud and deceit”).
30. See United States v. Zandford, 535 U.S. 813, 816 n.1
(2002).
31. 17 C.F.R. § 240.10b-5(a).
32. Id. § 240.10b-5(b).

76a
Appendix C
a fraud or deceit upon any person.” 33 Liability under all
three subsections requires a showing of scienter. 34
Malouf is charged with violating Rule 10b-5(a) and
(c). Whereas Rule 10b-5(b) (which Malouf is not charged
with violating) is limited to liability for making false
statements and omissions, Rule 10b-5(a) and (c) “are not so
restricted.” 35 The use in Rule 10b-5(a) and (c) of the terms
“‘fraud; ‘deceit,’ and ‘device, scheme, or artifice’ provide
a broad linguistic frame within which a large number

33. Id. § 240.10b-5(c).
34. Hochfelder, 425 U.S. at 194. Scienter is an “intent to
deceive, manipulate, or defraud.” Id. at 193 & n.12. It may be
established through a heightened showing of recklessness. Rockies
Fund, Inc. v. SEC, 428 F.3d 1088, 1093 (D.C. Cir. 2005); C.E. Carlson
v. SEC, 859 F.2d 1429, 1435 (10th Cir. 1988); see also Tellabs, Inc. v.
Makor Issues & Rights, Ltd., 551 U.S. 308, 319 n.3 (2007) (noting that
“[e]very Court of Appeals that has considered the issue has held that
a plaintiff may meet the scienter requirement by showing that the
defendant acted intentionally or recklessly” but that standards vary).
“Extreme recklessness is an ‘extreme departure from the standards
of ordinary care, . . . which presents a danger of misleading buyers
or sellers that is either known to the defendant or is so obvious that
the actor must have been aware of it.” Rockies Fund, 428 F.3d at
1093 (quoting SEC v. Steadman, 967 F.2d 636, 641 (D.C. Cir. 1992));
accord C .E. Carlson, 859 F.2d at 1435.
35. Affiliated Ute Citizens of Utah v. United States, 406
U.S. 128, 152 (1972) (finding it irrelevant that the defendants “may
have made no positive representation” because only Rule 10b-5(b)
“specifies the making of an untrue statement of a material fact”)
(emphasis added).

77a
Appendix C
of practices may fit.” 36 Indeed, we have explained that
Rule 10b-5 is “designed to encompass the infinite variety
of devices that are alien to the climate of fair dealing
. . . that Congress sought to create and maintain.” 37 The
Supreme Court, too, has recognized that Section 10(b) and
Rule 10b-5 “are broad and, by repeated use of the word
‘any’ are obviously meant to be inclusive.” 38 The Court
therefore has instructed that they “must be read flexibly,
not technically or restrictively” in order to achieve their
remedial purposes. 39
Nonetheless, liability under Rule 10b-5 cannot
“extend beyond conduct encompassed by Section 10(b)’s
prohibition.”40 And the “language of Section 10(b) gives no
indication that Congress meant to prohibit any conduct not
involving manipulation or deception.”41 Because a plaintiff
“may not bring a 10b-5 suit against a defendant for acts not
prohibited by the text of Section 10(b),” only conduct that
is itself manipulative or deceptive violates Rule 10b-5.42
36. SEC v. Clark, 915 F.2d 439, 448 (9th Cir. 1990) (noting
the breadth of the terms “‘fraud,’ ‘deceit,’ and ‘device, scheme, or
artifice’”).
37. Collins Sec. Corp., 46 SEC 20, 33 (1975) (internal
quotation marks omitted).
38. Affiliated Ute, 406 U.S. at 151.
39. See, e.g., Santa Fe, 430 U.S. at 475-76.
40. United States v. O’Hagan, 521 U.S. 642, 651 (1997).
41. Santa Fe, 430 U.S. at 473.
42. See Central Bank of Denver, N.A. v. First Interstate Bank
of Denver, N.A., 511 U.S. 164, 173, 177-78 (1994); accord Robert W.

78a
Appendix C
In our view, therefore, primary liability under Rule
10b-5(a) and (c) extends to anyone who (with scienter,
and in connection with the purchase or sale of securities)
employs any manipulative or deceptive device, scheme,
or artifice to defraud or engages in any manipulative
or deceptive act, practice, or course of business that
operates as a fraud. In particular, as discussed above,
we understand the statutory term “deceptive” to connote
a broad proscription against conduct that deceives or
misleads another, and nothing in the text, history, or our
prior interpretations of the rule suggest that subsections
(a) and (c) in any way limit that understanding.
Thus, the courts to consider the issue agree, as do we,
that the prohibitions in subsections (a) and (c) encompass
the falsification of financial records to misstate a company’s
performance.43 Those prohibitions also encompass the
orchestration of sham transactions designed to give the
false appearance of business operations.44 But contrary
Armstrong III, Exchange Act Release No. 51920, 58 SEC 542, 2005
WL 1498425, at *6 (June 24, 2005); Leslie A. Arouh, Exchange Act
Release No. 50889, 57 SEC 1099, 2004 WL 2964652, at *5 (Dec. 20,
2004).

43. E.g., Monterosso, 756 F.3d at 1334-36 (holding that
falsification of financial records can suffice for primary liability
under Rule 10b-5(a)); SEC v. Familant, 910 F. Supp. 2d 83, 8688, 93-97 (D.D.C. 2012) (agreeing that such conduct suffices for
primary liability under both Rule 10b-5(a) and (c)); Langford, 2013
WL 1943484, at *8 (same); Sells, 2012 WL 3242551, at *6-7 (same);
Mercury Interactive, 2011 WL 5871020, at *2 (same).
44. E.g., In re Parmalat Sec. Litig., 376 F. Supp. 2d 472, 504
(S.D.N.Y. 2005) (holding that banks could be liable under Rule
10b-5(a) and (c) for engaging in transactions with issuer that lacked

79a
Appendix C
to the view expressed by some courts that Rule 10b-5(a)
and (c) are limited to conduct “beyond mere misstatements
and omissions,”45 we conclude that subsections (a) and (c)
also proscribe making, drafting, or devising a material
misstatement. Furthermore, because nondisclosure in
violation of a fiduciary duty involves “feigning fidelity”
to the person to whom the duty is owed and is therefore
deceptive, 46 we find that failing to correct a material
misstatement in violation of a fiduciary duty to do so also
falls within the prohibitions of Rule 10b-5(a) and (c).
These actions, in our view, constitute employing a
deceptive “device” or engaging in a deceptive “act.”47
Indeed, the Supreme Court recently indicated that it
agreed with this understanding—at least with regard to
Rule 10b-5(a) encompassing the “making” of a material
misrepresentation or a similar omission.48 And, Section
economic substance and allowed the issuer to misstate its financial
condition); In re Global Crossing Ltd. Sec. Litig., 322 F. Supp. 2d 319,
336-37 (S.D.N.Y. 2004) (holding that auditor could be liable under
Rule 10b-5(a) and (c) for masterminding sham swap transactions that
were used to circumvent GAAP and inflate and misstate company’s
revenue); In re Lernout & Hauspie Sec. Litig., 236 F. Supp. 2d 161,
173-74 (D. Mass. 2003) (holding that companies that created and
financed sham entities that entered into bogus transactions with
another company to inflate and misstate that company’s profits could
be liable under Rule 10b-5(a) and (c)).

45. E.g., Familant, 910 F. Supp. 2d at 97.
46. See O’Hagan, 521 U.S. at 655.
47. 17 C.F.R. § 240.10b-5(a), (c).
48. Chadbourne & Parke LLP v. Troice, 134 S. Ct. 1058,
1063 (2014) (stating that Rule 10b-5 “forbids the use of any ‘device,

80a
Appendix C
10(b) and Rule 10b-5 “are not intended as a specification of
particular acts or practices that constitute ‘manipulative
or deceptive devices or contrivances,’ but are instead
designed to encompass the infinite variety of devices that
are alien to the ‘climate of fair dealing.’”49
In sum, primary liability under Rule 10b-5(a) and (c)
extends to any defendant whose “challenged conduct in
relation to a fraudulent scheme constitutes the use of a
deceptive device or contrivance,” even if a misstatement
“made” by another person for purposes of Rule 10b-5(b)
“creates the nexus between the scheme and the securities
markets.”50 A defendant who employs a deceptive device or
engages in a deceptive act cannot escape primary liability
under Rule 10b-5(a) and (c) by arguing that his deceptive
device or act involved misstatements and another person
“made” the misstatements for purposes of Rule 10b-5 as
construed by Janus.51
scheme, or artifice to defraud’ (including the making of ‘any untrue
statement of a material fact’ or any similar ‘omi[ssion]’) ‘in connection
with the purchase or sale of any security’” (alterations in original;
emphasis added)).

49. United States v. Charnay, 537 F.2d 341, 349 (9th Cir.
1976) (citation omitted).
50. Parmalat, 376 F. Supp. 2d at 502-03 (citing Lernout &
Hauspie, 236 F. Supp. 2d at 173-74).
51. See SEC v. Strebinger, 114 F. Supp. 3d 1321, 1329-1331
(N.D. Ga. 2015) (despite defendant’s argument that the Commission
“fail[ed] to allege that [he] made the misstatements within the”
reports, finding sufficient for liability under Rule 10b-5(a) and (c) the
allegations that defendant “contributed to the contents” of reports

81a
Appendix C
c.

Primary liability under Rule 10b-5(a)
and (c) is not limited to deceptive conduct
“beyond” misstatements or omissions.

Given our reading of Section 10(b) and Rule 10b-5(a)
and (c), we necessarily disagree that a “defendant may
only be liable as part of a fraudulent scheme based upon
misrepresentations and omissions under Rule 10b-5(a)
or (c) when the scheme also encompasses conduct
beyond those misrepresentations or omissions.”52 Such
a conclusion contravenes the plain text of the rule. Rule
10b-5(a) proscribes deceptive “device[s],” “scheme[s],”
and “artifice[s] to defraud,” and Rule 10b-5(c) proscribes,
among other things, deceptive “act[s].” It would be
arbitrary to read those terms as excluding the making,
drafting, or devising of a misstatement or omission.53 And,
that contained misstatements, “edited, and otherwise provided
information for,” the reports that contained misstatements, and
“arrange[d] the dissemination of the” reports knowing that they
contained misstatements ).

52. WPP Luxembourg Gamma Three Sarl v. Spot Runner,
Inc., 655 F.3d 1039, 1057-58 (9th Cir. 2011) (emphasis added)
(collecting cases); accord Public Pension Fund Grp. v. KV Pharm.
Co., 679 F.3d 972, 987 (8th Cir. 2012) (following WPP Luxembourg);
see also Lentell v. Merrill Lynch & Co., 396 F.3d 161, 177-78 (2d Cir.
2005) (applying similar rule).
53. If a deceptive device that is “beyond” a misstatement
suffices for liability, then a deceptive device that is not “beyond”
a misstatement also should suffice. Falsifying an invoice as part
of a fraud involving revenue misstatements has been considered a
deceptive device “beyond” the misstatements. See, e.g., Familant, 910
F. Supp. 2d at 92-93, 97. The conversion of those false invoices into a

82a
Appendix C
as noted, the Supreme Court has recently indicated that
it would reject such a narrow reading of subsections (a)
and (c). 54
The three subsections of Rule 10b-5 need not be
read exclusively, such that conduct that falls within
the purview of one—e.g., misstatements or omissions,
within subsection (b)—cannot also fall within another.
To the contrary, we have advised that the subsections of
the rule are “mutually supporting rather than mutually
exclusive.”55 Reading the subsections of Rule 10b-5 to
misstatement about revenue—i.e., drafting the misstatement—also
should be viewed as a deceptive device. The latter is no less deceptive
than the former. For purposes of primary liability, it should not
matter whether the deceptive act could be considered “beyond the
misstatement.”

54. See Troice, 134 S. Ct. at 1063.
55. Cady, Roberts & Co., 1961 WL 60638, at *4. And in SEC
v. Capital Gains Research Bureau, 375 U.S. 180, 197-98 (1963), the
Supreme Court explained that because the Securities Act of 1933
was “the first experiment in federal regulation of the securities
industry,” it “was understandable” that Congress “include[d] both
a general proscription against fraudulent and deceptive practices
and, out of an abundance of caution, a specific proscription against
nondisclosure.” Because Rule 10b-5 was modeled on Section 17(a) of
the Securities Act, we find the same logic applicable to Rule 10b-5. It
is thus reasonable to construe Rule 10b-5(a) and (c) as encompassing
“all acts within the purview of Rule 10b-5[(b)].” See Arnold S. Jacobs,
Disclosure and Remedies under the Securities Laws § 6:22 (citing
Capital Gains); accord 1 Alan R. Bromberg et al., Bromberg &
Lowenfels on Securities Fraud § 2:181 (2d ed.); see also Troice, 134
S. Ct. at 1063.

83a
Appendix C
overlap ensures that investors are appropriately protected
from manipulative or deceptive conduct in connection with
the purchase or sale of securities.
In addition, the “beyond a misstatement” formulation
has arisen from a misunderstanding of the Supreme
Court’s decision in Central Bank of Denver, N.A. v.
First Interstate Bank of Denver. 56 In Central Bank, the
Court explained that only defendants who themselves
employ a manipulative or deceptive device or make a
material misstatement may be primarily liable under Rule
10b-5; others are, at most, secondarily liable as aiders
and abettors and “a private plaintiff may not maintain an
aiding and abetting suit under Section 10(b).”57 The Court
found that the defendant bank could not be primarily
liable merely for having facilitated the fraudulent scheme
by agreeing to delay an appraisal. 58 Lower courts have
appropriately read Central Bank to require that, in
cases involving fraudulent misstatements, defendants
cannot be primarily liable under Rule 10b-5(a) or (c)
merely for having “assisted” an alleged scheme to make
a fraudulent misstatement (without engaging in conduct
that is manipulative or deceptive). 59 But some courts have
56. 511 U.S. 164.
57. Id. at 191.
58. Id at 168-69, 191.
59. E.g., Great Neck Capital Appreciation Inv. P’ship, L.P.
v. Pricewaterhouse Coopers, L.L.P., 137 F. Supp. 2d 1114, 1121
(E.D. Wis. 2001) (finding allegations that accounting firm “assisted
with the press release by reviewing it and advising [company] that

84a
Appendix C
articulated this “more than mere assistance” standard
imprecisely, stating that primary liability under Rule
10b-5(a) and (c) must require proof not just of manipulative
or deceptive conduct, but of particular deceptive conduct
“beyond” the alleged misstatements.60
This construction of our rule is neither consistent with
nor dictated by Central Bank. Central Bank does not hold
that primary liability under Rule 10b-5(a) and (c) turns on
whether a defendant’s conduct is “beyond” a misstatement.
Instead, Central Bank stands for the proposition that any
defendant whose conduct is manipulative or deceptive may
be liable as a primary violator under Rule 10b-5.61
it conformed to GAAP” insufficient to support primary liability
because plaintiffs did not allege that accounting firm “drafted the
release, publicly adopted it, or allowed its name to be associated
with it”).

60. E.g., In re Alstom SA, 406 F. Supp. 2d 433, 475-76
(S.D.N.Y. 2005).
61. 511 U.S. at 177-78, 191. We believe our approach
appropriately distinguishes between primary and secondary liability,
as Central Bank requires. Defendants who merely obtain or transmit
legitimate documents knowing that they would later be falsified
in order to misstate a company’s financial condition would not be
primarily liable under Rule 10b-5(a) and (c), but could be liable for
aiding and abetting. Similarly, defendants who engage in legitimate,
rather than sham, transactions generally would not be primarily
liable under Rule 10b-5(a) and (c), even if they “knew or intended
that another party would manipulate the transaction to effectuate a
fraud.” See, e.g., Simpson v. AOL Time Warner Inc., 452 F.3d 1040,
1047-50 (9th Cir. 2006), vacated on other grounds sub nom. Avis
Budget Group, Inc. v. Cat Stat Teachers’ Ret. Sys., 552 U.S. 1162

85a
Appendix C
Additionally, Janus does not independently justify
such a test.62 In Janus, the Court construed only the
term “make” in Rule 10b-5(b), which does not appear
in subsections (a) and (c); the decision did not mention
or construe the broader text of those provisions.63 The
Court did not suggest that because the “maker” of a false
statement is primarily liable under subsection (b), that
person cannot also be liable under subsections (a) and
(c). Nor did the Court indicate that a defendant’s failure
to “make” a misstatement for purposes of subsection (b)
precludes primary liability under the other provisions.
(2008). And defendants who have no fiduciary duty of disclosure but
who are aware of a fraud and have the potential to benefit from it but
take no action to stop it also would be aiders and abettors of a Rule
10b-5 violation rather than primary violators themselves. See SEC v.
Aragon Cap. Advisors, LLC, 2011 WL 3278907, at *17-18 (S.D.N.Y.
July 26, 2011) (finding that defendants who were aware that their
brother was trading based on material non-public information in
accounts in their names aided and abetted the fraud by their inaction
because they stood to benefit from the fraud and thus their inaction
was intentionally designed to aid the fraud). In these situations, the
defendants are aiders and abettors rather than primary violators
because their own conduct was not deceptive.

62. See, e.g., Monterosso, 756 F.3d at 1334 (stating that “Janus
only discussed what it means to ‘make’ a statement for purposes of
Rule 10b-5(b), and did not concern . . . Rule 10b-5(a) or (c)”); Jacobs,
Disclosure and Remedies under the Securities Laws § 12:113.99
(agreeing that Janus “does not control any suit under” Rule 10b-5(a)
or (c)). But see, e.g., SEC v. Benger, No. 09 C 676, 2013 WL 1150587,
at *5 (N.D. Ill. Mar. 21, 2013) (“Janus cannot be skirted simply by
artful pleading and rechristening a 10b-5(b) claim as a claim under
10b-5(a) and (c).”).
63. See generally Janus, 131 S. Ct. 2296.

86a
Appendix C
Janus thus provides no support for the notion that primary
liability under those provisions is limited to deceptive acts
“beyond” misstatements.64
Indeed, our view of primary liability under Rule
10b-5(a) and (c) is consistent with the rationales on which
Janus rests. The Court first emphasized the textual basis
for its holding, concluding that one who merely “prepares”
a statement necessarily is not its “maker,” just as a mere
speechwriter lacks “ultimate authority” over the contents
of a speech.65 Our approach does not conflict with that
logic: Accepting that a drafter, for example, may not be
primarily liable under Rule 10b-5(b) if he did not “make”
64. As we reject the “beyond a misstatement” approach, we
necessarily also reject the reading of Rule 10b-5(a) and (c) adopted
in Kelly, 817 F. Supp. 2d at 344. See supra note 13. There, the court
concluded that, in any case involving misstatements, Janus precludes
primary liability under Rule 10b-5(a) and (c) for all defendants who
do not themselves “make” the misstatements, regardless of whether
they engaged in deceptive conduct “beyond” the misstatements.
That reading of Janus mistakenly assumes both that the Court
intended to construe provisions that it never mentioned and that the
Court intended to give primacy to Rule 10b-5(b) at the expense of
subsections (a) and (c). Indeed, as one court observed, “Kelly cast
subsection (b) in Rule 10b-5’s lead role and then crippled subsections
(a) and (c) to ensure that they would never overshadow the star.”
Familant, 910 F. Supp. 2d at 95. A number of district court have
disagreed with Kelly’s reading of Janus. E.g., Strebinger, 114 F. Supp.
3d. at 1331 n.9; Sells, 2012 WL 3242551, at *6-7; Langford, 2013 WL
1943484, at *8; Garber, 2013 WL 1732571, at *4; SEC v. Geswein,
2011 WL 4541308, at *17 n.3 (N.D. Ohio Aug. 2, 2011), adopted in
relevant part, 2011 WL 4565861 (N.D. Ohio Sept. 29, 2011).
65. Janus, 131 S. Ct. at 2302.

87a
Appendix C
the misstatement, our position is that the drafter instead
could be primarily liable under subsections (a) and (c)
for employing a deceptive “device” and engaging in a
deceptive “act.” At least one court of appeals has agreed
with that view.66 Indeed, this textual reading of Rule
10b-5(a) and (c) is consistent with the Janus Court’s own
emphasis on adhering to the text of the rule.67
Our approach is also consistent with the second
rationale in Janus—that a drafter’s, as opposed to a
“maker’s,” conduct is too remote to satisfy the element
of reliance in private actions arising under Rule 10b-5.
Investors, the Court explained, cannot be said to have relied
on “undisclosed act[s],” such as drafting a misstatement,
that “preced[e] the decision of an independent entity to
make a public statement.” 68 Again, our analysis fully
comports with that logic. Indeed, as Janus recognizes, if
the private plaintiffs’ claims in Janus had arisen under
Rule 10b-5(a) or (c), those plaintiffs may not have been
able to show reliance on the drafters’ conduct. Thus,
our interpretation does not expand the “narrow scope”
the Supreme Court “give[s to] the implied private right
of action.”69 In contrast to private parties, however, the
Commission need not show reliance as an element of its

66. Big Apple Consulting, 783 F.3d at 796.
67. Janus, 131 S. Ct. at 2302-04.
68. Id at 2303-04 (citing Stoneridge Inv. Partners v. ScientificAtlanta, Inc., 552 U.S. 148, 161 (2008)).
69. Id. at 2303.

88a
Appendix C
claims.70 Thus, even if Janus precludes liability in private
actions for those who commit “undisclosed” deceptive acts,
it does not preclude liability in Commission enforcement
actions under Rule 10b-5(a) and (c) against those same
individuals.
2.

Primary Liability Under Sections 17(a)(1) and
(a)(3) of the Securities Act
a.

Section 17(a) does not require conduct that
is itself manipulative or deceptive.

Section 17(a) of the Securities Act makes it unlawful,
in the offer or sale of any security, “(1) to employ any
device, scheme, or artifice to defraud”; (2) “to obtain
money or property by means of any untrue statement of a
material fact or any [material] omission”; or (3) “to engage
in any transaction, practice, or course of business which
operates or would operate as a fraud or deceit upon the
purchaser.”71 Absent from these provisions is the language
of Section 10(b) requiring that the proscribed conduct be
“manipulative or deceptive.”72 There is therefore no textual
basis for concluding that Rule 10b-5’s requirement that
the defendant’s violative conduct itself be “manipulative
or deceptive” also applies to Section 17(a).73
70. See, e.g., SEC v. Morgan Keegan & Co., 678 F.3d 1233,
1244 (11th Cir. 2012) (noting that reliance is not an element of a
Commission enforcement action).
71. 15 U.S.C. § 77q(a).
72. See id. § 78j(b).
73. Some commenters have recognized that Section 17(a) may
cover conduct that is not itself manipulative or deceptive because

89a
Appendix C
As the Court explained in Aaron, Section 17(a)(1)
requires a showing of scienter, or deceptive intent,74 but
we find that mental-state requirement distinct from the
need to show, under Exchange Act Section 10(b) that
it does not contain the language of Section 10(b). E.g., 4 Thomas
Lee Hazen, Treatise on the Law of Securities Regulation § 12.22
(“Section 17(a) does not contain the phrase ‘manipulative or deceptive
device’ that is found in Section 10(b) of the Exchange Act and has
formed a basis of the scienter and deception requirements.”); Donald
C. Langevoort, Fraud and Deception by Securities Professionals,
61 Tex. L. Rev. 1247, 1293 (1983) (“Aside from [S]ection 10(b),
[S]ection 17(a) of the Securities Act of 1933 is the broadest section
prohibiting fraud ‘in the offer or sale’ of any security. It is not limited
to deception or manipulation . . . .”). Nevertheless, some courts have,
without meaningful analysis, described Section 17(a)’s proscriptions
as “substantially identical” to those in Rule 10b-5. E.g., Landry v.
All Am. Assurance Co., 688 F.2d 381, 386 (5th Cir. 1982).

74. Aaron v. SEC, 446 U.S. 680, 695-697 (1980). A showing
of negligence suffices under subsections (a)(2) and (a)(3). Id. at 697.
Negligence requires a showing that the defendant failed to exercise
reasonable care. Ira Weiss, Exchange Act Release No. 52875, 58 SEC
977, 2005 WL 3273381, at *12 (Dec. 2, 2005) (citing SEC v. Hughes
Capital Corp., 124 F.3d 449, 453-54 (3d Cir. 1997)), pet. denied,
Weiss v. SEC, 468 F.3d 849 (D.C. Cir. 2006). The Supreme Court in
Aaron makes clear that negligence is sufficient for liability under
Sections 17(a)(2) and (a)(3), e.g., SEC v. Smart, 678 F.3d 850, 857
(10th Cir. 2012); Weiss, 468 F.3d at 855, though the Court has never
addressed whether negligence is necessary to prove a violation of
those provisions. See Aaron, 446 U.S. at 696-97 (noting that the focus
of Section 17(a)(3), at least, is on the “effect of particular conduct on
members of the investing public, rather than upon the culpability
of the person responsible” for the conduct”); see also United States
Tagliaferri, __ F.3d __, 2016 WL 2342677, at *5 (2d Cir. May 4, 2016)
(relying on this language from Aaron).

90a
Appendix C
the defendant’s violative conduct is itself deceptive (or
manipulative).75 Moreover, reading Section 17(a) not to
impose such a requirement ensures that investors are
appropriately protected from conduct in the offer or sale of
securities that is not itself manipulative or deceptive—but
nevertheless would operate as a fraud on those investors.
b.

Section 17(a)(1), like Rule 10b-5(a) and (c),
encompasses fraudulent conduct involving
misstatements.

Like Rule 10b-5(a) and (c), we read the language
of Section 17(a)(1) to encompass all fraudulent conduct
undertaken with scienter—including conduct undertaken
as part of a fraud involving misstatements.76 Indeed,
Section 17(a)(1) is identical to Rule 10b-5(a) in prohibiting
75. Accord Klamberg v. Roth, 473 F. Supp. 544, 556 (S.D.N.Y.
1979) (noting that because Section 17(a) “is in many respects broader
than [S]ection 10(b),” the Section 17(a) claims could survive even
absent deceptive conduct by the defendant himself). We can conceive
of a number of ways that a defendant might contribute to a fraud
through conduct that is not itself deceptive or manipulative. For
example, if a defendant company executed legitimate transactions
with another entity knowing that the other entity would use the
transactions to misstate its revenue, the defendant company would
not be liable under Section 10(b) because the transactions were not
themselves deceptive, but would still be liable under Section 17(a).
See, e.g., Simpson, 452 F.3d at 1050.
76. In our analysis of Sections 17(a)(1) and (a)(3), we find
irrelevant the case law requiring conduct “beyond” a misstatement
for claims arising under Rule 10b-5(a) and (c). As discussed above,
that authority is unpersuasive even in the context of Rule 10b-5(a)
and (c). And, in any case, those cases only involve Section 10(b) and
Rule 10b-5, not Section 17(a).

91a
Appendix C
the “employ[ment]” of a “device,” “scheme,” or “artifice to
defraud.” 77 And, as explained above, a misstatement or
omission of a material fact is undoubtedly a “device” or
“artifice” to defraud.78
Thus, one who (with scienter) makes a material
misstatement or omission of a material fact in the offer
or sale of a security has violated Section 17(a)(1) because
such conduct constitutes “employ[ing]” a “device, scheme,
or artifice to defraud.” Futhermore, anyone (acting
with scienter) who, for example, drafts or devises a
misstatement of a material fact, uses a misstatement of
a material fact made by others to defraud investors, or
fails to correct a misstatement of a material fact despite
a fiduciary duty to do so likewise has “employ[ed]” a
“device” or “artifice to defraud” and therefore, violated
Section 17(a)(1).79
77. 15 U.S.C. § 77q(a)(1).
78. See Troice, 134 S. Ct. at 1063.
79. See, e.g., Big Apple Consulting, 798 F.3d at 792, 795798 (upholding jury verdict finding defendants liable for violating
Sections 17(a)(1), (2), and (3) where they, among other things,
“conceived, drafted, edited, or reviewed numerous press releases”
containing materially misleading statements); Monterosso, 756
F.3d at 1334 (holding that falsification of financial records can be
sufficient for liability under Section 17(a)(1)); Strebinger, 114 F.
Supp. 3d at 1332 (finding allegations that defendant “contributed to
the contents” of reports that contained misstatements, “edited, and
otherwise provided information for,” the reports, and “arrange[d]
the dissemination of the” reports knowing that they contained
misstatements sufficient for liability under Section 17(a)(1)-(3)).
See generally United States v. Naftalin, 441 U.S. 768, 772 (1979)
(recognizing that a defendant who “falsely represented that he owned
the stock he sold” violated Section 17(a)(1)).

92a
Appendix C
We thus reject any suggestion that the reach of
Section 17(a)(1) is limited because Section 17(a)(2)
expressly prohibits certain negligent misstatements. 80
Section 17(a)(1) and (a)(2) address very different types
of conduct—Section 17(a)(1) proscribes all scienterbased fraud, whereas Section 17(a)(2) prohibits negligent
misrepresentations that deprive investors of money or
property. And we have recognized that the subsections
of Section 17(a) are “mutually supporting rather than
mutually exclusive.”81 As the Supreme Court has observed,
“[e]ach succeeding prohibition [in Section 17(a)] is meant
to cover additional kinds of illegalities—not to narrow the
reach of the prior sections.”82 Reading the provisions as
80. See, e.g., Kelly, 817 F. Supp. 2d at 345-46. Nothing in Janus
is inconsistent with our understanding of Section 17(a)(1). Nearly
all courts to consider the issue agree that Janus has no bearing on
Section 17(a). E.g., Big Apple Consulting, 783 F.3d at 798 (stating
that Sections 17(a)(1) and (a)(3) “are in no way directly or indirectly
affected by the Janus decision”); Monterosso, 756 F.3d at 1334
(stating that Janus addressed only “what it means to ‘make’ a
statement for purposes of Rule 10b-5(b), and did not concern 17(a)(1)
or (3)”); Sentinel Mgmt. Group, 2012 WL 1079961, at *14-15; Stoker,
865 F. Supp. 2d at 465-66 (collecting cases); Sells, 2012 WL 3242551,
at *7 (collecting cases); 5 Bromberg & Lowenfels on Securities Fraud
§ 7:306.58 (collecting cases); see also Disclosure and Remedies under
the Securities Laws § 12:113.99 (concurring that Janus does not
affect the scope of liability under Section 17(a)).
81. Cady, Roberts & Co., 1961 WL 60638, at *4.
82. Naftalin, 441 U.S. at 774. Reading Section 17(a)(1) to
encompass misstatements does not cause Section 17(a)(2) to be
wholly subsumed by Section 17(a)(1), because Section 17(a)(2) permits
liability for negligence, whereas Section 17(a)(1) requires a showing
of scienter. See Aaron, 446 U.S. at 695-97.

93a
Appendix C
mutually exclusive could also limit our ability to protect
investors from fraudulent misstatements in the offer or
sale of securities where the misstatements did not involve
obtaining money or property.
c.

Section 17(a)(3) encompasses fraudulent
conduct involving misstatements to the
extent the fraudulent conduct can be
considered a transaction, practice, or
course of business.

Section 17(a)(3) prohibits all “ transaction[s],”
“practice[s],” and “course[s] of business” that “operate[]
or would operate as a fraud.”83 Although this language
closely resembles Rule 10b-5(c), Section 17(a)(3) uses the
term “transaction” rather than the broader term “act.”
For purposes of determining whether misstatementrelated conduct comes within the purview of Section
17(a)(3), we find that difference significant: While a
misstatement or omission (or related activity) may fairly
be characterized as an “act,” a misstatement or omission
is not a “transaction.”84 As a result, whereas Rule 10b-5(a)
and (c) and Section 17(a)(1) all proscribe even a single act of,
for example, making or drafting a materially misleading
83. 15 U.S.C. § 77q(a)(3).
84. Compare Webster’s New International Dictionary 25
(def. 1) (2d ed. 1934) (defining “act” broadly as “[t]hat which is done
or doing; the exercise of power, or the effect whose cause is power
exerted; a performance; a deed”) with id. 2688 (def. 2a) (defining
“transaction” as “[a] business deal; an act involving buying and
selling”).

94a
Appendix C
statement to investors, Section 17(a)(3) would not proscribe
a single act unless that single act may be considered a
“transaction,” “practice,” or “course of business.” That
said, repeated acts, such as repeatedly making or drafting
materially misleading statements over a period of time,
may be considered a fraudulent “practice” or “course of
business.”85 Accordingly, we read Section 17(a)(3) to be
narrower than Rule 10b-5(c) in this respect—i.e., Section
17(a)(3) does not encompass those “acts” proscribed by
Rule 10b-5(c) that are not “transactions,” “practices” or
“courses of business.”86
Despite being narrower than Rule 10b-5(c) in some
respects, Section 17(a)(3) is broader than Rule 10b-5(c)
(and Section 17(a)(1)) in others. As discussed above,
unlike Rule 10b-5(c), 17(a)(3) does not require that the
defendant have engaged in conduct that is itself deceptive
(or manipulative). Nor does Section 17(a)(3) require a
showing of scienter. Aaron instructs that “the language
of [Section] 17(a)(3)] . . . quite plainly focuses upon the
effect of particular conduct on members of the investing
85. See id. at 1937 (def. 1b) (defining “practice,” when used as
a noun, in terms suggesting repeated conduct engaged in over time:
“often, repeated or customary action; usage; habit; custom; . . . the
usual mode or method of doing something”); id. 610 (def. 5) (defining
“course,” when used in phrases like “course of conduct,” to mean “a
succession of acts or practices” or “[a] series of motions or acts”). We
note that “transaction” is also an operative term in the statute—a
transaction, such as a trade, that itself operated or would operate as
a fraud could serve as the basis for primary liability, as well.
86. See Jacobs, Disclosure and Remedies under the Securities
Laws § 3:248 (suggesting that “the word ‘transaction’ in Section
[17(a)(3)] is less broad than ‘act’ in [Rule 10b-5(c)]”).

95a
Appendix C
public, rather than upon the culpability of the person
responsible.”87 Section 17(a)(3)’s prohibition thus applies,
for example, where, as a result of a defendant’s negligent
conduct, investors receive misleading information about
the nature of an investment or an issuer’s financial
condition. It also applies, for example, where, as a result
of a defendant’s negligent conduct, prospective investors
are prevented from learning material information about
a securities offering. 88 This reading of the statute ensures
that investors protected from are potentially harmful
courses of conduct in the offer and sale of securities.
3.

Primary liability under Section 206 of the
Advisers Act.

Section 206(1) of the Advisers Act makes it unlawful for
“any investment adviser” to “employ any device, scheme,
87. Aaron, 446 U.S. at 697 (emphasis omitted); accord
Tagliaferri, 2016 WL 2342677, at *5.
88. See, e.g., Weiss v. SEC, 468 F.3d 849, 855 (D.C. Cir. 2006)
(denying petition for review where Commission found a school
district’s bond counsel liable under Section 17(a)(3) for having
“fail[ed] to look for even minimal objective “support for school
district’s statements in bond prospectus when approving prospectus
and issuing opinion letters); Johnny Clifton, Securities Act Release
No. 9417, 2013 WL 3487076, at *10 (July 12, 2013) (finding a Section
17(a)(3) violation because defendant “conceal[ed] material adverse
information” from “sales representatives” and “ensure[d] that sales
representatives who learned such information also withheld it from
prospective investors”); see also Byron G. Borgardt, 56 S.E.C. 999,
2003 WL 22016313, at *13 (Aug. 25, 2003) (finding respondents liable
under Section 17(a)(3) for failing to provide appropriate disclosures
in registration statements).

96a
Appendix C
or artifice to defraud any client or prospective client.” 89
Section 206(2) makes it unlawful for the investment
adviser to “engage in any transaction, practice, or course
of business which operates as a fraud or deceit upon
any client or prospective client.” 90 Scienter is required
to establish a violation of Advisers Act Section 206(1); a
showing of negligence is sufficient for a violation of Section
206(2).91 As is true of Exchange Act Rule 10b-5(a) and (c)
and Securities Act Sections 17(a)(1) and (3), Sections 206(1)
and 206(2) “lack any reference to making statements.” 92
As a result, investment advisers may be held primarily
liable under these provisions for their fraudulent conduct
regardless of whether they “made” misstatements.93
These proscriptions apply to “any investment
adviser.”94 Section 202(a)(11) defines an investment adviser
as “any person who, for compensation, engages in the
business of advising others . . . as to the value of securities
or as to the advisability of investing in, purchasing, or
selling securities.” 95 This definition “does not include
89. 15 U.S.C. 80b-6(1).
90. 15 U.S.C. 80b-6(2).
91. SEC v. Washington Inv. Network, 475 F.3d 392, 396-397
(D.C. Cir. 2007) (citing SEC v. Steadman, 967 F.2d 636, 641, 643 (D.C.
Cir. 1992) (quoting Hochfelder, 425 U.S. at 194 n.12)).
92. Donald L. Koch, Advisers Act Release No. 3836, 2014 WL
1998524, at *18 (May 16, 2014) (emphasis added), aff’d, 793 F.3d 147
(D.C. Cir. 2015).
93. Id.
94. 15 U.S.C. 80b-6(1), (2).
95. 15 U.S.C. 80b-2(a)(11).

97a
Appendix C
whether one is registered or not with the SEC.” 96 An
individual may be primarily liable under the Section
206(1) and (2), therefore, irrespective of registration with
the Commission.” 97 Accordingly, anyone whose activities
“fall[] under the broad definition of ‘investment adviser’
in the Act” may be “liable as a primary violator under
Advisers Act Sections 206(1) and 206(2).”98
Primary liability for a violation of Rule 206(4)-1 under
the Advisers Act, which implements Section 206(4), is
narrower in scope. Section 206(4) provides that it shall
be unlawful for an investment advisor “to engage in any
act, practice, or course of business which is fraudulent,
deceptive, or manipulative,” and that the Commission
shall, for purposes of this section, define “such acts,
practices, and courses of business as are fraudulent,
deceptive, or manipulative.” 99 Rule 206(4)-1 provides in
turn that certain conduct “shall constitute a fraudulent,
deceptive, or manipulative act, practice, or course of
business within the meaning of section 206(4) of the Act
for any investment adviser registered or required to be
registered under section 203 of the Act.”100

96. Koch v. SEC, 793 F.3d 147, 157 (D.C. Cir. 2015).
97. Id.
98. Koch, 2014 WL 1998524, at *18 (citing 15 U.S.C.
80b-2(a)(11) and collecting cases).
99. 15 U.S.C. 80b-6(4).
100. 17 C.F.R. 15 U.S.C. § 275.206(4)-1 (emphasis added).
See infra Part II.B.5.

98a
Appendix C
B. Malouf Violated Section 10(b) of the Exchange Act
and Exchange Act Rule 10b-5, Section 17(a) of the
Securities Act, and Section 206 of the Advisers Act.
We find that Malouf violated Section 10(b) of the
Exchange Act and Exchange Act Rule 10b-5(a) and (c),
Sections 17(a)(1) and 17(a)(3) of the Securities Act, and
Sections 206(1) and 206(2) of the Advisers Act. Although
Malouf may not have “made” the material misstatements
in UASNM’s Forms ADV and on its website regarding
UASNM’s independence, he failed to correct those
misstatements despite having a fiduciary duty to do so,
and he acted with scienter.101 As discussed below, we
conclude that through his misconduct Malouf employed a
deceptive device and artifice to defraud, and he engaged
in a deceptive act, practice, and course of business that
operated as a fraud in violation of those provisions.102 We
101. From the record, it is clear that Malouf was, as he
himself described his role, the “top dog” at UASNM and he
admitted he was at least “partially responsible” for its disclosures
in its Forms ADV and on its website. This evidence might support a
finding that Malouf had “ultimate authority” over those statements
for purposes of assessing liability under Rule 10b-5(b); however,
we do not reach the issue since Malouf was not charged under
that provision.
102. It is undisputed that the highly liquid, AAA-rated
Treasury and agency bonds that UASNM’s clients purchased
through RJ between 2008 and 2011 were securities, that Malouf
used instrumentalities of interstate commerce to offer and sell
them, and that the statements in the Forms ADV and on UASNM’s
website were made in connection with offers and sales of securities.
We thus find a preponderance of the evidence that these elements
of the charged violations are satisfied.

99a
Appendix C
also find that Malouf violated Sections 206(1) and 206(2)
of the Advisers Act by failing to seek best execution for
his clients. Finally, we find that Malouf aided and abetted
UASNM’s violated of the Advisers Act.
1.

Malouf violated Exchange Act Section 10(b)
and Rule 10b-5(a) and (c) by failing to correct
the material misstatements on UASNM’s
Forms ADV and website.
a.

Malouf employed a deceptive device
and artifice to defraud and engaged in
a deceptive act, practice, and course of
business by failing to correct the material
misstatements in UASNM’s Forms ADV
and on its website in violation of his
fiduciary duty to do so.

UA SNM’s Forms A DV and website contained
numerous material misstatements:
• UA SNM’S For ms A DV from 20 08 to 2011
represented that UASNM’s selection of an
executing broker was not based “upon any
arrangement between the recommended broker
and UAS[NM.]”
• UASNM’s April 2010 Form ADV also stated
that “employees of UASNM are not registered
representatives of . . . RJ . . . and do not receive
any commissions or fees from recommending these
services.”

100a
Appendix C
• UASNM’s website claimed that UASNM provided
impartial investment advice, that its brokerage
recommendations were not “based upon any
arrangement between the recommended broker
and UASNM” and that UASNM “vigorously
maintain[s its] independence” and that its advice
was “void of conflicts of interest.”
In none of these communications did UASNM disclose
that in fact Malouf had an arrangement with Lamonde
whereby Lamonde paid him an amount equal (or almost
equal) to the commissions that Lamonde received on the
trades Malouf directed to Lamonde’s RJ branch.
Malouf acknowledged that, as UASNM’s CEO, he
was at least “partially responsible” for UASNM’s Forms
ADV and website. He also admitted that he reviewed
some of the Forms ADV between 2008 and 2011, “focusing
on disclosures relating to himself and [the RJ branch].”
Malouf also admitted “[w]hile he may not have read
every word of UASNM’s website, he was familiar with its
contents in the 2008, 2009, and 2010 time frame” and that
he “probably read” the statements on the website in 2008
to the effect that UASNM provided independent advice
and had no arrangements with broker-dealers.
We find that Malouf acted deceptively in failing to
correct the misstatements noted above. As an investment
adviser, Malouf had a fiduciary obligation to provide “‘full
and fair disclosure of all material facts,’”103 as well as an
103. Geman v. SEC, 334 F.3d 1183, 1189 (10th Cir. 2003)
(quoting Capital Gains, 375 U.S. at 194); accord SEC v. DiBella,
587 F.3d 553, 563 (2d Cir. 2009).

101a
Appendix C
“affirmative obligation to avoid misleading [his] clients.”104
He also had “a duty to disclose any potential conflicts of
interest accurately and completely.”105 Separately, Malouf
acknowledged that his agreement with Lamonde created
a conflict of interest: He had an incentive to send UASNM
clients’ bond transactions to RJ so that Lamonde would be
able to pay Malouf the amounts he owed him for the branch
($1,068,084). By failing to correct UASNM’s multiple
representations that he did not have a conflict, Malouf
breached his fiduciary duties as an investment adviser.
Because it is well established that “nondisclosure in breach
of a fiduciary duty ‘satisfies section 10(b)’s requirement
. . . [of] a ‘deceptive device or contrivance,’”106 we find that
Malouf acted deceptively.107
104. SEC v. Washington Inv. Network, 475 F.3d 392, 395 (D.C.
Cir. 2007) (quoting Capital Gains, 375 U.S. at 194); accord SEC v.
Blavin, 760 F.2d 706, 711-712 (6th Cir. 1985); see also DiBella, 587
F.3d at 568 (“The ‘legislative history [of the Advisers Act] leaves
no doubt that Congress intended to impose enforceable fiduciary
obligations’ on investment advisers.”). An associated person of an
investment adviser is also a fiduciary. See, e.g., Christopher A. Lowry,
Investment Advisers Act Release No. 2052, 2002 WL 1997959, at *5
(Aug. 30, 2002), aff’d, 340 F.3d 501 (8th Cir. 2003).
105. Vernazza v. SEC, 327 F.3d 851, 860 (9th Cir. 2003).
106. Dorozkho, 574 F.3d at 49 (alteration and omission in
original) (quoting O’Hagan, 521 U.S. at 653); see also Finnerty, 533
F.3d at 148 (holding that deception “irreducibly entails some act
that gives the victim a false impression” such as “a false statement,
breach of a duty to disclose, or deceptive communicative conduct”).
See generally Stoneridge, 128 S. Ct. at 769 (“Conduct itself can be
deceptive.”).
107. See Model Penal Code §223.3 (theft by deception) (stating
that a “person deceives if he purposely: (1) creates or reinforces a

102a
Appendix C
Having found that Malouf acted deceptively, we
also find that he employed a device and artifice to
defraud in violation of Rule 10b-5(a) and engaged in an
act, practice, and course of business that operated as
a fraud in violation of Rule 10b-5(c). Malouf’s failure to
correct the misstatements on UASNM’s website and in
its Forms ADV left clients with the false impression that
UASNM received no commissions from its brokerage
recommendations, provided independent and impartial
investment advice, and had no arrangements with brokerdealers. Several of UASNM’s clients testified that they
would have wanted to know about Malouf’s potential
conflict, confirming that the information was material to
their decision to select UASNM as an investment adviser.
Because Malouf’s conduct deprived his clients of this
information, his failure to correct the misrepresentations
operated as a “device” and “artifice” to defraud and an
“act,” “practice,” and “course of business” that misled his
clients.108
false impression . . . or (3) fails to correct a false impression which
the deceiver previously created or reinforced, or which the deceiver
knows to be influencing another to whom he stands in a fiduciary or
confidential relationship”).

108. See, e.g., SEC v. Shattuck Denn Mining Corp. 297 F.
Supp. 470, 476 (S.D.N.Y. 1968) (finding the “failure to correct the
‘misleading impression left by statements already made,’ by one with
a duty to do so, “constituted a fraud”) (citing Cochran v. Channing
Corp., 211 F. Supp. 239, 243 (S.D.N.Y. 1962) (stating that the “fact
that the defendants did not make any statements at all does not, in
and of itself, deprive plaintiff of relief,” that the “three subsections
of Rule 10b-5 are in the disjunctive, and while subsection (2) seems
to require a statement of some sort, subsections (1) and (3) do not,”

103a
Appendix C
Malouf argues that in order to prove its claims under
Exchange Act Section 10(b) and Rule 10b-5(a) and (c) (and
Securities Act Section 17(a) and Advisers Act Section 206)
“the Division was required to establish that [he] made a
material misrepresentation or omission.” As discussed
above, we reject that view of primary liability under the
antifraud provisions. Malouf’s employment of a deceptive
device and artifice to defraud and a deceptive act, practice,
and course of business as part of the fraud suffices for
liability so long as he acted with scienter.
b.

Malouf acted with scienter.

We find that Malouf acted, at a minimum, with
extreme recklessness in failing to promptly correct
the material omissions in the Forms ADV and on the
website. Malouf has acknowledged that he was familiar
with the contents of UASNM’s Forms ADV and website
throughout the applicable period. Given this awareness
and his admitted periodic reviews of the disclosures, we
find that Malouf must have been aware that his conflict
had not been disclosed to UASNM’s clients.

and that “[f]raud may be accomplished by false statements, a failure
to correct a misleading impression left by statements already made
or, as in the instant case, by not stating anything at all when there is
a duty to come forward and speak”); see also Bristol Myers Squibb
Co. Secs. Litig., 586 F. Supp. 2d 148, 169-170 (S.D.N.Y. 2008) (finding
defendant’s “failure to correct [CEO’s] and the Company’s material
misstatements despite his duties as a senior executive” deceptive
even though he “made no public statements himself).

104a
Appendix C
Furthermore, the risk of misleading investors as to
the true reason why their bond trades were directed to
RJ was so obvious that Malouf must have been aware of it;
indeed, the circumstances suggest that Malouf may have
declined to correct the misleading disclosures precisely
because he wanted to convey an incorrect impression
about the reason he selected RJ for the trades. Malouf
acknowledges that in June 2010 he disclosed to ACA
his receipt of payments from Lamonde—at which point
ACA immediately instructed UASNM to disclose this
arrangement—but did not add corresponding disclosures
to the Forms ADV and website until March 2011. Thus,
while the evidence strongly suggests that Malouf was
aware of the missing disclosures for many years, even
the most favorable reading of Malouf’s testimony makes
clear that he was aware of the omissions for at least nine
months before correcting them. Allowing such misleading
communications to persist for such a long period of time
demonstrates, at a minimum, a reckless disregard of the
risk of misleading investors.
While clients believed that their trades were directed
to RJ because it provided them with the best execution
of their trades in the view of an impartial adviser, they
very well may have reached a different conclusion had
they known about the significant payments Malouf
received from Lamonde.109 Indeed, because the payments
109. See Curshen, 372 F. App’x at 882 (finding scienter based on
the “logical conclusion” that one who knew he was being compensated
for promoting a stock also knew that the failure to disclose this
compensation would mislead those reading his internet postings by
making his opinions seem objective); see also Gebben, 225 F. Supp. 2d

105a
Appendix C
Malouf received were almost identical to the commissions
RJ received on the trades Malouf directed to the RJ
branch, and those trades were the source of the funds
Malouf received from Lamonde as payment for Malouf’s
interest in the RJ branch, it would have been difficult
not to conclude that Malouf’s recommendations could be
influenced by his personal financial interests.
Malouf claims that he did not act recklessly because
he reasonably believed that Kopczynski, Hudson, and
ACA were aware of his receipt of the payments from
Lamonde and did not tell Malouf to disclose them. But
both Kopczynski and Hudson testified that they were
not aware of the arrangement, and the ALJ credited
their testimony over Malouf’s.110 And it is undisputed
that ACA was not aware of any payments until June 2010.
Even had Kopczynski, Hudson, Ciambor, and ACA known
about Malouf’s arrangement with Lamonde, this would
not defeat a finding of scienter. Malouf admitted that
investment advisers have a duty to disclose a conflict of
at 927 (internet poster who “knew that investors . . . would wrongly
believe that his opinions represented independent research, rather
than merely a recitation of what Issuers paid [his employing firm]
to say” acted with scienter).

110. We generally defer to an ALJ’s demeanor-based credibility
determinations, absent a showing that the substantial weight of the
evidence warrants a different finding. See Steven Altman, Exchange
Act Release No. 63306, 2010 WL 5092725, at *4 n.10 (Nov. 10, 2010)
(citing Anthony Tricarico, Exchange Act Release No. 32356, 1993
WL 1836786, at *3 (May 24, 1993)), petition denied, 666 F.3d 1322
(D.C. Cir. 2011). The weight of the evidence does not warrant a
different finding here.

106a
Appendix C
interest that might cause them to render self-interested
investment advice. Thus, regardless of what others
may have thought, Malouf, an experienced securities
professional, had an independent obligation to disclose his
conflict, understood that obligation, and must have known
that clients would be misled by his failure to correct the
representation that no conflict existed.111
Likewise, we do not find convincing Malouf’s claims
that his efforts as CCO to correct the misleading omissions
in March 2011 demonstrate a lack of scienter. Malouf
corrected the communications at issue only after they
had existed in their misleading form for several years—
and only after ACA identified the critical omissions and
warned that they would be cited in its annual compliance
review.
Because we find that Malouf acted with scienter in
employing a deceptive device and artifice to defraud
and engaging in a deceptive act, practice, and course
of business, we find that he violated Section 10(b) of the
Exchange Act and Rule 10b-5(a) and (c).

111. See Orlando Joseph Jett, Exchange Act Release No.
49366, 2004 WL 2809317, at *20 (Mar. 5, 2004) (rejecting applicant’s
claim that he lacked scienter because, among other reasons, even
if applicant’s “supervisors and co-workers knew about his fraud on
the firm—indeed even if they ordered him to commit it—that would
not relieve Jett of responsibility for what he knew or was reckless in
not knowing and for what he did”).

107a
Appendix C
2.

Malouf violated Securities Act Sections 17(a)(1)
and 17(a)(3) by failing to correct the material
misstatements on UASNM’s Forms ADV and
website.

Based on our analysis above, we also find that Malouf
violated Sections 17(a)(1) and 17(a)(3) of the Securities
Act.112 Malouf’s employment of a deceptive device and
artifice to defraud with scienter establishes that he violated
Section 17(a)(1). And Malouf admitted that he reviewed
UASNM’s disclosures on its Forms ADV and website
periodically. That he repeatedly and continually failed to
correct the disclosures that falsely stated UASNM had no
conflicts of interest constituted a “practice” and “course
of business” that operated as a fraud. Malouf’s conduct
was plainly unreasonable as it violated well-established
professional and fiduciary standards. We therefore find
that he also violated Section 17(a)(3).
3.

Malouf violated Advisers Act Sections 206(1)
and 206(2) by failing to correct the material
misstatements on UASNM’s Forms ADV and
website and by failing to disclose his conflict
of interest to his clients.

Malouf violated Section 206(1) and 206(2) by failing
to correct the misstatements in UASNM’s Form ADVs
and on its website. “Facts showing a violation of Section
112. As discussed above, a violation of Section 17(a)(1) requires
a showing of scienter, but negligence is sufficient for a violation of
Section 17(a)(3). See supra note 73.

108a
Appendix C
17(a) or 10(b) by an investment adviser will also support
a showing of a Section 206 violation.”113 Therefore, given
our determination that Malouf is liable under Section
10(b) and Section 17(a) for his conduct with respect to the
misleading statements disseminated to his clients, we find
that the same conduct renders him liable under Sections
206(1) and 206(2).114
We also find that Malouf violated Sections 206(1) and
206(2) by failing to disclose his conflict of interest with RJ
to his clients. The Advisers Act “reflects a congressional
recognition ‘of the delicate fiduciary nature of an investment
advisory relationship,’ as well as a congressional intent
to eliminate, or at least expose, all conflicts of interest
which might incline an investment adviser . . . to render
advice which was not disinterested.”115 The Act imposes
this heightened standard of disclosure on investment
advisers based on their “fiduciary status . . . in relation
to their clients,” as well as “Congress’s general policy of
promoting ‘full disclosure’ in the securities industry.”116
113. E.g., SEC v. Haligiannis, 470 F. Supp. 2d 373, 383
(S.D.N.Y. 2007).
114. Cf. Montford and Co., Inc., Advisers Act Release No.
3829, 2014 WL 1744130 at *14, 16 (May 2, 2014) (finding registered
investment adviser and its president and sole owner liable under
Sections 206(1) and 206(2) for making material misrepresentations
regarding registered investment adviser’s independence on Forms
ADV that president signed and on firm’s website that were attributed
to president), aff’d, 793 F.3d 76 (D.C. Cir. 2015).
115. Capital Gains, 375 U.S. at 191-92.
116. Id.

109a
Appendix C
Accordingly, we have “long stated that advisers owe their
clients ‘a duty to render disinterested advice . . . and to
disclose information that would expose any conflicts of
interest,’ including . . . even a potential conflict.”117 Malouf’s
extremely reckless failure to do so violates Section 206(1)
of the Advisers Act, and his negligent failure to do so
violates Section 206(2).118
As previously discussed, the information Malouf failed
to disclose was material: Malouf’s clients would have
wanted to know about his arrangement with Lamonde
before accepting his recommendation that RJ execute
their transactions. His conduct was both reckless and
negligent for all the reasons previously discussed.
Accordingly, we find that by failing to disclose his conflict
of interest, Malouf violated Sections 206(1) and 206(2).119
117. Montford and Co., 2014 WL 1744130 at *13 (citing
Capital Gains, 375 U.S. at 201).
118. See id. at *13-14, 16.
119. Although we find Malouf liable under the Advisers Act but
not the Securities Act or the Exchange Act for his failure to disclose
material information, that does not mean that liability under Rule
10b-5(a) and (c) (or Sections 17(a)(1) and (3)) may not arise solely
from such nondisclosure. Indeed, the Supreme Court’s statement in
Capital Gains, 375 U.S. at 198-199, that a fiduciary’s “nondisclosure”
is “one variety of fraud or deceit” suggests that it could. Because
in this case Malouf failed to disclose his conflict of interest but
also failed to correct the misrepresentations that UASNM had no
conflicts of interest, we need not determine in what circumstances a
respondent may be held liable under Rule 10b-5(a) and (c) (or Sections
17(a)(1) and (3)) simply for failing to disclose material information
despite a duty to do so.

110a
Appendix C
Finally, we note that we find Malouf primarily, rather
than secondarily, liable under Sections 206(1) and 206(2)
because, as UASNM’s CEO and President, he received
compensation in connection with giving investment
advice and therefore falls under the broad definition of
“investment adviser” in the Advisers Act.120
4.

Malouf violated Advisers Act Sections 206(1)
and 206(2) by failing to seek best execution for
his clients’ bond trades.

An investment adviser’s fiduciary duty “includes the
obligation to seek ‘best execution’ of clients’ transactions
under the circumstances of the particular transaction.”121
The duty of best execution requires an investment
adviser to “execute securities transactions for clients
in such a manner that the client’s total cost or proceeds
in each transaction is the most favorable under the
circumstances.”122 Those circumstances include the “full
range and quality of a broker’s services in placing brokerage
120. Koch, 2014 WL 1998524, at *18 (citing 15 U.S.C.
80b-2(a)(11) and collecting cases).
121. Commission Guidance Regarding Client Commission
Practices Under Section 28(e) of the Securities Exchange Act of
1934, Exchange Act Release No. 54165, 2005 WL 4843294, at *2 &
n.3 (July 18, 2006); see also Advisers Act Rule 206(3)-2(c), 17 C.F.R.
§ 206(3)-2(c) (acknowledging adviser’s duty of best execution of client
transactions); Amendments to Form ADV, Investment Advisers Act
Release No. 3060, 2010 WL 2957506, at *16 (Aug. 12, 2010).
122. Exchange Act Release No. 23170, 1986 WL 630442, at
*11 (Apr. 23, 1986).

111a
Appendix C
including, among other things, the value of research
provided as well as execution capability, commission rate,
financial responsibility, and responsiveness to the money
manager.”123 The “determinative factor is not the lowest
possible commission cost but whether the transaction
represents the best qualitative execution for the managed
account.”124 Thus, although “the duty to obtain the best
security price remains, in selecting a broker to secure
such price an adviser is not required to seek the service
which carries the lowest cost so long as the difference in
cost is reasonably justified by the quality of the service
offered.”125
Nonetheless, we have long held that the “selection
of a broker and the determination of the rate to be paid
should . . . never be influenced by the adviser’s self-interest
in any manner.”126 Where “the adviser is affiliated with
or has a relationship with the brokerage firm executing
the transaction,” the adviser “must make the good faith
judgment that such broker is qualified to obtain the best
price on the particular transaction and that the commission
in respect of such transaction is at least as favorable to the

123. Id.
124. Id.
125. Applicability of Commission’s Policy Statement on the
Future Structure of Securities Markets to Selection of Brokers and
Payment of Commissions by Institutional Managers, Exchange Act
Release No. 9598, 1972 WL 121270, at *2 (May 17, 1972).
126. Id. at *1.

112a
Appendix C
company as that charged by other qualified brokers.”127 In
essence, in “a case of self-dealing, the burden of justifying
paying a commission rate in excess of the lowest rate
available is particularly heavy.”128
We have also explained that although an adviser “has
no duty or obligation to seek competitive bidding for the
most favorable negotiated commission rate applicable
to such transaction, it should consider such ‘posted’
commission rates, if any as may be applicable to the
transaction, as well as any other information available
at the time as to the level of commissions known to be
charged on comparable transactions by other qualified
brokerage firms. . . .”129 Here, the Division’s expert witness
testified that because of their high liquidity and AAA
rating, fulfilling the duty of best execution for transactions
in the Treasury and agency bonds at issue was primarily
a matter of finding the lowest available cost for the trade
(i.e., the commission paid), rather than any other factors
related to trade execution, such as research. While
acknowledging that it may be appropriate to execute a
bond transaction without first seeking multiple bids in
certain rare circumstances, the Division’s expert opined
that, because the commission cost is the driving factor in
achieving best execution for these bonds, the best general
practice was to seek multiple competing bids.

127. Id. at *2.
128. Id.
129. Id.

113a
Appendix C
Malouf ag reed that the best approach to an
adviser’s best execution responsibilities was to seek
multiple competing bids for client transactions. He also
acknowledged that Keller, on a few occasions during the
applicable period, was able to convince the RJ branch to
lower proposed commission amounts after he shopped his
client bond trades to other brokers for competing bids.
Nonetheless, Malouf conceded that he routinely failed
to seek competing bids before directing bond trades to
Lamonde’s RJ branch.
The Division’s expert also evaluated all of UASNM’s
client bond trades through the RJ branch during the
applicable period and determined that dozens of such
transactions involved commissions that were significantly
higher than industry norms. He assumed that an
appropriate commission level was 0.10-0.75 percent of the
total dollar amount of the trade for highly-liquid, AAArated Treasury and agency bond transactions, a conclusion
he reached from personal experience trading this type
of security, as well as industry research and consultation
with other experts.130 Based on his analysis, he determined
130. The expert, in his analysis, did not attribute any specific
transaction to Malouf, but rather evaluated all of UASNM’s bond
trades through RJ during the period. The Division’s expert also
testified, and Malouf’s expert agreed, that the best execution
responsibilities of an adviser such as UASNM, which owes a fiduciary
duty to its clients, are different from those of a broker-dealer, such
as RJ, which does not. Therefore, as Malouf conceded, an adviser
cannot rely on the broker-dealer to satisfy the adviser’s own best
execution responsibilities. Neither of the two expert witnesses who
testified on behalf of Malouf offered a contrary estimate of the

114a
Appendix C
that UASNM’s clients paid between $442,106 and $693,804
of commissions on 81 such bond trades in excess of what
they would have paid if they had paid prevailing market
commission rates.
Malouf effectively concedes that these commissions
were excessive. He st ipu lat ed t hat t here were
approximately 81 bond trades exceeding $1 million
executed by UASNM during the applicable period, that
“for a $1 million Treasury bond an appropriate commission
would be one percent, would drop to 0.5 percent above that
then goes down from there,” and that he and Lamonde had
an oral agreement that RJ would not charge commissions
exceeding one percent for such trades. Malouf does not
dispute the expert witness’s calculations with respect to
UASNM’s total bond trades used to calculate the excess
commissions Malouf’s clients paid.131

appropriate commissions to be charged on highly-liquid, AAA-rated
Treasury and agency bond transactions. We, like the ALJ, rely on
the testimony of the Division’s expert witness in the absence of
other evidence in the record, but our findings on the appropriate
commissions to be charged on highly liquid agency bonds are
limited to this matter. Determining the appropriate commission
on a particular trade is a circumstance-specific inquiry. See supra
notes 119-123 and accompanying text.

131. Although Malouf claims that he made reasonable efforts
to obtain best execution because he used RJ’s BondDesk platform
to research market prices, he offers no evidence showing how
BondDesk’s information regarding bid and ask spreads would
inform Malouf as to the appropriate commission he should pay to a
broker-dealer.

115a
Appendix C
Malouf fails to meet his “heavy” burden of justifying
paying a commission rate in excess of the lowest rate
available. Even in cases where “there is no self-dealing,”
we have stated that “where commission rates reflect
services furnished to the managed account in addition
to the cost of execution, managers must stand ready to
demonstrate that such expenditures were bona fide.”132
Malouf admitted that, when using BondDesk, he “would
not know the precise commission that Lamonde was going
to charge for the trade.”133 Malouf could not establish that
the RJ branch actually provided lower costs for his clients
than those of other brokers, and he fails to explain what
services or efforts RJ provided that any other broker
would not have for such routine, highly-liquid, AAA-rated
Treasury and agency bond transactions.134 Malouf’s
failure to justify the excess commissions his clients paid
is especially problematic in light of his arrangement with
Lamonde.

132. Exchange Act Release No. 9598, 1972 WL 121270, at *2.
133. Malouf also claims that he relied on his own experience
trading bonds over many years to evaluate the fairness of a price, but
he does not demonstrate how his years of experience could substitute
for actual knowledge of commissions being charged in the market
for particular trades.
134. See Mark David Anderson, Exchange Act Release
No. 48352, 2003 WL 21953883, at *8 (Aug. 15, 2003) (finding that
Treasury and agency bonds, such as those at issue here, are highly
liquid and therefore a broker’s efforts to execute trades in them are
“in no way extraordinary”).

116a
Appendix C
Malouf attempts to avoid liability by arguing that
the Division has not introduced evidence connecting
him to a specific bond transaction on which excessive
commissions were charged and that therefore he cannot
be held liable for excessive commissions, or related best
execution violations, on any trades whatsoever. We reject
Malouf’s argument on several grounds. Testimony and
documentary evidence shows that Malouf was responsible
for UASNM’s large-dollar-amount bond trades and that
his clients were the parties to the bond transactions on
which excessive commissions were paid. Malouf himself
conceded that he executed anywhere from 60-70 percent
of all of UASNM’s bond trades. And as discussed above,
81 large-dollar-amount bond trades placed through the
RJ branch, which the Division’s expert witness reviewed,
involved commissions exceeding the appropriate levels
the expert set forth, and Malouf did not dispute the
appropriate levels of commissions the Division’s expert
witness set forth.
Furthermore, using the highest rate that the expert
witness testified might be acceptable (0.75 percent), the
expert witness calculated that UASNM clients paid a
total of $442,106 in excess commissions paid on all bond
trades that were directed to the RJ branch during the
period. Based on this calculation, the ALJ then used the
lowest end of Malouf’s own range of trades attributable to
him (60 percent) to conclude that Malouf was personally
responsible for at least $265,263.60 of those excessive
commissions. We find that the ALJ’s calculation was
reasonable, and Malouf points to no evidence that would
suggest using the assumptions for this calculation would

117a
Appendix C
be inappropriate. Given that several witnesses testified
that the percentage of UASNM’s bond trades that Malouf
directed was likely much higher than 60 percent, and
that Malouf was responsible for all large-dollar-amount
UASNM client bond trades, the ALJ’s calculations were
a conservative estimate of the total excess commissions.
Malouf also argues that ACA bore some responsibility
for monitoring UASNM’s best execution compliance.
Since, among other things, ACA did not identify a
deficiency in those practices and ACA was aware that a
significant percentage of UASNM’s client bond trades
were directed to the RJ branch, Malouf contends that
he “conclude[d], reasonably, that [UASNM] met its best
execution guidelines.” Ciambor, however, testified that
Malouf and others at UASNM told him that UASNM
always followed a multiple bid process when executing
client trades. Malouf also acknowledges that ACA did
not review full trade blotters reflecting all UASNM
client trades during this period, instead reviewing only a
sample. Malouf admits that ACA was not aware until June
2010 of the payments Malouf received from Lamonde and
that this was crucial information for ACA’s evaluation of
UASNM’s best execution practices because Lamonde’s
ongoing payments provided Malouf with an incentive to
allow his clients to pay RJ’s higher commissions. Finally,
Malouf stipulated that “ACA does not assume any of the
fiduciary duties its clients are subject to as supervised
persons under the Investment Advisers Act” and that
“ACA does not undertake a duty to root out fraud on
behalf of its clients.” For these reasons, Malouf’s claim
that he understood that ACA had approved UASNM’s
best execution practices is unpersuasive.

118a
Appendix C
We find that Malouf violated his duty to seek best
execution for his clients. The result of Malouf’s conduct
was that his clients paid at least $265,263.60 in excess
commissions to Lamonde’s RJ branch. Lamonde paid
Malouf an amount almost equal to the amount of the
commissions Lamonde received on Malouf’s clients’
trades. Malouf admitted that he directed trades to the
RJ branch because “then I got paid.” Malouf benefitted
at his clients’ expense. He thus employed a device and
artifice to defraud his clients and engaged in a practice
and course of business that operated as a fraud or deceit
upon his clients. And he did so with scienter. Malouf knew
that he had an arrangement with Lamonde, that the best
approach to UASNM’s best execution responsibilities was
to seek multiple competing bids, and that appropriate
commissions on the trades of highly-liquid, AAA-rated
Treasury and agency bond of over $1 million were not
more than one percent. Malouf could have lowered his
clients’ costs if he had sought multiple competing bids
from other brokers or insisted that the commissions
on the trades stayed below one percent. His failure to
do either, in light of his knowledge, evinces a reckless
disregard for the risk that his clients would not receive
best execution but would instead pay excess commissions
to the RJ branch, which Lamonde would use to pay him.
Accordingly, Malouf’s failure to seek best execution for his
clients violated Advisers Act Sections 206(1) and 206(2).135
135. See Delaware Management Co., 43 S.E.C. 392, 1967
WL 88897, at *4 (July 19, 1967) (finding that an investment
adviser’s sale of stock through a broker at a lower price than that
offered by another broker in order to compensate the broker for
research services performed for the adviser, where the adviser

119a
Appendix C
5.

Malouf aided and abetted and caused UASNM’s
violations of Advisers Act Section 206(4) and
Rule 206(4)-1 thereunder and Section 207.

To establish aiding and abetting liability, we must show:
“(1) that a principal committed a primary violation; (2) that
the aider and abettor provided substantial assistance to
the primary violator; and (3) that the aider and abettor had
the necessary scienter.”136 The level of scienter required
for such a showing is “extreme recklessness.” 137 An
individual who aids and abets a violation of the Advisers
Act is also a cause of that violation.138
Advisers Act Section 206(4) prohibits a registered
investment adviser from engaging in “any act, practice,
was contractually obligated to provide such services and received
advisory fees for them, benefited the adviser at the expense of its
client, was incompatible with the adviser’s duty to obtain the best
prices for its client, and constituted a fraud upon the client); cf.
Interpretations of Section 28(e) of the Securities Exchange Act of
1934; Use of Commission Payments by Fiduciaries, Exchange Act
Release No. 12251, 1976 WL 185942, at *1-2 (Mar. 24, 1976) (stating
that investment advisers’ practice of asking a broker, “retained to
effect a transaction for the account of a beneficiary, to ‘give up’ part of
the commission negotiated by the broker and the fiduciary to another
broker designated by the fiduciary” may “constitute fraudulent acts
and practices by fiduciaries” in violation of the antifraud provisions).

136. Graham v. SEC, 222 F.3d 994, 1000 (D.C. Cir. 2000).
137. Howard v. SEC, 376 F.3d 1136, 1143 (D.C. Cir. 2004).
138. Zion Capital Mgmt, LLC, Advisers Act Release No. 2200,
2003 WL 22926822, at *7 & n. 36 (Dec. 11, 2003).

120a
Appendix C
or course of business which is fraudulent, deceptive, or
manipulative.”139 A primary violation of Section 206(4)
requires neither a showing of scienter nor client harm.140
Advisers Act Rule 206(4)-1(a)(5) prohibits a registered
investment adviser from publishing, circulating, or
distributing advertisements, including the contents of its
website, containing untrue statements of material facts,
or that otherwise are false or misleading.141
Based on our findings above, we find that UASNM
violated these provisions by claiming on its website that
its advice was impartial and conflict-free, while failing
to disclose Malouf’s receipt of $1,068,084 in payments
from Lamonde, the owner of the RJ branch to which
Malouf directed the overwhelming majority of UASNM’s
clients’ bond trades. As we found above, Malouf recklessly
failed to disclose this clear conflict of interest. Thus, he
substantially assisted UASNM’s violations. We therefore
find that Malouf aided and abetted and caused UASNM’s
violations of Advisers Act Section 206(4) and Rule 206(4)1(a)(5).
Advisers Act Section 207 prohibits, among other
things, the making of any omission of a material
fact required to be stated in a report filed with the

139. 15 U.S.C. § 80b-6(4).
140. SEC v. C.R. Richmond & Co., 565 F.2d 1101, 1105 (9th Cir.
1977) (citing Capital Gains, 375 U.S. at 195).
141. 15 U.S.C. § 275.206(4)-1(a)(5).

121a
Appendix C
Commission, including Form ADV.142 Advisers Act Section
207 does not require a showing of scienter.143 Item 12.B
of Form ADV Part II requires an investment adviser to
describe all factors considered in selecting broker-dealers
for execution of client trades and for determining the
reasonableness of their commissions. UASNM’s Forms
ADV failed to disclose Malouf’s receipt of $1,068,084 in
payments from the owner of the broker-dealer to which
Malouf directed the overwhelming majority of UASNM
clients’ bond trades as a factor it considered in selecting
RJ as a broker-dealer for client trades. Thus, UASNM
violated Advisers Act Rule 207 by failing to disclose this
factor in its choice of broker-dealers. Malouf recklessly
provided substantial assistance to UASNM’s violation
by failing to insist that the Forms ADV be changed to
correct this omission, despite regularly reviewing the
Forms ADV during the applicable period and recognizing
the importance of disclosing this conflict. For these
reasons, we find that Malouf aided and abetted and caused
UASNM’s violations of Advisers Act Section 207.
III. SANCTIONS
The ALJ barred Malouf from association with a
broker, dealer, investment adviser, municipal securities
dealer, municipal advisor, transfer agent, or nationally
recognized statistical rating organization for a period of
seven-and-a-half years; prohibited Malouf from serving
or acting as an employee, officer, director, member of
142. 15 U.S.C. § 80b-7.
143. Montford & Co., 2014 WL 1744130, at *16 & n.134.

122a
Appendix C
an advisory board, investment adviser or depositor of,
or principal underwriter for, a registered investment
company or affiliated person of such investment adviser,
depositor, or principal underwriter for a period of sevenand-a-half years; ordered Malouf to cease and desist
from committing or causing violations, and any future
violations, of Securities Act Sections 17(a)(1) and (a)(3),
Exchange Act Section 10(b), Exchange Act Rules 10b-5(a)
and (c), Advisers Act Sections 206(1), (2), and (4) and
207, and Advisers Act Rule 206(4)-1(a)(5); and imposed
a third-tier civil penalty of $75,000. On appeal, the
Division requests that we impose a permanent industry
bar and order Malouf to pay disgorgement in the amount
of $1,068,084; and Malouf requests that we vacate all
sanctions ordered by the ALJ. Based on our consideration
of the relevant factors, we impose a bar from association
with a broker, dealer, investment adviser, municipal
securities dealer, municipal advisor, transfer agent, or
nationally recognized statistical rating organization;
impose a cease-and-desist order; prohibit Malouf from
serving or acting as an employee, officer, director, member
of an advisory board, investment adviser or depositor
of, or principal underwriter for, a registered investment
company or affiliated person of such investment adviser,
depositor, or principal underwriter; order Malouf to pay
disgorgement of $562,001.26; and order Malouf to pay a
single, third-tier civil penalty of $75,000.

123a
Appendix C
A. Industry Bar
Advisers Act Section 203(f) authorizes us to bar any
person who, at the time of the misconduct, was associated
with an investment adviser, from “being associated with
a broker, dealer, investment adviser, municipal securities
dealer, municipal advisor, transfer agent, or nationally
recognized statistical rating organization” if we find “on
the record after notice and opportunity for a hearing”
that the person willfully violated the securities laws and
the sanction is in the public interest.144
The Division appealed the ALJ’s imposition of a sevenand-a-half-year industry bar, contending that a permanent
bar is a more appropriate sanction for Malouf’s violations.
Malouf appealed the imposition of any sanction and argued
that no bar is warranted. As discussed below, we find that
a bar without time limitation or a right to reapply is in
the public interest.
1.

Maloufs violations of the securities laws were
willful.

Advisers Act Section 203(f) authorizes us to bar
persons associated w ith investment advisers for
willful violations of the securities laws. In this context,
willfulness is shown where a person intends to commit the
act that constitutes the violation; there is no requirement
that the person also be aware that his actions violate
any statutes or regulations.145 Malouf does not dispute
144. 15 U.S.C. § 80b-3(f).
145. Wonsover v. SEC, 205 F.3d 408, 414 (D.C. Cir. 2000).

124a
Appendix C
that he knew that he was committing the acts involved
in directing the transactions to the RJ branch and then
receiving funds back from Lamonde, who owned the RJ
branch. Rather, he claims that he did not act “willfully”
in failing to make the required disclosure because he
relied on Kopczynski, Hudson, and others and, therefore,
“reasonably believed that the disclosure had been made.”
Malouf’s argument equates “willfulness” with scienter.
But, to find willfulness, Malouf need only to have known
he was directing clients’ transactions to the RJ branch and
receiving payments from Lamonde, and that he neither
made the required disclosures nor required anyone else
to make the required disclosures. In any event, as stated
above, we find that Malouf acted with scienter in violating
the antifraud provisions. Therefore, Malouf not only
intended to commit the acts; he committed them with
fraudulent intent.
2.

Barring Malouf is in the public interest.

When determining what, if any, sanctions are in the
public interest, we consider, among other things, (i) the
egregiousness of the respondent’s actions; (ii) the degree
of scienter involved; (iii) the isolated or recurrent nature
of the infraction; (iv) the respondent’s recognition of the
wrongful nature of his or her conduct; (v) the sincerity
of any assurances against future violations; and (vi) the
likelihood that the respondent’s occupation will present
opportunities for future violations.146 We also consider
146. Steadman v. SEC, 603 F.2d 1126, 1140 (5th Cir. 1979), aff’d
on other grounds, 450 U.S. 91 (1981).

125a
Appendix C
whether the sanctions will have a deterrent effect.147 Our
inquiry is flexible, and no single factor is dispositive.148
After considering these factors, we find that an
industry bar is in the public interest. Malouf’s betrayal of
his clients’ trust involved a core tenet of his responsibility
as an investment adviser—his duty to disclose material
facts, including his conflict of interest, to his clients.
Malouf’s failure to seek best execution also betrayed his
clients’ trust. Over a three-year period, Malouf directed
hundreds of bond transactions to (and received payments
from the owner of) the RJ branch, and had a secret
arrangement under which he would receive for himself
$1,068,084, an amount nearly equal to the commissions
his clients were being charged by the RJ branch. For
approximately 48-77 highly-liquid, AAA-rated Treasury
and agency bond transactions, as a result of Malouf’s
directing the transactions to the RJ branch, his advisory
clients paid more than $250,000 in excessive commissions.
The violations and the deception were repeated and
ongoing.149
147. See Toby G. Scammell, Investment Advisers Act Release
No. 3961, 2014 WL 5493265, at *5 (Oct. 29, 2014) (citing additional
authority).
148. David Henry Disraeli, Exchange Act Release No. 57027,
2007 WL 4481515, at *15 (Dec. 21, 2007), petition denied, 334 F.
App’x 334 (D.C. Cir. 2009) (per curiam).
149. Malouf objects to the fact that in his sanctions analysis,
the ALJ cited hearing testimony of an expert witness who stated that
in 44 years in the securities industry, he had “never seen a million
dollars conflict of interest like this before.” Malouf claims that this

126a
Appendix C
Malouf shows vir tually no recognition of the
wrongfulness of his conduct. He argues that responsibility
for the misleading statements and omissions in the Forms
ADV and on UASNM’s website rests with others, including
Kopczynski, Hudson, and ACA. Likewise, Malouf claims
that he did not act recklessly, but as explained above, we
find that he acted with scienter.
We also find that there is a significant likelihood that
Malouf will be presented with the opportunity to violate
the securities laws in the future. Malouf continues to own
and operate a state-registered investment adviser. His
continued work as an investment adviser, combined with
his apparent lack of understanding of the seriousness of
his misconduct demonstrates that a bar is necessary to
protect investors.
Given Malouf’s egregious and repeated misconduct,
and failure to acknowledge his w rongdoing or to
understand the role he played in misleading his advisory
clients, we believe that the ALJ erred in imposing a
time-limited bar.150 The ALJ cited Malouf’s age (55) and
“was testimony presented in a separate state court proceeding
between Mr. Malouf and Mr. Kopczynski.” We have not relied on
this testimony in determining that a bar is in the public interest.

150. The law judge barred Malouf “for a period of seven-andone-half years.” This departs from our usual practice in situations
in which we find that a bar of limited duration may be appropriate.
Typically, a so-called “time-limited” bar takes the form of a bar
with a right to reapply after a certain period of time. See, e.g., Eric
J. Brown, Exchange Act Release No. 66469, 2012 WL 625874, at
*13 (Feb. 27, 2012) (barring respondent from associating with a

127a
Appendix C
assumed that, because Malouf would be over 62 by the time
the bar expired, Malouf may not return to the securities
industry, and if he did, he would retire soon after. In effect,
the ALJ assumed that the seven-and-a-half year bar was
enough to protect the public because, for all practical
purposes, the bar was likely to extend until Malouf
retired. We make no such assumptions. Instead of relying
on Malouf’s potential future retirement to protect the
public interest, we impose a bar without time limitation.151
Accordingly, Malouf is barred from associating with any
broker, dealer, investment adviser, municipal securities
dealer, municipal advisor, transfer agent, or nationally
recognized statistical rating organization. Similarly, we
prohibit, without time limitation, Malouf from serving
or acting as an employee, officer, director, member of
an advisory board, investment adviser or depositor of,
or principal underwriter for, a registered investment
company or affiliated person of such investment adviser,
broker, dealer, or investment adviser, with a right to reapply in
non-supervisory capacity after two years), petition denied sub
nom., Collins v. SEC, 736 F.3d 521 (D.C. Cir. 2013); Robert Rodano,
Advisers Act Release No. 2750, 2008 WL 2574440, at *8 (June 30,
2008) (barring respondent from associating with an investment
adviser, but providing for a right to reapply after five years).

151. Even under the bar that we impose, Malouf may seek
consent from a relevant self-regulatory organization (“SRO”) to
associate with one of that SRO’s member firms. Alternatively, Rule
193(a) of our Rules of Practice provides a process by which barred
individuals can apply to the Commission for consent to become
associated with an entity that is not a member of an SRO, e.g., an
investment adviser, an investment company, or a transfer agent. 17
C.F.R. § 201.193(a).

128a
Appendix C
depositor, or principal underwriter, pursuant to Section
9(b) of the Investment Company Act.152
B. Cease-and-Desist Order
Section 8A(a) of the Securities Act, Section 21C(a)
of the Exchange Act, and Section 203(k) of the Advisers
Act authorize us to issue a cease-and-desist order
against a person who “is violating, has violated, or is
about to violate” those Acts or any rule promulgated
thereunder.153 In determining whether a cease-anddesist order is warranted, we consider not only the public
interest factors discussed above, but also “‘whether the
violation is recent, the degree of harm to investors or the
marketplace resulting from the violation, and the remedial
function to be served by the cease-and-desist order in
the context of any other sanctions being sought in the
same proceedings.’”154 We also consider whether there
is a reasonable likelihood of future violations, although
152. The ALJ barred Malouf from these activities for 7.5
years. Unlike the Exchange Act, Securities Act, and Advisers Act
provisions at issue in this proceeding, Section 9(b) provides for timelimited prohibitions. Although the Division did not appeal this aspect
of the ALJs decision, we have determined to review this aspect of
the ALJ’s decision on our own initiative. For the same reasons as
discussed in our imposition of the other bars against Malouf, we
find that a bar, without time limitation, pursuant to Section 9(b) is
in the public interest.
153. 15 U.S.C. §§ 77h-1(a), 78u-3(a), 80b-3(k).
154. Koch, 2014 WL, 1998524, at *21 (citing KPMG Peat
Marwick, LLP, Exchange Act Release No. 43862, 2001 WL 47245,
at *24-26 (Jan. 19, 2001)).

129a
Appendix C
the required showing of a risk of future violations in
the context of a cease-and-desist order is significantly
less than that required for an injunction, and “in the
ordinary case, a finding of a past violation is sufficient
to demonstrate a risk of future ones.”155 Our inquiry is
flexible, and no single factor is dispositive.156
The discussion of the public interest factors in
connection with the bar militates in favor of a cease-anddesist order. The additional factors relevant to cease-anddesist orders further support imposition of such an order
here. Malouf’s violations are relatively recent. Malouf’s
conduct was harmful to investors. Malouf argues that
“there is no customer harm” because he paid UASNM’s
customers $506,083.74 as part of the settlement of the
State Court Litigation. When determining whether
a cease-and-desist order is appropriate, we consider
whether the violation caused harm to investors, not
whether investors were later made whole. For all of the
above reasons, we impose a cease-and-desist order in the
public interest.
C. Disgorgement
In a cease-and-desist proceeding we “may enter an
order requiring accounting and disgorgement, including
reasonable interest.”157 Disgorgement is an equitable
155. KPMG Peat Marwick, LLP, 2001 WL 47245, at *26.
156. Id.
157. 15 U.S.C. §§ 77h-1(e), 78u-3(e).

130a
Appendix C
remedy that requires the violator to give up wrongfully
obtained profits causally related to the wrongdoing at
issue.158 Because disgorgement is designed to return
the violator to where he or she would have been absent
the violative conduct,159 disgorgement should include
all of the gains that flow from the illegal activity.160
The Division, in seeking disgorgement, must present a
reasonable approximation of profits causally connected
to the violation.161 Once the Division has presented such
a reasonable approximation, any risk of uncertainty
in calculating the disgorgement amount then falls on
the wrongdoer, whose misconduct created the need for
disgorgement.162
158. SEC v. First City Fin. Corp., Ltd., 890 F.2d 1215, 1230
(2d Cir. 1989) (citing additional authority). Ordering disgorgement
may also deter others from violating the law. Id.
159. Zacharias v. SEC, 569 F.3d at 471 (“[D]isgorgement
restores the status quo ante by depriving violators of ill-gotten
profits.”).
160. Koch, 2014 WL 1998524, at *22 (citing SEC v. JT
Wallenbrock & Assocs., 440 F.3d 1109, 1113-14 (9th Cir. 2006)).
161. Id. (citing Laurie Jones Canady, Exchange Act Release
No. 41250, 1999 WL 183600, at *10 n.35 (Apr. 5, 1999), petition
denied, 230 F.3d 362 (D.C. Cir. 2000)).
162. See First City, 890 F.2d at 1232 (finding that, once
Commission has shown that its disgorgement figure “reasonably
approximates the amount of unjust enrichment,” the burden then
shifts to respondents “to demonstrate that the disgorgement figure
was not a reasonable approximation”); Koch, 2014 WL 1998524, at
*22 & n.234.

131a
Appendix C
In the proceeding below, the Division sought an order
of disgorgement in the amount of $1,068,084, the amount
of money Malouf received from Lamonde in undisclosed
payments for the sale of the RJ branch. The ALJ found
that this money constituted “legal profits” to Malouf for
the sale of the RJ branch and was therefore not subject
to disgorgement. The ALJ found that only the amount
of excessive commissions that UASNM clients paid on
their bond transactions (which the ALJ calculated to
be $265,263.60) was subject to a disgorgement order,
but declined to order Malouf to disgorge the excessive
commissions in light of payments made by Malouf to
clients in connection with the State Court Litigation.
We disagree with the law judge’s disgorgement
analysis. The $1,068,084 was not received through an
untainted transaction immune from disgorgement. It was
in no sense “legal profits.” Malouf only received payment
by sending UASNM clients’ bond transactions to RJ so
that Lamonde would be able to pay Malouf the amounts
due under the sales contract. Once UASNM’s client
investments were directed to RJ, Lamonde paid back
to Malouf the commissions RJ earned, nearly dollar for
dollar. Malouf admitted the bond transactions were sent
to the RJ branch “because then he got paid.”163 Yet he did
not disclose this conflict of interest to his clients. Absent
this fraudulent channeling of transactions, he would not
163. Even with the commissions RJ received from Maloufdirected trades, Lamonde was able to meet his other expenses only
by taking on significant debt, providing further support for the
conclusion that Malouf’s directing trades to RJ was essential to the
payments Lamonde made to Malouf.

132a
Appendix C
have received the $1,068,084.164 For these reasons, the
full $1,068,084 paid by Lamonde to Malouf is causally
connected to his violations and a reasonable approximation
of Malouf’s ill-gotten gains.
Malouf bears the burden of presenting evidence that
the Division’s approximation of his ill-gotten gains, with
which we concur, is not reasonable. Malouf offers no
alternative method of calculating the proper disgorgement
amount, and the record is devoid of evidence of possible
alternative measures of Malouf’s ill-gotten gains. Malouf
relies solely on the ALJ’s finding that Lamonde’s payments
to Malouf were not “transaction-based” commissions, a
finding the ALJ made in the context of determining that
Malouf had not acted as an unregistered broker.165 But
the ALJ’s finding regarding whether Malouf received
164. See Montford, 2014 WL 1744130, at *22 & n.194 (finding
that investment adviser must disgorge full amount of payments
received from an investment manager because respondent advisers
“fraudulently misled clients to believe they were independent and did
not take any money from investment managers at the same time they
were arranging for and receiving substantial payments from such an
investment manager” and citing investor testimony that they would
not have paid respondents the moneys at issue because they would
not have retained them as their advisers and would not have made
the investments in question); see also Edgar R. Page and PageOne
Financial Inc., Exchange Act Release No. 32131, 2016 WL 3030845,
at *13 & n.75 (May 27, 2016) (finding that, where respondent’s clients
would not have invested in certain funds if respondent had disclosed
his conflict of interest to them—and “therefore could not have
received the . . . payments [at issue]”—those payments were causally
connected to his violations and thus subject to disgorgement).
165. See supra note 2.

133a
Appendix C
“transaction-based compensation” is a separate question
from the issue of whether the monies Malouf received were
ill-gotten gains causally related to his fraudulent conduct.
We order that Malouf disgorge the full $1,068,084
he received from Lamonde, minus $506,083.74 that
he has already paid to UASNM clients in the State
Court Litigation, resulting in a disgorgement order of
$562,001.26, plus prejudgment interest.
D. Civil Money Penalty
Section 8A of the Securities Act, Section 21B of
the Exchange Act, Section 203(i) of the Advisers Act,
and Section 9(d) of the Investment Company Act (the
“Acts”) authorize the Commission to impose penalties for
violations of the Acts if it is in the public interest to do so.
In considering whether a penalty is in the public interest,
the Commission may consider:166 (A) “whether the act or
omission for which such penalty is assessed involved fraud,
deceit, manipulation, or deliberate or reckless disregard
of a regulatory requirement”; (B) “the harm to other
persons resulting either directly or indirectly from such
act or omission”; (C) “the extent to which any person was
unjustly enriched, taking into account any restitution
made to persons injured by such behavior”; (D) specified
prior findings of misconduct; and (E) “the need to deter
such person and other persons from committing such
166. 15 U.S.C. § 78u-2(3); 15 U.S.C. § 80b-3(i)(3); 15 U.S.C.
§ 80a-9(d)(3); see also Collins v. SEC, 736 F.3d 521, 524-25 (D.C.
Cir. 2013) (recognizing that “Congress guides the Commission’s
discretion by pointing to . . . factors” in penalty statute).

134a
Appendix C
acts or omissions.”167 Congress also specified that we may
consider “such other matters as justice may require.”168
The Acts specify that penalties can be imposed “for
each act or omission” in violation of the federal securities
laws. For each such “act or omission,” the Commission
may impose a penalty under one of three tiers, depending
on the nature of the violation: first-tier penalties for
violations of the securities laws; second-tier penalties
for violations of the securities laws that “involved fraud,
deceit, manipulation, or deliberate or reckless disregard
of a regulatory requirement;” or third-tier penalties for
violations that satisfy the requirement for a second-tier
penalty and “resulted in substantial losses or created
significant risk of substantial losses to other persons or
resulted in substantial pecuniary gain.” For violations
occurring between February 15, 2005 and March 3, 2009,
the maximum penalty per act or omission for a natural
person is $130,000 for a third-tier penalty; for violations
occurring between March 4, 2009 and March 5, 2013, the
maximum penalty per act or omission for such a violation
is $150,000.169

167. Id.
168. Id.
169. See 17 C.F.R. §§ 201.1003, Table III (setting forth penalties
for conduct occurring after February 14, 2005); 201.1004, Table IV
(setting forth penalties for conduct occurring after March 3, 2009);
201.1005, Table V (setting forth penalties for conduct occurring after
March 5, 2013).

135a
Appendix C
The Division requests that, like the ALJ, we impose
a single $75,000 third-tier penalty on Malouf for his
misconduct. 170 Third-tier penalties are appropriate
because Malouf engaged in fraud, which resulted in
substantial losses of $265,263.60 to his advisory clients
and a substantial pecuniary gain to himself of $1,068,084.
The factors we discussed in support of our decision to
impose a bar on Malouf also weigh heavily in favor of
a penalty in the public interest. Although Malouf has
no disciplinary history, his misconduct was serious and
grossly breached his fiduciary duty to his advisory clients
by failing to disclose an obvious conflict of interest that
influenced his investment advice.
We also find that there is a need for a civil penalty
to deter Malouf and others from similar failures to
disclose significant conflicts of interest to advisory
clients. Congress recognized that penalties are especially
warranted “if the violation is of a type that is difficult
to detect.”171 Malouf’s advisory clients had no reason to
expect that he was receiving over $1 million from the
owner of the branch office of a broker-dealer to which
170. The ALJ based his penalty amount only on Malouf’s
failure to disclose to his clients Lamonde’s payments and not based
on Malouf’s best execution violations, treating the repeated failure
over three years as a single course of misconduct. The Division did
not appeal this aspect of the ALJ’s decision.
171. H.R. Rep. No. 101-616, at 21; see also S. Rep. No. 101-337,
at 15 (“The Committee believes it is appropriate to enable the SEC
to impose a higher penalty if the violation is of a type that is difficult
to detect.”).

136a
Appendix C
he directed their trades, making his fraud difficult to
detect.172 A civil penalty is important to deter Malouf
(notwithstanding the bar) and others from engaging in
such conduct in the future.
Neither party attempts to calculate a precise number
of violative acts or omissions committed by Malouf, but
UASNM filed with the Commission eight Forms ADV
during the applicable period, none of which disclosed
Malouf’s conflict of interest, and the firm’s website
consistently and incorrectly claimed, over three years, that
UASNM representatives received no compensation from
any broker to whom they directed clients’ trades and stated
that UASNM’s advice was conflict-free. Although a higher
penalty could be calculated on the basis of several discrete
violations, the Division seeks a single, third-tier penalty,
and although the violations were serious, the Division seeks
a penalty lower than the maximum amount available.
Malouf argues that no civil penalty is warranted
because he claims that he committed no violations. As
discussed above, we reject that claim. Malouf does not
specifically challenge the ALJ’s method of calculating the
penalty amount except regarding his claimed inability to
pay. Malouf claims that his liabilities exceed his assets
by approximately $634,000. Malouf argues that, in
assessing Malouf’s ability to pay, the ALJ “arbitrarily”
172. Although Malouf is barred from association with a
Commission-registered investment adviser, he continues to be
associated with a state-registered adviser, as discussed above, and
many of the applicable statutory provisions apply to all types of
advisers. See Advisers Act Section 206, 15 U.S.C. § 80b-6 (making
it “unlawful for any investment adviser” to engage in specified acts).

137a
Appendix C
assigned a value of $300,000 to Malouf’s current stateregistered investment advisory business, as opposed to
Malouf’s proposed $100,000 valuation. He asserts that,
if he is barred from the securities industry, the value of
the business would be limited to approximately $7,500
(the value of its tangible assets), since the business would
then be foreclosed from earning any revenues. Malouf
also claims that the assets he possesses are illiquid, and
that he has little income left after payment of monthly
expenses. He further disputes the ALJ’s finding that
he is “an individual of aptitude and shrewdness who will
undoubtedly find work in some other business profession,”
noting that the securities business is the only business in
which he has ever worked. Malouf also claims that any civil
penalty he is ordered to pay should be offset by his payment
of $506,083.74 to UASNM clients and the $100,000 civil
penalty that he paid on behalf of UASNM in a separate
settled Commission administrative proceeding.173
The Division counters that Malouf repeatedly cited
differing values for the state-registered investment
advisory business, ranging from $0 to $100,000, and the
Division argues, “Malouf’s contradictory assertions of
value should be given no weight.” The Division argues
that the ALJ adopted an acceptable method of valuing
investment advisory businesses (at twice their annual
trailing revenue) to come up with his valuation of $300,000.
While Malouf himself would not be able to continue to earn
revenues from the business if he is barred, the Division
observes that “he could simply sell the business as has
been done in the past, valued at twice its annual trailing
revenue.”
173. UASNM, 2014 WL 2568398, at *8.

138a
Appendix C
We note that we have the discretion to impose
penalties notwithstanding a respondent’s financial
circurnstances.174 We also find the Division’s arguments
concerning the value of the state-registered investment
advisory business to be more persuasive than Malouf’s.
While we believe the record supports some mitigation
of the penalty based on ability to pay and (as the ALJ
found) because of Malouf’s payment of UASNM’s $100,000
civil penalty and of $506,083.74 to UASNM clients in the
State Court Litigation,175 we do not believe that it would
be appropriate to impose no penalty here. We find that,
in light of Malouf’s fraudulent misconduct, which resulted
in substantial losses to his advisory clients and pecuniary
gain to him, a $75,000 civil penalty is warranted. In light
of the higher number of violative acts and omissions
established by the record, and the permissible penalty
range of up to $150,000 per act or omission, a single thirdtier penalty of $75,000 is conservative.176
174. See Gregory O. Trautman, Exchange Act Release No.
61167A, 2009 WL 6761741, at *24 (Dec. 15, 2009) (“Even when a
respondent demonstrates an inability to pay, we have discretion not to
waive the penalty, . . . particularly when the misconduct is sufficiently
egregious”) (quoting Philip A. Lehman, Exchange Act Release No.
54660, 2006 WL 3054584, at *4 (Oct. 27, 2006) and declining to reduce
penalty in light of egregiousness of respondent’s actions).
175. See supra note 9. We note that we offset Malouf ’s
disgorgement by the amount of his payment to UASNM clients as
part of the State Court Litigation.
176. The OIP in this proceeding was filed on June 9, 2014,
and as discussed above, Malouf’s fraudulent misconduct extended
into March 2011. We considered only the conduct that fell within
the five-year statute of limitations for the purposes of determining

139a
Appendix C
An appropriate order will issue.177
By the Commission (Chair WHITE and Commissioner
ST EIN; Com m i s sioner PI WOWA R , conc u r r i ng
separately).
Brent J. Fields
Secretary
/s/ Lynn M. Powalski
By: Lynn M. Powalski
Deputy Secretary

the civil penalty. See 28 U.S.C. § 2462 (setting five-year statute of
limitations); Gabelli v. SEC, 133 S. Ct. 1216, 1220-24 (holding that
statute of limitations under § 2462 begins to run when the violation
occurs, not when it is discovered).
The Division requested oral argument; Malouf did not. In
light of our determination of the case, we find that oral argument is
unnecessary to aid our decisional process, and we hereby deny the
Division’s request for oral argument.

177. We have considered all of the parties’ contentions. We have
rejected or sustained them to the extent that they are inconsistent
or in accord with the views expressed in this opinion.

140a
Appendix C
Commissioner PIWOWAR, concurring:
Commissioner Piwowar concurs with the opinion,
which concludes, among other things, that Dennis Malouf
violated Sections 17(a)(1) and 17(a)(3) of the Securities
Act and Section 10(b) of the Exchange Act and Exchange
Act Rules 10b-5(a) and (c), based on failures to correct
misstatements made to clients.
Several courts have found that misrepresentations
and omissions alone are not sufficient to give rise to
scheme liability.1 In this case, however, there is no need
to determine whether the holdings of those cases apply.
Although not specifically described in the majority opinion
as a basis for liability, Malouf engaged in activities beyond
his failure to correct the misstatements. In particular, he
admitted that he directed his clients’ trades to the branch
office he sold because then he got paid. In routing client
transactions to the branch office he also failed to seek best
execution, which resulted in clients’ payment of excessive
commissions. The excess commissions generated were
then used to pay Malouf.
Because Malouf acted deceptively, employed deceptive
devices and artifices to defraud, and engaged in deceptive
acts, practices, and a course of business that operated
as a fraud beyond his failure to correct misstatements,
1. See, e.g., WPP Luxembourg Gamma Three Sarl v. Spot
Runner, Inc., 655 F.3d 1039, 1057-58 (9th Cir. 2011) (collecting cases);
Public Pension Fund Grp. v. KV Pharm. Co., 679 F.3d 972, 987 (8th
Cir. 2012) (following WPP Luxembourg); Lentell v. Merrill Lynch
& Co., 396 F.3d 161, 177-78 (2d Cir. 2005) (applying similar rule).

141a
Appendix C
there is no need to address whether his failure to correct
those misstatements alone is sufficient to find violations
of Section 17(a)(1) and (a)(3) of the Securities Act and
Section 10(b) of the Exchange Act and Exchange Act
Rules 10b-5(a) and (c).

142a
Appendix C
UNITED STATES OF AMERICA
before the
SECURITIES AND EXCHANGE COMMISSION
SECURITIES ACT OF 1933
Release No. 10115 / July 27, 2016
SECURITIES EXCHANGE ACT OF 1934
Release No. 78429 / July 27, 2016
INVESTMENT ADVISERS ACT OF 1940
Release No. 4463 / July 27, 2016
INVESTMENT COMPANY ACT OF 1940
Release No. 32194 / July 27, 2016
Admin. Proc. File No. 3-15918
In the Matter of
DENNIS J. MALOUF
ORDER IMPOSING REMEDIAL SANCTIONS
On the basis of the Commission’s opinion issued this
day, it is
ORDERED that Dennis J. Malouf be barred from
association with any broker, dealer, investment adviser,
municipal securities dealer, municipal advisor, transfer
agent, or nationally recognized statistical rating
organization, and from serving or acting as an employee,
officer, director, member of an advisory board, investment

143a
Appendix C
adviser or depositor of, or principal underwriter for, a
registered investment company or affiliated person of such
investment adviser, depositor, or principal underwriter,
and it is further
ORDERED that Dennis J. Malouf be prohibited,
permanently, from serving or acting as an employee,
officer, director, member of an advisory board, investment
adviser or depositor of, or principal underwriter for, a
registered investment company or affiliated person of such
investment adviser, depositor, or principal underwriter,
and it is further
ORDERED that Malouf cease and desist from
committing or causing any violations or future violations
of Sections 17(a)(1) and 17(a)(3) of the Securities Act of
1933, Sections 10(b) Securities Exchange Act of 1934 and
Rules 10b-5(a) and (c) thereunder, and Sections 206(1),
206(2), 206(4), and 207 of the Investment Advisers Act of
1940 and Rule 206(4)-1(a)(5) thereunder; and it is further
ORDERED that Malouf disgorge $562,001.26, plus
prejudgment interest of $764,300.14, such prejudgment
interest calculated beginning from January 1, 2008, in
accordance with Commission Rule of Practice 600; and
it is further
ORDERED that Malouf pay a civil money penalty of
$75,000.
Payment of the amounts to be disgorged and the
civil money penalties shall be: (i) made by United States

144a
Appendix C
postal money order, certified check, bank cashier’s check,
or bank money order; (ii) made payable to the Securities
and Exchange Commission; (iii) mailed to Enterprises
Services Center, Accounts Receivable Branch, HQ Bldg.,
Room 181, 6500 South MacArthur Blvd., Oklahoma
City, OK 73169; and (iv) submitted under cover letter
that identifies the respondent and the file number of this
proceeding.
By the Commission.
Brent J. Fields
Secretary
/s/ Lynn M. Powalski
By: Lynn M. Powalski
Deputy Secretary

145a
AppendixDECISION
D
APPENDIX D — INITIAL
OF THE
UNITED STATES SECURITIES AND EXCHANGE
COMMISSION, DATED APRIL 7, 2015
UNITED STATES OF AMERICA
BEFORE THE SECURITIES
AND EXCHANGE COMMISSION
WASHINGTON, D.C. 20549
INITIAL DECISION RELEASE NO. 766
ADMINISTRATIVE PROCEEDING
FILE NO. 3-15918
INITIAL DECISION
IN THE MATTER OF
DENNIS J. MALOUF.
April 7, 2015
APPEARANCES: Stephen C. McKenna, Dugan Bliss,
and John H. Mulhern for the Division of Enforcement,
Securities and Exchange Commission Burton W. Wiand,
Robert K. Jamieson, and Peter B. King of Wiand, Guerra
King P.L. for Respondent Dennis J. Malouf
SUMMARY
This Initial Decision finds that Respondent Dennis J.
Malouf (Malouf) violated Sections 206(1) and 206(2), and
aided and abetted and caused violations of Sections 206(4)
and 207 and Rule 206(4)-1(a)(5), of the Investment Advisers
Act of 1940 (Advisers Act); violated Sections 17(a)(1) and

146a
Appendix D
17(a)(3) of the Securities Act of 1933 (Securities Act); and
violated Section 10(b) and Rules 10b-5(a) and 10b-5(c) of
the Securities Exchange Act of 1934 (Exchange Act). This
Initial Decision orders Malouf to cease and desist from
causing further violations of these securities laws, bars
Malouf from participating in the securities industry for
a period of seven-and-one-half years, and orders Malouf
to pay a civil money penalty of $75,000.
I.

INTRODUCTION

The Securities and Exchange Commission (Commission
or SEC) issued an Order Instituting Administrative and
Cease-and-Desist Proceedings (OIP) on June 9, 2014,
pursuant to Section 8A of the Securities Act, Sections
15(b), 15C(c), and 21C of the Exchange Act, Sections 203(f)
and 203(k) of the Advisers Act, and Section 9(b) of the
Investment Company Act of 1940 (Investment Company
Act). Malouf filed his Answer on July 21, 2014. A hearing
was held in Albuquerque, New Mexico, from November
17 through November 25, 2014. The admitted exhibits
are listed in the Record Index issued by the Secretary
of the Commission on March 20, 2015. The Division of
Enforcement (Division) and Malouf filed post-hearing briefs
and post-hearing reply briefs, proposed findings of fact
and conclusions of law and responses, and briefs regarding
Malouf’s inability to pay disgorgement or penalties.1
1. Citations to the hearing transcript are noted as “Tr. __.”
Citations to the Division’s exhibits and Malouf’s exhibits are noted
as “Div. Ex. ___” and Resp. Ex. ___,” respectively. I will use similar
designations in citations to the post-hearing filings. Citations to the
parties’ prehearing joint stipulations are noted as “JS No. ___.”
Citations to the parties’ post-hearing stipulated findings of fact are

147a
Appendix D
The OIP alleges the existence of a secret agreement
between Malouf and a branch manager of a broker-dealer
between 2008 and 2011, where Malouf directed UASNM,
Inc.’s (UASNM) investment advisory client trades to the
branch office of the broker-dealer, which he had previously
owned, and the branch manager forwarded to Malouf
substantially all of the resulting commissions. OIP at
2. According to the OIP, Malouf earned approximately
$1.1 million from the scheme and did not disclose this
arrangement to his clients. Id. Additionally, as a result
of this secret agreement, the OIP alleges that (1) Malouf
caused UASNM’s website to make false or misleading
statements, (2) Malouf failed to seek best execution on
client bond trades, and (3) Malouf acted as an unregistered
broker-dealer. Id.
Malouf denies these allegations, claiming that
this action was orchestrated by Joseph Kopczynski
(Kopczynski), UASNM’s former owner, Chairman, and
Chief Compliance Officer (CCO) and Malouf’s former
father-in-law, as a result of Malouf’s decision to divorce
Kopczynski’s daughter. Answer at 1-6. Malouf also asserts
a statute of limitations defense for any activity that forms
the basis of the Division’s allegations that occurred more
than five years before the issuance of the OIP. Id. at 16.
II. FINDINGS OF FACT
I base the following findings of fact and conclusions on
the entire record and the demeanor of the witnesses who
noted as “Stipulated FOF No. ___” and conclusions of law are noted
as “Stipulated COL No. ___.” See Dennis J. Malouf, Admin. Proc.
Rulings Release No. 2189, 2015 SEC LEXIS 73 (Jan. 8, 2015)

148a
Appendix D
testified at the hearing, applying preponderance of the
evidence as the standard of proof. See Steadman v. SEC,
450 U.S. 91, 100-04 (1981). All arguments and proposed
findings and conclusions that are inconsistent with this
decision are rejected. I find the following facts to be true.
A.

Relevant People and Entities
1.

Dennis J. Malouf

Malouf, age fifty-five, was the chief executive officer,
president, and majority owner of UASNM from September
2004 until May 13, 2011, when he was terminated.
Stipulated FOF Nos. 1, 14, 286; JS No. 6. During 2008 to
May 2011, Malouf was UASNM’s advisory representative.
Stipulated FOF No. 286; JS No. 6. When Malouf was CEO
of UASNM, he was “top dog” and Kopczynski and Hudson
worked for him. Stipulated FOF No. 197.
He is currently the sole ow ner and president
of NM Wealth Management, LLC, an investment
adviser registered with the State of New Mexico with
approximately $26 million in assets under management. 2
Stipulated FOF Nos. 1, 14, 194. Malouf was a registered
representative associated with Raymond James Financial
Services (RJFS) from February 1999 through December
2007 and the owner of RJFS Branch 4GE (Branch 4GE).
Stipulated FOF No. 14; Tr. 912, 914. From 2008 to May
2011, Malouf was not registered with the Commission
as a broker or dealer and he was not associated with a
broker or dealer. Stipulated FOF Nos. 46, 292; JS No. 12.
2. Since the parties stipulated to these facts, it became clear
that the amount of assets under management is less than $20 million.

149a
Appendix D
In thirty-one years in the financial industry Malouf has
never had a securities license suspended, has never had
any discipline taken against his securities license, has
never been fined for any securities related conduct, and
has never been sued by a customer. Tr. 1009-10.
2.

UASNM, Inc.

UASNM is a New Mexico corporation located
in Albuquerque, New Mexico, that registered as an
investment adviser with the Commission on September
4, 2004. Stipulated FOF Nos. 2, 15. UASNM, formerly
known as “Universal Advisory Services” (UAS), provides
discretionary advisory services primarily to individuals,
charitable organizations, and employee benefit plans.
Stipulated FOF Nos. 2, 15. UASNM’s most recent Form
ADV reported approximately $275 million in assets
under management. Stipulated FOF Nos. 2, 15. UASNM
is named as a respondent in a separate administrative
proceeding. Stipulated FOF No. 2; UASNM, Inc., Advisers
Act Release No. 3846, 2014 WL 2568398 (June 9, 2014).
Under a settlement in that proceeding, UASNM agreed
to pay $506,083.74 to customers for purportedly excessive
commissions and a $100,000 civil money penalty. Tr. 1274,
1371; UASNM, Inc., 2014 WL 2568398, at *6, 8. Pursuant
to a state court settlement between UASNM and Malouf,
UASNM used Malouf’s money to pay that $606,083.74.
Stipulated FOF No. 371.
a.

Joseph Kopczynski

Kopczynski, age sixty-five, is currently the chairman
of UASNM’s board of directors and its CCO. Stipulated

150a
Appendix D
FOF No. 16. He started the UASNM business and sold
the firm to Malouf, his then son-in-law, and Kirk Hudson
(Hudson), in September of 2004, but maintained a onepercent ownership interest. Id. Kopczynski was UASNM’s
CCO from 2004 to 2010, relinquished that position to
Malouf in January of 2011, and resumed the position in
June 2011, after Malouf was terminated. Id.; Stipulated
FOF No. 302. During the time that Kopczynski was CCO,
Malouf relied upon him to carry out all responsibilities
of the compliance program at UASNM. Tr. 1062. Prior
to 2011, Malouf relied on Kopczynski as CCO to ensure
the firm was complying with its best execution obligation.
Stipulated FOF 98. From 2008 to 2010 it was Kopczynski’s
responsibility as CCO to review the arrangements
between UASNM and third party providers such as
RJFS. Tr. 787-788; Div. Ex. 15 at 99. Kopczynski claims
he reviewed and approved the content posted on UASNM’s
website and other marketing materials and that it was his
responsibility to ensure the accuracy of the firm’s Forms
ADV. Tr. 1323, 1325, 1354; Stipulated FOF Nos. 57-58; see
Div. Ex. 15 at 53; Stipulated FOF Nos. 55-56.
b.

Kirk Hudson

Hudson, age fifty-two, held a minority ownership
interest in UASNM from August 2004 to 2011, and is
currently UASNM’s chief financial officer and chief
investment officer. Stipulated FOF No. 17. Hudson did
bond trading for a significant number of his clients at
UASNM, and was the secondary trader that would step
in if Malouf was unavailable. Tr. 731-32. Hudson placed a
significant number of bond trades for UASNM customers
through Branch 4GE prior to 2008. Tr. 772.

151a
Appendix D
c.

Other Relevant UASNM Personnel

Matthew Keller (Keller) is a minority shareholder of
UASNM. Stipulated FOF No. 90. During 2008 through
2011, Keller was an investment adviser with UASNM.
Stipulated FOF No. 296. Keller placed 50-60% of the bond
trades he directed through RJFS. Tr. 1165-66.
Paula Calhoun (Calhoun), UASNM’s bookkeeper, is
an employee at will. Stipulated FOF Nos. 91, 254, 299.
Beginning in late 2007 or early 2008, through 2011,
Calhoun performed bookkeeping services for Malouf
personally. Stipulated FOF Nos. 195, 254, 299. Calhoun
performed personal bookkeeping services for Malouf
because those were his instructions in his capacity as
UASNM’s President. Stipulated FOF No. 256. Calhoun
is a workplace friend of Aubrey Kopczynski, daughter of
Kopczynski and Malouf’s ex-wife. Stipulated FOF No. 92.
3.

Raymond James Financial Services, Inc.

RJFS is a Florida corporation formed in 1999.
Stipulated FOF No. 15. RJFS, through a predecessor, has
been registered with the Commission as a broker-dealer
since 1974, and is a member of FINRA. Id.
a.

Maurice Lamonde

Maurice Lamonde (Lamonde) was a registered
representative associated with RJFS from March 2000
until August 2011, and, from January 2008 through August
2011, he owned an Albuquerque office of RJFS, Branch

152a
Appendix D
4GE. Stipulated FOF No. 15. He died unexpectedly on
April 4, 2014, at age sixty-five. 3 Id.; Stipulated FOF No.
308.
b.

Kirk Bell

From 2007-2011, Kirk Bell (Bell) was Assistant
Regional Director at RJFS. Stipulated FOF No. 219. Bell
supervised the 4GE Branch owned by Lamonde from
2008-2011, with which Malouf was previously affiliated.
Stipulated FOF No. 220.
4.

Adviser Compliance Associates, LLC

UASNM engaged Adviser Compliance Associates,
LLC (ACA), a compliance consulting firm that provides
advice and guidance to registered investment advisers, at
various times beginning in 2002 through 2011. Stipulated
FOF Nos. 139, 303. ACA contracted with UASNM to
provide mock SEC compliance audits annually and used
that process to recommend potential updates or changes
to UASNM’s Form ADV. Stipulated FOF Nos. 35, 93, 304,
346. In 2010 ACA would have normally charged $50,000
per year for the type of service provided to UASNM, but
ACA only charged UASNM $15,000. Tr. 790. ACA does not
undertake a duty to root out fraud on behalf of its clients.
Stipulated FOF No. 155.
3. I admitted the prior sworn statement of Lamonde on
September 23, 2014, after briefing by the parties. Dennis J. Malouf,
Admin. Proc. Rulings Release No. 1831, 2014 SEC LEXIS 3533.
During the hearing, the Division and Respondent read relevant
sections of Lamonde’s investigative testimony into the record. Tr.
854-85, 1593-1616.

153a
Appendix D
Michael Ciambor (Ciambor) started at ACA in the
spring of 2003. Stipulated FOF No. 144. Ciambor was
a consultant at ACA from 2006 to 2009 and a principal
consultant from 2009 to 2012. Stipulated FOF No. 392.
Ciambor took over the lead role with respect to ACA’s
annual examinations of UASNM in or around 2006.
Stipulated FOF Nos. 144, 393. Ciambor worked primarily
with Hudson and Kopczynski on matters relating to
UASNM’s engagement of ACA. Stipulated FOF No.
274. Ciambor primarily interacted with them rather
than Malouf. Tr. 790. Malouf reasonably believed that
Kopczynski, Hudson, and Ciambor were all sufficiently
experienced and qualified for their positions and the
attendant duties. Tr. 1018, 1062-63, 1127.
Ciambor was not a former securities regulator,
although many of ACA’s founding employees were. Tr. 718,
757, 761. Ciambor did not undergo any formal training
for his position at ACA with respect to best execution or
identifying conflicts of interest or continuing commission
payments. Tr. 757-58; Stipulated FOF No. 143.
ACA conducted mock SEC inspections of UASNM
by using the current document request list utilized in
inspections by the SEC at that time as a baseline, and
then submitting supplemental document requests as
warranted. Stipulated FOF No. 382. ACA also prepared
UASNM’s compliance manual, which was intended to keep
UASNM in compliance with SEC regulations. Stipulated
FOF No. 350. ACA’s annual review of UASNM included
testing to ensure that UASNM’s practices were consistent
with the procedures set forth in its written compliance
manual. Tr. 780.

154a
Appendix D
B. Background
In 2004, Malouf purchased a majority interest in
UASNM, and Hudson purchased a minority interest in
UASNM, and registered the firm as an investment adviser
with the Commission. Stipulated FOF Nos. 3, 18, 114.
At that time, Malouf was also associated as a registered
representative and owned a branch of a broker-dealer,
RJFS. Stipulated FOF Nos. 3, 18. The RJFS branch
owned by Malouf subleased and occupied a portion of
UASNM’s office space. Stipulated FOF Nos. 3, 18.
In 2007, RJFS became concerned about potential
conflicts of interest and supervision risks, among other
issues, arising from Malouf’s work at UASNM, and asked
him to choose between associating with UASNM or RJFS.
Stipulated FOF Nos. 4, 19. Malouf decided to continue his
advisory work at UASNM and to terminate his association
as a registered representative and owner of a branch
office of RJFS. Stipulated FOF Nos. 4, 19. Prior to RJFS
approaching him, Malouf had not contemplated selling
his profitable RJFS branch. Stipulated FOF No. 163. He
considered Branch 4GE to be a substantial asset that he
wanted to protect. Stipulated FOF No. 387.
As a result, at the end of 2007, Malouf terminated his
registration with RJFS and he transferred his brokerdealer customers either to UASNM or to the new branch
manager, Lamonde. Stipulated FOF Nos. 5, 19. Lamonde
continued to operate Branch 4GE within UASNM’s office
space until June 2011. Stipulated FOF Nos. 5, 19.

155a
Appendix D
As a broker, Lamonde had the power and authority
to set the commission on trades placed through Branch
4GE, subject to a maximum commission rate designated
by RJFS. Tr. 669-70, 709-10, 1614; see Div. Ex. 127.
Malouf was considered the person with the most
experience with bonds within UASNM, based upon his
prior experience in trading bonds. Stipulated FOF No.
6. As a result, he handled most of the bond trading on
behalf of UASNM clients. Id. From 2008 to 2011, Malouf
selected Lamonde and RJFS to execute the majority of
bond transactions that he directed on behalf of UASNM
clients. Id. Between January 2008 and May 2011, UASNM
placed over 200 bond trades through RJFS, representing
approximately ninety percent of its bond trading in
this period. Id. During this period, Malouf, through
UASNM, effected transactions in securities, including
U.S. Treasuries, federal agency bonds, and municipal
bonds. Id. From 2008 to May 2011, Malouf was one of
several investment advisers at UASNM who provided
advice regarding investments on behalf of UASNM
customers, and transactions were carried out on behalf
of UASNM customers pursuant to the advice of Malouf
and other UASNM advisers. Stipulated FOF Nos. 37,
284; JS No. 4. In providing investment advice to UASNM
customers, Malouf and other UASNM advisers utilized
instruments of interstate commerce, such as telephones,
email, and regular mail. Stipulated FOF No. 285; JS No.
5. During 2008 to May 2011, Malouf solicited clients on
behalf of UASNM. Stipulated FOF Nos. 43-2, 287; JS
No. 7. Malouf was primarily the person at UASNM who
identified which bonds should be purchased for UASNM
customers. Stipulated FOF No. 288; JS No. 8.

156a
Appendix D
On May 13, 2011, Kopczynski and Hudson voted to
terminate Malouf as CEO of UASNM and locked him out
of the office. Stipulated FOF No. 309. On May 27, 2011,
Kopczynski, Hudson, and UASNM filed a lawsuit against
Malouf in the Second Judicial District Court, Bernalillo
County, New Mexico, seeking injunctive relief and a
declaratory judgment. Stipulated FOF No. 310. Malouf
was paid $1.1 million for his interest in UASNM as part
of a settlement agreement; $350,000 was paid directly
to Malouf and $850,000 was held back in an account.
Stipulated FOF No. 371. $506,000 of the $850,000 that was
held back was paid to UASNM customers, and another
$100,000 from that account was used to pay UASNM’s
civil penalty. Id.
C.

Malouf’s Sale of RJFS Branch 4GE to Lamonde
1.

Timing

On approximately January 1, 2008, Malouf sold the
RJFS broker-dealer branch that he founded in 1999 to his
then branch manager Lamonde. Stipulated FOF No. 293;
JS No. 13. Kopczynski, Hudson, and Keller knew Branch
4GE had been sold to Lamonde at the beginning of 2008.
Stipulated FOF No. 50.
Although the sale was supposedly effective on January
2, 2008, the first time that Lamonde or Malouf disclosed a
written agreement was almost two-and-a-half years later,
in response to requests by Bell to Lamonde. In May 2009,
RJFS intercepted an email between Lamonde and his
wife, referencing financial problems and the lack of the

157a
Appendix D
written agreement with Malouf. Stipulated FOF No. 223;
Tr. 639-40. As a result, Bell requested a copy of the written
buy/sell agreement between Malouf and Lamonde. Id.
Lamonde indicated that he and Malouf were still working
on it, and did not provide a signed copy. Div. Exs. 60, 94;
Stipulated FOF No. 27. Lamonde told Bell that Lamonde
and Malouf were working on a buy/sell agreement, but
that no sale had yet taken place; Lamonde did not tell Bell
that Lamonde was already making payments to Malouf.
Stipulated FOF No. 224.
During 2009, Bell requested a copy of the buy/sell
agreement on multiple occasions but the agreement
was not provided. Stipulated FOF No. 225. Lamonde
responded to email requests for the agreement as follows:
“I’M WORKING ON THE PURCHASE AGREEMENT”
(on May 15, 2009) and “I AM STILL WORKING ON THE
AGREEMENT AND WILL SEND IT AS SOON AS WE
FINISH IT” (on June 4, 2009). Id.; Stipulated FOF No.
27. Bell understood there was no sale or agreement at that
time. Stipulated FOF No. 225.
Bell ultimately received a copy of the purported
Purchase of Practice Agreement (PPA) on June 10, 2010.
Div. Ex. 97; Stipulated FOF No. 227. The front page of the
agreement was dated January 2, 2008, but the signature
page and notary were dated June 11, 2010. Div. Ex. 97;
Stipulated FOF No. 227. Bell was concerned about the
date discrepancy and thought it did not make sense and
was inappropriate. Stipulated FOF No. 227.
No witness other than Malouf or Lamonde claimed
to have seen a written PPA prior to June 10, 2010. Prior

158a
Appendix D
to that date, Hudson, Kopczynski, and Keller had not
seen a written PPA, and Hudson and Kopczynski had not
asked to see a written PPA, regarding Malouf’s sale of
his RJFS branch to Lamonde. Stipulated FOF Nos. 52,
62, 126. Although Malouf told Ciambor that he had sold
the branch during ACA’s 2008 on-site review, Ciambor
was not provided with the agreement in 2008. Tr. 736;
Stipulated FOF No. 149. However, at that time Ciambor
did not ask Malouf for a copy of the PPA and did not ask
what the terms of the sale of Branch 4GE were. Tr. 736,
774; Stipulated FOF No. 49.
Neither Hudson nor Kopczynski ever disclosed to
Ciambor that they knew Malouf was receiving payments
from Lamonde. Stipulated FOF No. 385. Ciambor
discovered that Malouf had been receiving payments from
Lamonde for the sale of his RJFS branch no later than
the June 2010 on site review. Stipulated FOF No. 150. In
2010, Ciambor’s understanding of the payments made by
Lamonde to Malouf is that they were payments for the sale
of Branch 4GE and not commission-based compensation.
Tr. 799. Don Miller (Miller), Malouf’s accountant, first
saw a copy of the written PPA in May of 2011. Stipulated
FOF No. 325.
Malouf has been unable to produce any copy of
Exhibit A to the PPA, which purportedly set forth the
clients Malouf was transferring to Lamonde. Tr. 921-22;
Stipulated FOF No. 128; see Div. Ex. 97. While Malouf
has been unable to locate a copy, clients were indisputably
transferred from Malouf to Lamonde via a list that was
in RJFS’s possession on or around December 31, 2007.

159a
Appendix D
Stipulated FOF No. 69. This list of customers was attached
to email communications between RJFS and Malouf on
January 2, 2008. Stipulated FOF No. 70. Steven McGinnis
(McGinnis) never asked Malouf or RJFS for a copy of
Exhibit A.4 Tr. 460-61. Bell testified that the account
transfer could have occurred without Lamonde or Malouf
providing a list of accounts; RJFS could have transferred
the accounts using the individual representative numbers
associate with Lamonde and Malouf. Tr. 635. Bell did not
testify that the transfer in fact occurred without Lamonde
or Malouf providing a list of accounts. In fact, the evidence
showed that a list was provided. See Div. Exs. 82, 83; Resp.
Exs. 514, 515 (indicating Malouf sent a list to RJFS); Tr.
681-82.
Lamonde changed his testimony about entering into a
written agreement with Malouf in late 2007 or early 2008
after being confronted with e-mails indicating that there
was no written agreement until 2010, and acknowledged
that he and Malouf did not create a written, signed
agreement until June of 2010. Resp. Ex. 308 at 70-71; Div.
Ex. 239 at 285-86.
2.

Terms

The PPA between Malouf and Lamonde stated that
Lamonde would pay Malouf continuing commissions
pursuant to IM-2420-2, the FINRA (formerly NASD) rule
4. McGinnis is a consultant to Capital Forensics, which was
hired by UASNM in its lawsuit against Malouf to evaluate the
evidence related to UASNM’s bond trading and opine as to what
would be UASNM’s compliance response. Stipulated FOF Nos. 40,
209-10, 355.

160a
Appendix D
on “Continuing Commissions Policy” (NASD 2420-2). Div.
Ex. 97 at RJFS-SEC-UASNM-000163; see Div. Ex. 234.
Malouf learned about or was directed to NASD 2420-2
by RJFS. Tr. 1043. Malouf read information regarding
NASD 2420-2 on the RJFS intranet, and he reviewed the
plain language of the rule on FINRA’s website. Tr. 1041.
The process for the sale of an RJFS branch typically
involves RJFS providing the registered representatives
with a sample agreement, getting a list of client accounts
that would be part of the buy-sell agreement, and then
moving the accounts according to that list. Tr. 633.
Malouf testified that he and Lamonde agreed that the
price for the branch would be two times trailing revenue
of approximately $500,000 to $550,000, or approximately
$1.1 million. Tr. 924-25. This is same formula that Malouf
had employed for his purchase of UASNM. Tr. 924, 1056.
Lamonde made installment payments for his purchase of
Branch 4GE. See Stipulated FOF Nos. 293, 294.
The sale agreement between Malouf and Lamonde
required Lamonde to make periodic payments to Malouf
for the purchase of the branch. Tr. 924. Malouf testified
that payment for the branch was to be 40% of branch
revenue over a four-year production period. Stipulated
FOF No. 166. The PPA stated that the production period
was to be five years, from January 2, 2008, to December
31, 2012. Stipulated FOF No. 167. Malouf is not sure
why if everything is based on four years, the contract
contemplates five. Stipulated FOF No. 168.

161a
Appendix D
3.

Payments

From 2008-2011, Malouf did the majority of his
bond trades on behalf of UASNM clients through RJFS.
Stipulated FOF No. 173. RJFS’s trade blotter (Div. Ex.
29) shows that from January 2008 to May 2011 UASNM
traded $140,819,708.15 in bonds through RJFS. Stipulated
FOF No. 23. A summary of UASNM’s bond trades
prepared by Hudson shows that between January 2008
and May 2011, UASNM traded only $16,789,390.30 in
bonds through other brokers. Div. Exs. 30, 207; Tr.101-03. 5
Thus, 89% of UASNM’s bond trades were made through
RJFS during the relevant period. Div. Ex. 207; Tr. 108,
357.
Malouf testified that when he used RJFS’s bond desk
to purchase bonds Lamonde was paid a commission and
then had money to pay Malouf under their agreement.
Stipulated FOF No. 175. Malouf used RJFS to trade
bonds, among other reasons, because he was paid for those
bond transactions, and he was not ashamed of receiving
the approximately $1.1 million of payments for the sale
of his branch because he thought he had done a good job.
Tr. 941-42; Stipulated FOF Nos. 176, 177; Div. Ex. 231 at
259-60. Malouf said that if he could get the same bond at
the same price from either RJFS or another broker, he
was not obligated to direct a trade to the other broker
simply because he might benefit in some way if the trade
went through RJFS. Div. Ex. 231 at 259-60.
5. Division Exhibit 207 is a chart prepared by summary witness
John Schmalzer (Schmalzer), a financial analyst who works for the
Commission on a contract basis and who testified for the Division.
Tr. 345-46, 355-56.

162a
Appendix D
From 2008 into 2011, Lamonde made a series of
ongoing payments to Malouf for the RJFS branch.
Stipulated FOF No. 294; JS No. 14. During that time
period, Lamonde earned $1,074,454 in commissions from
RJFS on UASNM bond trades and paid $1,068,084 to
Malouf. Stipulated FOF Nos. 7, 20.
Beginning with his purchase of Branch 4GE in
January 2008, Lamonde did not make payments to Malouf
on a monthly basis as provided for in the PPA. Div. Ex.
97 at RJFS-SEC-UASNM-000162; see Stipulated FOF
Nos. 258, 323; Div. Ex. 201.6 The payments were not made
on a set schedule and oftentimes more than one payment
would be made each month. Div. Ex. 201. According to
Malouf, Lamonde was simply prepaying what he owed for
the branch. Stipulated FOF No. 28.
Lamonde admitted in investigative testimony that he
and Malouf did not follow the terms of the PPA and that
he paid Malouf more than the terms of the PPA required.
Div. Ex. 239 at 178-79. Lamonde also testified that Malouf
repeatedly demanded immediate cash payments for the
entire commission that had been earned from particular
UASNM bond trades (which was contrary to the terms
of the PPA that provided for monthly payments). Id. at
274-75; Stipulated FOF No. 21. Malouf sometimes asked
Lamonde, “where is my check” in the presence of at least
Hudson or Calhoun. Stipulated FOF Nos. 21, 60. Lamonde
espoused the opinion that that Malouf acted as if the
6. Division Exhibit 201 is a chart prepared by Schmalzer.
Tr. 347.

163a
Appendix D
commissions Lamonde made on bond trades referred by
Malouf were Malouf’s money, though Lamonde did not
testify that Malouf told him that he felt that way. Div.
Ex. 239. at 195.
Lamonde sought at least twelve cash advances from
RJFS in pertinent part to pay Malouf. Stipulated FOF
No. 214; Div. Exs. 101, 102. Two of these cash advances
indicate “FBO” Peter Lehrman, indicating that they were
to pay Peter Lehrman and not Malouf. Div. Ex. 101.
For Lamonde to pre-pay what he owed Malouf for the
branch, he borrowed against a life insurance policy, took
money from his father-in-law’s bank account, and took on
new credit card debt without telling his wife. Div. Ex. 89;
Div. Ex. 239 at 127-28; see Stipulated FOF No. 223.
Often, Lamonde’s payments to Malouf appeared to
be related to commissions earned on the UASNM bond
trades Malouf made through Branch 4GE. Tr. 142; Div. Ex.
203; see Stipulated FOF No. 196.7 According to Lamonde,
under the agreement, Lamonde passed along almost all
of the commissions he made from RJFS bond trading on
behalf of UASNM clients back to Malouf. Div. Ex. 239 at
205. Lamonde’s payments to Malouf totaled $1,068,084.13,
which equaled 99.4% of Lamonde’s commissions. Div. Ex.
203; see Stipulated FOF No. 71. On a quarterly basis in
2008 and 2009, the amounts of the payments by Lamonde
to Malouf at times exceeded the amount of commissions
7. Division Exhibit 203 is a chart prepared by Schmalzer.
Tr. 351-53.

164a
Appendix D
received by Lamonde, and on a quarterly basis in 2010,
the amount of payments by Lamonde to Malouf are at
times less than the amount of commissions received by
Lamonde. Stipulated FOF Nos. 72, 72-2. Jerry DeNigris
(DeNigris), an expert witness for Malouf, calculated that
Lamonde paid Malouf 57.35% of the net branch revenues
and 44.59% of the gross commission earned by the branch.
Resp. Ex. 583 at Exhibit 4.
Lamonde gave inexplicably contradictory testimony
regarding whether payments to Malouf were based, on the
one hand, on bond-trade commissions from the accounts
that Malouf sold to Lamonde (44Y5), or, on the other hand,
that the payments were based on gross commissions for
the whole branch, not just accounts transferred to 44Y5.
Div. Ex. 239 at 184; Stipulated FOF No. 221; Tr. 1595-96.
Lamonde referred to the payments he made to Malouf
as “commissions” on his 2008, 2009, and 2010 tax returns.
Stipulated FOF No. 44; Div. Exs. 76, 77, 78. Lamonde
provided Malouf with IRS Forms 1099 for the payments.
Stipulated FOF No. 44. At Malouf’s instruction, from 2008
through the first quarter of 2011, Calhoun performed
bookkeeping services for Lamonde’s Ltd. Stipulated
FOF Nos. 259, 301. Calhoun prepared Forms 1099 for
Lamonde’s Ltd., including a 1099 to Malouf for 2010 that
listed amounts he was paid as nonemployee compensation,
but not as proceeds from the sale of a business. 8 Stipulated
8. I do not find credible Calhoun’s hearing testimony that
Lamonde told her that the checks from Lamonde to Malouf were
commissions from RJFS. Tr. 1243-45. During her investigative
testimony, Calhoun testified that when she started working at

165a
Appendix D
FOF No. 260. Miller, an experienced CPA, testified that
Lamonde did not report the payments correctly and issued
the 1099s in error. Tr. 1577-78.
Kopczynski believed the sale of Branch 4GE could
have involved payments over time from Lamonde to
Malouf, similar to the terms of his sale of UAS to Malouf
and Hudson in 2004. Tr. 1331-1332; Stipulated FOF No.
51. Additionally, the payments to Lamonde were broadcast
openly throughout the office on those occasions when
Malouf would ask Lamonde about the status of payments,
resulting in at least one or two open arguments about
the payments. Div. Ex. 229 at 104-05. The fact that
Lamonde was making payments to Malouf, according to
Hudson, “wasn’t a hidden thing,” and Hudson assumed
the payments were for the purchase of Branch 4GE. Id.
at 106-07; Stipulated FOF Nos. 34, 347. Hudson did not
object to Malouf receiving money from RJFS because
it meant him borrowing less from UASNM. Id. at 106.
Hudson did not ask about or investigate the agreement
UASNM in 2004 – Malouf still owned Branch 4GE at that time and
was registered with RJFS – Malouf received commission checks.
Div. Ex. 227 at 19-20. At the hearing she testified there was no
reason for her to think any different later on when Malouf had sold
Branch 4GE. Tr. 1256. She did not testify that Lamonde told her
they were commissions during her investigative testimony, but that
she would ask about the memo that Lamonde would allegedly put
on the checks – “commission.” Div. Ex. 227 at 20. When confronted
with the checks at the hearing, Calhoun admitted that contrary to
her statement about the memo line, none of them actually contained
the memo “commission.” Tr. 1257-58; see Stipulated FOF No. 61. She
never testified during the investigation that Lamonde told her they
were commissions.

166a
Appendix D
between Malouf and Lamonde because he did not think
it was part of his role or any of his business. Tr. 140-41.
According to UASNM’s independent compliance
consultant, Ciambor, Malouf told him that with the sale
of his RJFS branch to Lamonde, his relationship with
RJFS was effectively severed, though Ciambor could not
recall whether Malouf actually used the phrase “severed
ties” in discussing the matter with him. Tr. 736-37, 77376. Prior to June 2010, Malouf did not tell Ciambor that
he was receiving ongoing payments from Lamonde from
the RJFS branch. Tr. 737; Stipulated FOF No. 36. When
asked if Malouf told him when he interviewed Malouf in
June of 2009 that he had received in the last year and a
half over forty payments from Lamonde totaling over half
a million dollars based upon trades that had been run
through Malouf’s former RJFS branch, Ciambor testified
“absolutely not,” but if that were the case Malouf should
have told Ciambor about it. Stipulated FOF No. 156.
Ciambor testified that based upon what he knows now,
he thinks Malouf lied to him. Tr. 852.
D.

UASNM Forms ADV

Malouf, Kopczynski, Hudson, and outside compliance
consultant ACA each were involved to varying degrees in
preparing or reviewing UASNM’s Forms ADV from 2008
through May 2011. Stipulated FOF No. 32. ACA reviewed
Parts I and II of UASNM’s Forms ADV annually and
made recommendations to UASNM regarding updates it
thought were necessary. Stipulated FOF No. 384. Ciambor
primarily worked with Kopczynski and Hudson to update

167a
Appendix D
UASNM’s Forms ADV. Tr. 751. Ciambor personally
reviewed Part II of UASNM’s Forms ADV on at least an
annual basis. Tr. 820.
Hudson signed or authorized ACA to sign his name to
every Form ADV filed by UASNM. Tr. 291-92; Stipulated
FOF No. 54. By doing so, he and the investment adviser
both certified, under penalty of perjury under the laws of
the United States of America, that the information and
statements made therein, including exhibits and any other
information submitted, were true and correct. Tr. 291-92.
Malouf performed at least a cursory review of some
Forms ADV focusing on disclosures relating to himself and
RJFS. Stipulated FOF No. 33. Malouf had a responsibility
to make full and accurate disclosure in the Forms ADV
regarding his ongoing relationship with RJFS. Tr. 995.
Malouf, as CEO, president, and majority shareholder
of UASNM, had final and ultimate responsibility for
UASNM’s Forms ADV between 2006 and the end of 2010.
Tr. 993-95.
At least some of UASNM’s ADVs between 2008 and
2011 did not disclose that Malouf sold his RJFS branch
to Lamonde and was receiving ongoing payments from
Lamonde in connection with that sale. Stipulated FOF
No. 8.9,10
9. The Division does not dispute that the conflict with Branch
4GE was disclosed from 2004 through August 2008, and again in
March 2011 in UASNM’s Forms ADV.
10. At times between 2008 and May 2011, UASNM’s Forms
ADV and website stated that Malouf had a Bachelor of Science

168a
Appendix D
Items 8 and 9 of UASNM’s Forms ADV Part II, dated
February 4, 2008, August 20, 2008, and December 1,
2008, disclosed that employees of UASNM were or may
be registered representatives of RJFS and could receive
commissions. Stipulated FOF No. 29.
Items 8 and 9 of UASNM’s Forms ADV Part II, dated
October 1, 2009, January 1, 2010, and April 12, 2010,
removed the prior disclosure regarding the UASNM
employees’ status as registered representatives of RJFS
but were otherwise the same as the prior versions.
Stipulated FOF No. 30.
Item 12 of UASNM’s Form ADV Part II, dated April
12, 2010, affirmatively represented that “employees of
UASNM are not registered representatives of Schwab,
[RJFS] or Fidelity, and do not receive any commissions
or fees from recommending these services.” Stipulated
FOF No. 10.
Item 12 of UASNM’s Form ADV Part II, dated April
12, 2010, disclosed that the broker recommended by
UASNM was not “based upon any arrangement between
the recommended broker and UASNM,” and, instead, was
in Finance degree from the University of Northern Colorado at
Greeley. Stipulated FOF No. 335. Malouf did not receive a Bachelor
of Science in Finance degree from the University of Northern
Colorado. Stipulated FOF No. 336. Malouf was not initially aware
that the disclosure was incorrect. He became aware that he had
not successfully received his degree and immediately took steps
to ensure that the disclosure on the Form ADV was corrected.
Stipulated FOF No. 83

169a
Appendix D
dependent upon a number of factors including
the following: Trade execution, custodial
services, trust services, recordkeeping and
research, and/or ability to access a wide variety
of securities. UASNM reviews, on a periodic and
systematic basis, its third-party relationships
to ensure it is fulfilling its fiduciary duty to seek
best execution on client transactions.
Stipulated FOF No. 9.
Items 10 and 12 of UASNM’s Form ADV Part 2A,
dated March 2011, disclosed that Malouf had sold his
interest in an RJFS branch in exchange for a series of
payments, and that an incentive may exist for UASNM
to utilize RJFS to generate revenue that may be utilized
to make payments to Malouf. Stipulated Finding of Fact
Nos. 11, 31.
All or most of UASNM’s Forms ADV created between
October 1, 2009, and April 12, 2010, portions of which
are reflected in Exhibit 193, were provided to UASNM
clients.11 Tr. 1377-78, 906. Malouf’s conflict of interest
related to Lamonde’s payments to Malouf from UASNM
bond trades placed through RJFS was not specifically
disclosed to the testifying UASNM investors. Stipulated
FOF Nos. 328, 330. The testifying UASNM investors
would have wanted to know that Malouf would receive
11. Division Exhibit 193 is a demonstrative exhibit containing
a summary of UASNM’s Forms ADV Part II Items 8.C and 9.B.E
disclosures dated July 17, 2006-April 12, 2010. Tr. 187; Div. Ex. 193.

170a
Appendix D
payments related to bond trades placed through RJFS.
Stipulated FOF Nos. 329, 331.
Malouf testified that “without a doubt,” disclosure
regarding the ongoing payments he was receiving from
Lamonde should have been in all the relevant ADV
disclosures. Stipulated FOF No. 193; Tr. 1001. Hudson
viewed Malouf’s arrangement with Lamonde as a potential
conf lict of interest. Stipulated FOF No. 127. When
Ciambor learned in June of 2010 that Malouf had been
receiving payments from Lamonde as a result of UASNM
bond trades through the RJFS branch he believed that
was a clear conflict of interest. Stipulated FOF No. 151.
Ciambor believes that disclosure of the financial incentive
for UASNM to route trades through RJFS, which was
ultimately made in March 2011, should have been disclosed
in all Forms ADV ever since Malouf’s arrangement with
Lamonde in 2008. Stipulated FOF No. 154. Malouf agrees
that the ongoing payment arrangement with Lamonde
created a clear conflict of interest ever since he entered
into the arrangement with Lamonde in early 2008.
Stipulated FOF No. 178. McGinnis testified that in his
forty-four years in the securities industry, he has “never
seen a million dollars conflict of interest like this before.”
Tr. 421-22; Stipulated FOF No. 213.
E. UASNM Website
According to Hudson, as CEO and head of UASNM’s
marketing efforts, Malouf had some responsibility for
ensuring that the information on UASNM’s website was
accurate. Tr. 156-57. Malouf was the lead salesman for

171a
Appendix D
UASNM, and he was familiar with at least some of the
contents of its website. Stipulated FOF No. 13. Malouf
assisted in creating the website content. Tr. 157, 1137-38.
Malouf’s understanding was that what is on the UASNM
website for the public to consume is what is important.
Stipulated FOF No. 190. While Malouf testified that he
may not have read every word of UASNM’s website, he
was familiar with its contents in the 2008, 2009, and 2010
time frame. Stipulated FOF No. 189. Malouf previously
testified that he “probably read” statements on UASNM’s
website in 2008 about UASNM being independent and not
charging commissions. Stipulated FOF No. 191.
The primary compliance responsibility for the website
was assigned to Kopczynski as CCO by UASNM’s
compliance manual; he acknowledged he was responsible
for representations on the website and he actually
reviewed the website. Resp. Ex. 346 at 72; Tr. 1354-57.
Malouf delegated all compliance functions to Kopczynski
as CCO, including the website content, consistent with
UASNM’s written compliance procedures, and reasonably
relied on Kopczynski to ensure the information was
compliant; Kopczynski described his duties as follows:
“My responsibility as chief compliance officer was to take
procedures and protocols that were established in an effort
to keep UASNM in compliance with the Commission’s
regulations, and effectively work with the consultant to
make sure anything that was required along those lines
would be taken care of.” Tr. at 1287.
At times, between 2008 and 2011, UASNM’s website,
memorialized in Division Exhibits 66, 68, and 69, made
the following statements:

172a
Appendix D
We do not accept commissions and we vigorously
maintain our independence to ensure absolute
objectivity drives our decisions in managing
our clients’ portfolios.
***
Un c o mp r o m i s e d O bj e c t i v i t y T h r o u g h
Independence
UAS[NM] is not owned by any “product”
company nor compensated by any commissions.
This allows us to provide investment advice void
of conflicts of interest. UAS[NM] may place
trades through multiple sources, ensuring that
the best cost/service/execution mix is met for
its clients.
Div. Exs. 66, 68-69; Stipulated FOF Nos. 12, 131. These
statements were very common statements UASNM would
use in marketing. Stipulated FOF No. 131.
ACA advised UASNM in its September 2007 and
December 2009 annual reports that the language in its
marketing materials “void of conflicts of interest” was
potentially misleading, and recommended removing
it. Stipulated FOF Nos. 85, 86. The “void of conflicts
of interest” language continued to appear on the
UASNM website and in marketing materials in 20082010. Stipulated FOF No. 87. Kopczynski claims to
have reviewed the UASNM website and believed it to
be accurate in 2008. Tr. 1356-57. Neither Hudson nor

173a
Appendix D
Kopczysnki took any action to remove language from
the UASNM website regarding UASNM being “void of
conflicts of interest” until 2012, despite being specifically
advised by ACA in its 2007 and 2009 annual reports that
such language was problematic. Tr. 1363, 1369.
Similar to the website, UASNM’s other marketing
materials informed clients that brokers would be
recommended “based on the broker’s cost, skill, reputation,
dependability, and compatibility with Clients, and not upon
any arrangement between the recommended broker and
[UASNM].” Div. Ex. 24 at MaloufSEC000559. Kopczynski
admitted it was also his obligation to review UASNM’s
marketing materials before they were disseminated. Tr.
1289, 1356.
F.

Best Execution

From 2008 to 2011, RJFS had written policies and
procedures pertaining to best execution duties of a
broker-dealer, rather than of an investment adviser. Tr.
710-11; Stipulated FOF No. 267. RJFS maintained a
policy requiring the price on all bond trades to be fair
and reasonable. Tr. 669; Div. Ex. 127 at RJFS-SECUASNM-004167. If a bond trade is placed through RJFS
with a commission or markup that exceeds the RJFS
commission/markup grid, then that trade will be rejected
by RJFS. Tr. 710; see Stipulated FOF Nos. 232, 265. Part
of the reason RJFS reviews the markups/commissions
charged on bond trades is to ensure that its customers
are getting best execution. Tr. 710; Div. Ex. 126. From
2008-2011, Malouf was not governed by RJFS’s markup/

174a
Appendix D
markdown policy. Stipulated FOF No. 252. Malouf
admitted that there is a different best execution duty for
a broker-dealer than there is for an investment adviser.
Tr. 1147-48.
An investment adviser may not rely solely on a
broker’s trading platform, such as BondDesk, to fulfill
his fiduciary duty of best execution. Tr. 1147; Div. Ex. 243
at 28-29. However, BondDesk is a tool that can assist in
achieving best execution, and the Division’s expert agreed
it was a good place to find bond bids/asks. See Stipulated
FOF No. 263. BondDesk allows users to see what the best
asks and best bids are from approximately 160 brokerdealers at any given time for particular bonds. Tr. 541;
Stipulated FOF No. 374.
To seek best execution, an investment adviser
generally must obtain competing bid or ask prices from
more than one broker-dealer. Div. Ex. 20; Div. Ex. 243 at
21; Tr. 935; see Stipulated FOF Nos. 133, 145. Obtaining
multiple bids is not an absolute requirement and the
Division’s expert acknowledged that whether multiple
bids were necessary depends upon the circumstances. See
Stipulated FOF No. 381; Tr. 548-49, 552. Best execution
is based upon a number of qualitative and quantitative
factors that may not require multiple bids. Stipulated
FOF No. 381; Tr. 548-49, 552.
Malouf told others that he sought multiple bids for
his bond trades. Tr. 169, 726-27, 1203. However, Malouf
generally did not shop around for bids from competing
brokers when executing bond trades on behalf of UASNM

175a
Appendix D
clients. Div. Ex. 243 at 4; Stipulated FOF No. 174. Malouf’s
own expert witness acknowledges that Malouf’s practice
was not to obtain competitive quotes every time he placed
bond trades through RJFS. Resp. Ex. 579 at 8; Tr. 146263.
The evidence shows that in at least some cases,
shopping bond trades among brokers resulted in a broker
offering a better price than RJFS. Div. Ex. 218; Stipulated
FOF No. 204. By shopping bond trades with other brokers,
Keller was at times able to get RJFS to come down to meet
a lower price. Resp. Ex. 341. Malouf was one of the people
who told Keller about the practice of obtaining multiple
bids from broker-dealers when purchasing bonds. Tr. 1201.
Even Malouf acknowledged that he should have gotten
multiple bids and that had he shopped around among
brokers for lower bids on bond sales it is possible that he
could have gotten a lower bid for his clients. Stipulated
FOF Nos. 174, 334.
McGinnis advised that UASNM had a best execution
problem because there were excessive markups, and
possibly an unregistered broker-dealer issue, and said
that UASNM needed to self-report the issue, quickly.
Stipulated FOF No. 137. McGinnis never independently
verified whether any of the conduct at issue was actually
attributable to Malouf, instead relying on what Hudson
and Kopczynski told him. Tr. 446-47; see Stipulated FOF
No. 111.
A commission of over one percent on a U.S. Treasury
or agency bond trade of $1,000,000 or more is excessive.

176a
Appendix D
In the 2008-2011 time period, Malouf understood that
Lamonde would charge at most a one percent commission
on a bond trade, or less if RJFS’s institutional grid
suggested it. Stipulated FOF No. 184. Malouf and
Lamonde also both testified that they would never charge
more than a hundred basis points on a bond trade, yet
some bond trades run through RJFS were subject to
commissions in excess of one percent. Stipulated FOF
No. 43.
For a U.S. Treasury bond trade of over $1 million,
an appropriate commission would start at one-half of
one percent and go down from there. Malouf did not
dispute his prior testimony that for a $1 million U.S.
Treasury bond an appropriate commission would be 1%,
would drop to 0.5% above that then go down from there.
Stipulated Finding of Fact No. 186. The evidence shows
many UASNM bond trades of $1 million or more where
the commissions charged were in excess of the 0.5% that
Malouf testified was reasonable for trades of that size. A
commission of approximately 1% was paid to the RJFS
branch on the $3 million federal agency loan reflected
in Respondent Exhibit 339. Stipulated FOF No. 321. As
another example, a $5,500 commission was paid on the
$522,825 bond trade (1.052%) reflected in Exhibit 553 and
another trade was for $1,537,829 and involved a $15,212.90
commission (0.99%). Stipulated FOF No. 322; Resp. Ex.
582, Tab 1 at 1-2.
A September 17, 2010, email exchange between Bell
and Eva Skibicki (Skibicki), a manager in Trading and
Retail Sales at RJFS, reflects that a 1% commission on a

177a
Appendix D
$3.8 million bond trade was reduced to fifty basis points
based on a discussion between Bell and Skibicki. Div. Ex.
65; Tr. 147-48. Hudson became concerned about Malouf’s
receipt of payments from Lamonde in the fall of 2010 when
he learned that Malouf had questioned RJFS’s decision to
write down the commission charged on a particular bond
trade. Tr. 147-48. Hudson thought it was odd that Malouf
would be concerned about a commission write down
because that money was going to Lamonde. Tr. 148-49.
The payments from Lamonde and Malouf’s incentive
to execute bond trades through RJFS created a best
execution issue in Ciambor’s mind. Stipulated FOF
No. 153. However, Kopczynski convinced Ciambor to
remove the “high” risk level rating that ACA assigned
to UASNM’s best execution practices in its 2011 annual
review a week before the Commission conducted its
examination of UASNM. Stipulated FOF 386.
The Commission conducted examinations of UASNM
in 2002 and 2006. See Resp. Exs. 391, 558. Neither
examination resulted in UASNM being advised that
any issues existed with respect to whether UASNM was
satisfying its best execution obligations. Tr. 1125-26;
Resp. Exs. 391, 558. UASNM’s bond trading practices and
procedures were generally unchanged from 2000 through
May 2011. Tr. 1126. ACA never advised Malouf at any time
from 2002 to 2010 that there was any issue with respect
to UASNM’s best execution. Tr. 1128.
The scope of ACA’s engagement included best
execution. Stipulated FOF No. 96. Each year ACA

178a
Appendix D
performed a periodic and systematic evaluation of the
execution quality of UASNM’s client trades with respect
to equities and fixed income. Tr. 725-26. The written semiannual reviews of best execution that ACA provided to
UASNM did not state that they were limited to equities.
Tr. 793. Kopczynski sent UASNM trade blotters to ACA
quarterly. Tr. 1291. ACA reviewed UASNM’s trade
confirms during ACA’s annual reviews. Tr. 1303. However,
the confirmations that UASNM received for bond trades
did not reflect the specific amount of any markups. Tr.
1308.
Ciambor was advised that UASNM would seek
bids from multiple brokers to achieve best execution on
bond trades, and he was provided documentation which
evidenced that process. Tr. 728. Based upon interviews
with various UASNM personnel and his review of
documents, Ciambor’s understanding was that a multi-bid
process for bond transactions was used fairly consistently
for the majority of trades, but that only a sample of
the documentation evidencing that process was being
maintained. Tr. 729, 763; Stipulated FOF No. 145. Ciambor
told Kopczynski that Malouf had shown him evidence of
bids regarding bond transactions. Tr. 837. Ciambor saw
evidence during ACA’s annual mock audits that UASNM
was seeking best execution on fixed income investments.
Tr. 726.
Prior to June 2010, ACA advised UASNM and
Malouf each year that UASNM was complying with its
best execution obligation and never advised UASNM of
any deficiencies in best execution. Stipulated FOF No.

179a
Appendix D
100. Hudson believed ACA was conducting a periodic
and systematic review of UASNM’s best execution, that
ACA had the resources available to conduct a proper
best execution review, and that they were looking at
commission levels in connection with their best execution
review. Stipulated FOF No. 359. When ACA did not advise
UASNM of any issues with respect to its best execution,
Hudson believed that the firm, in fact, did not have any
issues. Id. Hudson relied upon ACA to conduct UASNM’s
periodic and systematic review of best execution.
Stipulated FOF No. 360. Likewise, Kopczynski relied
on ACA to assist UASNM with complying with its best
execution obligation. Stipulated FOF No. 97. Prior to 2011,
Malouf relied on ACA to assist Kopczynski to ensure the
firm was complying with its best execution obligation and
prior to May 2011, Kopczynski never advised Malouf of
any deficiencies in best execution. Stipulated FOF Nos. 99,
101; Tr. 947. Kopczynski was responsible for supervising
Malouf’s bond trading. Tr. 1311. However, supervision
of Malouf’s bond trading was limited to analysis and/
or review performed by ACA. Stipulated FOF No. 342.
ACA never advised UASNM or Malouf that it was not
examining UASNM’s fixed income trades for excessive
markups or commissions. Stipulated FOF No. 383.
G. Expert Witness Testimony
The parties agreed that experts’ reports would be
incorporated, by reference, into their direct testimony
for the sake of efficiency. See Dennis J. Malouf, Admin.
Proc. Ruling Release No. 1971, 2014 SEC LEXIS 4123
(Nov. 3, 2014); Tr. 470-71.

180a
Appendix D
1.

Dr. Gary Gibbons

Dr. Gary Gibbons (Dr. Gibbons), the Division’s expert,
is a visiting professor of entrepreneurship at Thunderbird
School of Global Management, focusing on securities
investing and corporate finance.12 Div. Ex. 243 at 1. He is
also a Principal with The Coleridge Group, an investment
advisory firm. Id. From 2007-2011, Dr. Gibbons was an
active investment adviser and traded an average of $45
million of bonds per year on behalf of his clients. Id. at 2.
At the request of the Division, Dr. Gibbons offered
opinions on the duties of investment advisers with respect
to clients, bond trading, best execution, and whether
Malouf fulfilled his duties to clients. Div. Exs. 243-44.
Dr. Gibbons concluded that investment advisers have
a number of obligations with respect to their position as a
fiduciary, including: not making any misrepresentations
to clients; not engaging in any scheme that perpetrates
a fraud; avoiding all avoidable conflicts of interest;
disclosing all actual and potential conflicts of interest;
providing independent advice free of pecuniary motives
not related to the payment of the fee charged to the
client; being knowledgeable and mindful of the law; being
knowledgeable of industry practices and competent in
applying industry practice to the construction of client
12. Dr. Gibbons earned a BS in Business Administration from
the University of Arizona, Tucson; a master of science in Business
Administration from California State University, Dominguez Hills;
and a doctor of philosophy in Business Administration from The
Claremont Graduate University. Div. Ex. 243 at 53.

181a
Appendix D
portfolios and the selection of securities; and providing
best execution and having procedures in place to
determine if best execution is being provided. Div. Ex.
243 at 9-10.
Dr. Gibbons testified that bonds are different from
equities because their theoretical value is determined in a
very specific matter, their price is a function of a negotiated
exchange between the buyer and seller, and most bonds
do not trade on exchanges or in an auction outcry market.
Div. Ex. 243 at 19. He believes that investment advisers
should view broker-dealers as counterparties when buying
and selling bonds for their clients. Id. Dr. Gibbons testified
that the factors that impact bond prices, such as liquidity,
credit quality, issuer, trade size, and maturity, are unique
and specific. Id. According to Dr. Gibbons, markets play
a distinct role in setting the ultimate trading price of a
bond and commissions have a very large impact on the
final trade price of a bond and the ultimate return to the
investor. Id.
With respect to best execution, Dr. Gibbons testified
that the minimum standard for investment advisers
to achieve best execution involves identifying qualified
broker-dealers, getting alternative bids or asks for
the security, and having a clear procedure in place to
document the process. Div. Ex. 243 at 29. He noted that
investment advisers should be particularly focused on
price. Id.
Dr. Gibbons explained that an investment adviser’s
fiduciary duty of best execution is different from a broker-

182a
Appendix D
dealer’s lesser duty. Div. Ex. 243 at 20-23. According to Dr.
Gibbons, simply trading through a broker, such as RJFS,
does not satisfy an investment adviser’s fiduciary duty of
best execution. Id. at 28-29. In a similar vein, Dr. Gibbons
explained that an investment adviser may not rely solely
on a broker’s trading platform, such as BondDesk, to fulfill
a fiduciary duty of best execution. Id. Instead, according to
Dr. Gibbons, to seek best execution an investment adviser
generally must obtain competing bid or ask prices from
more than one broker-dealer. Id. at 21-22. Dr. Gibbons
conceded that multiple bids may not need to be sought on
every single trade to achieve best execution. Tr. 551-52.
Dr. Gibbons identified eighty-one UASNM trades in
U.S. Treasury and federal agency bonds during the period
in question that represented $95,954,806 in principal
amount and generated $833,798 in commissions, which, on
a dollar weighted average basis, is 87.28 basis points, or
0.8728%. Stipulated FOF No. 39. Dr. Gibbons relied on his
experience and other sources to opine that U.S. Treasury
and agency bond trades such as these should have been
subject to commissions in the range of ten to seventy-five
basis points. Id. Dr. Gibbons testified that his ranges of
“acceptable” markups/markdowns are not absolute. Tr.
555; Stipulated FOF No. 112. He testified that there is
no publication setting forth a fixed acceptable range of
commissions on bond trades. Tr. 525-26; Stipulated FOF
Nos. 80, 378.
Dr. Gibbons found that UASNM clients were charged
excess commissions of between $442,106 and $693,804 on
the eighty-one bond trades he analyzed. Div. Ex. 243 at 36.

183a
Appendix D
Dr. Gibbons also opined that Malouf engaged in several
repetitive short-term bond trades that lost money for his
clients. Id. at 4-5.
Dr. Gibbons rebutted the contention of one of Malouf’s
experts, Alan Wolper (Wolper), that neither “Mr. Malouf
nor UASNM had an obligation on a real-time, trade-bytrade basis to ensure that the executions he was getting
from RJFS constituted” best execution, as follows:
1. Mr. Malouf has a fiduciary duty to his
clients which includes the duty of diligence,
prudence, the duty to be knowledgeable and
to act in the client’s best interest. Without
a doubt this means when trades are being
done not at some later time. Points 2 and 3
below follow from this duty[,]
2. The duty to get alternative bids and asks on
a contemporary basis (this duty is described
in UASNM’s brochure),
3. The duty Mr. Malouf has to trade at the
lowest commissions or mark-ups or markdowns when available within the constraints
of the market and the broker-dealer.
Div. Ex. 244 at 3 (formatting altered); Stipulated FOF
No. 81.
Dr. Gibbons’s Report acknowledges that he refers to
the eighty-one trades as “Malouf’s trades” but was unable

184a
Appendix D
to confirm whether Malouf directed any specific bond
trade at issue. Div. Ex. 243 at 3; Tr. 508. Malouf directed
no more than forty-eight to seventy-seven of these eightyone trades (60% and 95%). Stipulated FOF No. 77.13
Dr. Gibbons did not review or consider any of the
trade tickets for the trades at issue in preparing his
expert report or forming any of his opinions. Tr. 542.
Dr. Gibbons was unable to find and did not consider any
studies regarding markups or commissions on bond
trades. Tr. 544. There is no data available to compare the
actual markups and commissions charged on UASNM’s
bond trades against other markups or commissions that
were being charged on the same bonds at the same time.
Tr. 558. Dr. Gibbons did not consider any misconduct by
ACA or Kopczynski as CCO in his expert report. Tr. 511.
2.

Jerry DeNigris

DeNigris is a broker-dealer professional with
substantial experience in fixed income trading, mark-up
analysis, and reviews.14 Resp. Amended Witness List and
Good Faith Identification of Exhibits at Ex. C; Tr. 1518-22.
At the request of Malouf, he offered opinions regarding
the bond trading at issue and the payments received by
Malouf from Lamonde. Resp. Ex. 581 at 1.
13. I have found, for reasons set forth below, that Malouf was
responsible for at least sixty percent of these trades.
14. DeNigris earned a BA in Economics from Rutgers
University and has held Series 4, 7, 15, and 63 licenses at one time.
Resp. Amended Witness List and Good Faith Identification of
Exhibits, Ex. C at 2; Tr. 1518.

185a
Appendix D
DeNigris found that UASNM customers’ bond trades
incurred an average commission of 81.8 basis points.
Stipulated FOF No. 41. He identified multiple bond trades
made through RJFS that exceeded 100 basis points,
including three trades with commissions of approximately
150 basis points. Stipulated FOF No. 43.
DeNigris did not offer any opinion as to what a
reasonable commission would be on the bond trades
at issue or whether UASNM customers paid excessive
commissions. Stipulated FOF Nos. 41, 248. DeNigris
testified that that Malouf is not governed by RJFS’s
markup/markdown policy. Stipulated FOF No. 252.
DeNigris compared the actual yield on bonds
purchased by UASNM, as determined by the price
and reported to the customer with the yield that would
have been achieved if a hypothetical forty basis point
commission was assumed on every transaction. Resp.
Ex. 582 at 3. He found that the average effect of the
commissions on bond yields in question was 0.14%. Resp.
Ex. 582 at 3, Tab 3.
DeNigris found that when the payments from
Lamonde to Malouf are extrapolated over four years they
would have ultimately constituted approximately 46.97%
of the revenues earned by Branch 4GE. Resp. Ex. 582 at
4, Tab 4a.
3.

Alan Wolper

Wolper was previously Director of NASD’s Atlanta
District Office, where he oversaw hundreds of member

186a
Appendix D
firms and thousands of branch offices.15 Resp. Ex. 579 at 2.
He also served as a member of the NASD’s Department of
Enforcement, where he had responsibility for prosecuting
hundreds of formal disciplinary actions. See Tr. 1394;
Resp. Ex. 579 at 1-2. At Malouf’s request, Wolper opined
on the allegations that Malouf failed to seek best execution
for UASNM clients and received commission payments
from RJFS even after resigning from the broker-dealer.
Resp. Ex. 579 at 1.
Wolper testified that there are important and clear
differences between the manner in which equity and debt
securities are sold, including the fact that debt securities
are not offered for sale on national exchanges and in
order for a buyer to compare among sellers the types and
prices of bonds, it can be necessary to contact multiple
sellers separately. Resp. Ex. 579 at 3-4. He noted that
some vendors offer a service that compiles the available
inventories of many broker-dealer sellers of bonds in a
single location, allowing subscribers to see thousands of
debt offerings at once and conduct a quick and efficient
review of available bonds and prices. Id. at 4. BondDesk
is one such service. Id.
Wolper testified that one of an investment adviser’s
fiduciary obligations is to obtain best execution on trades
effected for customers. Resp. Ex. 579 at 4. He explained
that determining best execution requires a review of
15. Wolper earned a BA in English from Rutgers University
and a JD from the University of North Carolina, Chapel Hill. Resp.
Amended Witness List and Good Faith Identification of Exhibits,
Ex. B; Resp. Ex. 579 at 1.

187a
Appendix D
a combination of a number of both quantitative and
qualitative factors and involves more than just obtaining
the lowest possible commission on a particular trade. Id.
at 5. Factors that should be evaluated include the price
of the security, the costs of the transaction, the speed of
execution, the size of the transaction, and the liquidity of
the security. Id. He added that best execution also involves
an analysis of the executing broker-dealer’s abilities. Id.
Wolper opined that a trade-by-trade, real-time
comparison and analysis is not necessary to achieve best
execution and that best execution should be determined
based at least in part on a periodic and systematic
evaluation. Resp. Ex. 579 at 5-6; Resp. Ex. 580 at 3; Tr.
1409; Stipulated FOF No. 82. Wolper does not believe
there is a difference between the fiduciary duty applied
to broker-dealers versus investment advisers as to best
execution, but admitted that RJFS satisfying its duty of
best execution does not mean that Malouf satisfied his.
Stipulated FOF Nos. 242-43. However, he testified that
the record reflects that Malouf’s decision to use RJFS
was reasonable and could be accurately characterized
as an effort to obtain best execution. Resp. Ex. 579 at 6.
Wolper cited Malouf’s justifications that: RJFS gave him
access to BondDesk; based on his years in the business he
was aware that all broker-dealers in that space charged
basically the same commissions for the types of bonds
he was trading; Malouf instructed Lamonde to limit
commissions to no more than one point; Malouf spot
checked the competitiveness of RJFS’s prices; Malouf
read research on a daily basis on the bonds he was trading
for customers, allowing him to gauge the competitiveness

188a
Appendix D
of the prices he was getting from RJFS; and Malouf’s
experience trading bonds using Fidelity and Schwab
taught him that those firms could not offer the same
inventory he could see on BondDesk and they charged
prices that were generally higher than those he could get
from RJFS. Id. at 7-8. Wolper opined that Malouf was not
required to obtain competitive quotes from three different
broker-dealers each time he placed an order for execution
with RJFS. Id. at 8. Wolper did not offer an opinion on
appropriate commission range or whether particular
commissions were reasonable. Stipulated FOF No. 241.
Wolper opined that Malouf appropriately delegated
the compliance function to Kopczynski and relied upon
him to properly carry out his duties. Resp. Ex. 579 at
9-11; Resp. Ex. 580 at 4-6. Wolper based that opinion
on his understanding that a president/CEO of a brokerdealer may delegate responsibility for the functions
of a firm to other qualified individuals, whereupon the
delegate assumes ultimate responsibility, not the CEO.
Resp. Ex. 580 at 5. Wolper agreed that this principle was
decided in the broker-dealer context (as opposed to the
investment adviser context), and that such delegation
requires reasonable follow-up and review of delegation,
which there was no evidence of in this case. Id.; Tr. 148889; Stipulated FOF No. 246.
Wolper never provided legal advice to investment
advisers on best execution issues, provided expert
opinions regarding investment adviser best execution,
held any securities licenses, worked as a regulator of an
investment adviser or as an investment adviser, traded

189a
Appendix D
bond funds for a client, or managed a bond fund. Stipulated
FOF Nos. 233, 235-39.
According to Wolper, NASD 2420-2 requires only
that the agreement be “bona fide,” not that it be written.
Tr. 1421-22; Resp. Ex. 579 at 8-9. Generally, Wolper
agreed that Commission staff no-action letters provide
persuasive authority and guidance that are relied upon
in the securities industry. Tr. 1498. Wolper thinks that
retiring from the securities industry does not mean one
has to stop selling securities, but rather just leave the
broker-dealer industry; one may still be an investment
adviser. Stipulated FOF No. 245.
III. CONCLUSIONS OF LAW
Malouf contends that he finds himself in his current
predicament because Kopczynski turned on him days
after Malouf revealed his intent to divorce Kopczynski’s
daughter. Resp. Br. at 1-3. In the absence of that
precipitating incident, it is possible that the ensuing events
leading to UASNM’s self-reporting to the Commission may
not have taken place. While, from Malouf’s perspective,
it seems palpably unfair that neither Kopczynski nor
Hudson were charged in administrative proceedings, the
Commission’s decision not to pursue charges against them
is an unreviewable exercise of prosecutorial discretion. See
Greer v. Chao, 492 F.3d 962, 964 (8th Cir. 2007).16 Many
16. As that Court explained, Heckler v. Chaney, 470 U.S. 821
(1985), “held that when an agency declines to initiate enforcement
proceedings, that decision is not presumptively reviewable. This is
true because when an agency decides to seek enforcement actions (or

190a
Appendix D
factors inform that exercise. See Wayte v. United States,
470 U.S. 598, 607 (1985) (“Such factors as the strength
of the case, the prosecution’s general deterrence value,
the Government’s enforcement priorities, and the case’s
relationship to the Government’s overall enforcement
plan are not readily susceptible to the kind of analysis
the courts are competent to undertake.”); Dirks v. SEC,
463 U.S. 646, 678 n.16 (1983) (Blackmun, J., dissenting)
(noting that passing on “information to regulatory
authorities . . . may be the reason . . . the SEC, in an
exercise of prosecutorial discretion, did not charge [the
tipper of insider information] under Rule 10b-5”). Thus,
even if Kopczynski and Hudson committed misconduct
similar to Malouf’s – such as failure to disclose conflicts
of interest – it would make no difference with respect to
Malouf’s liability. See, e.g., United States v. Foster, 754
F.3d 1186, 1193 (10th Cir. 2014) (“[A] prosecutor exercises
prosecutorial discretion in determining whether to file
charges against some individuals but not others, even
when the individuals in question committed sufficiently
similar conduct” but once charged, a defendant’s guilt is
determined by reference to statute, not others’ conduct.).

declines to seek enforcement actions), it is entitled to the same type of
discretion that a prosecutor is afforded in bringing (or not bringing)
criminal charges.” Greer, 492 F.3d at 964 (internal citations omitted)
(citing 470 U.S. at 831 (“[A]n agency’s decision not to prosecute or
enforce, whether through civil or criminal process, is a decision
generally committed to an agency’s absolute discretion.”)); see Drake
v. FAA, 291 F.3d 59, 71 (D.C. Cir. 2002) (citing Block v. SEC, 50 F.3d
1078, 1082 (D.C. Cir. 1995)).

191a
Appendix D
A.

Exchange Act Sections 15(a)(1) and 15C(a)(1)(A)

Exchange Act Section 15(a)(1) makes it “unlawful for
any [unregistered or unaffiliated] broker or dealer . . . to
make use of the mails or any means or instrumentality of
interstate commerce to effect any transactions in, or to
induce or attempt to induce the purchase or sale of, any
security (other than an exempted security . . . ) unless
such broker or dealer is registered” with the Commission
in accordance with Section 15(b) of the Exchange Act. 15
U.S.C. § 78o(a)(1). Scienter is not required for a violation
of this provision. SEC v. Martino, 255 F. Supp. 2d 268,
283 (S.D.N.Y. 2003). Similarly, Section 15C(a)(1)(A) of the
Exchange Act makes it unlawful for any unregistered
broker to effect any transaction in any government
security and does not require scienter. 15 U.S.C. § 78o-5(a)
(1)(A).
Exchange Act Section 3(a)(4) defines a broker as “any
person engaged in the business of effecting transactions in
securities for the account of others.”17 15 U.S.C. §78c(a)(4).
The phrase “engaged in the business” connotes “a certain
regularity of participation in securities transactions at key
points in the chain of distribution.” Mass. Fin. Servs., Inc.
v. Sec. Investor Protection Corp., 411 F. Supp. 411, 415 (D.
Mass. 1976); see also SEC v. Kramer, 778 F. Supp. 2d 1320,
1334 (M.D. Fla. 2011). Broker activity can be evidenced
by such things as regular participation in securities
transactions, receiving transaction-based compensation
17. It is not disputed that the bond trades at issue were
securities and that U.S. Treasury bonds are government securities.
The use of interstate commerce is also not disputed.

192a
Appendix D
or commissions (as opposed to salary), a history of selling
the securities of other issuers, and involvement in advice
to investors and active recruitment of investors. See, e.g.,
SEC v. George, 426 F.3d 786, 797 (6th Cir. 2005); SEC v.
Kenton Capital, Ltd., 69 F. Supp. 2d 1, 12-13 (D.D.C. 1998).
Receipt of commissions is a “hallmark” of a being
broker. Kramer, 778 F. Supp. 2d at 1334-35 (citing
Cornhusker Energy Lexington, LLC v. Prospect St.
Ventures, No. 8:04cv586, 2006 U.S. Dist. LEXIS 68959,
at *20 (D. Neb. Sept. 12, 2006)). Yet, transaction-based
compensation is not a prerequisite to finding liability
for acting as an unregistered broker-dealer. David F.
Bandimere, Initial Decision Release No. 507, 2013 WL
5553898, at *52, 82 (Oct. 8, 2013) (finding that “[e]ven
assuming [Respondent] did not receive transactionbased compensation, the evidence that he acted as an
unregistered broker is overwhelming”).18
Malouf voluntarily gave up his broker-dealer
registration on December 31, 2007. He elected to focus on
UASNM, the investment adviser, instead of transferring
his registration to another broker-dealer to continue doing
business as a broker. See Stipulated FOF Nos. 5-6. Malouf
had sold Branch 4GE to Lamonde when he gave up his
registration. The broker-dealer for all the transactions at
issue in this case was Lamonde, who was registered and
18. Although David F. Bandimere is an Initial Decision and
thus non-precedential, the Division proposed this conclusion of law
and Malouf did not dispute it, but does distinguish its application
based on the facts. Div. Proposed Additional FOF and COL at 66;
Resp. Response to Div. Proposed Additional FOF and COL at 102-03.

193a
Appendix D
associated with broker-dealer RJFS. By contrast, Malouf,
and other officials at UASNM, such as Hudson and Keller,
who directed business to Lamonde, were investment
advisers. Malouf’s actions, like that of Hudson and Keller,
were consistent and typical with those of a registered
investment adviser. An investment adviser is “any person
who, for compensation, engages in the business of advising
others, either directly or through publications or writings,
as to the value of securities or as to the advisability of
investing in, purchasing, or selling securities, or who, for
compensation and as part of a regular business, issues or
promulgates analyses or reports concerning securities.”
15 U.S.C. § 80b-2(a)(11).
As a preliminary matter, before addressing the issues
of whether or not Malouf, as opposed to Lamonde, received
commissions, or whether it was permissible for him to do
so, I consider the Division’s argument, relying on David F.
Bandimere, that Malouf acted as an unregistered broker
dealer. Div. Br. at 18-19.
Unlike Malouf, Bandimere directly sold unregistered
investments related to Ponzi schemes. Bandimere enticed
investors based on accounts of his own success with such
investments. David F. Bandimere, 2013 WL 5553898, at
*51. He handled the paperwork necessary for investors
to make a direct investment, obtained their signatures,
took their money and transferred it to the companies’
accounts, and sent out returns. Id. By contrast, Malouf’s
conduct as an investment adviser, which involved
managing client portfolios, recommending investments,
and utilizing a broker (Lamonde) to effect transactions in

194a
Appendix D
customer accounts, does not present a sufficient parallel
to Bandimere’s misconduct.
I am also not persuaded that Malouf is an unregistered
broker-dealer based on the Division’s allegations that
he received commissions. Malouf testified that he and
Lamonde agreed that the price for the branch would be
two times trailing revenue of approximately $500,000 to
$550,000, or approximately $1.1 million. Tr. 924-25. This is
same formula that Malouf had employed for his purchase
of UASNM. Tr. 924, 1056. Lamonde made installment
payments for his purchase of Branch 4GE. See Stipulated
FOF Nos. 293, 294. If Lamonde did not have the money
upfront to purchase the branch outright, logically those
payments would come from Branch 4GE’s revenue –
particularly Lamonde’s commissions – since that seemed
to be Lamonde’s principal source of income.19 However,
in addition to the Branch 4GE revenue, the Division
acknowledges that Lamonde also used money from other
sources to pay Malouf for the branch, such as borrowing
against a life insurance policy, withdrawing money from
a family member’s bank account, and taking on credit
card debt. Div. Ex. 89; see Div. Proposed Additional
FOF and COL at 38. I find that Lamonde’s payments
to Malouf, based on the profitability of the branch, and
other sources, do not meet the definition of transactionbased compensation. 20 Because of Lamonde’s untimely,
19. Another likely option for Lamonde to purchase Branch
4GE would have been a bank loan, which would have had its own set
of transaction costs.
20. The CPA for Malouf and UASNM opined that, for federal
income tax purposes, Lamonde’s payments to Malouf for the sale of

195a
Appendix D
unexpected demise, and the malleable investigative
testimony that he provided, I find that Malouf’s testimony
– notwithstanding his self-interest – is the best evidence
regarding the agreement that he entered into with
Lamonde at the time he sold the branch.
The Division’s claim that Malouf received commissions
is challenged by the fact that, among several dozen
transactions at issue, the hearing evidence does not clearly
tie particular payments made to Malouf, by Lamonde, to
specific trades that Malouf was involved in – as opposed to
other UASNM investment advisers. 21 There is a range of
conflicting estimates as to the percentage of bond trades
directed by Malouf, as opposed to Hudson and Keller. 22
the RJFS branch represented capital gains, not ordinary income,
as commissions would be classified. Tr. 1578-79. While there is
spirited discussion between the parties as to how payments are
classified on draft tax returns and other tax-related documents, I
am unpersuaded by the significance of those indications, because
they appear to be a hold-over from the years that Malouf owned the
RJFS branch and served as a broker-dealer, but were not updated.
I found the testimony of the CPA much more reliable than non-final
or inaccurate tax documents.

21. The Division, to its credit, did attempt to tie Malouf to a
few isolated trades, but, the evidence that they were his, as opposed
to another UASNM investment adviser, is not clear. See Stipulated
FOF No. 199; compare, e.g., Resp. Ex. 553, and Tr. 122, with Tr.
1141-42, 1211-12.
22. While the estimates of the individuals involved is evidence,
I note that Hudson’s understanding of the total amount of bond
trading was inaccurate, which in turn may indicate that his estimate
ascribing almost all bond trades to Malouf as similarly inaccurate.
Tr. 150.

196a
Appendix D
Keller confirmed that there was no document that would
identify trades entered by each adviser at UASNM. Tr.
1187.
Because the Division could not validate its commission
theory based on specific trades, it instead attempted to
prove that Malouf received commissions based upon the
similarity between the total payments, on the one hand,
and the total commissions, on the other, generated over
three years. However, measured quarterly, the payments
to Malouf vary significantly from the commissions
generated and appear inconsistent with an agreement to
pass all the commissions along. Div. Ex. 203. Although the
Division accurately notes that “Malouf’s own Exhibit A
to his Brief shows that payments to Malouf were within
5% of Lamonde’s commissions for the first six months of
the agreement,” they did not match up in that fashion
afterwards. Div. Reply at 7. From 2008 through the second
quarter of 2011 (fourteen quarters), there are only three
quarters during which the payments made by Lamonde
to Malouf are within 5% of the commissions earned. See
Div. Ex. 203. The average variance between the payments
and commissions over the entire time frame is about
26%. See id. Another challenge for the Division is that
while the overall amounts of payments and commissions
are quite similar, this is also similar to the amount that
Malouf testified that Lamonde agreed to pay for Branch
4GE. Malouf’s explanation for that purchase price seems
sensible, as it was based on a similar sale Malouf was
involved in a few years earlier. So, when Lamonde received
commissions from his broker activity related to UASNM,
and then used them to make payments for Branch 4GE,

197a
Appendix D
those would be commissions received by Lamonde, not
Malouf; and in my mind, installment payments for the
sale of a business as they were made to Malouf. Malouf
was also paid from other sources than Branch 4GE, which
were clearly not commissions. Yet, Lamonde is presumably
permitted to spend his commissions as he sees fit, such as
satisfying outstanding payments for his purchase of the
broker-dealer branch.
Assuming, for the sake of argument, that the
payments by Lamonde to Malouf represent Malouf’s
“commissions” and are therefore evidence of brokerdealer conduct by Malouf, I find that Lamonde’s payments
to Malouf were made pursuant to the plain language
of NASD 2420-2, which contemplates the permissible
payment of commissions to an individual after they cease
being a broker, where: (1) a “bona fide contract” calls for
such payment; (2) the selling broker does not undertake
any “solicitation of new business or the opening of new
accounts;” and (3) no payments are made to anyone
ineligible for FINRA membership or anyone disqualified
from being associated with a member. Div. Ex. 234 at 4.
It appears, from their conduct, that Malouf and
Lamonde had a bona fide contract for the sale of the
branch. 23 It appears highly implausible that, unless Malouf
23. The Division argues that there was in fact no contract and
that the signed PPA was a sham. Div. Br. at 6-9. I find this implausible
because it would be illogical for two parties to create a sham contract
with obvious issues on its face, such as the fact that the contract was
dated as of January 2, 2008, but notarized in June 2010. I find it more
likely that if this contract were a sham, the signature and notary
page would likely be backdated to 2008.

198a
Appendix D
and Lamonde had a meeting of the minds, that Malouf
would give up something so valuable and Lamonde would
pay so much money in exchange for nothing of value. The
essential agreement was that Malouf would sell his branch,
Lamonde would service all transferred accounts, Lamonde
would make payments based on branch revenues for a
period of time to satisfy the purchase price, and would
then no longer be obligated to pay Malouf. The parties’
conduct was consistent with such an agreement beginning
in January 2008. Whether the agreement was reduced
to writing is irrelevant because, as Malouf’s expert and
former NASD regulator Wolper testified, NASD 2420-2
requires only that the agreement be “bona fide,” not that
it be written. See Div. Ex. 234 at 4; Tr. 1421-22. Although
it appears that RJFS had an internal requirement that
its representatives provide a written contract, NASD
2420-2 contains no such requirement. Whether or not
Lamonde met RJFS’s internal supervisory rules for sale
agreements does not disprove the bona fide nature of
an agreement. It is also irrelevant if Lamonde did not
precisely follow subsequently memorialized written terms
by choosing to pre-pay additional amounts as “a written
contract may be modified, rescinded or discharged by
subsequent oral agreement.” Medina v. Sunstate Realty,
Inc., 889 P.2d 171, 174 (N.M. 1995) (quoting 4 Samuel
Williston & Walter H.E. Jaeger, A Treatise on the Law of
The Division did not raise the argument that the contract was
invalid under New Mexico state law. Whether the statute of frauds
would require this contract to be in writing to be enforced is not a
matter for my consideration as both Malouf and Lamonde believed
themselves to be, and their actions suggest that they were, subject
to an enforceable contract.

199a
Appendix D
Contracts, § 591, at 203 (3d ed. 1961) (parties to a written
contract may modify that contract by express or implied
agreement as shown by the words and conduct)). The
written agreement, which may have been provided simply
as a way to placate RJFS’s requests for a writing, is not
invalid because “Exhibit A” cannot be located. I note that
a document with a virtually identical function to Exhibit A
existed and was relied upon by RJFS to transfer accounts
in connection with the sale of the branch. Tr. 680-82; see
Resp. Ex. 515. RJFS transferred clients from Malouf to
Lamonde pursuant to a list existing on December 31, 2007.
Stipulated FOF Nos. 69, 70. That list was either Exhibit
A, or contained information from Exhibit A. The transfer
of accounts was consistent with usual methods by which
branches were sold. Tr. 633; see Medina, 889 P.2d at 174.
Malouf otherwise complied with the terms of NASD
2420-2. No evidence was presented that Malouf solicited
new business or opened accounts for Branch 4GE after
2007. NASD 2420-2’s plain language does not require
retirement from the securities industry, as indicated
by a no-action letter issued in November 2008 by the
Commission’s Division of Trading and Markets. See Div.
Ex. 235. This no-action letter relied upon by the Division
(which is similar to a handful that preceded it) states that
“[t]his staff position concerns enforcement action only
and does not represent a legal conclusion regarding the
applicability of the statutory or regulatory provisions
of the federal securities laws.” Id. at 1. The letter also
only applies to a specific set of circumstances, and the
Commission staff member states that “. . . any different
facts or circumstances might require a different response.”

200a
Appendix D
Id. Although the no-action letter suggests that Malouf
would have to retire, completely, to receive “continuing
commissions” – the rule on its face does not. 24 As no24. On December 30, 2014, the Commission approved a
proposed rule change by FINRA to streamline provisions of several
NASD and New York Stock Exchange Rules, including NASD 24202. Order Approving FINRA Proposed Rule Changes to FINRA
Rules 0190 and 2040 and Amending FINRA Rule 8311, 80 Fed.
Reg. 553 (Dec. 30, 2014). Among other things, new FINRA Rule
2040(b) will allow FINRA members to pay continuing commissions
to retiring registered representatives as long as (1) a bona fide
contract exists between the member and the retiring registered
representative that prohibits the representative from soliciting new
business, opening new accounts, or servicing the accounts generating
the continuing commission payments, and (2) the arrangement
complies with applicable federal securities laws and Exchange
Act rules and regulations. Id. at 555. Under the Rule, “retiring
registered representative” means “an individual who retires from
a member (including as a result of total disability) and leaves the
securities industry.” Id. In its initial proposal, FINRA included the
requirement that the arrangement must comply with “published
guidance issued by the SEC or its staff in the form of releases, noaction letters or interpretations”; however, this language was deleted
from the final version based on concerns raised by commenters.
Notice of Filing of a Proposed Rule Change to Adopt FINRA Rules
0910 and 2040 and Amend FINRA Rule 8311, 79 Fed. Reg. 59322,
59328 (Oct. 1, 2014). Although it appears that under the new rule a
retiring registered representative in a situation similar to Malouf
would be prohibited from receiving continuing commissions, the new
rule is not yet in effect and has no bearing on my interpretation of
the old rule. See FINRA Manual, Recently Approved Rule Changes
Pending Determination of Effective Date, SR-FINRA-2014-037,
Rule 2040, available at http://finra.complinet.com/(stating that the
“effective date for this rule has not yet been determined”) (website
last accessed March 31, 2015).

201a
Appendix D
action letters “constitute neither agency rule-making nor
adjudication,” they are “entitled to no deference beyond
whatever persuasive value they might have.” Gryl ex rel.
Shire Pharms. Group PLC v. Shire Pharms. Group PLC,
298 F.3d 136, 145 (2d Cir. 2002). Malouf substantially
complied with the rule, and thus, I find that even if one was
to consider the payments “Malouf’s commissions” (which
I do not), his conduct would nonetheless be appropriate,
and I would not find that he was acting as an unregistered
broker-dealer in violation of Sections 15(a)(1) and 15C(a)
(1)(A) of the Exchange Act.
B. Securities Act Sections 17(a)(1) and 17(a)(3),
Exchange Act Section 10(b) and Rules 10b-5(a)
and 10b-5(c), and Advisers Act Sections 206(1)
and 206(2)
Malouf is charged with violating the antifraud
provisions of Securities Act Sections 17(a)(1) and 17(a)
(3), Exchange Act Section 10(b) and Rules 10b-5(a) and
10b-5(c), and Advisers Act Sections 206(1) and 206(2). OIP
at 6. The conduct violating one of the antifraud provisions
may also violate other provisions, as they proscribe similar
misconduct. See United States v. Naftalin, 441 U.S. 768,
773 n.4, 778 (1979); SEC v. Monarch Funding Corp., 192
F.3d 295, 308 (2d Cir. 1999); SEC v. Rana Research, Inc.,
8 F.3d 1358, 1363 n.4 (9th Cir. 1993); SEC v. Berger, 244
F. Supp. 2d 180, 192 (S.D.N.Y. 2001); SEC v. Blavin, 557
F. Supp. 1304, 1315 (E.D. Mich. 1983), aff’d, 760 F.2d 706
(6th Cir. 1985).
Securities Act Sections 17(a)(1) and 17(a)(3) prohibit
employing a fraudulent device, scheme, or artifice to

202a
Appendix D
defraud or engaging in any transaction, practice, or course
of business which operates or would operate as a fraud or
deceit in the offer or sale of a security. 15 U.S.C. § 77q(a)(1),
(3). Exchange Act Section 10(b) and Rule 10b-5 subsections
(a) and (c) prohibit any person from employing any device,
scheme, or artifice to defraud and engaging in any act,
practice, or course of business which operates or would
operate as a fraud or deceit upon any person in connection
with the purchase or sale of a security. 15 U.S.C. § 78j(b);
17 C.F.R. § 240.10b-5(a), (c). Primary liability under
Securities Act Section 17(a)(1) and Exchange Act Rule
10b-5 subsections (a) and (c) proscribe even a single act of
making or drafting a material misstatement to investors
and constitutes the employment of a deceptive device
or act. John P. Flannery, Securities Act Release No.
9689, 2014 SEC LEXIS 4981, at *42, *62 (Dec. 15, 2014).
Repeatedly making or drafting such misstatements over a
period of time could constitute engaging in any fraudulent
transaction, practice, or course of business as prohibited
under Securities Act Section 17(a)(3). Id. at *62-63.
Sections 206(1) and 206(2) of the Advisers Act prohibit
an investment adviser from using instruments of interstate
commerce to employ any device, scheme, or artifice to
defraud, or to engage in any transaction, practice, or
course of business that operates as a fraud or deceit upon
any client or prospective client. Stipulated COL No. 8.
Advisers Act Section 206 establishes a federal fiduciary
standard for investment advisers, including the obligations
to exercise the utmost good faith in dealing with their
clients, to disclose to their clients all material facts, and to
employ reasonable care to avoid misleading their clients.

203a
Appendix D
Stipulated COL No. 9. Investment advisers have a duty
“to eliminate, or at least to expose, all conflicts of interest
which might incline [them] – consciously or unconsciously –
to render advice which was not disinterested.” Stipulated
COL No. 10. Malouf had an obligation to disclose conflicts
of interest that existed at UASNM that he was aware of.
Stipulated COL No. 25.
Malouf was the CEO and President of UASNM, a
registered investment adviser, and he was an advisory
representative for UASNM. Stipulated FOF No. 286. As
such, he is a primary violator under Advisers Act Section
206 because he received compensation in connection with
giving investment advice and thus comes within the broad
statutory definition of an investment adviser as defined by
Section 202(a)(11) of the Advisers Act: a “person who, for
compensation, engages in the business of advising others
. . . as to the value of securities or as to the advisability of
investing in, purchasing, or selling securities . . . .” See 15
U.S.C. § 80b-2(a)(11); Abrahamson v. Fleschner, 568 F.2d
862, 870 (2d Cir. 1977) (general partners of investment
adviser considered investment advisers under Advisers
Act Section 202(a)(11)); Donald L. Koch, Exchange Act
Release No. 72179, 2014 SEC LEXIS 1684, at *73-74 &
n.196 (May 16, 2014) (investment adviser’s principal and
owner liable as a primary violator under Advisers Act
Sections 206(1) and 206(2)).
Scienter is required to establish violations of
Securities Act Section 17(a)(1), Exchange Act Section
10(b) and Rule 10b-5, and Advisers Act Section 206(1); a
showing of negligence is sufficient to establish violations

204a
Appendix D
of Securities Act Section 17(a)(3) and Advisers Act Section
206(2). Stipulated COL Nos. 8, 14; Aaron v. SEC, 446 U.S.
680, 695-97, 701-02 (1980); SEC v. Steadman, 967 F.2d
636, 641 & n.3, 643 & n.5, 647 (D.C. Cir. 1992). Scienter is
defined as a mental state consisting of intent to deceive,
manipulate, or defraud. Ernst & Ernst v. Hochfelder,
425 U.S. 185, 193 n.12 (1976). Scienter may be proven by
showing extreme recklessness. SEC v. Steadman, 967
F.2d at 641-42. Recklessness is an “extreme departure
from the standards of ordinary care, . . . which presents a
danger of misleading buyers or sellers that is either known
to the defendant or is so obvious that the actor must have
been aware of it.” Steadman, 967 F.2d at 641-42 (ellipses
in original) (quoting Sunstrand Corp. v. Sun Chemical
Corp., 553 F.2d 1033, 1045 (7th Cir. 1977)).
Material misstatements and omissions violate the
antifraud provisions; information is “material” if there is
a substantial likelihood that a reasonable person would
consider the information important. Stipulated COL No.
11; see Basic, Inc. v. Levinson, 485 U.S. 224, 231-32,
240 (1988); TSC Indus., Inc. v. Northway, Inc., 426 U.S.
438, 449 (1976). Specifically, the existence of a conflict of
interest is a material fact that an investment adviser, as a
fiduciary, must disclose to a client. Stipulated COL No. 12.
“To be liable for a scheme to defraud, a defendant
must have ‘committed a manipulative or deceptive act in
furtherance of the scheme.’” SEC v. Fraser, No. CV-0900443-PHX-GMS, 2010 U.S. Dist. LEXIS 7038, at *23
(D. Ariz. Jan. 28, 2010) (quoting Cooper v. Pickett, 137
F.3d 616, 624 (9th Cir. 1997)). The defendant “must have

205a
Appendix D
engaged in conduct that had the principal purpose and
effect of creating a false appearance of fact in furtherance
of the scheme.” Simpson v. AOL Time Warner, Inc., 452
F.3d 1040, 1048 (9th Cir. 2006), vacated on other grounds,
Simpson v. Homestore.com, Inc., 519 F.3d 1041 (9th Cir.
2008).
Based on my analysis below, I find that Malouf violated
Securities Act Sections 17(a)(1) and 17(a)(3), Exchange Act
Section 10(b) and Rules 10b-5(a) and 10b-5(c), and Advisers
Act Sections 206(1) and 206(2).
1.

Misstatements and Scheme

Malouf’s agreement with Lamonde created a conflict
of interest for Malouf because Malouf was incentivized
to send UASNM bond transactions through Branch 4GE
so that Lamonde would be able to pay what he owed for
the business. Malouf did not explicitly and completely
disclose his conflict of interest in submitting bond trades
through Branch 4GE, resulting in misleading disclosures
in UASNM’s Forms ADV and on its website.
Malouf did not tell anyone at UASNM or ACA the
details of his agreement to receive payments from
Lamonde. I have previously accepted that, based on
Malouf’s own description, key terms of the agreement
were oral, rather than written. Just as it took effort
for me to understand the nature of the agreement, so
too, without exposition, it would have been difficult for
anyone else to understand without the specifics. Malouf’s
receipt of payments from Lamonde created a conflict

206a
Appendix D
of interest. Stipulated FOF No. 178. Yet, the conflict
created by Malouf’s receipt of payments from Lamonde
was not disclosed on UASNM’s Forms ADV between
2008 and 2011 or on its website. Stipulated FOF No. 8;
see Div. Exs. 66, 68-69. Given this crucial omission, the
website’s statements about independence and freedom
from conflicts of interest, and the lack of disclosure of
Malouf’s continuing relationship with the RJFS branch
on UASNM’s Forms ADV were materially misleading
to UASNM clients. All Forms ADV distributed between
2008 and 2011 were materially misleading by failing to
disclose Malouf’s arrangement with Lamonde.
Prior to 2008, the “void of conflicts of interest”
language was at least countered by the disclosure that
Malouf owned the Branch 4GE and that he and other
registered representatives might receive compensation
for transactions executed through that branch; after that
language was removed the “free of conflicts of interest”
language and other statements disclaiming compensation
from commissions and proclaiming “[u]ncompromised
objectivity through independence” on UASNM’s Forms
ADV and website were misleading. See Stipulated FOF
No. 12.
Malouf’s argument that Kopczynski’s tiny ownership
interests in Secured Partners and National Advisors
Trust Company (NATC) was inconsistent with the “devoid
of conflicts of interest” language on UASNM’s website
(but was disclosed on the Form ADV) does not excuse
Malouf’s failure to disclose his receipt of over one million
dollars in payments from Lamonde. Tr. 1383. Similarly,

207a
Appendix D
the collective failure to list RJFS as a broker through
which UASNM did business in its October 2009 Form
ADV does not excuse the failure to disclose Malouf’s
conflict of interest.
Malouf’s principal response is that other UASNM
officials knew or should have known that he was receiving
payments from Lamonde and that he relied on them to
make the disclosures. Resp. Br. at 22-23. However, even
if all the relevant officials at UASNM, RJFS, and ACA
knew all about Lamonde and Malouf’s agreement, and the
payments, it would not excuse Malouf’s recklessness. The
parties previously agreed, and I have found, investment
advisers have a duty “to eliminate, or at least to expose,
all conflicts of interest which might incline [them] –
consciously or unconsciously – to render advice which
was not disinterested.” Stipulated COL No. 10. Thus,
regardless of what Hudson, Kopczynski, Keller, Bell, or
Ciambor knew, UASNM’s customers were not told about
Malouf’s conflict of interest and thus, Malouf was reckless
in allowing material omissions on the Forms ADV and
misrepresentations on the website.
Malouf’s reliance-on-others defense requires him to
show that he made full disclosure to those upon whom
he relied. 25 See Provenz v. Miller, 102 F.3d 1478, 1491
(9th Cir. 1996), citing C.E. Carlson, Inc. v. SEC, 859
F.2d 1429, 1436 (10th Cir. 1988) (finding that “[i]f it
25. Malouf’s own reliance on SEC v. Huff, 758 F. Supp. 2d 1288,
1351-52 (S.D. Fla. 2010), fails to address the fact that Huff’s relianceon-others defense failed because Huff never disclosed critical facts
to his accountant. See Resp. Prehearing Br. at 19-20.

208a
Appendix D
is true that defendants withheld material information
from their accountants, defendants will not be able to
rely on their accountant’s advice as proof of good faith”).
Malouf claims, without support, that “Kopczynski was
aware or should have been aware of the nature of the
sale of Branch 4GE.” Resp. Br. at 22. However, Malouf
stipulated that Kopczynski and Hudson understood that
Malouf had sold Branch 4GE to Lamonde, but they were
not aware of the specific terms of that sale. Stipulated
FOF No. 34. Moreover, the claim that Kopczynski should
have been aware is not defense to Malouf’s own failure
to disclose. Likewise, his claimed reliance on UASNM’s
outside consultant is misplaced where he failed to
disclose his payments from Lamonde for over two years
and misrepresented that he had severed all ties with
RJFS. Tr. 736-37, 773-76.
Ultimately, because Malouf was the only one who knew
the details of his conflict of interest, regardless of whether
others were reckless, or merely negligent, in investigating
the nature and extent of Malouf’s conflict, I conclude that
Malouf’s failure to disclose, for years, any details of the
payments, to be extremely reckless. Indeed, even when
the PPA was disclosed in 2010, because its terms were
not the terms that Lamonde and Malouf had agreed to,
his failure to disclose the details of the oral agreement at
that time – which he and Lamonde abided by, as opposed
to the PPA – evidence continuing reckless behavior.
Malouf had a direct role with regard to reviewing
the Forms ADV, especially as they related to his own
conflicts of interest, and had a greater role with regard to

209a
Appendix D
UASNM’s marketing materials, particularly those present
on the website. Malouf also had the best knowledge of
his ongoing financial relationship with Lamonde. Malouf
was the best-suited official to apprehend his conflict,
and ensure that appropriate disclosures were made and
inconsistent language was corrected. Though Malouf, to
his credit, ultimately corrected language in the Forms
ADV in 2011 (but not language on the website and in
marketing materials), that does not excuse his highly
reckless behavior with respect to his own conflicts of
interest for years before then.
I disagree with Malouf’s contention that the “Division
has not offered sufficient evidence to establish whether
the Forms ADV introduced at the hearing were final
or were drafts that were never filed with the SEC or
disseminated to clients.” Resp. Br. at 30. The Division
established at the hearing that: (1) UASNM did not update
its Form ADV to specifically reflect the payments by
Lamonde to Malouf for the sale of the RJFS branch until
March 2011, Stipulated FOF No. 307; (2) at least some of
UASNM’s Forms ADV between 2008 and 2011 did not
disclose that Malouf sold his RJFS branch to Lamonde
and was receiving ongoing payments from Lamonde
in connection with that sale, Stipulated FOF No. 8; (3)
Judith Owens, a UASNM client, signed an investment
management services agreement acknowledging that she
had received and read Part II of the February 4, 2008,
UASNM Form ADV, Stipulated FOF No. 63; and (4) all or
most of the Forms ADV created between October 1, 2009,
and April 12, 2010, portions of which are reflected in
Division Exhibit 193, were provided to UASNM clients.
Div. Ex. 193; Tr. 906, 1377-78. For the foregoing reasons,

210a
Appendix D
I find that a preponderance of evidence establishes that
the Forms ADV were either filed with the Commission
or disseminated to clients.
Based on the above, I find that Malouf violated
Securities Act Sections 17(a)(1) and 17(a)(3), Securities
Act Section 10(b) and Rules 10b-5(a) and 10b-5(c), and
Advisers Act Sections 206(1) and 206(2).
2.

Failure to Seek Best Execution

I find that Malouf violated his fiduciary duty by failing
to seek best execution for UASNM’s clients with regard
to the majority of U.S. Treasury and federal agency bond
trades routed through RJFS between 2008 and 2011. One
of an investment adviser’s “basic duties” under Advisers
Act Section 206 is to ensure that its clients’ transactions
are executed “in such a manner that the client’s total cost
or proceeds in each transaction is the most favorable under
the circumstances.” Kidder, Peabody & Co., Advisers Act
Release No. 232, 1968 SEC LEXIS 251, at *10-11 (Oct. 16,
1968)26; see Donald L. Koch, Exchange Act Release No.
72179, 2014 SEC LEXIS 1684, at *70-72 & n.189 (May 16,
2014). Failure to seek best execution or to conduct best
execution review constitutes a violation of Section 206(2) of
the Advisers Act. Jamison, Eaton & Wood, Inc., Advisers
Act Release No. 2129, 2003 SEC LEXIS 1174, at *3 (May
26. Although the Kidder, Peabody & Co. release is a settled
enforcement action and thus nonprecedential, the Division proposed
this conclusion of law and Malouf did not dispute it. Div. Proposed
Additional FOF and COL at 68; Resp. Response to Div. Proposed
Additional FOF and COL at 106.

211a
Appendix D
15, 2003) (“By failing to disclose its potential conflict of
interest and other brokerage options, and by failing to
seek to obtain best execution, Jamison violated Section
206(2) of the Advisers Act.”). 27,28
The Division argues that an adviser’s failure to seek
best execution for clients can be established by showing
that clients paid higher commissions with no apparent
corresponding benefit, citing a settled enforcement
action. Div. Proposed Additional FOF and COL at 69;
see Jamison, Eaton & Wood, Inc., 2003 SEC LEXIS
1174, at *16 (“Taking into consideration the higher
commissions paid by some of Jamison’s clients, and
the lack of any apparent corresponding benefit such as
better trading prices, Jamison failed to seek to obtain
best execution for these clients.”). Malouf disputes this
additional proposed conclusion of law, noting that while
27. Although the Jamison, Eaton & Wood, Inc., release is a
settled enforcement action and thus non-precedential, the Division
proposed this conclusion of law and Malouf did not dispute it. Div.
Proposed Additional FOF and COL at 68; Resp. Response to Div.
Proposed Additional FOF and COL at 106.
28. Malouf contends that the only specific requirement for
ensuring compliance with best execution is “periodic and systematic
review” of the procedures employed for best execution. Resp. Br. at
27. In support, Malouf cites to Jamison, Eaton & Wood, where the
firm “did not periodically and systematically review its brokerage
arrangements” and “thereby failed to seek to obtain best execution
for these clients.” 2003 LEXIS 1174, at *16; Resp. Response to Div.
Additional FOF and COL at 107. However, as set forth below, an
investment adviser can fail to satisfy a duty of best execution through
other actions or omissions.

212a
Appendix D
the “language from Jamison is accurately quoted,” it
“does not support the proposed conclusion of law,” citing
a Commission interpretive release. Resp. Response
to Div. Proposed Additional FOF and COL at 107; see
Resp. Ex. 578. The release states that a “money manager
should consider the full range and quality of a broker’s
services in placing brokerage including, among other
things, the value of research provided as well as execution
capability, commission rate, financial responsibility, and
responsiveness to the money manager.” Resp. Ex. 578
at 15. It also notes that “the determinative factor is not
the lowest possible commission cost but whether the
transaction represents the best qualitative execution for
the managed account. Id. An investment adviser must
consider a number of qualitative and quantitative factors
when trying to achieve best execution, not just the amount
of commission. Stipulated COL No. 23.
However, when the other factors are equal, cost may
be of principal concern in determining best execution.
As Dr. Gibbons explained, for U.S. Treasury and agency
bond trades – the ones at issue here – the other factors
are largely irrelevant due to the highly liquid and
transparent nature of the bonds and other factors. Tr.
553-54; see Div. Ex. 243 at 16, 18, 30; Tr. 476-77, 532.
Multiple witnesses, including Hudson, Keller, Ciambor, Dr.
Gibbons, McGinnis, and even Malouf himself, testified that
in seeking best execution an investment adviser should
shop trades to multiple brokers. Div. Ex. 20; Div. Ex. 243
at 21-22; Tr. 935; Stipulated FOF Nos. 133, 145; Tr. 168-69,
172-73, 453; Resp. Ex. 559. Malouf has admitted that he
often did not do that. Stipulated FOF No. 174; Div. Ex. 243

213a
Appendix D
at 4; Resp. Ex. 579 at 8; Tr. 935-37. By contrast, another
UASNM advisor, Keller, was able to get lower bond prices
from other brokers or have RJFS lower its price to meet
prices offered by other brokers. Stipulated FOF No. 204;
Div. Ex. 218; Resp. Ex. 341.
Instead, between 2008 and 2011, Malouf generally
selected Lamonde’s branch of RJFS to execute bond
trades on behalf of UASNM clients. 29 Stipulated FOF
No. 38. Malouf’s failure to obtain competing bids caused
UASNM’s clients to pay markups/markdowns that were
significantly higher than industry norms on dozens of U.S.
Treasury and federal agency bond trades. Div. Ex. 243 at
32-34. Dr. Gibbons concluded that UASNM failed to seek
best execution for its U.S. Treasury and federal agency
bond trades, and has estimated that this failure caused
UASNM clients to pay between $442,106 and $693,804 in
excess commissions. Id. at 36. Dr. Gibbons and McGinnis
(who previously performed a similar calculation in the
state court litigation involving UASNM and Malouf)
both found that commissions charged on UASNM bond
trades were excessive. 30 Dr. Gibbons’s range – ten to
29. Malouf did open accounts at UBS, Smith Barney, and
Morgan Stanley, and used existing accounts at Griffin Kubiak,
Stevens and Thompson, and Crews & Associates to buy bonds and
check prices. Stipulated FOF No. 353. However, evidence that Malouf
actually sought competing bids is sparse, and it is clear that the
substantial majority of UASNM’s bond trades were done with RJFS.
30. Malouf objected to the introduction of McGinnis’s analysis
done for the state court litigation because he believed it to be
expert testimony (and the Division did not offer McGinnis as an
expert witness). Tr. 403-04. I allowed in the testimony, noting that

214a
Appendix D
seventy-five basis points (bps) – was slightly broader than
McGinnis’s range – twenty to fifty bps – but both have
similar averages of thirty-five (McGinnis) and 42.5 bps
(Dr. Gibbons). Stipulated FOF No. 39; Div. Ex. 44 at Ex.
5. Dr. Gibbons’s range is thirty-five bps more favorable to
Malouf than the range applied in the state court litigation
in that it provides a wider range of acceptable commission
rates. In addition, Dr. Gibbons’s seventy-five bps upper
limit is much closer to the 100 bps maximum commission
than McGinnis’s fifty bps upper limit that Lamonde and
Malouf agreed should ever be charged on such trades.
In Mark David Anderson, an expert testifying
regarding trades in U.S. Treasury securities noted, as Dr.
Gibbons did here, that markups and markdowns on such
securities are “driven by th[e] bid-ask spread.” Exchange
Act Release No. 48352, 2003 WL 21953883, at *4 (Aug. 15,
2003) (alteration in original). That expert further testified
that after “doubling what was custom and practice in
the industry,” an appropriate commission on the U.S.
Treasury notes at issue, which as here were extremely
I would not base any part of the ruling on McGinnis’s opinions to
the detriment of Malouf and would not rely on his opinions to shore
up the Division’s expert testimony. Tr. 404, 408. My ruling during
the hearing remains unchanged; I am not relying on McGinnis’s
opinions in any way, only noting that Dr. Gibbons’s opinions are
more favorable to Malouf than McGinnis’s opinions, which were the
subject of the state court litigation and considered when entering
into the settlement agreement, including holding $850,000 in escrow
to cover potential liability resulting from UASNM’s plan to report
possible best execution failures to the Commission. See Resp. Ex.
312 at 3; Resp. Ex. 479, Ex. 1 at 3, Ex. 2 at 3, 7.

215a
Appendix D
liquid and carried an implied rating of AAA, would be
between twenty-five and fifty bps. Id. This range coincides
with the ranges set forth by Dr. Gibbons and McGinnis.
In Mark David Anderson, the Commission found that:
The Division introduced expert testimony
which supported its contention that Anderson’s
pricing was “well above what professionals in
the business would generally charge for the
transactions in question” and not warranted
by any extraordinary circumstances.
Id. at *7 (internal footnote omitted). I find that Dr.
Gibbons’s testimony reliably serves the same function as
the expert opinion in Mark David Anderson. Id. at *7 n.40
(noting that “expert testimony is generally very helpful
when the question to be resolved is the proper pricing of
debt securities”). Malouf offered no expert opinion to the
contrary. Stipulated FOF No. 241.
Dr. Gibbons’s testimony did not attempt to attribute
any specific trade to Malouf. See Stipulated FOF No. 372.
Malouf, Hudson, Keller, and Kopczynski have roughly
estimated that Malouf directed somewhere between 60%
to 95% of UASNM’s bond trades. Stipulated FOF Nos. 6,
76. As noted, there has been no reliable evidence showing
that Malouf directed any particular trade. The evidence
shows only that from 2008 to 2011, Malouf directed certain
bond trades for UASNM clients to RJFS but no evidence
indicating which bond trades he directed there. Stipulated
FOF No. 38.

216a
Appendix D
I am unconvinced that the high point of the preceding
range, which is based primarily on Hudson’s testimony,
is reliable. First, when Hudson initially attempted to
determine the trades that Malouf directed, he was in the
process of suing Malouf and had no small self-interest
in avoiding regulatory liability. Tr. 100-01. One could
reasonably expect that Hudson would give himself,
and others, the benefit of the doubt in his calculation to
Malouf’s detriment. Second, although Hudson claimed he
only occasionally directed bond trades, Ciambor testified
that Hudson did a “significant” amount of bond trading.
Tr. 731-32. Third, when Hudson testified about UASNM’s
bond trading, he was off by tens of millions of dollars
with regard to the annual value of trades, suggesting
his estimates regarding bond trading are not the most
reliable. Tr. 149-50. Fourth, Keller admitted to directing
50% to 60% of his own trades through RJFS. Tr. 1165-66.
In the absence of the Division proving any particular
trade was directed by Malouf, and the deficiencies with the
highest estimates, I am confident that a preponderance of
the evidence nonetheless established that Malouf directed
sixty percent of trades to RJFS. While sixty percent of
the trades does not necessarily equate to sixty percent of
the value of the trades, because it is the lowest estimate
of Malouf’s trade in the range for which estimates were
offered, and Malouf was often the principal investment
adviser on large-scale institutional trades, more likely
than not, the value of at least sixty percent of the bond
trades can be attributed to Malouf. It is of course possible
that Malouf could have been responsible for more than
sixty percent. To prove that, the Division could have

217a
Appendix D
inquired of witnesses as to each trade, using all the
documentary evidence available. However, such evidence
was not presented by the Division. In the absence of such
evidence, given the uncertainties, I am unable to declare
that by a preponderance of the evidence Malouf directed
more of the trades, and, more particularly, that he directed
more than sixty percent of the trades on which there were
commissions in excess of what should reasonably have
been paid.
Based on Dr. Gibbons’s opinion that the failure to
seek best execution resulted in an actual cost to UASNM
customers of at least $442,106, and my preceding
determination that Malouf is culpable for at least sixty
percent of the underlying trades, I find that Malouf’s
failure to seek best execution on bond trades resulted in
$265,263.60 of unnecessary cost and expense to UASNM
customers. 31
In addition to this tangible, adverse result, the fact
that Malouf was not actually seeking and achieving best
execution, recklessly, further demonstrates how the
statements in the website and Forms ADV to the contrary
were misleading, and hence violations of Advisers Act
Section 206(1) and (2).
31. While UASNM’s settlement with the Commission involved
the repayment of a greater amount of money to its customers, that
settlement was targeted to satisfy all of UASNM’s best execution
failures – not just those of Malouf; and was based on McGinnis’s
analysis of customer losses, which, as noted previously, found a
greater amount of loss than the Division’s expert Dr. Gibbons.

218a
Appendix D
C.

Aiding and Abetting Liability

To establish aiding and abetting liability, the
Commission must show: “(1) that a principal committed a
primary violation; (2) that the aider and abettor provided
substantial assistance to the primary violator; and (3)
that the aider and abettor had the necessary ‘scienter’
– i.e. that she rendered such assistance knowingly or
recklessly.” Graham v. S.E.C., 222 F.3d 994, 1000 (D.C.
Cir. 2000); see also First Interstate Bank of Denver,
N.A. v. Pring, 969 F.2d 891, 898 (10th Cir. 1992), rev’d
on other grounds, Central Bank of Denver, N.A. v. First
Interstate Bank of Denver, N.A., 511 U.S. 164 (1994). 32
The Tenth Circuit applies a “recklessness” standard for
aiding and abetting liability and the D.C. Circuit requires
a showing that the aider and abettor acted with “extreme
recklessness.” First Interstate Bank, 969 F.2d at 903
(“We hold that in an aiding-and-abetting case based on
32. This test has also been formulated as: “(1) a primary or
independent securities law violation by an independent violator; (2)
the aider and abettor’s knowing and substantial assistance to the
primary securities law violator; and (3) awareness or knowledge by
the aider and abettor that his role was part of an activity that was
improper.” SEC v. Slocum, Gordon & Co., 334 F. Supp. 2d 144, 184
(D.R.I. 2004); see Investors Research Corp. v. SEC, 628 F.2d 168, 178
(D.C. Cir. 1980). The requirement of “awareness or knowledge by
the aider and abettor that his role was part of an activity that was
improper” has been reformulated under the scienter requirement
under more recent case law. See Howard v. SEC, 376 F.3d 1136,
1142-43 (D.C. Cir. 2004); Graham, 222 F.3d at 1000 (explaining that
the aiding and abetting test has been “variously formulated” and
citing Investors Research, among other circuit precedent, for the
D.C. Circuit’s more recent articulation of the test).

219a
Appendix D
assistance by action, the scienter element is satisfied by
recklessness.”); Howard, 376 F.3d at 1143 (citing Graham,
222 F.3d at 1004; SEC v. Steadman, 967 F.2d at 641).
A respondent who aids and abets a violation is a cause
of the violation. See Zion Capital Mgmt. LLC, Securities
Act Release No. 8345, 2003 SEC LEXIS 2939, at *28
(Dec. 11, 2003).
1.

Advisers Act Section 206(4) and Rule
206(4)-1(a)(5)

Malouf is charged with aiding and abetting and
causing UASNM’s violations of Advisers Act Section
206(4) and Rule 206(4)-1(a)(5). Advisers Act Section 206(4)
prohibits a registered investment adviser from engaging
“in any act, practice, or course of business which is
fraudulent, deceptive, or manipulative[,]” including those
defined by the Commission. 15 U.S.C. § 80b-6(4). Neither
scienter nor proof of client harm is required. SEC v. C.R.
Richmond & Co., 565 F.2d 1101, 1105 (9th Cir. 1977) (citing
SEC v. Capital Gains Research Bureau, Inc., 375 U.S.
180, 195 (1963)).
Rule 206(4)-1(a)(5) prohibits a registered investment
adviser from publishing, circulating, or distributing
advertisements containing untrue statements of material
facts, or that are otherwise false or misleading. 17 C.F.R.
§ 275.206(4)-1(a)(5). A website can be considered an
advertisement for purposes of the rule. Anthony Fields,
CPA, Initial Decision Release No. 474, 2012 WL 6042354,
at *12 (Dec. 5, 2012) (“Fields’s misrepresentations on

220a
Appendix D
Platinum’s website violated Securities Act Section 17(a),
and his misrepresentations on the AFA website and in
AFA’s Form ADV and brochure violated Advisers Act
Sections 206(1), 206(2), and 206(4) and Rule 206(4)-1(a)
(5).”). 33
Based on preceding findings, I have determined that
UASNM violated Rule 206(4)-1(a)(5) by making statements
about independence, freedom from conflicts of interest,
and best execution that were materially misleading as a
result of Malouf’s agreement with Lamonde. See supra
pp. 30-32, 36. Malouf provided substantial assistance by
recklessly failing to disclose to others at UASNM his
conflict of interest with respect to RJFS. Therefore, I find
that Malouf aided and abetted and caused UASNM’s false
and misleading website statements by failing to disclose
his receipt of payments from Lamonde, as detailed above.
2.

Advisers Act Section 207

Malouf is charged with violating, or in the alternative,
aiding and abetting and causing UASNM’s violations of,
Advisers Act Section 207. I do not find that Malouf was a
primary violator because he delegated responsibility for
the Forms ADV to Kopczynski and Hudson and Hudson
ultimately was the person who signed them. Advisers Act
Section 207 makes it unlawful for any person willfully to
33. Although the Anthony Fields, CPA release is an initial
decision and thus non-precedential, the Division proposed this
conclusion of law and Malouf did not dispute it. Div. Proposed
Additional FOF and COL at 72; Resp. Response to Div. Proposed
Additional FOF and COL at 110.

221a
Appendix D
make any untrue statement of a material fact or omit to
state any material fact required to be stated in a report
filed with the Commission, including Form ADV. 34 15
U.S.C. § 80b-7; Vernazza v. SEC, 327 F.3d 851, 858 (9th
Cir. 2003). The materiality standard for Advisers Act
Section 207 claims is essentially the same as for violations
of Advisers Act Section 206. Id. Advisers Act Section 207
does not require a showing of scienter. Montford and Co.,
Advisers Act Release No. 3829, 2014 SEC LEXIS 1529,
at *68 (May 2, 2014).
Item 12.B of Form ADV Part II (and Item 12.A of the
new Part 2A) requires an investment adviser to describe
the factors considered in selecting broker-dealers and
determining the reasonableness of their commissions.
See, e.g., Div. Ex. 24 at UASNM0442. Thus, an investment
adviser violates Advisers Act Section 207 by failing to
disclose those factors. The disclosures in UASNM’s Forms
ADV between 2008 and 2011, willfully omitted required
information.
UASNM violated Advisers Act Section 207. Malouf
substantially assisted this violation. The UASNM
Compliance Manual provided that its “employees”
(including Malouf, as CEO) should bring to the CCO’s
attention disclosures that may require amendment to
the Form ADV: “Employees are encouraged to review
UASNM’s disclosure documents and bring to the CCO’s
34. A finding of willfulness does not require intent to violate
the law, but merely intent to do the act which constitutes a violation of
the law. Wonsover v. SEC, 205 F.3d 408, 414 (D.C. Cir. 2000); Arthur
Lipper Corp. v. SEC, 547 F.2d 171, 180 (2d Cir. 1976).

222a
Appendix D
attention any disclosures that may require amendment/
updating.” Stipulated FOF No. 55. Instead of following
this guidance, Malouf failed to disclose to others at
UASNM the full extent of his conflict of interest and
did not tell Kopczynski that the Form ADV needed to
be revised. Malouf acted knowingly as he testified that
“[w]ithout a doubt,” disclosures regarding the ongoing
payments Malouf was receiving from Lamonde should
have been in all the relevant ADV disclosures. Stipulated
FOF No. 193; Tr. 1001.
For the foregoing reasons, I find that Malouf aided
and abetted and caused UASNM’s violation of Advisers
Act Section 207.
IV. SANCTIONS
A.

Willfulness

Some of the requested sanctions are only appropriate
if Malouf’s violations were willful. See 15 U.S.C. § 78o(b)
(4)(A), (D), (E), (6)(A)(i), 78o-5(c), 78u-2(a), 80a-9(b)(2),
(3), (d), 80b-3(e)(1), (5), (6), (f), (i). Malouf’s actions were
unquestionably willful because he did not adequately and
fully disclose his conflict of interest to UASNM and its
clients and he was responsible for the false and misleading
misstatements that appeared in UASNM’s Forms ADV
and on its website.
B. Statute of Limitations
Malouf asserts the five year statute of limitations set
forth in 28 U.S.C. § 2462 as an affirmative defense. Resp.

223a
Appendix D
Br. at 39-40; Resp. Reply at 20-21. The Division’s equitable
and remedial claims are not barred by that or any other
applicable statute of limitations. By its express wording,
Section 2462 applies only where the Commission seeks
relief that a court deems punitive – “any civil fine, penalty,
or forfeiture, pecuniary or otherwise.” 28 U.S.C. § 2462.
Section 2462 does not limit the time for the Commission
to file claims seeking equitable or remedial relief such as
disgorgement or cease-and-desist orders. Riordan v. SEC,
627 F.3d 1230, 1234-35 (D.C. Cir. 2010) (disgorgement and
cease-and-desist order not subject to five year statute
of limitations); Zacharias v. SEC, 569 F.3d 458, 471-72
(D.C. Cir. 2009) (“[A]n ‘order to disgorge is not a punitive
measure; it is intended primarily to prevent unjust
enrichment.’”) (citations omitted); Johnson v. SEC, 87
F.3d 484, 491 (D.C. Cir. 1996) (citing cases); SEC v. Kelly,
663 F. Supp. 2d 276, 286 (S.D.N.Y. 2009) (citing cases); see
Gabelli v. SEC, 133 S. Ct. 1216, 1219, 1220 n.1 (2013).
I disagree with Respondent’s contention that the
five-year statute of limitations contained in 28 U.S.C.
§ 2462 applies to all forms of relief sought by the Division.
Respondent cites the non-precedential opinion of SEC v.
Graham, 21 F. Supp. 3d 1300, 1307-11 (S.D. Fla. 2014), for
the proposition that injunctive relief and disgorgement
claims are subject to the five-year statute of limitations.
That non-binding opinion does provide “persuasive”
authority for Respondent’s contention. At present I
am not persuaded by that opinion’s reasoning that the
longstanding precedents on the pertinent limitations
period were swept aside, in effect, by the Supreme Court’s
decision in Gabelli, which specifically noted that its holding

224a
Appendix D
did not extend to injunctive relief and disgorgement
claims. 133 S. Ct. at 1220 n.1; see SEC. v. LeCroy, Civil
Action No. 2:09-cv-2238-AKK, 2014 U.S. Dist. LEXIS
126836, at *2-5 n.1 (N.D. Ala. Sept. 5, 2014) (collecting
cases inconsistent with Graham).
As to the Division’s request for a civil penalty, I
disagree, in part, that the statute of limitations is tolled
by the continuing violation doctrine. See Div. Br. at 28;
Div. Reply at 25. Under that doctrine, if the alleged
unlawful practice continues into the limitations period, the
complaint is timely if filed within the required limitations
period measured from the end of that practice. See Havens
Realty Corp. v. Coleman, 455 U.S. 363, 380-81 (1982);
SEC v. Kovzan, 807 F. Supp. 2d 1024, 1035-36 (D. Kan.
2011); see also SEC v. Geswein, Case No. 5:10CV1235,
2011 U.S. Dist. LEXIS 111893, *7 (N.D. Ohio Sept. 29,
2011) (equitable tolling includes the continuing violations
doctrine); Huff, 758 F. Supp. 2d at 1340 (“[W]here the
appropriate facts exist, the ‘continuing violations’ doctrine
may apply to the statute of limitations in SEC enforcement
actions.”); Kelly, 663 F. Supp. 2d at 288 (rejecting motion
to dismiss Commission’s claim for penalties on statute of
limitations grounds because continuing violation doctrine
in combination with a tolling agreement made the claims
timely filed); but cf. SEC v. Caserta, 75 F. Supp. 2d 79,
89 (E.D.N.Y. 1999) (“[I]t is not at all certain that the
continuing violation doctrine applies in securities fraud
litigation.”); SEC v. Jones, No. 05 Civ. 7044 (RCC), 2006
WL 1084276, *4-5 (S.D.N.Y. Apr. 25, 2006).
Here, however, I find that the continuing violation
doctrine generally does not apply to the false and

225a
Appendix D
misleading Forms ADV because the violations relate to
separate and discrete acts of filing and providing Part II to
clients. See National R.R. Passenger Corp. v. Morgan, 536
U.S. 101, 114-15 (2002) (finding a plaintiff could not recover
for discrete violations occurring outside the applicable
time period and rejecting application of the continuing
violations doctrine); CSC Holdings, Inc. v. Redisi, 309 F.3d
988, 992 (7th Cir. 2002) (refusing to apply the continuing
violation doctrine to violations arising from sales
constituting separate and discrete statutory violations).
Repeatedly violating a statute does not convert multiple
individual violations into a continuing wrong. Redisi, 309
F.3d at 992. Elsewhere, the Division’s position is clearly
that this case involves separate violations, i.e. “[e]ach of
the 74 commission payments Malouf received . . . was a
separate violation, as was each misleading disclosure on
UASNM’s Forms ADV and website.” See Div. Br. at 33. By
contrast, the misleading statements and omissions on the
website represent a continuing wrong. As a result, except
with respect to the website, claims based on violations
occurring prior to June 9, 2009, are barred by the statute
of limitations. Thus, for the purpose of civil penalties, I
limit my consideration to violations from then until May
2011, when Malouf was terminated from UASNM.
C.

Cease and Desist Order

The Division requests findings of liability for the
violations alleged and an order to cease and desist from
violating Section 17(a) of the Securities Act, Sections 10(b)
and 15(a) of the Exchange Act and Rule 10b-5 thereunder,
and Sections 206(1), (2), and (4) and 207 of the Advisers

226a
Appendix D
Act. Div. Br. at 28. Securities Act Section 8A, Exchange
Act Section 21C, and Advisers Act Section 203(k) provide
that, if the Commission finds that any person has violated
or caused a violation of the Securities Act, Exchange Act,
or Advisers Act, respectively, or any rule or regulation
thereunder, the Commission may enter an order requiring
any person that was a cause of the violation to cease and
desist from committing or causing any future violation
of the same provision, rule, or regulation. 15 U.S.C.
§§ 77h-1(a), 78u-3(a), 80b-3(k)(1).
In deciding whether to issue a cease-and-desist
order, the Commission must consider whether there is
a reasonable likelihood of future securities violations.
KPMG Peat Marwick LLP, Exchange Act Release No.
43862, 2001 SEC LEXIS 98, at *101 (Jan. 19, 2001),
petition denied, 289 F.3d 109 (D.C. Cir. 2002). The Division
asserts that “a past violation suffices to establish a risk of
future violations.” Division Proposed Additional FOF and
COL at 76 (citing KPMG Peat Marwick LLP, 2001 SEC
LEXIS 98, at *102). Malouf disputes this contention as
incomplete. Resp. Response to Div. Proposed Additional
FOF and COL at 115-16. The D.C. Circuit qualified this
notion in WHX Corp. v. SEC, 362 F.3d 854 (D.C. Cir. 2004):
Under this view, apparently, the “risk of future
violation” element is satisfied if (1) a party has
committed a violation of a rule, and (2) that
party has not exited the market or in some other
way disabled itself from recommission of the
offense. Given that the first condition is satisfied
in every case where the Commission seeks

227a
Appendix D
a cease-and-desist order on the basis of past
conduct, and the second condition is satisfied
in almost every such case, this can hardly be a
significant factor in determining when a ceaseand-desist order is warranted. The Commission
itself has disclaimed any notion that a ceaseand-desist order is “automatic” on the basis
of such an almost inevitably inferred risk of
future violation.
362 F.3d at 859 (citing KPMG, LLP v. SEC, 289 F.3d 109,
124-25 (D.C. Cir. 2002)). The court in WHX Corp. went on
to find that “[t]he ‘risk of future violation’ cannot be the
sole basis for its imposition of the [cease and desist] order,
as the SEC’s standard for finding such a risk is so weak
that it would be met in (almost) every case.” Id. at 861.
In deciding whether to issue a cease-and-desist
order, the court may consider several factors including
the seriousness of the violation, the isolated or recurrent
nature of the violation, the respondent’s state of mind, the
sincerity of the respondent’s assurances against future
violations, the respondent’s recognition of the wrongful
nature of his or her conduct, the respondent’s opportunity
to commit future violations, whether the violation is
recent, the degree of harm to investors or the marketplace
resulting from the violation, and the remedial function to
be served by the cease-and-desist order in the context of
any other sanctions being sought in the same proceedings.
KPMG Peat Marwick LLP, 2001 SEC LEXIS 98, at
*116. This inquiry is a flexible one and no one factor is
dispositive. Id. It is undertaken not to determine whether

228a
Appendix D
there is a “reasonable likelihood” of future violations but
to guide the court’s discretion. Id.
I find that a cease-and-desist order associated
with the violations is appropriate. The violations were
relatively serious and lasted for more than three years.
Malouf was extremely reckless, and has provided little
meaningful assurance against future violations or
recognition of wrongdoing; in fact he mostly places blame
for his misconduct on others. To the extent Malouf is not
barred from practice as an investment adviser, there is a
decided opportunity to commit future violations. McGinnis
testified that in his forty-four years in the securities
industry, he had “never seen a million dollars conflict of
interest like this before.” While it is difficult to assess the
impact to the investors, or the market, of such a conflict;
in this case, where Malouf’s failure to seek best execution
was apparently borne out of the conflict of interest, my
calculation establishes a loss of more than a quartermillion dollars to investors.
D.

Collateral and Associational Bar

Exchange Act Section 15(b) provides that the
Commission shall censure, limit, suspend, or bar any person
acting as a broker from being associated with a broker,
dealer, investment adviser, municipal securities dealer,
municipal advisor, transfer agent, or nationally recognized
statistical rating organization, or from participating in
an offering of penny stock, if the Commission finds that
such censure, limitation, suspension, or bar is in the public
interest and that person has (1) willfully made or caused

229a
Appendix D
to be made a materially false or misleading statement,
or omitted any material fact, in a report required to be
filed with the Commission; or (2) has willfully violated or
willfully aided and abetted violations of, certain provisions
of the securities laws. 35 15 U.S.C. § 78o(b)(4)(A), (D), (E),
(6)(A)(i).
Advisers Act Section 203(f ) provides that the
Commission shall censure, limit, suspend, or bar any
associated person of a registered investment adviser
from being associated with an investment adviser, broker,
dealer, municipal securities dealer, municipal advisor,
transfer agent, or nationally recognized statistical rating
organization, if the Commission finds that such censure,
limitation, suspension, or bar is in the public interest and
that person has (1) willfully made or caused to be made
a materially false or misleading statement, or omitted
any material fact, in a report required to be filed with
the Commission; or (2) has willfully violated or willfully
aided and abetted violations of, certain provisions of the
securities laws. 15 U.S.C. § 80b-3(e)(1), (5), (6), (f).
Investment Company Act Section 9(b) authorizes the
Commission to prohibit, conditionally or unconditionally
and either permanently or for such period of time as it in
its discretion shall deem appropriate in the public interest,
any person from serving or acting as an employee, officer,
director, member of an advisory board, investment
adviser or depositor of, or principal underwriter for, a
35. Exchange Act Section 15C(c) provides for a similar censure,
limitation, suspension, or bar from acting as an associated person
of a government securities broker or dealer. 15 U.S.C. § 78o-5(c).

230a
Appendix D
registered investment company or affiliated person of such
investment adviser, depositor, or principal underwriter if
such person has willfully violated or willfully aided and
abetted violations of certain provisions of the securities
laws. 15 U.S.C. § 80a-9(b)(2), (3).
In determining the public interest the Commission
has considered the following factors: the egregiousness
of the respondent’s actions, the isolated or recurrent
nature of the infraction, the degree of scienter involved,
the sincerity of the respondent’s assurances against
future violations, the respondent’s recognition of the
wrongful nature of his or her conduct, the likelihood that
the respondent’s occupation will present opportunities
for future violations, the age of the violation, the degree
of harm to investors and the marketplace resulting from
the violation, and, in conjunction with other factors, the
extent to which the sanction will have a deterrent effect.
Gary M. Kornman, Exchange Act Release No. 59403,
2009 WL 367635, at * 6 (Feb. 13, 2009) (citing Steadman
v. SEC, 603 F.2d 1126, 1140 (5th Cir. 1979), aff’d on other
grounds, 450 U.S. 91 (1981)); see also Ralph W. LeBlanc,
Exchange Act Release No. 48254, 2003 WL 21755845, at
* 6 (July 30, 2003); Peter Siris, Exchange Act Release
No. 71068, 2013 WL 6528874, at *11 n.72 (Dec. 12, 2013).
The “inquiry into the appropriate sanction to protect
the public interest is a flexible one, and no one factor is
dispositive.” Gary M. Kornman, 2009 WL 367635, at * 6
(quoting David Henry Disraeli, Exchange Act Release
No. 57027, 2007 WL 4481515, at * 15 (Dec. 21, 2007)).
For the aforementioned reasons, a collateral bar
under the Advisers Act and an associational bar under

231a
Appendix D
the Investment Company Act are justified. 36 Malouf
was associated with UASNM, a registered investment
adviser, and I previously found that he violated Exchange
Act Section 10(b) and Rules 10b-5(a) and 10b-5(c);
Securities Act Sections 17(a)(1) and 17(a)(3); and Advisers
Act Sections 206(1) and 206(2); and aided and abetted
violations of Advisers Act Sections 206(4) and 207 and
Rule 206(4)-1(a)(5). In making that determination, I
note that in the Commission-approved settlement for
UASNM, none of the other officials who were responsible
for the materially misleading Forms ADV and website
materials during the pertinent period, the CCO and
CFO, were even suspended. See UASNM, Inc., 2014 WL
2568398. However, the firm was subjected to heightened
surveillance for two years, and credit must undeniably
be given to UASNM’s decision to report themselves and
Malouf to the Commission. In addition, I do find that
Malouf’s conduct was more problematic because the most
significant conflict of interest was his own, and he bore
the ultimate responsibility to disclose it. On the other
hand, I recognize that the circumstances that gave rise
to the conflict and problems with best execution – the
sale of Malouf’s RJFS branch – have now passed, and
are unlikely to recur. Given Malouf’s age of fifty-five, a
bar of seven-and-one-half years may mean that he will
never return to the industry. Even if he does return to
such work in his sixties, he would be near retirement.
Because he works as an investment adviser, this bar will
deprive him of his entire livelihood, and force him into
36. Malouf cannot be sanctioned under Exchange Act Sections
15(b) and 15C(c) because I did not find that Malouf was acting as a
broker.

232a
Appendix D
another profession. As an individual who worked for over
thirty years in the industry, first as a broker-dealer, and
then as an investment adviser, this will be a substantial
professional and personal blow given his age and career
prospects. However, I find that the severity of such a bar
is necessary to serve the public interest.
E. Disgorgement and Prejudgment Interest
Securities Act Section 8A(e), Exchange Act Section
21C(e), and Advisers Act Section 203(k)(5) authorize
disgorgement, including reasonable interest, in ceaseand-desist proceedings. 15 U.S.C. §§ 77h-1(e), 78u-3(e),
80b-3(k)(5). Exchange Act Section 21B(e), Investment
Company Act Section 9(e), and Advisers Act Section 203(j)
authorize disgorgement in proceedings in which a penalty
may be imposed. 15 U.S.C. §§ 78u-2(e), 80a-9(e), 80b-3(j).
“Disgorgement is an equitable remedy designed to deprive
a wrongdoer of his unjust enrichment and to deter others
from violating the securities laws.” SEC v. First City Fin.
Corp., 890 F.2d 1215, 1230 (D.C. Cir. 1989).
Because of the difficultly in many cases to separate
“legal from illegal profit . . . it is proper to assume that
all profits gained while defendants were in violation of
the law constituted ill-gotten gains.” SEC v Bilzerian,
814 F. Supp. 116, 121 (D.D.C. 1993) (internal citations
omitted); see also SEC v. Drexel Burnham Lambert,
Inc., 837 F. Supp. 587, 611-12 (S.D.N.Y. 1993), aff’d, SEC v.
Posner, 16 F.3d 520 (2d Cir. 1994). “[T]he well-established
principle is that the burden of uncertainty in calculating
ill-gotten gains falls on the wrongdoers who create that

233a
Appendix D
uncertainty.” Zacharias, 569 F.3d at 473. Here, however,
the monies constituting fair value for the sale of Branch
4GE are clearly identifiable as legal profits, and should
not be the subject of disgorgement.
By contrast, the monies received from excessive
commissions, attributable to Malouf, should be disgorged.
For the reasons set forth above, I find that this figure
is roughly $265,000. However, as the Division agreed
that any disgorgement awarded may be “offset by
the $506,083.74 already reimbursed to investors from
[Malouf’s] settlement with UASNM[,]” my order will
not require Malouf to pay any additional money for
disgorgement purposes. 37 Div. Br. at 31.
F.

Civil Penalties

Based on the willful violations and conduct set forth
above, Respondent should be ordered to pay a civil penalty
pursuant to Section 8A of the Securities Act, Section
21B of the Exchange Act, Section 203(i) of the Advisers
Act, and Section 9(d) of the Investment Company Act.
Exchange Act Section 21B(a), Advisers Act Section 203(i),
and Investment Company Act Section 9(d) authorize the
Commission to impose civil monetary penalties in any
cease-and-desist proceeding against any person after
notice and opportunity for hearing where penalties are in
the public interest and the person (1) has willfully violated,
or aided and abetted violations of, certain provisions of
37. Because no further disgorgement is required, I do not
address the issue of prejudgment interest.

234a
Appendix D
the securities laws or rules or regulations; or (2) has
willfully made or caused to be made a materially false or
misleading statement, or omitted any material fact, in a
report required to be filed with the Commission. 15 U.S.C.
§§ 78u-2(a), 80a-9(d), 80b-3(i). Securities Act Section 8A(g)
authorizes the Commission to impose civil monetary
penalties in any cease-and-desist proceeding against any
person after notice and opportunity for hearing where
penalties are in the public interest and the person has
violated or caused the violation of any provision of the
Securities Act or its rules and regulations. 15 U.S.C.
§ 77h-1(g).
To determine whether a penalty is in the public
interest, Exchange Act Section 21B, Advisers Act Section
203(i), and Investment Company Act Section 9(d) call for
consideration of: (1) whether the violations involved fraud,
deceit, manipulation, or deliberate or reckless disregard
of a regulatory requirement; (2) harm caused to others; (3)
unjust enrichment, taking into account restitution made;
(4) prior violations; (5) deterrence; and (6) such other
matters as just may require. 15 U.S.C. §§ 78u-2(c), 80a-9(d)
(3), 80b-3(i)(3). The statutes also allow a respondent to
present evidence of the ability of the respondent to pay
such penalty. 15 U.S.C. §§ 77h-1(g)(3), 78u-2(d), 80a-9(d)
(4), 80b-3(i)(4); see 17 C.F.R. § 201.630; see also SEC v.
Tourre, 4 F. Supp. 3d 579, 593 (S.D.N.Y. 2014) (citations
omitted); SEC v. Opulentica, LLC, 479 F. Supp. 2d 319,
331 (S.D.N.Y. 2007); SEC v. Haligiannis, 470 F. Supp. 2d
373, 386 (S.D.N.Y. 2007); SEC v. Lybrand, 281 F. Supp.
2d 726, 730 (S.D.N.Y. 2003), aff’d, SEC v. Kern, 425 F.3d
143 (2d Cir. 2005); SEC v. Coates, 137 F. Supp. 2d 413, 429
(S.D.N.Y. 2001).

235a
Appendix D
Malouf argues that a “defendant’s net worth and
corresponding ability to pay has proven to be one of the
most important factors that district courts consider when
determining how much of a civil penalty to assess.” Resp.
Response to Div. Proposed Additional FOF and COL at
123 (citing SEC v. Gunn, Civ. Action No. 3:08-cv-1013-G,
2010 WL 3359465, at *10 (N.D. Tex. Aug. 25, 2010); SEC
v. Svoboda, 409 F. Supp. 2d 331, 347-48 (S.D.N.Y. 2006)
(rejecting request to impose maximum penalty where
defendants “perpetrated a fraud involving repeated
securities law violations, considerable profits, and a
high degree of scienter” because the maximum penalty
“would be inappropriate given each defendant’s financial
situation”); SEC v. Mohn, No. 02-74634, 2005 WL 2179340,
at *9 (E.D. Mich. Sept. 9, 2005) (waiving civil penalties
against defendant where the court found it unlikely
the Commission could collect any civil penalties given
defendant’s net worth and his speculative and uncertain
future income potential); SEC v. Rubin, No. 91 CIV 6531
(MBM), 1993 WL 405428, at *7 (S.D.N.Y. Oct. 8, 1993)
(imposing $1,000 penalty against impecunious defendant
due to “the distinction between an ordinary debt that
arises from a particular and definable liability, and a
penalty that is designed to punish and is imposed based
on an exercise of discretion”)). The Commission has found
that “ability to pay may be considered, but it is only one
factor” and “[c]onsidering it is also discretionary.” Johnny
Clifton, Securities Act Release No. 9417, 2013 SEC LEXIS
2022, at *66 (July 12, 2013); see Gregory O. Trautman,
Securities Act Release No. 9088, 2009 SEC LEXIS
4173, at *93 & n.115 (Dec. 15, 2009). When a respondent’s
conduct is egregious, ability to pay may be disregarded.

236a
Appendix D
Johnny Clifton, 2013 SEC LEXIS 2022, at *66; Gregory
O. Trautman, 2009 SEC LEXIS 4173, at *93.
Securities Act Section 8A, Exchange Act Section 21B,
Advisers Act Section 203(i), and Investment Company Act
Section 9(d) set out a three-tiered system for determining
the maximum civil penalty for each violation. A maximum
third-tier penalty is permitted if (1) the violations involved
fraud, deceit, manipulation, or deliberate or reckless
disregard of a regulatory requirement; and (2) such act
or omission directly or indirectly resulted in substantial
losses or created a significant risk of substantial losses to
other persons or resulted in substantial pecuniary gain to
the person who committed the act or omission. 15 U.S.C.
§§ 77h-1(g)(2)(C), 78u-2(b)(3), 80a-9(d)(2)(C), 80b-3(i)(2)(C).
The maximum third-tier penalty for conduct occurring
after March 3, 2009, and on or before March 5, 2013, is
$150,000 per violation. 17 C.F.R. § 201.1004, Subpt. E,
Table IV.
I have considered “evidence concerning [Malouf’s]
ability to pay in determining whether disgorgement,
interest or a penalty is in the public interest.” 17 C.F.R.
§ 201.630(a); see 15 U.S.C. §§ 77h-1(g)(3), 78u-2(d), 80b-3(i)
(4); Gunn, 2010 WL 3359465, at *10. Malouf affirmed his
first Statement of Financial Condition on January 12,
2015. See Resp. Br. at Ex. B. On January 14, 2015, I set a
briefing schedule to allow the parties to file briefs setting
forth their respective positions on Malouf’s inability to
pay any potential disgorgement, interest, or penalties that
might be ordered. Dennis J. Malouf, Admin. Proc. Rulings
Release No. 2219, 2015 SEC LEXIS 149. On February

237a
Appendix D
27, 2015, the parties submitted briefs and documentary
evidence on this issue (Div. Position and Resp. Position),
including Malouf’s second, revised Statement of Financial
Condition, affirmed by Malouf on February 25, 2015. See
Resp. Position at Ex. A. The revised statement contains
supplementary detail, including additional assets and
income that were previously undisclosed. I do not draw
an adverse inference from Malouf’s inclusion of this
additional information, because the initial statement was
prepared with comparatively limited information under
challenging time constraints.
According to Malouf, his liabilities exceed his assets
by an estimated $634,000. See Resp. Position at 2-9,
Exs. A-I. His “regularly monthly personal expenses are
approximately $4,600,” including “$1,500 for rent, $850
for health insurance for himself and his children, food,
utilit[ies], medical and automobile expenses” and “$550
per month in child support to his exwife.” Id. at 9. The
Division claims that Malouf’s withdrawals from a NM
Wealth Management bank account demonstrate that he
received more than $3,000 to $6,000 per month of draws
from the company, but, many such withdrawals, including
cash withdrawals, could be business expenses, as opposed
to personal ones. Div. Position at 4-5, Ex. D.
I disagree with Malouf’s estimated value of his home
and mortgages. Malouf’s statement of financial condition
does not include the value of his home, though Malouf
notes in his position that the value was inadvertently
omitted and his estimated value, based on public records,
is $274,000, and the statement lists mortgages of $360,749

238a
Appendix D
and a second mortgage of $164,122. Resp. Position at 2 n.1,
Ex. A. Malouf’s credit report, dated January 21, 2015, lists
a mortgage account balance with Seterus, Inc., of $360,749
as of January 2015 and a home equity loan with US Bank
with a balance as of December 2014 of $164,122.38 Id. at Ex.
H. The Division notes that on January 14, 2015, Malouf’s
property was sold at auction to CITIMORTGAGE, Inc.,
for $355,009.71. Div. Position at 5, Ex. G at 2. Taking into
account the sale, it is more likely that Malouf’s net liability
involving his home is $169,861.29, instead of $250,871.
I disagree with Malouf’s estimate, that his investment
advisory firm, with almost $20 million under management,
has a value of only $100,000. Resp. Position at 3. At the
hearing it was established that with respect to two
similar circumstances, the sale of investment adviser firm
UAS by Kopczynski to Malouf, and the sale of brokerdealer Branch 4GE by Malouf to Lamonde, that Malouf
valued each business for sale at twice its annual trailing
revenue. See Resp. Supplemented Proposed FOF No. 73.
Employing that same rule of thumb, the value of Malouf’s
current investment advisory firm should be at least
$292,500. 39 Thus taking into account my revised mortgage
38. The Division notes that in an earlier statement of financial
condition Malouf listed a mortgage liability of $458,250 and $159,250
for a second mortgage. Div. Position at 5, Ex. C at 2. Upon questioning
Malouf’s counsel, the Division was told that Malouf double-counted
his second mortgage; Malouf then provided a corrected statement
of financial condition. Id. at 5, Ex. F.
39. Malouf charges his clients on a quarterly basis an annual
fee of 1.20% on assets under management (AUM) of up to $1,000,000;
1.00% on AUM of between $1,000,000 and $2,000,000; and 0.75% on

239a
Appendix D
liability and investment advisory firm value estimates,
while Malouf’s liabilities exceed his assets, they do so by
only $360,752.29.
For purposes of determining whether his ability to
pay is in the public interest, I will not consider, in Malouf’s
favor, either the $286,000 of his estimated tax liability to
the IRS for 2005 to 2011, nor his $68,103 state tax lien.
Malouf’s failure to file and pay taxes is his own fault; and
allowing him to profit from his refusal to keep current
with his taxes by offsetting any pecuniary remedy would
negatively affect the public interest. Because I will not
consider these elements to his benefit, I find that, for
purposes of his ability to pay, his liabilities exceed his
assets by $6,649.29. However, the mere fact that liabilities
exceed assets does not establish an inability to pay, or
that excusing him from paying anything would be in the
public interest. Unlike someone who was destitute, and
lacked the ability to work, Malouf has considerable assets
(though he also has considerable obligations), and although
he will not be able to work as an investment adviser going
forward, he is nonetheless an individual of aptitude and
shrewdness who will undoubtedly work in some other
business profession. I acknowledge that for someone whose
liabilities exceed their assets on Malouf’s score, any civil
penalty would be much more significant, in its punitive and
deterrent effect on that individual, than it would be for
someone in better financial circumstances. I will consider
that duly in deciding any penalty in this case.
AUM over $2,000,000. Div. Position at 2, Ex. B at 3. Based on the
firm’s AUM, it could earn anywhere between $146,250 and $234,000.
See Resp. Position at 8.

240a
Appendix D
Third-tier penalties are appropriate because Malouf
recklessly disregarded his fiduciary duties and disclosure
requirements and thereby created a significant risk of
substantial losses to his advisory clients. Dr. Gibbons
calculated those losses, at a minimum, as $442,106, with
Malouf’s personal culpability exceeding a quarter-million
dollars. It is undisputed that Malouf’s money was used by
UASNM to pay roughly twice the amount to its customers
that I found Malouf was personally responsible for. I also
note that Malouf already paid the $100,000 civil penalty
on behalf of UASNM, and has made a convincing showing
that, given his present financial status, he has dramatically
less ability to pay any more substantial sums of money.
The collateral bar I have ordered will deprive him of his
ability to work in his chosen profession and his liabilities
exceed his available assets. Balancing the aforementioned
seriousness of his misconduct, with those mitigating
factors of paying UASNM’s penalty and his projected
inability to pay, I find that a civil penalty consisting of
one violation of $75,000 is appropriate to serve the public
interest.40
V. RECORD CERTIFICATION
Pursuant to Rule of Practice 351(b), 17 C.F.R.
§ 201.351(b), I certify that the record includes the items
set forth in the Record Index issued by the Secretary of
the Commission on March 20, 2015.
40. Although one could parse Malouf’s conduct, over time, into
particular violations, the underlying violative conduct that supports a
civil penalty is that he never adequately disclosed the essential terms
of his agreement to sell Branch 4GE to Lamonde to anyone else.

241a
Appendix D
VI. ORDER
I ORDER that, pursuant to Section 8A of the Securities
Act of 1933, Section 21C of the Securities Exchange Act
of 1934, and Section 203(k) of the Investment Advisers
Act of 1940:
Dennis J. Malouf shall cease and desist from
committing or causing violations, and any
future violations, of Sections 17(a)(1) and 17(a)
(3) of the Securities Act of 1933; Section 10(b)
of the Securities Exchange Act of 1934 and
Exchange Act Rules 10b-5(a) and 10b-5(c); and
Sections 206(1), 206(2), 206(4), and 207 of the
Investment Advisers Act and Advisers Act Rule
206(4)-1(a)(5).
I FURTHER ORDER that, pursuant to Section 203(f)
of the Investment Advisers Act of 1940 and Section 9(b)
of the Investment Company Act:
Dennis J. Malouf is barred for a period of sevenand-one-half years from association with an
investment adviser, broker, dealer, municipal
securities dealer, municipal advisor, transfer
agent, or nationally recognized statistical
rating organization, and from serving or acting
as an employee, officer, director, member of an
advisory board, investment adviser or depositor
of, or principal underwriter for, a registered
investment company or affiliated person of
such investment adviser, depositor, or principal
underwriter.

242a
Appendix D
I FURTHER ORDER that, pursuant to Section
8A(g) of the Securities Act of 1933, Section 21B(a) of
the Securities Exchange Act of 1934, Section 9(d) of the
Investment Company Act of 1940, and Section 203(i) of
the Investment Advisers Act of 1940:
Dennis J. Malouf shall pay a civil monetary
penalty in the amount of $75,000.
Payment of civil penalties shall be made no later than
twenty-one days following the day this Initial Decision
becomes final, unless the Commission directs otherwise.
Payment shall be made in one of the following ways: (1)
transmitted electronically to the Commission, which will
provide detailed ACH transfer/Fedwire instructions upon
request; (2) direct payments from a bank account via Pay.
gov through the Commission website at http://www.sec.
gov/about/offices/ofm.htm; or (3) by certified check, United
States postal money order, bank cashier’s check, wire
transfer, or bank money order, payable to the Securities
and Exchange Commission.
Any payment by certified check, United States postal
money order, bank cashier’s check, wire transfer, or bank
money order shall include a cover letter identifying the
Respondent and Administrative Proceeding No. 3-15918,
and shall be delivered to: Enterprises Services Center,
Accounts Receivable Branch, HQ Bldg., Room 181,
AMZ-341, 6500 South MacArthur Blvd., Oklahoma City,
Oklahoma 73169. A copy of the cover letter and instrument
of payment shall be sent to the Commission’s Division
of Enforcement, directed to the attention of counsel of
record.

243a
Appendix D
This Initial Decision shall become effective in
accordance with and subject to the provisions of Rule
of Practice 360, 17 C.F.R. § 201.360. Pursuant to that
Rule, a party may file a petition for review of this Initial
Decision within twenty-one days after service of the
Initial Decision. A party may also file a motion to correct
a manifest error of fact within ten days of the Initial
Decision, pursuant to Rule of Practice 111, 17 C.F.R.
§ 201.111. If a motion to correct a manifest error of fact is
filed by a party, then a party shall have twenty-one days to
file a petition for review from the date of the undersigned’s
order resolving such motion to correct a manifest error of
fact. The Initial Decision will not become final until the
Commission enters an order of finality. The Commission
will enter an order of finality unless a party files a petition
for review or motion to correct a manifest error of fact
or the Commission determines on its own initiative to
review the Initial Decision as to a party. If any of these
events occur, the Initial Decision shall not become final
as to that party.
/s/
Jason S. Patil
Administrative Law Judge

244a
AppendixOF
E REHEARING OF
APPENDIX E — DENIAL
THE UNITED STATES COURT OF APPEALS FOR
THE TENTH CIRCUIT, FILED OCTOBER 25, 2019
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
No. 16-9546
DENNIS J. MALOUF,
Petitioner,
v.
SECURITIES AND EXCHANGE COMMISSION,
Respondent.
FILED
October 25, 2019
ORDER
Before BRISCOE, HARTZ, and BACHARACH, Circuit
Judges
Petitioner’s petition for rehearing is denied.
The petition for rehearing en banc was transmitted
to all of the judges of the court who are in regular active
service. As no member of the panel and no judge in regular

245a
Appendix E
active service on the court requested that the court be
polled, that petition is also denied.
Entered for the Court
							
ELISABETH A. SHUMAKER, Clerk

246a
Appendix
F
APPENDIX
F — RELEVANT
CONSTITUTIONAL PROVISIONS
U.S. CONSTITUTION
ARTICLE II
Section 1.
Section 2.
Clause 1….
Clause 2….
[The President] shall have power, by and with the advice
and consent of the Senate, to make treaties, provided
two thirds of the Senators present concur; and he shall
nominate, and by and with the advice and consent of the
Senate, shall appoint ambassadors, other public ministers
and consuls, judges of the Supreme Court, and all other
officers of the United States, whose appointments are
not herein otherwise provided for, and which shall be
established by law: but the Congress may by law vest the
appointment of such inferior officers, as they think proper,
in the President alone, in the courts of law, or in the heads
of departments.

247a
Appendix
G
APPENDIX
G — RELEVANT
STATUTORY PROVISIONS
15 U.S. CODE § 77i. COURT REVIEW OF ORDERS
(a) Any person aggrieved by an order of the Commission
may obtain a review of such order in the court of appeals
of the United States, within any circuit wherein such
person resides or has his principal place of business, or
in the United States Court of Appeals for the District
of Columbia, by filing in such Court, within sixty days
after the entry of such order, a written petition praying
that the order of the Commission be modified or be set
aside in whole or in part. A copy of such petition shall
be forthwith transmitted by the clerk of the court to the
Commission, and thereupon the Commission shall file in
the court the record upon which the order complained of
was entered, as provided in section 2112 of title 28, United
States Code. No objection to the order of the Commission
shall be considered by the court unless such objection shall
have been urged before the Commission. The finding of
the Commission as to the facts, if supported by evidence,
shall be conclusive. If either party shall apply to the court
for leave to adduce additional evidence, and shall show to
the satisfaction of the court that such additional evidence
is material and that there were reasonable grounds for
failure to adduce such evidence in the hearing before
the Commission, the court may order such additional
evidence to be taken before the Commission and to be
adduced upon the hearing in such manner and upon such
terms and conditions as to the court may seem proper.
The Commission may modify its findings as to the facts,
by reason of the additional evidence so taken, and it shall
file such modified or new findings, which, if supported by

248a
Appendix G
evidence, shall be conclusive, and its recommendation, if
any, for the modification or setting aside of the original
order. The jurisdiction of the court shall be exclusive and
its judgment and decree, affirming, modifying, or setting
aside, in whole or in part, any order of the Commission,
shall be final, subject to review by the Supreme Court
of the United States upon certiorari or certification as
provided in section 1254 of title 28.
***

249a
Appendix G
15 U.S. CODE § 78y. COURT REVIEW
OF ORDERS AND RULES
(a) Final Commission orders; persons aggrieved;
petition; record; findings; affirmance, modification,
enforcement, or setting aside of orders; remand to
adduce additional evidence.
(1) A person aggrieved by a final order of the
Commission entered pursuant to this chapter may
obtain review of the order in the United States Court
of Appeals for the circuit in which he resides or has
his principal place of business, or for the District of
Columbia Circuit, by filing in such court, within sixty
days after the entry of the order, a written petition
requesting that the order be modified or set aside in
whole or in part.
***
(c) Objections not urged before Commission; stay of
orders and rules; transfer of enforcement or review
proceedings.
(1) No objection to an order or rule of the Commission,
for which review is sought under this section, may be
considered by the court unless it was urged before
the Commission or there was reasonable ground for
failure to do so.
***

250a
Appendix G
15 U.S. CODE § 80b-13.
COURT REVIEW OF ORDERS
(a) Petition; jurisdiction; findings of Commission;
additional evidence; finality.
Any person or party aggrieved by an order issued by the
Commission under this subchapter may obtain a review
of such order in the United States Court of appeals within
any circuit wherein such person resides or has his principal
office or place of business, or in the United States Court
of Appeals for the District of Columbia, by filing in such
court, within sixty days after the entry of such order, a
written petition praying that the order of the Commission
be modified or set aside in whole or in part. A copy of such
petition shall be forthwith transmitted by the clerk of the
court to any member of the Commission, or any officer
thereof designated by the Commission for that purpose,
and thereupon the Commission shall file in the court the
record upon which the order complained of was entered, as
provided in section 2112 of title 28. Upon the filing of such
petition such court shall have jurisdiction, which upon the
filing of the record shall be exclusive, to affirm, modify,
or set aside such order, in whole or in part. No objection
to the order of the Commission shall be considered by the
court unless such objection shall have been urged before
the Commission or unless there were reasonable grounds
for failure so to do. The findings of the Commission as to
the facts, if supported by substantial evidence, shall be
conclusive. If application is made to the court for leave
to adduce additional evidence, and it is shown to the
satisfaction of the court that such additional evidence

251a
Appendix G
is material and that there were reasonable grounds for
failure to adduce such evidence in the proceeding before
the Commission, the court may order such additional
evidence to be taken before the Commission and to be
adduced upon the hearing in such manner and upon such
terms and conditions as to the court may seem proper.
The Commission may modify its findings as to the facts
by reason of the additional evidence so taken, and it shall
file with the court such modified or new findings, which,
if supported by substantial evidence, shall be conclusive,
and its recommendation, if any, for the modification or
setting aside of the original order. The judgment and
decree of the court affirming, modifying, or setting aside,
in whole or in part, any such order of the Commission shall
be final, subject to review by the Supreme Court of the
United States upon certiorari or certification as provided
in section 1254 of title 28.
***

